<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-696]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 107-696, Pt. 3
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 3

                    READINESS AND MANAGEMENT SUPPORT

                               ----------                              

                     FEBRUARY 28 AND MARCH 21, 2002


         Printed for the use of the Committee on Armed Services
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
             2003--Part 3  READINESS AND MANAGEMENT SUPPORT



                                                 S. Hrg. 107-696, Pt. 3

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

AUTHORIZING APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY ACTIVITIES 
   OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND FOR 
DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE PERSONNEL 
  STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 3

                    READINESS AND MANAGEMENT SUPPORT

                               __________

                     FEBRUARY 28 AND MARCH 21, 2002


         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
43-526 PDF                 WASHINGTON DC:  2002
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

              Judith A. Ansley, Republican Staff Director

                                 ______

            Subcommittee on Readiness and Management Support

                   DANIEL K. AKAKA, Hawaii, Chairman

ROBERT C. BYRD, West Virginia        JAMES M. INHOFE, Oklahoma
MAX CLELAND, Georgia                 STROM THURMOND, South Carolina
MARY L. LANDRIEU, Louisiana          JOHN McCAIN, Arizona
E. BENJAMIN NELSON, Nebraska         RICK SANTORUM, Pennsylvania
MARK DAYTON, Minnesota               PAT ROBERTS, Kansas
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                                  (ii)
?

                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
     Department of Defense Installation and Environmental Programs
                           february 28, 2002

                                                                   Page

DuBois, Raymond F., Jr., Deputy Under Secretary of Defense 
  (Installations and Environment)................................     6
Fiori, Hon. Mario P., Assistant Secretary of the Army 
  (Installations and Environment)................................    17
Johnson, Hon. H.T., Assistant Secretary of the Navy 
  (Installations and Environment)................................    34
Gibbs, Hon. Nelson F., Assistant Secretary of the Air Force 
  (Installations, Environment, and Logistics)....................    53

        Readiness of U.S. Armed Forces for all Assigned Missions
                             march 21, 2002

Mayberry, Dr. Paul W., Ph.D., Deputy Under Secretary of Defense 
  (Readiness)....................................................   124
Newbold, Lt. Gen. Gregory S., USMC, Director for Operations (J-
  3), The Joint Staff............................................   130
McKiernan, Lt. Gen. David D., USA, Deputy Chief of Staff, G-3/5 
  (Operations and Plans).........................................   137
Krol, Rear Adm. Joseph J., Jr., USN, Assistant Deputy Chief of 
  Naval Operations for Plans, Policy, and Operations, Chief of 
  Naval Operations...............................................   145
Bedard, Lt. Gen. Emil R., USMC, Deputy Commandant for Plans, 
  Policies, and Operations, Headquarters, United States Marine 
  Corps..........................................................   152
Wald, Lt. Gen. Charles F., USAF, Deputy Chief of Staff for Air 
  and Space Operations, Headquarters.............................   163

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2002

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

     DEPARTMENT OF DEFENSE INSTALLATION AND ENVIRONMENTAL PROGRAMS

    The subcommittee met, pursuant to notice, at 2:36 p.m. in 
room SR-232, Russell Senate Office Building, Senator Daniel K. 
Akaka (chairman of the subcommittee) presiding.
    Committee members present: Senators Akaka, E. Benjamin 
Nelson, and Inhofe.
    Committee staff member present: David S. Lyles, staff 
director.
    Majority staff members present: Maren Leed, professional 
staff member; Peter K. Levine, general counsel; and Michael J. 
McCord, professional staff member.
    Minority staff members present: George W. Lauffer, 
professional staff member; and Thomas L. MacKenzie, 
professional staff member.
    Committee members' assistants present: Menda Sue Fife, 
assistant to Senator Kennedy; Christina Evans, assistant to 
Senator Byrd; Davelyn Noelani Kalipi, assistant to Senator 
Akaka; Eric Pierce, assistant to Senator Ben Nelson; 
Christopher J. Paul and Dan Twining, assistants to Senator 
McCain; George M. Bernier III, assistant to Senator Santorum; 
and Derek Maurer, assistant to Senator Bunning.
    Staff assistants present: Dara R. Alpert and Daniel K. 
Goldsmith.

     OPENING STATEMENT OF SENATOR DANIEL K. AKAKA, CHAIRMAN

    Senator Akaka. The Subcommittee on Readiness and Management 
Support will come to order. Good afternoon, everyone. This 
subcommittee meets today to review the fiscal year 2003 budget 
request for military construction, family housing, and 
environmental and other installation programs of the Department 
of Defense. This afternoon we will hear from Raymond DuBois, 
the Deputy Under Secretary of Defense for Installations and 
Environment, and from the assistant secretary responsible for 
installations and environmental matters for each of the 
military departments. Present from the Department of the Army 
is the Honorable Mario Fiori; from the Department of the Navy, 
the Honorable H.T. Johnson; and from the Department of the Air 
Force, the Honorable Nelson Gibbs.
    This is the first appearance before this subcommittee for 
Secretary Fiori, Secretary Johnson, and Secretary Gibbs since 
their confirmations. We welcome you and look forward to working 
with you in the future. I was happy to have a chance to sit and 
talk with you.
    Today we will ask our witnesses to provide an overview of 
the budget request for the military construction (MILCON) and 
family housing programs and the environmental restoration and 
compliance programs. I hope that you will be able to outline 
for the subcommittee not only the funding levels and major 
programs in this budget, but also the philosophy and priorities 
you used for this budget request.
    The fiscal year 2002 budget made a substantial investment 
in the Department's facilities, an area that has been too low a 
priority within the Department of Defense for too long. Last 
year, I said that the fiscal year 2002 budget request for 
installation programs was a step in the right direction, but 
that both the Department of Defense and Congress had to make a 
sustained effort to address these issues in the coming years, 
because a one-time increase is not enough to bring our 
installations up to the appropriate standard.
    I am disappointed that the fiscal year 2003 budget request 
for military construction is $1 billion below the fiscal year 
2002 administration request and more than $1.5 billion below 
the level Congress provided last year. This budget assumes that 
we will achieve the goal of recapitalizing our facilities at 
less than 100 years, but only if we achieve unprecedented 
levels of investment, more than double the amount requested 
this year, in the future.
    Relying on large funding increases in the future is a risky 
strategy. I hope that we can achieve a more realistic and 
sustainable funding path for military construction.
    In general, this budget fully funds a stable DOD 
environmental program. However, I do have two areas of concern: 
the lack of any significant funding for cleanup of unexploded 
ordnance (UXO) and a falloff in funding for cleanup of closed 
bases and formerly used defense sites.
    I look forward to working with Senator Inhofe, other 
members of the subcommittee, and with the Department of Defense 
to enhance the quality of life of our military service members 
and their families; respond to increasing requirements for 
force protection at our installations; fund a steady, 
sustainable path that will get the quality of our installations 
to the level it should be; and carry out our training and other 
activities in a way that protects the environment and earns the 
trust of the American people, especially those who live on and 
near our installations.
    I would like to recognize Senator Inhofe for any statement 
he may have.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman. I have a prepared 
statement which I will submit for the record, but I would also 
like to make several comments. First of all, I agree with 
Senator Akaka; I was disappointed in the amount in the budget 
for military construction.
    I do want to thank you, Secretary Gibbs, for the time you 
gave me in working on some of these issues. I am looking 
forward to working with all of you.
    When we had our August hearing, I congratulated the 
administration on the robust military construction and family 
housing funding request. Even after the $48 billion came along 
and after September 11, it did not come out that way. We end up 
now nearly $1 billion lower than the fiscal year 2002. This is 
something that is of great concern to me.
    As our chairman knows, I have taken the time to go out and 
visit virtually all of these installations, and we really need 
to be concentrating on making improvements to military housing.
    Much of the funding that is in the budget is in the out 
years, and history shows us that the out years never get here. 
So that is a great concern for me.
    But I think the most disturbing thing is the Department's 
justification for the reduction. Rather than tell the American 
public that they reduced the MILCON budget to support higher 
priority projects, the Department blames the reduction on the 
delay in base realignment and closure (BRAC), the presumption 
being that the Department did not want to spend money on bases 
that might be closed in the future. It reaffirms the belief 
that the BRAC process is flawed and subject to the political 
whim of both sides of the river.
    We have all talked about another BRAC round and the effects 
it would have. The only thing that I see that we know is that 
in the first 3 or 4 years, a closed base costs money. Right now 
we are in desperate straits, even with the additional $48 
billion in the defense request. It does not have anything in 
there for MILCON--it is actually reduced. Force strength is 
also left out.
    I think anything that would cost money now is something 
that should be delayed. The other argument is that we do not 
know what the force structure is going to look like so we do 
not know what infrastructure is going to be excess.
    We have talked about encroachment problems and we need to 
all bring this up. I would like to have all of you address this 
problem. We are running out of ranges. We have environmental 
problems and suspected habitat of endangered species in many 
places. The more we do to accommodate the more suspected 
habitats there are, Fort Bragg and Camp Lejeune being examples 
of this, the more of a problem this becomes.
    Finally, I am very concerned about the Navy's claimed 
ability to find an alternative equivalent training facilities 
to replace Vieques. Vice Admiral Amerault, said a May 2001 Sea 
Power interview: ``Encroachment is a serious problem. There is 
a potential to lose the use of our ranges on Vieques Island and 
that could have a very serious readiness impact.'' That is the 
bell ringer for us. On the heels of that, even as we are 
fighting to keep Vieques as a viable training activity and 
resource, we are finding it increasingly difficult to train our 
sailors effectively at other locations due to the overly broad 
legal requirements combined with commercial and urban 
encroachment.''
    I know about this firsthand. I took the time to go when the 
U.S.S. Kennedy was getting ready for deployment. I was on the 
U.S.S. Wasp and the U.S.S. Mount Whitney. All of them agree 
that we are not doing a good job of training. In fact, they all 
agree on a similar figure when I asked ``if live-fire is a ten, 
what is your training?'' They all said ``five.'' If we lose the 
fight on Vieques we are going to lose other ranges all around 
the world.
    These are things I would like to have all of you aware of 
as my personal concerns. I think they are also the concerns of 
our chairman, and I hope you will address them during our 
hearing today.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]
             Prepared Statement by Senator James M. Inhofe
    Thank you, Chairman Akaka.
    Mr. Chairman, I join you in welcoming back Mr. Ray DuBois, who 
testified before the subcommittee last August, just weeks after his 
appointment to the critical position as Deputy Under Secretary of 
Defense for Installation and Environment. I also join you in welcoming 
his colleagues, Assistant Secretary of the Army, Mario Fiori; Assistant 
Secretary of the Navy, H.T. Johnson; and Assistant Secretary of the Air 
Force, Nelson Gibbs. We are fortunate to have individuals of your 
caliber.
    In my opening statement for the August 2001 hearing, I 
congratulated the administration for the robust military construction 
and family housing funding request. Regrettably, I cannot make the same 
assessment of the fiscal year 2003 request. I find it ironic that 
despite a $48 billion increase in the defense budget, the funding for 
MILCON and family housing is more than $900 million lower that the 
fiscal year 2002 request.
    Mr. DuBois, last year in your opening statement you stated: ``Our 
fiscal year 2002 budget initiates an aggressive program to renew our 
facilities.'' The program you are presenting today is far from 
aggressive. In fact, it is regressive. What is more disturbing is that 
the budget builds expectations that there is funding in the out years 
get the program back on track. History shows us that the promises made 
for the out years are routinely supplanted by higher priorities. 
Although I would like to believe the Navy will have a $2.9 billion 
MILCON program in 2007, the reality is that it will be less than that 
lofty number.
    More disturbing is the Department's justification for the 
reduction. Rather than telling the American public that they reduced 
the MILCON budget to support higher priority projects, the Department 
blames the reduction on the delay in base closure. The presumption is 
that the Department did not want to spend money on bases that might be 
closed in a future BRAC. It reaffirms my belief that the BRAC process 
is flawed and subject to the political whim on both sides of the river.
    During this hearing we will also review the Department's fiscal 
year 2003 environmental programs. I would like to hear about the 
actions taken to resolve the environmental encroachment problems. In a 
series of hearings held last year, senior military witnesses alerted 
Congress to the cumulative adverse impact of encroachment on military 
readiness. My discussions with commanders confirm that encroachment 
poses a serious threat to readiness.
    At the Goldwater Range, Arizona, the Air Force and Marine Corps 
operate with altitude restrictions because of noise impacts on 
endangered Sonoran Pronghorn Antelope. Live-fire training at the Army 
National Guard's Massachusetts Military Reservation has been suspended 
since April 1997 because of groundwater contamination concerns. The 
future of live-fire training at Makua Military Reservation, Hawaii, 
remains questionable because of groundwater contamination, endangered 
species, and cultural and natural resource issues. Finally, I am very 
concerned about the Navy's claimed ability to find alternative, 
equivalent training facilities to replace Vieques. In May 2001, Sea 
Power interviewed Vice Admiral Amerault, Deputy Chief of Naval 
Operations, Fleet Readiness and Logistics, who suggested this may not 
be an achievable goal: ``Encroachment is a serious problem. There is a 
potential to lose the use of our ranges on Vieques Island [Puerto 
Rico], and that could have a very serious readiness impact. That's the 
bell ringer for us. On the heels of that, even as we are fighting to 
keep Vieques as a viable training activity and resource, we are finding 
it increasingly difficult to train our sailors effectively at other 
locations due to overly broad legal requirements combined with 
commercial and urban encroachment.''
    The services have primarily responded to environmental encroachment 
through ``work-arounds'' that instill bad habits that may prove costly 
in combat. Given the magnitude of the threat, it is critical that the 
DOD and services seek resolutions that preserve quality training. Thank 
You, Mr. Chairman.

    Senator Akaka. Senator Inhofe, thank you very much for your 
statement.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    First of all, I want to thank our panelists for being here 
today to help address concerns raised regarding the readiness 
of our armed services. I appreciate your being here, and I 
realize that all of you are concerned, as we are, with 
providing our service men and women and their families with the 
best and the most supportive installations we can afford.
    Obviously, it is a complex formula when you have to assess 
whether to construct new facilities in light of BRAC and 
compete with the funds that may have to go the procurement or 
operations and can be otherwise expended for worthwhile 
purposes as well. So the competing issues of BRAC, being good 
stewards of the environment, encroaching land development 
around installations, providing for military families, and 
ensuring that the services themselves have adequate training 
areas to maintain proficiency and readiness, even including 
such issues as Vieques, all makes for a tough job and I do not 
envy what it is that you try to do.
    I am concerned that at Offutt Air Force Base, Nebraska, 
home for the largest wing in the Air Force, many of the airmen 
have been operating a fire crash and rescue unit out of an old 
unsatisfactory hangar, which is certainly not the kind of 
housing arrangement they need for a fire station. But they are 
currently doing a magnificent job with what they have.
    I hope that today, not that you are going to tell me about 
how you are going to take care of Offutt, that you address 
concerns like these at the various installations all over the 
world that are coming under some of the same challenges and 
inadequacies.
    I have some questions, but I will direct them at a later 
time. Thank you for being here.
    Senator Akaka. Thank you very much for your statement.
    I will call upon our witnesses for your statements. Without 
objection, your entire statements will be included in the 
record of this hearing.
    We will begin with Mr. DuBois, who serves as the principal 
adviser to the Secretary of Defense on issues affecting 
military installations and environmental issues. I welcome you 
back to the subcommittee and ask you to proceed.

STATEMENT OF RAYMOND F. DuBOIS, JR., DEPUTY UNDER SECRETARY OF 
            DEFENSE (INSTALLATIONS AND ENVIRONMENT)

    Mr. DuBois. Thank you, Mr. Chairman. With your permission, 
I will submit my written statement for the record. I do have a 
few remarks to begin with.
    As you indicated, this is the first appearance before your 
subcommittee for the gentlemen on my right and left. We 
constitute what the Secretary of Defense refers to as the 
Installation and Environment Executive Committee of the 
Department. We meet every Tuesday morning to share notes, 
commiserate, prepare, and to try to figure out creative ways to 
solve some of the problems which Senator Akaka, Senator Inhofe, 
and Senator Nelson have raised today. I hope to touch briefly 
upon them, as will my colleagues.
    I am very proud to be a member of this executive team and I 
can assure you, while it is inescapable the military 
construction budget this year versus last is reduced, that the 
folks who are facing you today have worked very hard within a 
certain framework to come up with what we consider to be a 
feasible and a fiscally responsible plan for getting our 
facilities on a continuing path to recovery.
    September 11 changed our Nation forever. We continue, 
however, to transform our installations and our facilities and 
maintain our commitment to quality of life for the people who 
wear the uniform of this Nation. In the wake of September 11, 
the Secretary of Defense's commitment and dedication to 
reforming the way we do the business of national defense and 
reshaping the way we manage our resources within this 
enterprise has not diminished. He recognizes that transforming 
the military also requires transforming our infrastructure.
    Within that context, however, the quality of life issue and 
the people issue remain very high priorities. While the issue 
of basic allowance for housing is not the purview of this 
subcommittee, we are eliminating out of pocket costs paid for 
by the service members by 2005, which is very important to 
recognize.
    We also are increasing our reliance upon the private sector 
for access to both existing quality housing and to privatized 
housing, a program which up until a year plus ago was, I think, 
at the level of 6,000 or 7,000 units privatized. While things 
were already in the pipeline, since Secretary Rumsfeld took 
office we have had upwards of 18,000 more units privatized.
    We are grateful to Congress, to you gentlemen, for 
extending our housing privatization authorization until 2012, 
although we intend to meet the goal of eliminating inadequate 
housing in the Department by 2007.
    The continuing effort to fund MILCON for housing where 
necessary means we are requesting an increase of $222 million 
for family housing MILCON in fiscal year 2003. As I indicated, 
the Secretary has pulled up the goal of eliminating all 
inadequate housing from 2010 to 2007.
    We are going to maintain our commitment to our 
unaccompanied service men and women in Korea and elsewhere. In 
fiscal year 2002, we constructed and revitalized about 16,000 
barracks or bachelor officer and bachelor enlisted quarters 
spaces. This year we plan to construct and revitalize another 
14,000 spaces.
    Let me talk a little bit about sustainment. The entire 
portfolio of investment, the entire portfolio of Department of 
Defense resources focused on infrastructure, not just in a 
MILCON sense but also in an operations and mainenance sense. To 
those outside of this world, it uses terms and words which 
sometimes are confusing, but I think we all understand that 
sustainment is a very important issue that we have not invested 
to the level that we should.
    I think that I just saw recently that sustainment in our 
Services is going up. Of course, this is a new metric, one that 
we have only used for the last 2 years. In 2002, every Service 
will be at 89.4 percent; in 2003, we will be up to 92.6 
percent; and in 2007, we will be up to a level of 96 percent.
    The total MILCON program, as we both said, is down. But if 
you look at that total facilities program in its context, 
including sustainment, the budget request overall is only 
reduced about 3 percent. Fully-sustaining our facilities this 
year is our first priority. The fiscal year 2003 budget request 
slows the deterioration of our facilities and, over time, we 
will fully restore their readiness.
    We have increased sustainment funding, as I said, to the 93 
percent level from the 89 percent in last year's budget, and we 
plan to increase those percentages over time and also in fiscal 
year 2004.
    Recapitalization, the so-called restoration and 
modernization accounts, are clearly reduced year over year. I 
agree with you, Senator Inhofe, that the excuse, and I use that 
word somewhat advisedly, that the sole factor of BRAC is 
incorrect. The Secretary has, in my view, tried to correct that 
impression, although I do want to say that it is a factor, but 
certainly not the factor. Each of us in our own way I think is 
going to address that, and I am glad to answer it in more 
detail in your questioning.
    We still stand by our goal of achieving a 67-year 
recapitalization rate by the end of fiscal year 2007, and the 
current plan is to actually achieve it at the beginning of 
fiscal year 2007. This issue is contentious and needs to be 
addressed, whether or not we achieve a certain percentage of 
infrastructure reduction.
    I too am concerned, and I want to go on the record about 
the funding necessary to achieve a 67-year recapitalization 
rate. Mr. Chairman and Senator Inhofe, you are correct to be 
concerned. There is a phrase called the ``hockey stick'' where, 
whether it is a procurement account, operations and maintenance 
account, or a research, test, development, and evaluations 
account, you put things in the out years in your plan and you 
are basically saying, ``I am committed to do that.'' We have 
seen this before. We have seen the commitments not met. It is a 
concern that all four of us at this table shoulder every day, 
and we will commit to you to continue to fight for.
    I am looking around the table, mentally going through the 
votes on BRAC. This subcommittee was split on that issue, as 
was the Senate. On behalf of Secretary Rumsfeld, I want to 
thank you and all the members of the Senate Armed Services 
Committee for your support, recognizing it was a tough vote for 
many of you.
    But the Secretary's effort to rationalize our total 
infrastructure through a needed BRAC is very important, and the 
authority to do so is very much appreciated. You gave us until 
2005 to make those recommendations. We are going to take the 
time to do this in a very deliberate, methodic, and 
comprehensive way, and we hope that when it is all said and 
done, the authority which you have given to us, we will have in 
turn honored your trust to come out with an appropriate 
rationalization.
    Transformation requires rationalizing our base structure to 
better match the force structure, which, as the Senator said, 
is a work in progress. We are organizing and planning to 
accomplish that analysis, as I indicated. But we have not 
deferred projects in anticipation of BRAC. Our fiscal year 2003 
budget request reflects what the Secretary, the Service 
Secretaries, and Service Chiefs consider to be the highest 
priorities identified by the Services to support their missions 
as they are currently configured.
    As we are just beginning to analyze the total DOD 
infrastructure from the BRAC point of view, specific 
construction projects for fiscal year 2003 are driven by 
current military necessity and to support current mission-
critical requirements.
    One more item that is very important, and an item that I am 
spending an increasing amount of time on, is encroachment. When 
Secretary Rumsfeld and I were in the Pentagon 30 years ago, 
encroachment was not a word in our lexicon. Maybe it should 
have been, because some of the installations today are 
encroached upon to their fenceline.
    We have an obligation for our successors. We have an 
obligation for the next generation and the current generation 
of men and women who wear the uniform of this country, 
especially in terms of training and test ranges, to come up 
with ideas and proposals that will relieve us of some of the 
encroachment and environmental restraint.
    We are in the process of completing environmental 
remediation quickly and effectively. In excess of $4 billion in 
last year's budget and in this year's request is devoted to 
environmental programs of one kind and another.
    With respect to encroachment, we are addressing that issue 
and have been doing so ever since December when the Deputy 
Secretary of Defense, Dr. Paul Wolfowitz, established an 
overarching integrated product team (OIPT) including the 
gentlemen on my right and left, to address the test and 
training mission needs of our military, regulatory 
requirements, and issues of environmental statutes where we 
believe that clarifications may be advisable.
    The Secretary of Defense and the Deputy Secretary of 
Defense are awaiting the recommendations of that OIPT and we 
intend to have a set of proposals in front of them in the very 
near future, hopefully within the next couple of weeks.
    In closing, I personally want to thank the three who are 
here today and your colleagues who have advised me when I 
travel out around the country. I have been to over 30 major 
installations, most recently in Arizona, where I visited Davis-
Monthan Air Force Base and Fort Huachuca. The visits to these 
installations, as well as the visits by my colleagues, provide 
us with an absolutely important on-the-ground reality check.
    We are all committed to providing and supporting healthy 
installations, facilities, and housing. We must enhance 
readiness and get back to training, test range, and 
encroachment issues. We believe that we have addressed morale 
and quality of life with plus-ups over last year. But it is not 
just for our people in uniform. It is also the civilians, the 
committed, dedicated, and loyal group of civil servants who 
labor day by day to support our Nation's defense.
    We look forward to working with you to help us do this job 
better. I thank you personally, and I will now turn to 
Secretary Fiori, the Assistant Secretary of the Army.
    [The prepared statement of Mr. DuBois follows:]

              Prepared Statement by Raymond F. DuBois, Jr.

                              INTRODUCTION

    Mr. Chairman and distinguished members of this subcommittee, thank 
you for the opportunity to discuss the Department of Defense's fiscal 
year 2003 programs supporting military installations and facilities and 
the Department's environmental management. The Department's goal is to 
restore the readiness of our installations and facilities--which are 
the foundation for military operations and deployments. We are 
continuing to improve the management of our installations and housing 
to ensure that they can fully support the men and women who live and 
work there in the accomplishment of their mission.
    To begin, I would first like to recognize you and the subcommittee 
for the support you continue to provide to the Department. In 
particular, we appreciate this subcommittee's strong support for the 
Secretary's effort to rationalize our infrastructure through a needed 
round of base realignment and closure. We are also grateful for 
Congress' willingness to extend our housing privatization authority to 
2012. These actions support the key elements of the Department's 
program to manage military installations and facilities more 
efficiently.
    Today, I will address: the current state of our facility assets and 
the Department's revitalization plans; our sustainment, restoration, 
and modernization programs; our management initiatives; and our 
environmental progress.

                       REVITALIZING INSTALLATIONS

    As Secretary Rumsfeld recently testified to Congress, ``. . . 
September 11 changed our Nation forever.'' Our challenge today and in 
the future is to accomplish three difficult missions at once: to win 
the war on terrorism, to restore our military forces through 
investments in procurement, people, and modernization, and to transform 
our forces to meet future demands.
    Last year, the Secretary of Defense undertook a series of 
initiatives to transform our installations and facilities into those 
required for a 21st century military. Our fiscal year 2003 budget, as 
well as our current future years defense program, supports that 
commitment. In the context of competing priorities resulting from the 
events of September 11, we have developed a feasible and fiscally 
responsible plan for getting our facilities on a path to recovery. Even 
after the events of September 11, we are continuing to transform our 
installations and maintain our commitment to our people by improving 
their quality of life.
Installations' Vision
    Military installations and facilities are an integral component of 
readiness. Installations are the ``platforms'' from which our forces 
successfully deploy to execute their diverse missions. However, they 
are also places where our people live, work, and train. The 
Department's sustainment, restoration, and modernization programs must 
enhance military readiness, while also providing in adequate quality of 
life an adequate working environment and provide for appropriate 
military training.
    Quality of life and quality of workplace are directly linked to the 
quality of our infrastructure. Many surveys have shown that poor 
quality facilities and services are a major source of dissatisfaction 
for families and services members alike. Our aging and deteriorating 
infrastructure has a direct impact on retention.
    To address these long standing infrastructure problems in an 
integrated fashion, the Department is aggressively pursuing a number of 
approaches to benefit service members and improve their quality of 
life. First, we will increase the basic allowance for housing to 
eliminate the out-of-pocket costs paid by service members for private 
sector housing in the United States. The fiscal year 2003 budget 
request includes necessary funding to continue lowering service 
members' out-of-pocket housing costs for those living off-base from 
11.3 percent today to 7.5 percent in 2003. By 2005, the typical member 
living off-base will have no out-of-pocket housing expenses.
    Second, we will increase our reliance upon the private sector--
higher allowances will increase and enhance service member access to 
existing quality housing. Higher allowances will also increase the 
income available to private sector developers, facilitating increases 
in the quantity and quality of privatized housing.
    Finally, we will continue to fund military construction for housing 
where necessary. Our fiscal year 2003 budget requests about $227 
million more for family housing construction than last year. We have 
also maintained our significant investment in barracks modernization. 
The combination of increased allowances and continued use of 
privatization will permit more efficient use of our military 
construction funding. Increased availability of quality private sector 
options will ease pressure for on-base housing, reduce the need to 
maintain our current inventory, and allow us to spend our sustainment 
funding more wisely.
    The Defense Facilities Strategic Plan, published in August 2001, 
defines our facilities vision for the future--healthy, productive 
installations and facilities that are available when and where needed 
with capabilities to support current and future military requirements. 
At the same time, we must spend the taxpayer's investment wisely and 
transform the way we do business to reduce the total operational cost 
of ownership of our installations and facilities.
    We must right size and locate our installations and facilities 
based on military requirements. The recently authorized base 
realignment and closure round in 2005 provides a key tool that will 
allow the Department to align operational forces with the installations 
best suited to their 21st century missions. Providing the right quality 
installations and facilities also means we furnish quality living and 
working environments that support the warfighters' missions while 
enhancing quality of life for our service members and their families.
    Through providing the right resources and leveraging that funding, 
we will achieve the right size and quality of our installations and 
facilities. We have developed analytical tools and metrics that allow 
us to more accurately forecast our requirements and measure our 
progress. Our tools, like the Facilities Sustainment Model, which 
identifies facility sustainment requirements, and the Facilities 
Recapitalization Metric, which assesses the rate of modernization 
relative to the service life of the facilities' inventory, have 
matured, and we have several new tools under development. For instance, 
we are integrating the services' real property inventory databases to 
guide and monitor management decisions. Accomplishing these goals will 
ensure that the needs of the warfighters and military families are met.
Current State of Facility Assets
    In fiscal year 2000, 42 Major Commands of the military services 
collectively rated 69 percent of their nine facilities categories C-3 
(have serious deficiencies) or C-4 (do not support mission 
requirements) as reported in their Installations' Readiness Reports. At 
the end of fiscal year 2001, with 43 Major Commands now reporting, this 
percentage is 68 percent.
    The first step to improve our readiness posture is to sustain what 
we own. It will take some time to reach an acceptable state of 
readiness. We are committed to sustaining our facilities appropriately 
to avoid incurring substantial costs in later years. In the fiscal year 
2003 budget request, the Department funds 93 percent of the 
requirement. The fiscal year 2003 recapitalization rate for our 
facilities has increased to about 150 years (121 if one factors in the 
potential 20 to 25 percent reduction that could be achieved from base 
realignment and closure). However, the fiscal year 2003 military 
construction request is the second largest in the past 6 years. We plan 
to invest over $20 billion from fiscal years 2003 through 2007 to 
achieve our goal of a 67-year recapitalization rate by the end of the 
Future Years Defense Program.
    For fiscal year 2003, we are requesting a total of $9 billion for 
military construction, family housing, and environmental remediation on 
properties from the 1988 to 1995 base realignment and closure rounds. 
Consistent investment levels over time will help us restore and 
maintain readiness, stabilize, and reduce the average age of our 
physical plant, reduce overhead costs, and maximize our return on 
investment. Last year, the Department modernized its treatment of our 
real property requirement. Our approach to sustainment (operations and 
maintenance-like \1\ funds) and restoration and modernization (both 
military construction and operations and maintenance funds), underscore 
our focus on improving infrastructure management.
---------------------------------------------------------------------------
    \1\ Includes O&M as well as related military personnel, host 
nation, and working capital funds.

                           SUMMARY OF REQUEST
               [President's budget in billions of dollars]
------------------------------------------------------------------------
                                                    Fiscal Year Request
                Funding Category                 -----------------------
                                                     2002        2003
------------------------------------------------------------------------
New Footprint (MilCon)..........................         1.4         1.5
Restoration and Modernization (MilCon)..........         3.8         2.5
Restoration and Modernization (O&M-like)........          .8          .8
Sustainment (O&M-like)..........................         5.1         5.6
Family Housing Construction/Improvements........         1.1         1.3
Family Housing Maintenance......................         1.3         1.3
                                                 -----------------------
  Total SRM, New Footprint, FH Const. & Maint...        13.5        13.0
------------------------------------------------------------------------

    Fully sustained, restored, and modernized facilities are more cost 
effective in the long term and result in more prudent use of scarce 
resources. It is more expensive to allow facilities to deteriorate, 
which reduces service life and causes premature recapitalization 
requirements. Further, deteriorated facilities contribute to mission 
interruptions.

                              SUSTAINMENT

    The first principle of sound installation management is taking care 
of what you own, and our fiscal year 2003 budget request supports that 
principle. Our fiscal year 2003 budget request of $5.6 billion 
increases sustainment funding to 93 percent of the requirement, from 89 
percent in last year's budget. Full funding of sustainment throughout 
the program is an appropriate investment that will avoid significant 
costs in the future by stabilizing facility conditions and preventing 
further erosion.
    The fiscal year 2003 budget request also includes $6.1 billion for 
Real Property Services (RPS) which are must pay ``open-the-door'' costs 
generally performed by contract. The RPS account includes purchase of 
utilities, lease payments, custodial services, trash collection, snow 
removal, and grounds maintenance.

                            RECAPITALIZATION

    The Department is requesting $3.3 billion for recapitalization in 
fiscal year 2003 (including both operations and maintenance and 
military construction funds) to restore and modernize our facilities. 
Recapitalization is important not only to restore the readiness of poor 
facilities, but also to maintain the relevance of all facilities to 
future missions of the Department. A consistent modernization program 
tied to expected service life best accomplishes this. The Department 
stands by its goal of achieving a recapitalization rate of 67 years. We 
currently plan to achieve this goal by fiscal year 2007.
    There may be concerns with the increased fiscal year 2003 
recapitalization rate. However, our fiscal year 2003 budget request 
represents a restructuring of our priorities to achieve a more fiscally 
responsible program with lower costs over the long term. Sustaining 
facilities up front will reduce the need for costly restoration of 
facilities in the future, and we are requesting significant increases 
to our sustainment budget to accomplish this. In addition, the majority 
of the military construction budget projects (over 60 percent) are for 
restoration and modernization of mission critical requirements.

     COMPARISON OF MILITARY CONSTRUCTION AND FAMILY HOUSING REQUESTS
               [President's budget in billions of dollars]
------------------------------------------------------------------------
                                                    Fiscal Year Request
                                                 -----------------------
                                                     2002        2003
------------------------------------------------------------------------
Military Construction...........................       5,210       4,054
NATO Security Investment Program................         163         168
Base Realignment and Closure IV.................         532         545
Family Housing Construction.....................       1,114       1,341
Family Housing Operations and Maint.............       2,940       2,877
Homeowners Assistance...........................          10           0
Family Housing Improvement Fund.................           2           2
                                                 -----------------------
  Total.........................................       9,971       8,987
------------------------------------------------------------------------

                                HOUSING

    Military housing is a priority for the President and the Secretary, 
is an integral part of the Administration's Management Plan, and is 
crucial to providing a decent quality of life for our service members. 
We are investing $1.2 billion in the budget request to construct or 
revitalize almost 14,000 barracks spaces for our unaccompanied service 
men and women to continue improvements in their quality of life. The 
services are making great progress toward meeting, or have already met, 
the Department's goal for eliminating gang latrine conditions for 
permanent party unaccompanied service members.
    Our request of $4.2 billion for military family housing in fiscal 
year 2003 will operate and maintain the Department's family housing and 
enable us to eliminate most substandard housing by 2007--3 years 
earlier than previously planned. Our family housing construction budget 
request of $1.3 billion, up from the $1.1 billion requested in fiscal 
year 2002, supports traditional approaches to military family housing 
as well as the Department's plan to renovate, replace, or privatize 
over 35,000 housing units. We plan to have privatized a cumulative 
total of over 60,000 units by the end of fiscal year 2003. The 
Department is also requesting $2.9 billion for operating and 
maintaining almost 280,000 family housing units world-wide, (251,000 
government-owned and another 29,000 leased), approximately 60 percent 
of the government-owned units are considered inadequate.
    The Department's use of housing privatization, aided by Congress' 
extension of our authorities to 2012, continues to leverage our funding 
and has allowed us, to date, to privatize over 17,500 housing units. 
Our most recent projects have been at Fort Hood, Texas, where Army 
personnel have been deployed to support Operation Enduring Freedom and 
Naval Complex South Texas, which includes Naval Air Station Corpus 
Christi and Naval Station Ingleside in Texas.
    Privatizing military housing is a Presidential and Secretary of 
Defense management priority and is recognized as a key item on the 
administration's agenda to improve the quality of life for our service 
men and women. Because decent, safe, and affordable housing is such an 
important component of our service members' lives, we are taking steps 
to ensure that the privatization projects we have already undertaken 
remain fiscally and physically in good shape. To that end, we are 
overseeing the legal and financial documents of these projects through 
our internal oversight document called the Program Evaluation Plan, 
which provides the Secretary of Defense with key information on the 
services' portfolio management of these projects. We are using this 
report to oversee the services' progress in project management, meeting 
schedules for housing renovation and construction, customer 
satisfaction, and overall financial management.
    Privatization is intended to enable the military services to 
revitalize their inventories of inadequate housing by leveraging 
appropriations with private capital. Under privatization policy, the 
services leverage appropriations to get at least three times the 
housing they would get under traditional military construction 
programs. In practice, the current 10 projects in our most recent 
report have leveraged appropriations at a rate of six to one. In 
addition, our data show that our initial ten projects allowed us to 
build and renovate houses on our installations that would have cost 
$600 million more had we used the traditional military construction 
approach. By leveraging available resources, we can revitalize housing 
on other military installations.
    In terms of future steps, the Department plans to build on our 
earlier privatization successes by simplifying the process, 
accelerating project execution, and institutionalizing best practices 
in the services' deals with the private sector. We plan to sharpen our 
post-award management to ensure fiscal integrity and sound project 
management.

                      IMPROVING BUSINESS PRACTICES

    Our installations' management approach extends to improving our 
business practices. The Secretary of Defense is committed to improving 
the way the Department operates and reducing total ownership costs, and 
one of the methods is through improved information technology (IT) 
systems. The installations' community is a frontrunner in the 
development and use of IT systems to improve the way we manage 
facilities.
    For example, in the fiscal year 2000 chief financial officer's 
(CFO) financial statement, we estimated the funding requirements for 
sustainment, since we had no system to capture or forecast sustainment 
requirements. Now, using the Facilities Sustainment Model which applies 
industry benchmarks for sustainment costs, we are able to precisely 
identify the requirements. Thus, sustainment costs in financial 
statements for fiscal years 2003 and beyond will be based on accurate, 
verifiable information.
    Many of our decision-making tools and financial systems are linked 
to the Department's real property inventory databases. Currently, the 
Department maintains many divergent systems that should be modernized 
using the latest state of the art technology and improved business 
processes. We recently began an effort to improve the availability and 
accuracy of information on our physical plant. Our vision is to improve 
our processes by developing a standardized real property inventory 
information system called the Base Information System. The goal is to 
develop new processes and systems for inventorying real property that 
will allow users of real property information to easily share and gain 
access to the information. During this fiscal year, we will develop an 
enterprise architecture that will help us clearly identify our current 
state and processes, develop a ``to-be'' process and, finally, develop 
the road map for change.
    In addition to our information systems, we are emphasizing several 
management initiatives to improve the efficiency of our installations 
and reduce total ownership costs. For example, the facilities 
demolition program has eliminated almost 62 million square feet of 
excess and obsolete facilities since its inception in 1998, and we 
expect to exceed our goal to eliminate 80.1 million square feet by the 
end of fiscal year 2003. The costs avoided by demolition will also free 
up funding to sustain, restore and modernize other infrastructure in 
our inventory. The demolition program was expanded to include several 
defense agencies and will continue past its originally intended 
completion in 2003.
    We have actively solicited ideas to improve the operation and 
management of our installations and are currently developing evaluation 
criteria in order to determine if there are successful candidates for 
the Efficient Facilities Initiatives pilot program authorized in the 
National Defense Authorization Act for Fiscal Year 2002. The Department 
continues to consider opportunities for enhanced-use leasing, and we 
have established a working group to identify candidates and share 
lessons learned. We anticipate these leasing projects will enable 
better utilization of our infrastructure, reduce ownership costs, 
foster cooperation between the Department and private industry, and 
stimulate the local job market.
    Joint use has been another effective way to better utilize our 
facilities. For example, the Joint Mobility Center at Elmendorf Air 
Force Base, Alaska, saved the Air Force and Army up to 20 percent of 
the cost to build separate mobility facilities. In another recent case, 
the joint Armed Forces Reserve Center at Gray, Tennessee combined three 
construction projects for the Army Reserve, Army National Guard, and 
Marine Corps Reserve into a single facility project, saving millions of 
dollars.

                          FUTURE BASE CLOSURES

    Continuing to operate and maintain facilities we no longer need 
diverts scarce resources that could be better applied to higher 
priority programs, such as improving readiness, modernization, and 
quality of life for our service members. We need to seek every 
efficiency in the application of available resources to ensure we 
maintain just what we need to accomplish our missions. In the wake of 
the attacks of September 11, the imperative to convert excess base 
capacity into warfighting ability is enhanced, not diminished. With 
approximately 20 to 25 percent of our base infrastructure estimated to 
be excess to our needs, a significant financial benefit can be realized 
through Base Realignment and Closure (BRAC) 2005 infrastructure 
reductions.
    Prior BRAC actions have resulted in net savings to the Department 
of approximately $16 billion, with annual recurring savings of 
approximately $6 billion. We estimate that the next round of BRAC could 
save an additional $4 billion in annual recurring savings if the 
infrastructure reductions approximate the 12 percent reduction 
experienced in the last two rounds in 1993 and 1995. Greater reductions 
in excess capacity could produce greater annual recurring savings.
    BRAC 2005 is our most important facilities rationalization 
initiative. It will help the Department ultimately save several billion 
dollars annually. But a financial return is not the only benefit--in 
fact, it is not even the primary benefit. The authority to realign and 
close bases we no longer need will be a critical element of ensuring 
the right mix of bases and forces within our warfighting strategy as we 
transform the Department to meet the security challenges of the 21st 
century. Transformation requires rationalizing our base structure to 
better match the force structure for the new ways of doing business, 
and the Department will conduct this rationalization with an eye toward 
ensuring we look at base capacity across the military services for the 
best joint use possible.
    The Department is currently engaged in the upfront process of 
organizing and planning to accomplish the analysis and reporting 
requirements. We are building on the experiences gained in previous 
BRACs and using the additional time Congress has given us to finalize 
our approach. However, we have not officially ``kicked off'' the 
process.

             UTILITIES PRIVATIZATION AND ENERGY MANAGEMENT

    The Department seeks to reduce its energy consumption and the 
associated costs, while improving utility system reliability and 
safety. To accomplish this, DOD has developed an integrated program 
that optimizes utility system management by conserving energy and 
water, taking advantage of restructured energy commodity markets, and 
privatizing our utilities infrastructure.
    Conserving energy saves the Department money that can be invested 
in readiness, facilities sustainment, and quality of life. Energy 
conservation projects make business sense, historically obtaining about 
four dollars in life-cycle savings for every dollar invested. This 
dynamic becomes even more important when you consider that military 
installations spent nearly $2.8 billion in fiscal year 2001 to buy 
energy commodities (almost $400 million more than the previous year--a 
16 percent increase), despite reducing their energy use by about 3 
trillion BTUs (a 1 percent reduction). We continue to make progress in 
achieving the 2010 energy reduction goal for buildings of 35 percent 
per square foot and have reduced consumption by over 23 percent since 
1985.
    The Department has a balanced program for energy conservation--
installing energy savings measures using appropriated funding and 
private-sector investment-combined with using the principles of 
sustainable design to reduce the resources used in our new 
construction. The fiscal year 2003 budget contains $50 million for the 
Energy Conservation Investment Program (ECIP) to implement energy 
savings measures in our existing facilities.
    The Department places a high priority on privatizing utilities. 
However, we have found implementation to be more difficult than 
originally envisioned. We have made progress and will continue to move 
forward on the privatization of our utility infrastructure in areas 
where it makes economic sense. Privatization allows the military 
departments to focus on core defense missions by relieving them of 
those installation management functions that can be done more 
efficiently and effectively by non-Federal entities. Historically, 
military installations have been unable to upgrade and maintain utility 
systems fully due to inadequate funding and competing installation 
management priorities. Utilities privatization will allow military 
installations to benefit from private-sector financing and efficiencies 
to obtain improved utility systems and services.

                         ENVIRONMENTAL PROGRESS

    The Department's environmental program is focused on four 
overarching principles. First, environment is a fundamental component 
of our national power. We must be ever vigilant in ensuring lack of 
attention to environment does not undermine or degrade our national 
power. Second, environmental stewardship is a component of good 
business management. The Department is fully committed to implementing 
environmental management systems to improve efficiency and integrate 
environment into day-to-day operations. Third, environmental 
stewardship reflects the high ethical standards of our soldiers, 
sailors, marines, and airmen. Fourth, completing environmental 
remediation quickly, effectively, and safely, to protect human health 
and the environment from the results of past contamination, is 
important, both at our active and BRAC installations, as well as 
formerly used defense sites (FUDS) and surrounding communities. We are 
committed to continuing to be a leader in the Federal Government in 
environmental management, and our fiscal year 2003 budget request, 
highlighted in the table below, reflects this commitment to ensuring 
environment fully supports our defense mission.

                ENVIRONMENTAL PROGRAM--SUMMARY OF REQUEST
               [President's budget in billions of dollars]
------------------------------------------------------------------------
                                                    Fiscal      Fiscal
                                                   Year 2002   Year 2003
                                                    Request     Request
------------------------------------------------------------------------
Cleanup.........................................       1,247       1,278
BRAC............................................         491         520
Compliance......................................       1,623       1,706
Pollution Prevention............................         245         247
Conservation....................................         138         152
Technology......................................         211         205
                                                 -----------------------
  Total.........................................       3,955       4,108
------------------------------------------------------------------------

    To maintain our ability to defend our country against terrorism and 
other security threats, our forces have conducted--and must continue to 
conduct--training and operations on land, at sea, and in the air. 
Environmental degradation can deny access to lands, undermine the 
realism and effectiveness of training, limit operational flexibility or 
productivity, and pose safety risks. Hence, cleaning up past 
contamination is important to sustain the land we hold in the public 
trust. Through the Defense Environmental Restoration Program, we are 
working to cleanup past contamination in all 50 States, the District of 
Columbia, and 8 U.S. territories. This program covers environmental 
restoration activities at active installations, installations that are 
closing or have had their missions realigned, and formerly used defense 
sites.
    Our environmental restoration request is $1.3 billion for fiscal 
year 2003, slightly higher than in our fiscal year 2002 request. We are 
proud of our cleanup successes, but acknowledge that we still have some 
complex issues to address. The Department has built a strong 
environmental cleanup program over the last two decades and is charting 
a course for completing our environmental restoration requirements.
    The environmental cleanup at current BRAC installations continues 
to serve as a model for collaboration among Department cleanup and real 
estate professionals, Federal and State regulators, and communities in 
integrating reuse with cleanup. We have completed environmental cleanup 
requirements under the Comprehensive Response, Compensation, and 
Liability Act (CERCLA) at 84 percent of land slated for transfer from 
the Department. To continue the remaining environmental cleanup 
required at previous BRAC installations, we are requesting $520 
million, $29 million more than was requested last year.
    We are also building on the requirements of Executive Order 13148, 
Greening the Government Through Leadership in Environmental Management, 
to improve our business practices. We have recently undertaken an 
initiative to implement environmental management systems across all 
missions, activities, and functions. Industry leaders have shown us 
that effective environmental management systems will enable the 
Department to leverage its environmental investment to reduce mission-
driven risks and associated compliance costs. We believe successful 
implementation of environmental management systems in the Department is 
essential to maintain and improve readiness, mission efficiency, and 
environmental stewardship in light of the increasingly demanding 
national security and environmental requirements of the 21st century.
    The fiscal year 2003 environmental quality request for $2.1 billion 
includes $1.7 billion for compliance, $250 million for pollution 
prevention, and $152 million for conservation. This will allow us to 
continue to comply with environmental laws and regulations and to 
effectively reduce the amount of pollutants we generate in performing 
the defense mission. These funds are a good defense investment. As of 
the end of fiscal year 2001, the Department reduced the number of new 
environmental violations received by 75 percent since 1992, reduced the 
amount of hazardous waste generated by over 60 percent, and completed 
Integrated Natural Resource Management Plans at the vast majority of 
bases.
    For several years, the Department has worked to integrate 
environmental, safety, and occupational health considerations into 
defense acquisition weapon system programs. We believe that smart 
consideration of environmental concerns during the acquisition process 
is the key to efficient, cost effective, and environmentally sound 
weapon system performance.
    We have revised the Directives that impact the major weapon system 
acquisition programs for the Department. These changes clarify and 
strengthen the management of life-cycle environmental issues by 
integrating them into the overall acquisition program management 
process. The new language also drives reduction in the procurement and 
use of hazardous materials to ensure waste minimization and pollution 
prevention are institutionalized in the acquisition process. In 
addition, the program manager is required to assess the life-cycle 
environmental impacts of the weapon system to identify opportunities 
for source reduction and recycling to minimize these impacts. These 
changes help reduce the cost and impact of these weapons systems on the 
people who make them, use them, maintain them, and live around 
installations where they are stationed. Such improvements in today's 
weapon system acquisitions will have far-reaching positive impacts on 
``green'' initiatives at all of our installations for many years to 
come.
    Since sound environmental policy is the foundation of future 
improvement in environmental performance, we provided greater emphasis 
on promoting teamwork between environmental and procurement personnel 
to realize the benefit of affirmative procurement policy goals. All of 
these changes have improved our performance of purchasing 
environmentally preferable products, which has reduced our potential 
environmental impact on both the communities around our installations 
as well as our own personnel.
    The Department is fully committed to military explosives safety--
protecting military members and the public from the adverse effects of 
munitions. Last year, after an in-depth review, we divided our 
challenge into two areas of responsibility: Operational Ranges and 
Munitions Response Areas.
    Our operational ranges are needed today and tomorrow. We fully 
appreciate the need for good stewardship and, as a part of our Range 
Sustainment Initiative, we are reviewing how we look at and manage our 
operational ranges. Most immediately, the Department is clarifying our 
operational range clearance policy. We are also developing the 
protocols for determining and responding to any groundwater 
contamination under our operational ranges. For our Munitions Response 
Areas, which include all property which may have unexploded ordnance, 
abandoned munitions, or munitions constituents, and we are building on 
the authority provided to us with the Defense Environmental Restoration 
Program. In so doing, the Department intends to fully comply with 
sections 311, 312, and 313 of the National Defense Authorization Act 
for Fiscal Year 2002, Public Law 107-107, which call for several 
significant items, including a site inventories, cost projections, and 
a technology roadmaps.

                              ENCROACHMENT

    Civilian encroachment at active military bases and test and 
training ranges can interfere with the ability of our military to carry 
out their missions and can degrade the training and readiness of our 
military personnel at a time we need them most. Encroachment involves 
buildings and structures protruding into navigable air space; 
residential development locating in noisy, high performance aircraft 
approach and departure corridors or too close to gunnery ranges; or it 
can be off-base electrical transmissions interfering with air and 
ground communications. The presence of endangered species or their 
critical habitats in or near gunnery and bombing ranges also 
contributes to encroachment problems.
    Urban growth and development is the most visible form of 
encroachment and has the greatest impact on military operations, 
training, and readiness. Encroachment of incompatible civilian 
activities in whatever form--if allowed to go unmanaged and 
unregulated--will continue to compromise the effectiveness of our 
military forces. Since maintaining the readiness of our forces is one 
of the highest priorities of the Department, we strive to maintain a 
reasonable balance between test and training requirements, the concerns 
of our neighbors near our test and training ranges, and the importance 
of sound environmental stewardship. All of our military services are 
prepared to work with appropriate State and local authorities to 
control and hopefully curtail encroachment on both sides of the fence 
line.
    We are addressing encroachment by developing a comprehensive 
strategy that will consider test and training mission needs, regulatory 
requirements, community support, urban encroachment, and the current 
and projected capability of our ranges to support the mission. The 
Deputy Secretary of Defense established a full time Integrated Product 
Team in the Office of the Under Secretary of Defense for Personnel and 
Readiness to act as the Department's coordinating body for overall 
range encroachment issues. This IPT, which reports to the Senior 
Readiness Oversight Council, has been tasked with developing a 
comprehensive set of proposals to address the encroachment issue.

                          ENABLING LEGISLATION

    Consistent with our work to improve installations and environmental 
business practices, we are developing specific military construction 
legislation that will enable us to conduct our work more efficiently at 
lower cost. The legislation Congress enacted during fiscal year 2002 
greatly improved the Department's freedom to manage, and the 
legislation currently under consideration by the Department will 
continue that trend without diminishing our accountability.

                               CONCLUSION

    Our fiscal year 2003 budget request for military construction and 
for the Department's environmental programs supports the Department's 
obligation to acquire and maintain facilities vital to our changing 
missions and readiness. America's security, today and in the future, 
depends on installations and facilities that support operational 
readiness and changing force structures and missions. We have slowed 
the deterioration of our facilities, and will, over time, fully restore 
their readiness. With the Defense Facilities Strategic Plan as our 
guide, we are committed to providing and supporting healthy 
installations, facilities, and housing that will enhance readiness, 
morale, and quality of life for our service members and civilians. This 
installations' transformation will continue until all of our facilities 
meet the requirements of a 21st century military.
    We will also continue to identify opportunities to operate more 
efficiently and leverage our resources through partnerships with the 
private sector on housing and utilities privatization and competitive 
sourcing initiatives. We are committed to divesting ourselves of 
unneeded, underutilized facilities through the Efficient Facilities 
Initiative, facilities demolition, outleasing, and other facility 
reduction initiatives.
    As a leader in environmental management, we will complete 
environmental remediation quickly and effectively at both our current 
and former installations and will protect our service members and 
others from the results of past contamination. In addition, we are 
developing a strategy to address encroachment that considers the needs 
of everyone involved.
    In closing, Mr. Chairman, I sincerely thank you for providing me 
this opportunity to describe the Department's plan for revitalizing our 
installations and facilities and for your very strong support for a 
robust military construction program. I look forward to working with 
you as we transform our plans into actions.

    Senator Akaka. Secretary Fiori.

 STATEMENT OF HON. MARIO P. FIORI, ASSISTANT SECRETARY OF THE 
              ARMY (INSTALLATIONS AND ENVIRONMENT)

    Secretary Fiori. Mr. Chairman and members of the 
subcommittee: Thank you for the opportunity to present the 
Army's fiscal year 2003 budget for military construction and 
the environmental program. I have provided a detailed written 
statement for the record, but I want to comment briefly on the 
highlights of some of our programs.
    The Army has many challenges in front of it. Our goal is to 
ensure that all our garrisons throughout the world have an 
equal and outstanding level of services for our soldiers and 
their families. When I visited selected Army installations, I 
observed the progress that has already been made, and 
attributed much of this success directly to the longstanding 
support of this subcommittee and its staff.
    The Army's overall budget request for fiscal year 2003 
supports the Army vision--people, readiness, and 
transformation--and the strategic guidance to transform to a 
full-spectrum force while ensuring warfighting readiness. It 
reflects a balanced program that will allow the Army to remain 
trained and ready throughout fiscal year 2003 while ensuring we 
fulfil our critical role in the global war on terrorism.
    Our military construction budget request is $3.2 billion 
and will fund our highest priority facilities and family 
housing requirements. In fiscal year 2002 we presented a budget 
that was a down payment on our goal to better support our 
infrastructure.
    When we developed this year's budget in light of the events 
that took place last year, we had some very difficult decisions 
to make. The need to fund military pay raises, Army 
transformation, OPTEMPO, the war on terrorism, and increases in 
health care and other key programs were all included in the 
decision leading to our request. Thus, the Army budget provides 
the best balance between all of our programs, including 
military construction.
    A few critical areas in our construction request are Army 
transformation at Fort Lewis, Fort Wainwright, and Fort Polk. 
We have eight projects for $195 million included in the program 
to ensure transformation to continue to progress as envisioned 
by our leadership.
    Army family housing is a success this year. We are now on 
target to eliminate inadequate family housing through 
construction or privatization by 2007. Our budget includes $180 
million for the Residential Communities Initiative and the 
continued acquisition and transition of the 11 installations 
currently underway and 7 new installations, for a total of 
50,000 housing units. RCI is a great success story. I visited 
Fort Carson on Monday and I am delighted to report that the 
program is 3 months ahead of schedule. We now have 338 new 
units occupied, 500 units renovated, and we are building 20 new 
units a month and completing 40 renovations per month until we 
get all 2,600 done at Fort Carson. Fort Carson will be 
completed by 2004 instead of 2007.
    The combination of privatization and construction will meet 
our goal of fixing family housing 3 years earlier than was 
reported to you last year. A portion of our Military 
Construction and our family housing construction program this 
year is dedicated to overseas construction: 75 percent of the 
overseas military construction request will be used to provide 
better barracks for almost 3,000 soldiers, mainly in Europe and 
Korea.
    We are also constructing the new facilities to support 
Efficient Basing, East Initiative in Germany, which will 
consolidate 13 smaller installations into a single installation 
at Grafenwoehr. Two projects in our request will finalize the 
Army's construction requirements for the Efficient Basing, 
South Initiative in Italy, which will station a second airborne 
infantry battalion in Vicenza. Each project is vital to 
maintain a suitable working and living environment for our 
soldiers and families overseas.
    At the end of fiscal year 2003 we will have 106,000 
permanent party single soldier barracks, or 70 percent, 
modernized. Our strategic mobility program will be 100 percent 
funded and we will have completed all base closures and 
realignments and will concentrate this year on the final phases 
of disposal of these properties. The Army National Guard 
anticipates that 30 of the 32 Weapons of Mass Destruction Civil 
Support Team facilities will be initiated.
    Our sustainment, restoration, and modernization request is 
$2.4 billion, which provides 92 percent of our requirements. In 
1998, the Secretary of Defense set a goal to privatize, 
whenever economical, all utility systems on military 
installations by September 30, 2003. We are fully committed to 
utilities privatization and, to date, the Army has privatized a 
total of only 25 systems. For fiscal year 2002, we have 
proposals for 109 systems, and we expect to complete 
privatization of at least 35 of these 109 by the end of this 
fiscal year.
    Our enhanced use leases, real property exchanges, and 
energy saving performance contracts all contribute to taking 
care of our installations. This year, we initiated a pilot 
program which Congress approved to contract out the first 5 
years of maintenance in 3 of our military construction 
projects.
    The Army's fiscal year 2003 budget request for the 
environmental program is $1.6 billion, which is sufficient for 
our compliance, restoration, conservation, pollution 
prevention, and environmental quality technology programs. The 
environmental program fulfils a public trust to manage Army 
lands by protecting natural and cultural resources in 
accordance with Federal, State, and local laws. As we conduct 
sound environmental management of our 16.5 million acres of 
land, we will also provide our soldiers with tough, realistic, 
and battle-focused training.
    The Army does face significant environmental challenges as 
we transform the Army. Our weapons systems will be more 
maneuverable, have longer range firing capabilities, and this, 
of course, results in a much more serious concern for 
encroachment of our training facilities. We work closely with 
the Federal, State, and local agencies and the local 
communities to minimize the effects of encroachment. 
Unfortunately, we are experiencing varying levels of success in 
addressing restrictions on training ranges.
    For example, the successful agreement with the Governor of 
Massachusetts will allow the Army to use the Massachusetts 
Military Reservation for training. However, the reservation is 
the first active training installation that has had live-fire 
training prohibited by the Environmental Protection Agency 
(EPA). We are still facing challenges at the Makua Military 
Reservation, which is the only range facility in Hawaii that 
accommodates company-level combined live-fire training.
    Thus, the recent settlement agreement, which was a work-
around, allowed us to resume live-fire training, but in a 
limited ability. Thus, to train the 25th Infantry Division, for 
example, we will need to complete some of the company-level 
training requirements in the Continental United States (CONUS), 
at an annual cost of $6.6 million. But, more importantly, this 
will require more of our soldiers to spend time away from home. 
Similarly, the Army Reserve, Army National Guard, and 
potentially the U.S. Marines will not have access to Makua for 
live-fire training.
    The majority of the Army environmental program focuses on 
the day to day environmental stewardship responsibilities of 
our 184 major installations worldwide. We have had measureable 
successes in creating environmental consciousness for the Army. 
For example, we are not polluters. Even with increasing 
regulatory inspections in 2001, our compliance record has 
improved.
    We are working toward fully implementing our environmental 
management system using the ISO-14001 standard. We have 
completed 85 of our active and 80 percent of our BRAC cleanup 
sites.
    Our management initiatives include comprehensive program 
reviews, innovative contracting, increased partnering, and 
stakeholder outreach. We have taken a cue from the private 
sector and developed a military version of the U.S. Green 
Building Council's Leadership in the Energy and Environmental 
Design building and rating system (LEED). We call this the 
Sustainable Project Rating Tool (SPRT) in the Army. This tool 
is used to evaluate our military construction projects in terms 
of their sustainability, how well we incorporate green building 
techniques such as recyclable building materials, energy 
efficiency, natural daylight, and compatibility with natural 
surroundings.
    The Army's conservation program is a crucial component of 
sustaining our natural and cultural resources. We comply with 
the National Historic Preservation Act and, with close working 
relationships with the National Trust and State historic 
preservation offices, we will manage our 77,000 buildings 
achieving middle age.
    We care for 170 threatened and endangered species on our 
installations. Our cultural and natural resources management 
plans will help us avoid future problems, reduce costs, and 
meet our environmental responsibilities.
    I want to conclude by telling you about one of the most 
important initiatives in the facilities arena, the way in which 
the Army will be managing installations. Last year, the 
Secretary of the Army approved the concept of centralized 
installation management through regional alignment. We will 
implement this new management structure on October 1, 2002. A 
top-down regional alignment creates a corporate structure with 
a sole focus on efficient and effective management of all our 
installations. It frees up our mission commanders to 
concentrate on readiness. They will still have an influence on 
important installation decisions, but not the day to day 
headaches.
    We believe centralized management will also enhance our 
ability to integrate the Active and Reserve components and to 
develop multifunctional installations to support the evolving 
transformation of our forces.
    In closing, Mr. Chairman, I look forward to continuing our 
work in caring for our soldiers and their families. Thank you, 
sir.
    [The prepared statement of Secretary Fiori follows:]

               Prepared Statement by Hon. Mario P. Fiori

    Mr. Chairman and members of the subcommittee, it is a pleasure to 
appear before you to discuss both the active Army and Reserve 
components' military construction and the Army Environmental Program 
request for fiscal year 2003. This request includes initiatives of 
considerable importance to America's Army, as well as this 
subcommittee, and we appreciate the opportunity to report on them to 
you.
    This budget provides resources in our construction and family 
housing programs essential to support the Army's role in our national 
military strategy. It provides resources to comply with environmental 
regulations, to continue our efforts in cleaning up contamination from 
past practices, and to sustain the land and natural resources so 
important to the Army's training mission and the American people. The 
budget supports the Army's vision and transformation strategy.
    The program presented herein requests fiscal year 2003 
appropriations and authorization of appropriations of $1,476,521,000 
for military construction, Army (MCA); $1,405,620,000 for Army family 
housing (AFH); $101,595,000 for military construction, Army National 
Guard (MCNG); and $58,779,000 for military construction, Army Reserve 
(MCAR). There is no request this year for the Homeowners Assistance 
Fund, Defense.
    In addition, the program requests fiscal year 2003 appropriations 
and authorization of appropriations of $1,580,492,000 for the Army 
Environmental Program.
    At the turn of the century, the Army published its vision--people, 
readiness, and transformation--that defined how we meet the Nation's 
military requirements today and into the future. We started the arduous 
task of selftransformation that will allow us to continue to dominate 
conventional battlefields but also provide the ability to deter and 
defeat adversaries who rely on surprise, deception and asymmetric 
warfare to achieve their objectives.
    Army transformation was already well under way when the attacks on 
September 11, 2001, provided a new urgency to our efforts. By 
accelerating transformation, we will provide additional capabilities to 
the warfighting CINCs, enabling them to assure allies and friends; 
dissuade future military competition; deter any threats; and, if 
necessary, defeat any adversary.
    To meet the challenges of accelerating transformation and carrying 
out today's missions at home and abroad, the Army must sustain a force 
of high quality, well-trained people; acquire and maintain the right 
mix of weapons and equipment; and maintain effective infrastructure and 
power projection platforms to generate the capabilities necessary to 
meet our missions. Taking care of soldiers and families is a readiness 
issue and will ensure that a trained and qualified soldier and civilian 
force will be in place to support the Objective Force and the 
transformed Army.
    As the Army transforms, we must ensure that Army installations are 
transformed to meet the needs of the force. Army installations, both 
Active and Reserve component, must fully support our warfighting needs, 
while providing soldiers and their families with a quality of life that 
equals that of their peers in civilian communities.
    To support the transformation of our installations, the Secretary 
of the Army has approved the concept of centralized installation 
management through a regional alignment. The implementation date of the 
new management structure is October 1, 2002.
    The regional alignment creates a corporate structure with a sole 
focus on efficient and effective management of installations. Mission 
commanders can concentrate on readiness but still influence critical 
issues through the rating chain for Garrison Commanders and membership 
on the Installation Board of Directors.
    This approach will ensure standard and equitable delivery of 
services from installation to installation. It will also ensure that 
all tenants, including the Reserve components, are treated equally. It 
enables the Army to resource to standards.
    The future will increasingly trend toward multi-functional 
installations. Supporting transformation, geographic-based regions 
provide the maximum flexibility for the future. In the end, it will 
allow improved facilities provided to soldiers and their families and 
better permit us to implement our facilities strategy.

                          FACILITIES STRATEGY

    The Army's Facilities Strategy (AFS) is the centerpiece of our 
efforts to fix the current state of Army facilities over 20 years. It 
addresses our long-term need to sustain and modernize Army-funded 
facilities in both Active and Reserve components by framing our 
requirements for both sustainment, restoration, and modernization (SRM) 
and military construction (MILCON) funding. The AFS addresses 
sustainment, recapitalization, quality and quantity improvements, and 
new mission requirements so that the Army will have adequate facilities 
to support our 21st century missions. SRM includes funds for annual 
maintenance and scheduled repair--sustainment; and military 
construction funding to repair or replace facilities damaged due to 
failures attributable to inadequate sustainment or emergencies or to 
implement new or higher standards--restoration and modernization.
    The first pillar of the strategy requires us to halt further 
deterioration of our facilities. Our sustainment funding, which comes 
from the operation and maintenance (O&M) SRM accounts, has greatly 
improved thanks to the support from Congress. We are funded at over 90 
percent of our requirements in fiscal year 2003. This level of funding 
may be sufficient to prevent further deterioration of Army facilities. 
Our current C-3 conditions are a result of years of underfunding. We 
must have sufficient O&M SRM resources to sustain our facilities and 
prevent facilities from deteriorating further, or we put our MILCON 
investments at risk.
    The second pillar of the strategy is to tackle the enormous backlog 
that has grown over numerous years of underfunding. Since we can't 
afford a quick fix to buy down the SRM backlog, we will centrally 
manage resources towards focused investments. This capital investment 
requirement will primarily require MILCON funding, supplemented by O&M 
SRM project funding. Our goal is to raise Army facilities from current 
C-3 ratings to C-2 by the end of 2010 by bringing a focused set of 
facilities to C-1 during that timeframe. Also, we plan to eliminate 
facility shortfalls where they exist over the entire 20-year strategy. 
These shortfalls are a result of facilities modernization not keeping 
pace with our weapons modernization and supporting force structure.
    We are basing the initial focused set of facilities on commanders' 
ratings in our Installation Status Report. The facilities we chose to 
modernize under this centrally managed program are critical to the 
Army's mission and to our soldiers. It is essential that both the 
sustainment (O&M SRM) and the capital investment (MILCON and O&M SRM) 
pieces be funded as a single, integrated program.
    The third (recapitalization) and fourth (new mission) pillars of 
our strategy address improving recapitalization of our facilities to a 
67-year cycle and ensuring adequate facilities keep pace with future 
force structure changes and weapons modernization programs (such as 
transformation). These four pillars will enable us to improve the 
health of Army real property and its ability to successfully support 
our worldwide missions and our soldiers.
    In addition to implementing our facilities strategy, we continue 
our policy of eliminating excess facilities throughout the entire Army 
to allow us to use our limited resources where they have the most 
impact. During fiscal years 1988-2003, our footprint reduction program, 
along with the base realignment and closure process, will result in 
disposal of over 200 million square feet in the United States. We 
continue our policy of demolishing at least one square foot for every 
square foot constructed. By 2003, with our overseas reductions 
included, the Army will have disposed of over 400 million square feet 
from its fiscal year 1990 peak of 1,157,700,000 square feet.
    Additionally, we are pursuing innovative ways to modernize our 
infrastructure and reduce the cost of our facilities. One example is 
installation utilities systems. Our goal is to privatize all utility 
systems in CONUS by 2003, where it is economically feasible, except 
those needed for unique security reasons. We are also expanding the 
privatization of military family housing in an effort to provide 
quality residential communities for soldiers and their families.

                   MILITARY CONSTRUCTION, ARMY (MCA)

    This year's MCA program focuses on six major categories of 
projects: mission facilities, transformation, well-being, efficient 
basing, installation support, and chemical demilitarization. I will 
explain each area in turn.

                           MISSION FACILITIES

    In fiscal year 2003, there are 10 mission facility projects to 
ensure the Army is deployable, trained, and ready to respond to meet 
its national security mission. Projects in this program conclude the 
successful Army Strategic Mobility Program (ASMP) to ensure deployment 
within specified timelines; provide enhanced training via live-fire 
ranges and simulators; and maintain equipment readiness by ensuring 
Army vehicles are repaired and operational.
Army Strategic Mobility Program
    The six mobility projects in our fiscal year 2003 budget request 
facilitate movement of personnel and equipment from CONUS bases for 
both the Active and Reserve components to meet Army and Defense 
timelines for mobilization operations. They are part of an important 
program started in the early 1990's to upgrade our strategic mobility 
infrastructure, enabling the Army to maintain the best possible power 
projection platforms. We are requesting $53.6 million. The fiscal year 
2003 projects will complete the Strategic Mobility program. A follow-on 
program, Army Power Projection Program (AP3), is being implemented as a 
result of changes in force structure and stationing.
    The six projects in our request include improving our deployment 
capability by upgrading a deployment facility at Fort Stewart, Georgia; 
constructing a truck loading/unloading facility at Fort Carson, 
Colorado; and providing ammunition storage/outloading facility 
improvements at Anniston Army Depot, Alabama, Blue Grass Army Depot, 
Kentucky, and Letterkenny Army Depot, Pennsylvania. In addition, to 
improving fuel storage, we plan to consolidate multiple fuel points at 
Fort Bragg, North Carolina, into one modern facility.
Training and Readiness
    To improve soldier training, we are requesting $23.8 million to 
construct four training and readiness projects. Our request includes a 
Modified Record Fire Range at Darmstadt, Germany, and a live-fire shoot 
house at Fort Drum, New York. These ranges will provide our soldiers 
with realistic, state-of-the-art marksmanship training. We are also 
requesting a Military Operations in Urban Terrain (MOUT) Urban Assault 
Course at Fort Benning, Georgia, that will provide realistic urban 
combat training necessary for many scenarios in today's environment. A 
Tactical Vehicle Simulator facility at Fort Leonard Wood, Missouri, is 
requested to train new motor transport operators with our new vehicle 
simulators.

                             TRANSFORMATION

    Our budget contains $194.9 million for eight projects at three 
installations, Fort Lewis, Washington; Fort Wainwright, Alaska; and 
Fort Polk, Louisiana, that support the deployment, training, unit 
operations, and equipment maintenance and motor pool facilities of the 
Interim Brigade Combat Team (IBCT) new transformed force. These 
projects include one maintenance facility for new vehicles, three 
ranges, a Military Operations in Urban Terrain (MOUT) facility, a 
Battle Simulator Center, and a Mission Support Training Facility to 
ensure our forces are properly trained, and a Battalion Headquarters/
Company Operations Facility to provide a command and control facility 
for the increased unit size. We will continue to identify and validate 
additional requirements associated with transformation and will include 
these projects in future budgets.

                         EFFICIENT BASING, EAST

    The Army is requesting the first year of a 5-year plan to support 
the Efficient Basing, East initiative in Germany. The initiative will 
move a Brigade Combat Team to Grafenwoehr from 13 smaller installations 
over a 5-year time frame. This year's budget requests three projects at 
Grafenwoehr totaling $69.9 million. Army construction for the entire 
initiative is expected to cost $596 million. The three projects in this 
year's budget will complete the site preparation for the brigade, 
construct infrastructure to and around the brigade complex, and 
renovate existing barracks to the current Army standard. These projects 
will support the Brigade headquarters element.

                          WELL-BEING PROJECTS

    Fifty-four percent of our MCA budget is dedicated to providing for 
the well-being of our soldiers, their families, and civilians. Although 
our first priority is to move permanent party soldiers out of gang-
latrine type barracks, we are also requesting Phase II of the Basic 
Combat Trainee barracks project at Fort Jackson, South Carolina, that 
was authorized in fiscal year 2002. We are also requesting two child 
development centers, one physical fitness center, and the expansion of 
a community support center. These projects will improve not only the 
well-being of our soldiers and families, but also the readiness of the 
Army. We are requesting $796.8 million for well-being projects this 
year.
Whole Barracks Renewal Program
    Modernization of barracks for enlisted permanent party soldiers 
continues to be the Army's number one facilities' priority for military 
construction. It provides single soldiers with a quality living 
environment. The new complexes provide increased personal privacy, 
larger rooms, closets, new furnishings, adequate parking, and 
landscaping. In addition, administrative offices are separated from the 
barracks. With the approval of our budget, as requested, 77 percent of 
our barracks requirement will be funded at the new standard for our 
permanent party soldiers. Between fiscal years 2004 and 2009, we plan 
to invest an additional $4.0 billion in MCA and host nation funds, 
supplemented by $400 million in SRM funding to achieve our goal of 
providing improved living conditions for all of our single soldiers by 
fiscal year 2009. While we are making considerable progress at 
installations in the United States, we will request increased funding 
for Germany and Korea in future budgets to compensate for these areas 
having been historically funded at lower levels than installations in 
the United States. A large portion of the remaining modernization 
effort, 41 percent, is in these overseas areas.
    In fiscal year 2003, we are planning 21 barracks projects. This 
includes 4 projects in Europe and 5 projects in Korea. The 
installations with the largest investment are Fort Bragg, North 
Carolina, with $100 million (2 projects), and Schofield Barracks, 
Hawaii, with $91 million (2 projects). Large soldier populations and 
poor barracks conditions require sustained high investment through 
fiscal year 2008 at both of these installations to provide quality 
housing. We are completing a complex at Fort Carson, Colorado, which 
was authorized in fiscal year 2002; and we are continuing second phases 
at Fort Lewis, Washington, and Fort Richardson, Alaska, which were also 
fully authorized in fiscal year 2002. At Fort Campbell, Kentucky, we 
are requesting authorization for all phases of a multi-phase barracks 
complex; however, we are only requesting the appropriation needed for 
the fiscal year 2003 phase. Our plan is to award each complex, subject 
to subsequent appropriations, as a single contract to gain cost 
efficiencies, expedite construction, and provide uniformity in building 
systems. Barracks projects are also requested for Fort Hood, Texas; 
Fort Riley, Kansas; Fort Benning, Georgia; and Fort Detrick, Maryland.
Basic Combat Training Complexes
    We are requesting Phase 2 to complete the Basic Combat Training 
complex at Fort Jackson, South Carolina, that was authorized in fiscal 
year 2002. This project will provide a modern, initial entry basic 
training complex that includes separate and secure housing to support 
gender-integrated training, and provides for the administrative and 
training functions that are organic to the mission of the basic 
training battalion.
Community Facilities
    Our budget request includes two new child development centers to 
replace failing or inadequate facilities in Bamberg, Germany, and 
Vicenza, Italy. To improve soldier physical fitness and community 
wellness, our budget includes a physical fitness training center at 
Camp Castle, Korea. The expansion of a Community Support Center at Fort 
Detrick, Maryland, is also included in our request.

                     INSTALLATION SUPPORT PROGRAMS

    This category of construction projects provides vital support to 
installations and helps improve their readiness capabilities. We are 
requesting one project for a Centralized Wash Facility at Schweinfurt, 
Germany, $2 million. A classified project is also requested at $4 
million.

                      AMMUNITION DEMILITARIZATION

    The Ammunition Demilitarization (Chemical Demilitarization) Program 
is designed to destroy the U.S. inventory of lethal chemical agents, 
munitions, and related (non-stockpile) materiel. It also provides for 
emergency response capabilities, while avoiding future risks and costs 
associated with the continued storage of chemical warfare materiel.
    The Office of the Secretary of Defense devolved the Chemical 
Demilitarization Program to the Department of the Army in fiscal year 
1999. Although Congress has consistently authorized and appropriated 
funding for the Chemical Demilitarization Construction Program to the 
Department of Defense, the overall responsibility for the program 
remains with the Army and we have included it in this year's Army 
budget.
    We are requesting $167.6 million in the Army's fiscal year 2003 
budget to continue the Chemical Demilitarization projects previously 
authorized, and a Non-Stockpile Chemical Munitions Facility at Pine 
Bluff, Arkansas. Table 1 summarizes our request:

                        TABLE 1--FISCAL YEAR 2003
------------------------------------------------------------------------
           Installation                     Type              Amount
------------------------------------------------------------------------
Aberdeen PG, MD...................  Ammun Demil             $ 30,600,000
                                     Facility, Phase V.
Blue Grass AD, KY.................  Ammun Demil               10,300,000
                                     Facility, Phase III.
Blue Grass AD, KY.................  Support Facility,          8,300,000
                                     Phase III.
Newport AD, IN....................  Ammun Demil               61,494,000
                                     Facility, Phase V.
Pine Bluff AD, AR.................  Non-Stockpile             18,937,000
                                     Munitions Facility.
Pueblo AD, CO.....................  Ammun Demil               38,000,000
                                     Facility, Phase IV.
                                                         ---------------
  Total...........................    ..................    $167,631,000
------------------------------------------------------------------------

    The destruction of the U.S. stockpile of chemical weapons is a 
major priority of the Army, DOD, and the administration. These chemical 
weapons must be destroyed to reduce the risk to the stockpile storage 
communities and eliminate these weapons as potential terrorist targets. 
The MILCON funding for the chemical weapons facilities is essential to 
achieving this goal.

           PLANNING AND DESIGN/UNSPECIFIED MINOR CONSTRUCTION

    The fiscal year 2003 MCA budget includes $119.8 million for 
planning and design. The fiscal year 2003 request is a function of the 
construction programs for 3 fiscal years: 2003, 2004, and 2005. The 
requested amount will be used to design-build a portion of the fiscal 
year 2003 program, complete design in fiscal year 2004, and initiate 
design of fiscal year 2005 projects.
    Host Nation Support (HNS) Planning and Design (P&D): the Army, as 
Executive Agent, provides HNS P&D for oversight of Host Nation funded 
design and construction projects. The U.S. Army Corps of Engineers 
oversees the design and construction to ensure the facilities meet our 
requirements and standards. Lack of oversight may result in an increase 
in design errors and construction deficiencies that will require United 
States dollars to rectify. Maintaining the funding level for this 
mission results in a payback where $1 of United States funding gains 
$36 worth of Host Nation Construction. The fiscal year 2003 budget 
request for $23.7 million will provide oversight for approximately $850 
million of construction in Japan, Korea, and Europe.
    The fiscal year 2003 budget also contains $20.5 million for 
unspecified minor construction.

                          ARMY FAMILY HOUSING

    The family housing program provides a major incentive that is 
necessary for recruiting and retaining dedicated individuals to serve 
in the Army. Adequate and affordable housing continues to be a major 
concern to soldiers when asked about their quality of life. We have 
waiting lists at nearly all of our major posts and as of January 2, 
2002, the out-of-pocket expenses for soldiers living off post were 
approximately 11.3 percent of the total cost of their housing. The Army 
supports the initiative to increase the Basic Allowance for Housing 
(BAH) to eliminate the out-of-pocket costs being paid by service 
members for off-post housing in the United States by 2005. Maintaining 
and sustaining safe, attractive, and convenient housing for our 
soldiers and families is one of our continuing challenges. This budget 
represents an increase in the family housing program for family housing 
improvements and expanded privatization. This increase will assist us 
in providing improved housing quicker and to more of our military 
families. Our current plan ensures we meet the Secretary of Defense's 
goal of 2007 to provide adequate housing to all military families.
    Privatization is an essential element in solving our acute family 
housing problem. The Army's privatization program, Residential 
Communities Initiative (RCI), utilizes the authorities granted by 
Congress in 1996 and extended to December 31, 2012 to implement an 
aggressive program to create modern residential communities in the 
United States. The Army is leveraging appropriated funds and government 
assets by entering into long-term partnerships with private sector real 
estate development and management firms to obtain financing and 
management expertise to construct, repair, maintain, and operate Army 
family housing communities.
    The RCI program includes projects at Fort Carson, Colorado; Fort 
Hood, Texas; Fort Lewis, Washington; and Fort Meade, Maryland. Fort 
Carson transitioned to privatized operations in November 1999, and Fort 
Hood transitioned in October 2001. Forts Lewis and Meade are expected 
to transition by mid-2002. The projects include over 15,000 housing 
units. Army families have already moved into new and renovated housing 
at Fort Carson and our experience to date has been very positive.
    The program is expanding to 20 additional privatization projects 
between fiscal years 2002 and 2004. These projects will privatize more 
than 48,000 additional housing units. Using funds appropriated in 
fiscal year 2002, the Army kicked-off nine projects. The 2003 budget 
request will continue to expand the program, adding five projects 
covering seven installations (Fort Polk, Louisiana; Fort Belvoir, 
Virginia; Forts Eustis and Story, Virginia; Fort Leonard Wood, 
Missouri; and Fort Shafter and Schofield Barracks, Hawaii).
    The Army is using the development partners' experience and 
resources, and market-based incentives, to bring about dramatic 
improvements in the Army family housing and the quality of life for 
soldiers and their families.
    Our fiscal year 2003 request for Army Family Housing is 
$1,405,620,000. Table 2 summarizes each of the categories of the Army 
Family Housing program.

                      TABLE 2--ARMY FAMILY HOUSING
                            Fiscal Year 2003
------------------------------------------------------------------------
                Facility Category                   ($000)      Percent
------------------------------------------------------------------------
New Construction................................      27,942           2
Post Acquisition Const..........................     239,751          17
Planning and Design.............................      15,653           1
Operations......................................     183,408          13
Utilities.......................................     212,432          15
Maintenance.....................................     485,257          35
Leasing.........................................     215,251          15
Privatization...................................      25,926           2
                                                 -----------------------
  Total.........................................   1,405,620         100
------------------------------------------------------------------------

                      FAMILY HOUSING CONSTRUCTION

    The total fiscal year 2003 request for construction is 
$283,346,000. It continues the Whole Neighborhood Revitalization (WNR) 
initiative approved by Congress in fiscal year 1992 and supported 
consistently since that time. This successful approach addresses the 
entire living environment of the military family. The projects are 
based on life-cycle economic analyses and support the Department of 
Defense's 2007 goal by providing units that meet current construction 
and adequacy standards.
New Construction
    The fiscal year 2003 new construction program provides WNR projects 
at four locations. Replacement construction provides adequate 
facilities where there is a continuing requirement for the housing and 
it is not economical to renovate. All of these projects are supported 
by housing surveys, which show that adequate and affordable units are 
not available in the local community.
Post Acquisition Construction (Renovation)
    The Post Acquisition Construction Program is an integral part of 
our housing revitalization program. In fiscal year 2003, we are 
requesting funds for improvements to 18,314 existing units at 9 
locations in the United States, including privatization at 7 
installations; 7 locations in Europe; and 1 site in Korea. Included 
within the scope of these projects are efforts to improve supporting 
infrastructure and energy conservation.

               FAMILY HOUSING OPERATIONS AND MAINTENANCE

    The operations, utilities, maintenance, and leasing programs 
comprise the majority of the fiscal year 2003 request. The requested 
amount of $1,122,274,000 for fiscal year 2003 is approximately 80 
percent of the total family housing budget. This budget provides for 
the Army's annual expenditures for operations, municipal-type services, 
furnishings, maintenance and repair, utilities, leased family housing, 
and funds supporting the Military Housing Privatization Initiative.

                         FAMILY HOUSING LEASING

    The leasing program provides another way of adequately housing our 
military families. We are requesting $215,251,000 in fiscal year 2003 
to fund existing section 2835 project requirements, temporary domestic 
leases in the United States, and approximately 8,600 units overseas.
           military construction, army national guard (mcng)
    The Army National Guard's (ARNG) focus is on two categories of 
projects: transformation and mission.

                             TRANSFORMATION

    This year we continue converting twelve brigades and two division 
slices to support the Army Division Redesign Study (ADRS). The ADRS is 
a high priority for this budget. Eight facilities will be constructed 
or converted to house the ARNG's Combat Support/Combat Service Support 
structure. We are requesting $26.8 million for this transformation for 
facilities in Alabama and North Carolina and two projects each in 
California, Kansas, and Nebraska.

                                MISSION

    In fiscal year 2003, the ARNG has requested $55.2 million for five 
mission projects. Two projects are in Wisconsin and will replace part 
of the existing United States Property and Fiscal Office complex made 
up of 23 buildings, ranging in year built from 1895 to 1980. These new 
facilities will permit all personnel to perform the necessary tasks 
that will improve their own readiness as well as provide fiscal and 
logistical support for the entire Wisconsin Army and Air National 
Guard.
    The first phase of a project for administrative buildings at 
Barbers Point, Hawaii is also included. These units are currently 
stationed in the Diamond Head State Monument area, in older, pre-World 
War II facilities. The renovation of an existing building at Barbers 
Point will help with the Diamond Head State Monument Plan, allowing the 
Monument area to revert back to a semi-wilderness condition.
    As part of the Army's Facility Strategy, we are requesting a 
Readiness Center at Summersville, West Virginia, and phase one of a 
joint facility with the Marine Corps Reserve and the Kansas Counterdrug 
Office at Topeka, Kansas.

           PLANNING AND DESIGN/UNSPECIFIED MINOR CONSTRUCTION

    The ARNG's fiscal year 2003 budget request contains $14.7 million 
for planning and design and $4.9 million for unspecified minor 
construction.

               MILITARY CONSTRUCTION, ARMY RESERVE (MCAR)

    The fiscal year 2003 MCAR budget focuses on mission facilities that 
support the Army Reserve's mission of providing trained and ready unit 
and individuals to mobilize and deploy in support of the National 
Military Strategy.

                           MISSION FACILITIES

    In fiscal year 2003, there are seven mission facility projects in 
the Army Reserve's Military Construction program. These projects 
provide four Army Reserve Centers (Lincoln, Nebraska; Oswego, New York; 
Grand Prairie, Texas; and Fort Story, Virginia); four maintenance 
facilities (Mare Island, California; Lincoln, Nebraska; Grand Prairie, 
Texas; and Fort Story, Virginia); a battalion-size dining facility at 
Fort McCoy, Wisconsin; and an alteration to an Army Reserve training 
facility at Fort Bragg, North Carolina.

           PLANNING AND DESIGN/UNSPECIFIED MINOR CONSTRUCTION

    The fiscal year 2003 MCAR budget includes $6.965 million for 
planning and design and $2.85 million for unspecified minor 
construction.

            SUSTAINMENT, RESTORATION AND MODERNIZATION (SRM)

    In addition to military construction and family housing, the third 
area in the facilities arena is the O&M SRM program. O&M SRM is the 
primary account in the base support funding area responsible to 
maintain the infrastructure to achieve a successful readiness posture 
for the Army's fighting force. Installations and Reserve component 
facilities are the platforms of America's Army and must be properly 
maintained to be ready to support current Army missions and any future 
deployments.
    O&M SRM consists of two major functional areas: (1) facilities 
sustainment of real property and (2) restoration and modernization. 
Facilities sustainment provides resources for maintenance and repair 
activities necessary to keep an inventory of facilities in good working 
order. It also includes major repairs or replacement of facility 
components, usually accomplished by contract, that are expected to 
occur periodically throughout the life cycle of facilities. Restoration 
includes repair and replacement work to restore facilities damaged by 
inadequate sustainment, excessive age, natural disaster, fire, 
accident, or other causes. Modernization includes alteration of 
facilities solely to implement new or higher standards, including 
regulatory changes, to accommodate new functions, or to replace 
building components that typically last more than 50 years, such as 
foundations and structural members.
    Within the O&M SRM program, there are two areas to highlight: (1) 
our Barracks Upgrade Program (BUP) and (2) the Long Range Utilities 
Strategy. The first area is our BUP program, which is the major 
renovation and restoration of existing barracks and an integral part of 
the Barracks Modernization program's goal to eliminate gang-latrine 
barracks by 2008. However, due to the reallocation of central funding 
of the BUP program in fiscal year 2002, we will now complete the 
program in 2009. At the completion of the fiscal year 2003 program, as 
requested, we will have funded, with MILCON and BUP, adequate housing 
to meet or approximate the DOD 1+1 barracks standard for 77 percent of 
our soldiers. The fiscal years 2004-2008 Military Construction program 
will provide barracks for another 18 percent of eligible soldiers. We 
will use O&M SRM resources to renovate barracks to an approximate DOD 
1+1 standard for the remaining 5 percent of eligible soldiers. We are 
committing an average of about $120 million per year in O&M SRM to 
continue the efforts to upgrade housing for our single soldiers.
    The second area to highlight within the O&M SRM program is our Long 
Range Utilities Strategy to provide reliable and efficient utility 
services at our installations. Privatization or outsourcing of 
utilities is the first part of our strategy. All Army-owned electrical, 
natural gas, water, and wastewater systems are being evaluated to 
determine the feasibility of privatization. When privatization appears 
economical, we use competitive contracting procedures as much as 
possible. We continue to successfully privatize utility systems on Army 
installations. Recent successes include privatization of the natural 
gas system at Fort Benning, and the water and waste water systems at 
Presidio of Monterey. Of the 320 Army systems available for 
privatization since 1998, 24 have been privatized, 28 have been 
exempted, and the remaining are in various stages of privatization. The 
second part of the strategy is the utilities modernization program. We 
are upgrading utility systems that are not viable candidates to be 
privatized, such as central heating plants and distribution systems. We 
have executed approximately $188 million in utility modernization 
projects in fiscal years 1998 through 2001 and we plan to accomplish 
$83 million in additional projects in fiscal year 2002 to complete the 
program. Together, privatizing and modernizing utility systems will 
provide reliable and safe systems.
    We are making progress in upgrading barracks and improving utility 
services, and funding for the basic maintenance and repair of Army 
facilities has improved to 92 percent of the OMA, OMNG, and OMAR 
requirement in fiscal year 2003. However, we still need to strive 
toward fully funding sustainment to keep facilities from getting worse 
and to protect the large infrastructure investment requested in this 
budget. The Installation Status Report (ISR) shows Army facilities are 
rated C-3 (not fully mission capable) due to years of under-funding. At 
the end of fiscal year 2001, the ISR for the Army showed 28 percent of 
our facilities were ``red''--mission failure; 42 percent were 
``amber''--mission degraded; and only 30 percent were ``green''--
mission supported.

                  HOMEOWNERS ASSISTANCE FUND, DEFENSE

    The Army is the executive agent for the Homeowners Assistance 
Program. This program provides assistance to homeowners by reducing 
their losses incident to the disposal of their homes when military 
installations at or near where they are serving or employed are ordered 
to be closed or the scope of operations reduced. For fiscal year 2003, 
there is no request for appropriations and authorization of 
appropriations. Requirements for the program will be funded from prior 
year carryover and revenue from sale of homes. Assistance will be 
continued for personnel at 7 installations that are impacted with 
either a base closure or a realignment of personnel, resulting in 
adverse economic effects on local communities.

                      BASE REALIGNMENT AND CLOSURE

    Our facilities strategy strives to meet the needs of today's 
soldiers while also focusing on the changes required to support the 
Army of the 21st century. For BRAC in fiscal year 2003, we are 
requesting appropriations and authorization of appropriations of $149.9 
million. This budget represents the Army's budget required to continue 
unexploded ordnance (UXO) removal, environmental restoration, and 
property management of those facilities not yet disposed from the first 
four rounds of BRAC. In fiscal year 2001, the Army began saving $945 
million annually upon completion of the first four rounds of BRAC. 
Although these savings are substantial, we need to achieve even more, 
and bring our infrastructure assets in line with projected needs. The 
Army supports the need to close and realign additional facilities and 
we appreciate Congress' authority to have an additional round in fiscal 
year 2005.
    The Army is now in the first year of exclusively care taking and 
completing the remaining environmental restoration activities at BRAC 
installations. The Army implemented innovative approaches to 
environmental restoration at BRAC sites in fiscal year 2001, which will 
support the early transfer of several properties. The Army will 
continue to support early property transfers in fiscal year 2002 and 
beyond and requests $149,878,000 in fiscal year 2003 to continue this 
important work. These funds allow us to properly care take these 
properties and to continue environmental and ordnance removal efforts 
that will facilitate economic revitalization and will render these 
properties safe. Our efforts will make 24,854 acres of property 
available for reuse in fiscal year 2002 and complete restoration 
activities at 7 additional locations. This budget includes the 
resources required to support projected reuse in the near term and to 
continue with current projects to protect human health and the 
environment.
    Although the extensive overseas closures do not receive the same 
level of public attention as those in the United States, they represent 
the fundamental shift from a forward-deployed force to one relying upon 
overseas presence and power projection. Without the need for a 
commission, we are reducing the number of installations by 70 percent, 
roughly equal to the troop reductions of 70 percent. Your support of 
our Efficient Basing, East, military construction project will allow us 
to continue reducing the number of installations in Europe. In Korea, 
the number of installations is dropping 20 percent. The total number of 
Army overseas sites announced for closure or partial closure since 
January 1990 is 680. Additional announcements will occur until the base 
structure matches the force identified to meet U.S. commitments.
    The significant challenges posed by the removal of unexploded 
ordnance, the remediation of groundwater, and the interface of a 
variety of regulatory authorities continue to hinder the disposal of 
property. A number of innovative approaches for environmental 
restoration were recently developed in an effort by the Army to 
expedite the transfer of property, while ensuring the protection of 
human health and the environment. Two innovative mechanisms are being 
utilized to complete environmental restoration efforts: Guaranteed/
Fixed Price Remediation (G/FPR) Contracts and Environmental Services 
Cooperative Agreements (ESCA). A G/FPR Contract obligates BRAC funds 
necessary for regulatory closure of specified restoration activities. 
The Army retains responsibility for completion of the environmental 
restoration, overseeing the contractor and ensuring that regulatory 
closure of the property is obtained. An ESCA is a different mechanism, 
authorized under the environmental restoration program that obligates 
Army BRAC funds and apportions some amount of liability to a 
governmental entity representing the reuse interests of the particular 
BRAC installation, in exchange for specific environmental restoration 
services outlined in the ESCA.
    We remain committed to promoting economic redevelopment at our BRAC 
installations. We are supporting early reuse of properties through 
economic development conveyances as well as the early transfer of 
properties along with cooperative agreements to accelerate the 
completion of remaining environmental remediation. The Army is also 
making use of leasing options approved by Congress and awarding 
guaranteed fixed price remediation contracts to complete environmental 
cleanup to make properties available earlier. Real property assets are 
being conveyed to local communities, permitting them to quickly enter 
into business arrangements with the private sector. Local communities, 
with the Army's support and encouragement, are working to develop 
business opportunities that result in jobs and tax revenues. The 
successful conversion of former Army installations to productive use in 
the private sector benefits the Army and ultimately the local 
community.
    The BRAC process has proven to be a viable method to identify and 
dispose of excess facilities. The closing and realigning of bases saves 
money that otherwise would go to unneeded overhead and frees up 
valuable assets for productive reuse. These savings permit us to invest 
properly in the forces and bases we keep to ensure their continued 
effectiveness. We request your support by providing the necessary BRAC 
funding to continue environmental restoration and property management 
in fiscal year 2003.

                   THE ARMY ENVIRONMENTAL COMMITMENT

    The Army's Environmental Program budget request for fiscal year 
2003 totals $1,581,085,000 for its Compliance, Restoration, 
Conservation, Pollution Prevention, and Environmental Quality 
Technology Programs. This figure includes $146,156,000, reflecting the 
environmental portion of the total BRAC budget request. In addition, 
this figure reflects the Office of the Secretary of Defense budget 
request of $212,102,000 for the DOD Formerly Used Defense Site (FUDS) 
program for which the Army is the DOD Executive Agent.
    The Army Environmental Program supports readiness and improves the 
quality of life for our soldiers and their families. It fulfills the 
public trust to manage Army lands by protecting natural and cultural 
resources, in accordance with Federal, State, and local laws. The Army 
is fully committed to complying with laws and regulations, conserving 
natural and cultural resources, and cleaning up active, BRAC, and FUDS 
sites. We are continuing to integrate pollution prevention practices 
into all that we do, and we have expanded the focus of our technology 
program to address environment, safety, and occupational health needs 
comprehensively and cost effectively. By dedicating our efforts to 
these activities, we will become increasingly successful in identifying 
efficiencies to support the Army's core business practices; developing 
creative solutions to support our environmental stewardship efforts; 
protecting the health and safety of our soldiers, civilians, and 
communities; and helping to fulfill the Army's commitment to support 
and execute the National Military Strategy.
    We are further determined to accomplish our environmental program 
tasks with effectiveness and resource efficiency. Restoration and 
compliance still require the majority of our budget dollars. Programs 
in conservation, pollution prevention, and innovative technology 
provide venues for primary investments to reduce future compliance and 
restoration requirements and recapture dollars for the Army's core 
missions. Overall, our fiscal year 2003 budget request provides for a 
lean, but effective, program implementation and investment in both 
corrective and preventive actions to continue eliminating past problems 
and preventing future ones.

                          RANGES AND MUNITIONS

    The Army must provide our soldiers with tough, realistic, battle-
focused training in preparation for a wide variety of mission essential 
warfighting scenarios ranging from desert to tropical to cold region 
operations. Ensuring our soldiers have access to the most realistic 
training possible is a challenge for both our operations and 
environmental communities.
    As part of that effort, we are developing integrated sustainable 
range management strategies to cut across functional lines to support 
the Army's livefire requirements and ensure our range capability into 
the future. The Army Range Sustainment Integration Council was 
established to work across operational, environmental, and installation 
management areas to develop solutions for sustaining continued training 
and testing on Army ranges. The Army also is making prudent investments 
in environmental quality technology to improve its ability to detect, 
identify (discriminate), and respond to unexploded ordnance (UXO), and 
to reduce costs in the future.
    Our environmental programs support the Army's core training mission 
by conserving training lands, preventing pollution, complying with laws 
and regulations, partnering with local communities, and cleaning up 
contamination at Army installations.

                               COMPLIANCE

    The Army requests $640,931,000 for the compliance program in fiscal 
year 2003. This is a $43 million increase from last year's request and 
can be attributed to increased funding for the Massachusetts Military 
Reservation response activities, and manpower for the environmental 
program. This investment makes it possible for the Army to comply with 
applicable Federal, State, and local environmental laws, regulations, 
and Executive Orders, as well as international agreements and Final 
Governing Standards overseas.
    The Army's compliance goals are to attain and sustain cost-
effective compliance with all applicable Federal and State regulations. 
The Army's long-term compliance objectives are to: (1) integrate 
environmental compliance into all aspects of installation operations to 
support sustainment of the mission and promote the well-being of 
soldiers, family members, civilian employees, and citizens of 
neighboring communities; and (2) sustain compliance costs within fiscal 
years 2002-2007 funding levels by shifting emphasis to pollution 
prevention solutions as a means for helping to achieve compliance.
    The Army focuses on achieving environmental compliance through 
strong command emphasis and use of effective environmental management 
systems, pollution prevention, diverse training, new tools and 
technologies, audits and better metrics, new and improved processes, 
tracking development of new environmental laws, and regulations to 
ensure timely compliance, and developing strong partnerships.
    Since environmental laws and regulations are designed to protect 
human health and the environment, compliance with them is vital to 
maintaining the well-being of our soldiers, civilian personnel, their 
families, and our neighboring communities. We have steadily improved 
our environmental compliance posture over time. Although the number of 
regulatory inspections increased slightly in fiscal year 2001, the 
number of new enforcement actions the Army received decreased by 15 
percent. Following major reductions the previous 2 years, we achieved a 
further reduction of 6 percent in open Enforcement Actions (ENFs) in 
fiscal year 2001 and continue to resolve ENFs more quickly.
    A key element necessary for the Army to meet our long-term 
environmental goals and strategy is the use of an internationally 
recognized Environmental Management System (EMS), or ISO 14001. The 
Army will use ISO 14001 processes at all levels to build trust and 
better cooperation with regulators and the community. Our goal is to 
use EMS to integrate environmental considerations across Army planning 
and operations.
    Army investments in Regional Environmental Offices are paying big 
dividends through improved relations with Federal and State 
environmental regulators. This is evidenced by negotiation of effective 
air emission requirements at Fort Leonard Wood, reduced hazardous waste 
fees in New Mexico, improved communications with the United States 
Environmental Protection Agency, and numerous partnering endeavors with 
regulators and other Federal and State agencies.

                          POLLUTION PREVENTION

    Pollution Prevention (P2) supports the Army by enabling our 
compliance with current and future laws and regulations, promoting good 
environmental stewardship of the lands entrusted to the Army, and 
developing new technologies and partnerships with industry. The Army 
requests $39,676,000, which is a decrease of $6 million from last 
year's request. Nonetheless, we will continue to realize significant 
savings from our investments in pollution prevent efforts.
    One of our major challenges is compliance with existing 
environmental laws and regulations. Achieving and maintaining 
compliance through development and implementation of pollution 
prevention strategies is a good business practice and a cost-effective 
way for the Army to meet its environmental goals.
    The Army is continuing with its efforts to fundamentally change its 
operations through incorporation of a centralized hazardous materials 
management program, which is designed to reduce or eliminate processes 
and activities that generate wastes or emissions. The Army is a leader 
in the reduction of chemicals in the Toxic Release Inventory (TRI). In 
1994, the Army reported a total of 2.4 million pounds of releases to 
the environment. By 1999, a 71 percent reduction of baseline releases 
was achieved. Today, the total releases for all installations combined 
is now less than the emissions of just one Army industrial facility in 
1994.
    Solid Waste Minimization efforts reduce costs while promoting 
recycling efforts. The goals for the solid waste management program are 
to minimize the generation of solid wastes, develop cost-effective 
waste management practices, protect public health and the environment, 
and recycle to conserve natural resources. The Army currently reuses 
and recycles 21 percent of all solid waste generated. Our recycling 
efforts significantly extend the life of existing landfills and 
resulted in a savings of approximately $18.1 million in solid waste 
disposal costs in fiscal year 2001.
    The Army has also taken a cue from the private sector and developed 
a military version of the Sustainable Project Rating Tool (SPiRiT). 
This model is being used to evaluate our military construction projects 
in terms of their sustainability, or how well they incorporate 
``green'' building techniques, such as recyclable building materials, 
energy efficiency, natural daylight, and compatibility with the natural 
surroundings. This initiative is a common sense design and building 
practice that is intended to reduce life cycle costs while helping the 
Department support other Federal goals.
    The Army's vision is not one of mere compliance with laws and 
regulations, but rather a vision of environmental excellence through 
pollution prevention.

                              CONSERVATION

    The Army's Environmental Conservation program is a crucial 
component in sustaining the land used for the Nation's military 
mission, as entrusted by the American people. Environmental 
requirements are increasing at the same time the Army's use of current 
land capability is reaching capacity. Also, aging infrastructure is 
stretched beyond its life expectancy. The National Historic 
Preservation Act (NHPA), Sikes Act, and the Endangered Species Act 
(ESA) are the primary drivers for increased cultural and natural 
resources requirements on Army training lands and base areas.
    The fiscal year 2003 budget request of $93,651,000 reflects a $16 
million increase over last year's funding level. The increase will 
enable the Army to continue its good stewardship of the land by 
implementing viable management plans that outline how the Army will 
continue to protect cultural resources, manage threatened and 
endangered species, integrate environmental land management, and comply 
with applicable Federal and State natural and cultural resource laws. 
The Sikes Act Improvement Act (SAIA) further defines DOD's stewardship 
responsibilities, in the context of the military mission. In addition 
to our mission requirements, the Army must provide for the conservation 
and rehabilitation of natural and cultural resources, sustain 
multipurpose use of the resources, and grant public access to the 
extent that safety and security allow.
    The most significant statutory requirement for Army-owned historic 
properties is the National Historic Preservation Act (NHPA) and its 
implementing regulation. The current scope of Army historic building 
management and compliance requirements is enormous, and will 
substantially increase over the next 10 years. As our Cold War-era 
infrastructure reaches the 50-year mark, it triggers compliance under 
the NHPA. The Army currently has 50,557 buildings over the 50-year 
mark, 63,155 archeological sites, and 17 National Historic Landmarks, 
all subject to NHPA regulation. By 2010, nearly two-thirds of all 
buildings on Army installations in the United States (77,613 of 
129,059) will be at least 50 years old and subject to NHPA 
requirements.
    In addition to the maintenance of cultural and historic resources, 
the Army is charged with the stewardship of its training lands, natural 
resources, and endangered species that reside on Army installations. 
One of the Army's most significant natural resource challenges relates 
to the use of training land, which is vital for national defense and 
readiness, while simultaneously maintaining compliance with the 
Endangered Species Act.
    There are 170 distinct threatened and endangered species on 94 Army 
installations. The increased operational tempo of Army activities is 
placing an increasing demand on land use. Additionally, urban 
development is further isolating the natural habitats located on Army 
installations. As critical habitat is destroyed on unprotected private 
lands adjacent to Army installations, training areas and ranges provide 
the only remaining large areas of habitat in many regions.
    Integrated Natural Resource Management Plans are serving as good 
tools to help the Army avoid future problems and reduce costs of 
repairing disturbed soil, vegetation, and wildlife habitats. These 
plans not only help us manage threatened and endangered species 
habitat, but also continue the long-standing tradition of providing 
outdoor recreation opportunities for soldiers and their families.

                              RESTORATION

    The Army's commitment to its restoration program remains strong as 
we continue to make progress toward our goals of reducing risk and 
restoring property for future generations. With our regulatory and 
community partners, we are exploring ways to improve and accelerate 
cleanup. Achieving site closure and ensuring long-term remedies are 
challenges we are prepared to face. Improved business practices, 
partnerships, and innovative technologies, have enabled us to provide 
sound stewardship of the environment and taxpayer dollars.
    The fiscal year 2003 budget request for Army Restoration is 
$395,900,000, and this funding level will meet our legal agreements and 
the Defense Planning Guidance goal of fiscal year 2014. Also reflected 
in the total Army Environmental Program budget request is $146,156,000, 
which represents the environmental portion of the total BRAC budget 
request. In addition, the Office of the Secretary of Defense has 
requested $212,102,000 for the Formerly Used Defense Sites (FUDS) 
program.
    The Army's environmental restoration program addresses active, 
BRAC, and FUDS properties that became contaminated due to past 
practices. Protection of human health and the environment is the 
primary goal for the Army's restoration programs. Another Army goal is 
to restore sites to productive use and move sites into ``response 
complete'' phases as quickly as possible. Examples of initiatives to 
meet these goals are Scranton Army Ammunition Plant, the first military 
installation to complete cleanup under the Pennsylvania-DOD Multi-Site 
Agreement, and Sudbury Training Annex, the cleanup of which has 
resulted in its deletion from EPA's National Priorities List.
    By the end of fiscal year 2001, the Army completed response at 85 
percent of active sites, 80 percent of its BRAC sites, and 57 percent 
of its FUDS sites. We continue to move forward in our goal of 
completing environmental restoration and disposal/transfer of 
activities.
    The Army is expanding its efforts to focus on completion, thereby 
freeing up much needed resources for our warfighting mission. We are 
accomplishing this through management initiatives that emphasize 
comprehensive program reviews--scrutinizing remedies, applying new 
technologies, providing additional technical expertise and training, 
and resource optimization--focusing resources on selected 
installations; and increased partnering and stakeholder outreach--
enabling us to accelerate the cleanup by reaching agreement early in 
the process.
    The Army has several review tools that have made significant 
improvements across programs, primarily through measuring cost-
effectiveness. Groundwater Extraction Treatment Effectiveness Reviews, 
Principles of Restoration Workshops, Focused Technical Review, and Exit 
Strategy Meetings are all designed to take a close look at a specific 
portion of the program and hold it up to intense scrutiny.
    For example, the Groundwater Extraction Treatment Effectiveness 
Review has optimized efficiencies directly through the implementation 
of the Groundwater extraction and Treatment Evaluation Review program 
since 1999. To date, this program has reviewed over 20 existing and 
proposed groundwater remedies at Army installations across the country 
and has identified approximately $45 million potential life cycle cost 
avoidances at those installations during the past year alone.
    An innovative contracting mechanism that is significantly different 
from the standard cost-plus type environmental restoration contract is 
the Guaranteed/Fixed Price Remediation (G/FPR) contract. Although it is 
currently being used only at BRAC sites, active sites, and FUDS, 
properties may also use G/FPR contracts more frequently in the near 
future. A G/FPR contract was awarded for Fort Gordon in fiscal year 
2001, and one is scheduled for award at Fort Leavenworth in fiscal year 
2002. Under a G/FPR contract, the Army maintains ownership of the site 
while the contractor performs the cleanup, negotiates with regulators, 
and guarantees regulatory closure for a fixed price. The fixed price 
element of the contract protects the Army from costly overruns 
associated with any unknown contamination found on a site and transfers 
the risk of cost overruns to the contractor. The contractor, in turn, 
obtains private insurance to protect from costs associated with the 
cleanup of previously unknown contaminants.
    The Army is currently piloting the concept of a regionalized long-
term monitoring/long-term operation contract in EPA Region VII. The 
intent of a regionalized contract is to gain efficiencies in conducting 
similar efforts in bulk. The current pilot covers Long Term Management/
Long Term Operation (LTM/LTO) activities at active installations, BRAC 
installations, and FUDS properties. If successful, regionalized 
contracts may be implemented in other regions and may include 
environmental compliance activities.

                    ENVIRONMENTAL QUALITY TECHNOLOGY

    The Army's Environmental Quality Technology (EQT) Fiscal Year 2003 
budget request is $52,669,000, which is an increase of $19 million over 
the fiscal year 2002 budget request. This will fund continuing Army 
research, development, and test and evaluation to address the Army's 
high priority EQT requirements, and the request supports the increased 
investment in range sustainability, reduction of ownership costs, and a 
high rate-of-return on investment of limited EQT resources.
    Illustrative of our fiscal year 2003 programs are initiatives like 
range sustainment and the identification and discrimination of UXO. The 
Army EQT training range-related programs use a holistic approach to 
resolve environmental issues that impact military readiness. The 
program addresses a comprehensive suite of historic and emerging range-
related environment and safety issues that include UXO, impacts of 
explosives, contaminated soils and groundwater, dust control, and land 
rehabilitation. In addition, sustainability of ranges is an overarching 
concept, which incorporates appropriate sustainable design elements 
into planning, design, construction, and operation and maintenance 
functions to enhance and balance total life cycle costs affecting 
environmental, safety, and occupational health issues impacting 
soldiers, installations, and adjacent communities.
    Unexploded ordnance and munitions' constituents present a 
significant challenge to installations seeking to manage and clean up 
their test and training ranges, sites designated for BRAC, and FUDS. 
Current technologies used to identify, discriminate, and address clean 
up practices for UXO and munitions constituents are, for the most part, 
neither cost nor time efficient. Development of new technologies 
capable of detecting UXO with high detection rates and low false alarm 
rates to drastically reduce the cost of site characterization and 
cleanup are needed. Development of these technologies is among the 
highest priority for the EQT Program, and the DOD community. The Army 
has recognized the importance of this problem and has fully funded its 
UXO technology program that seeks to resolve the detection and 
discrimination problem.
    The EQT Program is an increasingly robust vehicle for 
identification of Army requirements. Because of its inherent fiscal 
accountability, the program provides senior leadership the confidence 
to champion its programs. Through this program, the Army continues to 
establish environmentally compatible installations and weapons systems 
through development and exploitation of technology, without 
compromising mission readiness or training. The Office of the Secretary 
of Defense has placed the Army EQT process in the forefront as an 
appropriate model to be used to identify, prioritize, and resolve high 
priority EQT requirements.

                        FISCAL YEAR 2003 SUMMARY

    Mr. Chairman, our fiscal year 2003 budget is a balanced program 
that permits us to execute our construction programs; provides for the 
military construction required to improve our readiness posture; 
provides for family housing leasing, operations, and maintenance of the 
non-privatized inventory; and initiates privatization at seven 
additional installations. This budget request further provides for 
protection of training lands, environmental compliance with Federal and 
State regulations, restoration of contaminated sites, and important 
technology and pollution prevention initiatives in support of Army 
infrastructure, material systems, and operations and training. This 
request is part of the total Army budget request that is strategically 
balanced to support both the readiness of the force and the well-being 
of our personnel. Our long-term strategy can only be accomplished 
through sustained, balanced funding, divestiture of excess capacity, 
and improvements in management and technology. We will continue to 
streamline, consolidate, and establish community partnerships that 
generate effective relationships and resources for infrastructure 
improvement, continuance of services, and improved quality of life for 
soldiers, their families, and the local communities of which we are a 
part.
    The fiscal year 2003 request for the active Army is for 
appropriations and authorization of appropriations of $2,882,141,000 
for military construction, Army and Army Family Housing.
    The request for appropriations and authorization of appropriations 
is $101,595,000 for military construction, Army National Guard and 
$58,779,000 for the military construction, Army Reserve.
    The request for appropriations and authorization of appropriations 
is $1,580,492,000 for the Army environmental program.
    Mr. Chairman, this concludes my statement. Thank you.

    Senator Akaka. Thank you for your statement. As I said 
earlier, your full statements will be placed in the record, and 
the chair would appreciate it if you could abbreviate your 
statements.
    Secretary Johnson.

STATEMENT OF HON. H.T. JOHNSON, ASSISTANT SECRETARY OF THE NAVY 
                (INSTALLATIONS AND ENVIRONMENT)

    Secretary Johnson. Thank you, Mr. Chairman, distinguished 
members of the subcommittee. I am H.T. Johnson, Assistant 
Secretary of the Navy for Installations and Environment, and I 
will try to abbreviate my comments.
    We have done well in the current budget in installations. 
We have $9.3 billion associated with installations, versus $8.9 
billion last year. Overall we have increased in MILCON, as I 
will point out in a moment.
    Our Secretary and our services believe in quality of 
service, which has two components: quality of life and quality 
of performance. We have tilted our funding this year on quality 
of life for our marines, sailors, and their families. We are 
also concerned about the quality of performance and life for 
our civilians and contractor teams associated with the 
Department of the Navy.
    We have increased our housing construction and improvement 
by 15 percent. This has allowed us to build 1,147 new homes and 
renovate over 3,000 others. We have also funded a lot for 
bachelor housing. Many of you might not realize that 31,000 of 
our sailors do not have a room ashore. When their ship is in 
home port they have to sleep on the ship. We have a commitment 
to provide rooms for them. We will need your help in some of 
those areas. Since 5,000 of those sailors are in Japan, we will 
convince them to fund that part. However, we have 26,000 to 
take care of and we hope to have everybody ashore provided a 
room by 2008.
    We have also added $269 million to better sustain our 
facilities. This is 15 percent above last year's enacted level.
    Unfortunately, our military construction is down to $948 
million for the Active and Reserve Forces. This is the second 
highest. Last year was higher, about $1.1 billion, so we are 
down a little bit there. But as Mr. DuBois mentioned, BRAC was 
not even mentioned in this process to my knowledge. It 
certainly did not play a role.
    We are fully funding our environmental compliance, 
conservation, and pollution accounts. We have made great 
strides, which are explained fully in our statement for the 
record. We have cleaned up more than we had planned and we are 
ahead of schedule. The former BRAC bases were fully funded last 
year, and next year we have even increased funding by 22 
percent to $261 million.
    We are making good progress on closing out these BRAC 
bases. I have a personal interest in closing them out, not just 
cleaning them up and holding onto them, and our Secretary 
supports that very strongly.
    As Mr. DuBois mentioned, Secretary Rumsfeld reduced the 
time line to get quality housing for family members to 2007. 
The Navy meets that goal and the Marine Corps beats it by 2 
years, so we are in good shape there.
    We have been very fortunate in the housing privatization 
process. The public-private ventures or partnerships have 
worked very well. We have a total of 6,600 that have been 
completed, 1,800 under way, and another 12,000 at 7 locations 
that we are looking at.
    I believe we have great opportunity to take that same 
principle and carry it into homes for our bachelors. We have 
not always taken good care of our bachelors, and we believe 
this is a way that we can make good homes a self-sustaining 
entitlement for our families as well as our bachelors.
    It would not be proper if I did not take credit for the 
Department for the great job that our marines and sailors have 
done in our energy program. Last year there were four awards at 
the national level. We got two of the four, and that just 
speaks on the dedication our individuals have. One of those was 
in southern California, and certainly last year they had 
challenges there.
    One major challenge that we continue to face and one that 
Mr. DuBois mentioned is encroachment. We have put a lot in our 
statement about encroachment. We are taking it on as a 
Department, and more importantly, we are working to make sure 
that we can provide realistic combat training on land and in 
the air for our troops, as well as testing new equipment.
    We are getting good cooperation from other agencies. I have 
been very impressed by that.
    We never seek blanket environmental exceptions from 
military needs. From the deck plate to the training range, we 
will continue to abide by all of the National, State, and local 
environmental standards. We do want to try to work some balance 
into some of the areas that we have difficulty on regarding 
encroachment, such as the Endangered Species Act, the Migratory 
Bird Act, and the Marine Mammal Protection Act. This is a 
complex issue and we are dedicated to face it. We realize that 
as time goes on this encroachment issue will grow larger.
    We have looked at Camp Pendleton ad nauseam for the last 
few months. It separates Los Angeles and San Diego and there is 
not much on each side, so we have a great problem.
    We share your desire to earn the trust of the American 
people. I believe that DOD is a recognized leader in 
environmental stewardship. We are the ultimate defender of our 
environment as well as our Nation, and we have to find the 
right balance to prepare for that ultimate mission.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.
    [The prepared statement of Secretary Johnson follows:]

                Prepared Statement by Hon. H.T. Johnson

    Mr. Chairman and members of the subcommittee, I am H.T. Johnson, 
Assistant Secretary of the Navy (Installations and Environment). I 
appreciate the opportunity to speak to you today on the Department of 
the Navy's shore infrastructure and environmental programs.
    We are all justifiably proud of the way this Nation's military 
forces have responded to the September 11 terrorist acts in New York, 
Pennsylvania, and Washington, DC. From providing increased security for 
homeland defense at airports and port facilities against future 
potential threats, Tomahawk cruise missiles fired from ships and 
submarines, and carrier-based Navy and Marine Corps aircraft providing 
80 percent of the combat sorties over Afghanistan, sailors and marines 
have served proudly and with distinction to eliminate terrorist threats 
in what was previously considered a landlocked sanctuary. In Operation 
Enduring Freedom and the global war on terrorism, on-station Naval 
Forces were first to respond, fight, and secure U.S. interests.
    It takes highly trained and motivated individuals, using advanced 
technologies and weapon systems, to successfully pursue U.S. military 
objectives. Our bases and stations provide direct and indirect support 
to forward-deployed Naval Forces. Perhaps more importantly, such 
installations are the means by which Naval Forces are formed, trained, 
maintained, and housed. Our environmental programs help ensure our 
continued use of military training areas on land and at sea, while also 
complying with national and international environmental standards.
    The Secretary of the Navy has repeatedly said people are our most 
important asset. Military pay and benefits are obviously important. But 
members of this subcommittee know that a modern, well maintained 
infrastructure is a very strong ``people'' program; it's the pier, 
hangar, warehouse, and where sailors, marines, civilian employees, and 
contractors report to work; it's the classroom and the training range 
where they learn and hone their skills; it's the nice home in a good 
neighborhood where our military members and their families live. It's 
also the commitment to effective safety and occupational health 
programs that protects them from the daily hazards they face, whether 
on the job or off. The military mission is inherently a dangerous one. 
Whether it is training for the mission, carrying out the mission, or 
preparing the weapons and weapon systems that may be employed, we need 
to, and are, pursuing a vision of zero mishaps for the future by 
institutionalizing operational risk management, embracing best business 
practices, and adopting key safety technologies.
    I will begin by summarizing our fiscal year 2003 budget request, 
and follow with more details in each program area.

                      THE FISCAL YEAR 2003 BUDGET

Shore Infrastructure Budget
    The Department of the Navy shore infrastructure budget includes 
these appropriations: military construction, Navy; military 
construction, Naval Reserve; family housing, Navy and Marine Corps; 
Base Realignment and Closure; and the operations and maintenance 
accounts which provide base support and sustainment, restoration, and 
modernization.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our fiscal year 2003 infrastructure budget request continues the 
progress we have made in last year's budget. Our budget request of $9.3 
billion represents a 4.5 percent increase over the enacted fiscal year 
2002 level of $8.9 billion. While maintaining the overall forward 
momentum, we have emphasized housing and the sustainment of our 
existing facilities, consistent with the priorities of the Secretary of 
Defense, the Secretary of the Navy, the Chief of Naval Operations, and 
the Commandant of the Marine Corps. There are notable gains in these 
areas.
    Housing is a cornerstone of our efforts. The fiscal year 2003 
family housing construction request totals $376 million, a 15 percent 
increase over the fiscal year 2002 enacted level of $328 million. This 
funding will allow us to build 1,147 new homes (all but 65 are 
replacement construction) and renovate 3,137 existing homes. Included 
in this improvement request is $33 million for privatization at Pearl 
Harbor, Hawaii. Our family housing operations and maintenance request 
totals $868 million, a 4 percent reduction below the fiscal year 2002 
enacted level. This reduction is due to a net reduction of 
approximately 5,000 government owned homes, primarily the result of 
privatization efforts.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our military construction request for the active component totals 
$895 million, consisting of 43 Navy and 19 Marine Corps projects. The 
facts are that there are other pressing requirements, most of which are 
associated with the conduct of the war on terrorism. After the 
September 11 attack, the Department was required to make some difficult 
choices to pursue the war on terrorism. The Secretary had to achieve 
balance across many competing needs. This military construction budget 
request is the second largest in 6 years. It is exceeded only by our 
fiscal year 2002 request, and is considerably larger than previous 
requests. We are planning to use some of the funds allocated for anti-
terrorism/force protection (AT/FP) from the Defense Emergency Response 
Fund (DERF) toward military infrastructure. These additional funds are 
not included in any tables or other discussion in this statement.
    Nearly three-quarters of the military construction request is for 
restoration and modernization projects. Consistent with our focus on 
solving housing needs, the active military construction request 
includes a robust bachelor housing effort totaling $275 million to 
construct, improve and replace 4,360 bachelor-enlisted quarters beds. 
There is also $69 million for six Navy and two Marine Corps quality of 
life projects, including fitness centers and dining facilities. We have 
included $69 million for planning and design efforts, and raised our 
request for unspecified minor construction to $23 million under the 
expectation that further AT/FP efforts will be needed.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our military construction, Reserve request totals $52 million, 
about the same as the fiscal year 2002 enacted level. There are six 
Navy (including a bachelor enlisted quarters for 92 spaces) and three 
Marine Corps projects totaling $48 million, $2.5 million for planning 
and design, and $1 million for unspecified minor construction.
    Our prior Base Realignment and Closure request totals $259 million, 
a 20 percent increase over the fiscal year 2002 enacted level of $215 
million. This funding supports caretaker functions and cleanup of 
contamination at base closures under the four previous rounds (i.e., 
BRAC 1988, BRAC 1991, BRAC 1993, and BRAC 1995). This request meets all 
current regulator and community expectations for cleanup at our BRAC 
bases. I am pleased to report we have resolved our fiscal year 2002 
shortfall as a result of the additional funds provided by Congress, the 
availability of land sale revenue, and the use of prior year BRAC funds 
which we have determined are no longer needed for their original 
intended purpose. These prior year BRAC funds are being reallocated to 
fund fiscal year 2002 BRAC cleanup needs.
    Our sustainment, restoration, and modernization (SRM) funded by 
operations and maintenance accounts request totals $2,066 million, a 15 
percent increase over the fiscal year 2002 enacted level of $1,797 
million. This $269 million increase in funding allows the Marine Corps 
to achieve 92 percent, and Navy 84 percent, of the sustainment 
requirement for the existing facilities inventory based on the current 
requirements model. This provides the highest level of sustainment 
funding achieved using this metric, considerably higher than the 
estimated 80 percent for Marine Corps in fiscal year 2002, and the 
estimated 71 percent Navy average over the 3 previous years.
Environmental Budget
    Our environmental budget request totals $1.2 billion, the same as 
the fiscal year 2002 enacted level of $1.2 billion. Environmental 
quality is the single largest portion of the environmental budget. 
Funding for this function is contained in a number of different DON 
accounts: the active and Reserve operations and maintenance 
appropriations for Navy and Marine Corps; other procurement, Navy; 
military construction, Navy; military construction, Naval Reserve; 
research, development, test, and evaluation, Navy; and Navy working 
capital fund. This level of funding supports the basic environmental 
compliance, conservation, and pollution prevention functions at our 
bases, e.g., personnel salaries, environmental permits and fees, 
environmental sampling and laboratory analysis, and hazardous waste 
disposal costs. It also funds all known one-time compliance projects to 
meet fiscal year 2003 Federal, State, and local environmental standards 
such as the Clean Water Act, Clean Air Act, Safe Drinking Water Act, 
Resource Conservation and Recovery Act, and Act to Prevent Pollution 
from Ships.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The environmental restoration program, also called the cleanup 
program, is designed to clean up contamination at current active Navy 
and Marine Corps bases. Cleanup funding at active bases is on par with 
last year, and provides sufficient funds to meet all legal agreements 
now in place with EPA and the States while continuing consistent 
progress to program completion in 2014.
    The budget request continues a large environmental research and 
development effort, primarily aimed at resolving current and future 
marine environmental issues for our ships. For example, the budget 
request includes $10 million for marine mammal research to better 
understand behavior, habitat, and sensitivity to sound generated in the 
water.
    The Navy is approaching the end of a 10-year effort to clear 
ordnance at Kaho'olawe, a small, uninhabited island in Hawaii that 
served as a naval bombing range for over 50 years. The fiscal year 2003 
budget request of $25 million is the same as the fiscal year 2002 
budget request. Although the clearance effort will not achieve full 
clearance of unexploded ordnance, it has already met the goals of 
Public Law 103-139 to allow public access for cultural, religious, and 
educational purposes. In accordance with this statute, the Navy will 
conclude its clearance efforts, and turn over access control of 
Kaho'olawe to the State of Hawaii in November 2003. We are grateful for 
the close cooperation we have received from the Kaho'olawe Island 
Reserve Commission on behalf of the State of Hawaii.
    I would now like to address specific program areas in more detail:

                                HOUSING

    We have two overarching housing principles:

        <bullet> Our sailors and marines, and their families, are 
        entitled to quality homes; and
        <bullet> Housing that we provide, either directly through 
        ownership or indirectly through privatization, must be self-
        sustaining over the long term. ``Self-sustaining'' means that 
        we must ensure that the resources are there to operate, 
        maintain, and recapitalize the home throughout its life.
Family Housing
    Our family housing strategy consists of a prioritized triad:

    1. Reliance on the Private Sector. We rely first on the local 
community to provide housing for our sailors, marines, and their 
families. Three out of four Navy and Marine Corps families receive a 
Basic Allowance for Housing (BAH) and own or rent homes in the 
community. Our bases have housing referral offices to help newly 
arriving families find suitable homes in the community.
    2. Private Financing through Public/Private Ventures (PPVs). With 
the strong support from this subcommittee and others, we have 
successfully used statutory PPV authorities enacted in 1996 to partner 
with the private sector and meet our housing needs, in part, through 
the use of private sector capital. These authorities, which I like to 
think of in terms of public/private partnerships, allow us to leverage 
our own resources and provide better housing faster to our families. We 
are aggressively seeking additional opportunities to meet our housing 
needs through the use of PPVs.
    3. Military Construction. Military construction will continue to be 
used where PPV authorities don't apply (such as overseas) or where they 
don't make financial sense for the Department.

    Some years ago, the Secretary of Defense established a goal to 
eliminate inadequate military family housing units by fiscal year 2010. 
Secretary Rumsfeld recently accelerated that goal by 3 years, to fiscal 
year 2007. Through a combination of increased funding and increased use 
of PPV authorities, I am pleased to say that the Navy and Marine Corps 
have stepped up to the challenge: the Navy will meet the Office of the 
Secretary of Defense (OSD) goal and eliminate their inadequate family 
housing by fiscal year 2007. The Marine Corps will exceed the goal and 
eliminate their inadequate housing by fiscal year 2005.
Bachelor Housing
    Our budget request continues the emphasis on improving living 
conditions for our unaccompanied sailors and marines. While we are 
nearing the achievement of our goal for improving family housing, our 
track record in addressing the housing needs of our single members has 
been uneven. One of our top priorities is to focus attention and 
resources on improving bachelor housing. There are three challenges:

    1. Provide Homes Ashore for our Shipboard Sailors. There are 
approximately 31,000 sailors worldwide who are required to live aboard 
ship even while in homeport. This situation is unacceptable. The recent 
change in law allowing E4s to receive BAH is a step in the right 
direction. Under current levels of funding, the Navy estimates that it 
will be able to achieve its ``homeport ashore'' initiative by fiscal 
year 2008. Our fiscal year 2003 budget includes two ``homeport ashore'' 
projects that will provide homes ashore to 764 shipboard sailors at 
Norfolk, VA and Bremerton, WA. Through continued emphasis on military 
construction and the use of private financing authorities for bachelor 
housing, I strongly believe we can, and must, do even better.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    2. Ensure our Barracks Meet Today's Standards for Privacy. We are 
continuing our efforts to construct new and modernize existing barracks 
to provide increased privacy to our single sailors and marines. The 
Navy applies the ``1+1'' standard for permanent party barracks. Under 
this standard, each single junior sailor has his or her own sleeping 
area and shares a bathroom and common area with another member. To 
promote unit cohesion and team building, the Marine Corps was granted a 
waiver to adopt a ``2+0'' configuration where two junior marines share 
a room with a bath. Both configurations allow for more private quarters 
for our senior sailors and marines. Our fiscal year 2003 request 
reflects a recent change in OSD criteria that gives the services 
flexibility to adjust the proportion of living area and common space 
within an overall limitation of 66 square meters (710 square feet) per 
module. The Navy will achieve these barracks construction standards by 
fiscal year 2013; the Marine Corps by fiscal year 2010.
    3. Eliminate gang heads. The Navy and Marine Corps remain on track 
to eliminate the inadequate barracks with gang heads for permanent 
party personnel.\1\ The Navy will achieve this goal by fiscal year 
2008; the Marines by fiscal year 2005.
---------------------------------------------------------------------------
    \1\ Gang heads remain acceptable for recruits and trainees.

Family Housing Privatization
    We are using a two-step approach for PPV. The first step (Request 
for Qualifications (RFQ) phase) allows a list of proposers to be 
narrowed to those who are judged to be highly qualified on the basis of 
their experience, financial capabilities, and vision for meeting our 
needs. Those proposers judged to be ``highly qualified'' (typically 
four to six) are then invited to submit technical and financial 
proposals to achieve our project objectives. We then select a preferred 
developer with whom we enter into exclusive negotiations. In all PPV 
projects, we have established the following objectives:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
        <bullet> Self-sustaining projects that provide for necessary 
        recapitalization over the long-term without additional 
        infusions of cash;
        <bullet> A legally recognized voice in key decisions made over 
        the life of the agreement;
        <bullet> Flexibility to accommodate unforeseen changes over the 
        life of the agreement; and
        <bullet> Protection of government interests and minimization of 
        government exposure in case of default, poor performance, or 
        non-performance.

    We have now awarded eight PPV projects totaling 6,583 homes. 
Through the use of these authorities we have leveraged $135 million in 
DON funds with $478 million in private sector capital for a combined 
investment of $613 million in homes for our sailors, marines, and their 
families. We have effectively expanded our buying power by stimulating 
over $4.50 of construction for each $1.00 we have contributed. We 
currently have two additional projects in procurement (not yet awarded) 
and another eight projects in planning. All told, the projects, either 
in procurement or planning, total 13,792 homes.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
Private Financing Alternatives for Bachelor Housing
    I believe that there are real opportunities for applying PPV 
authorities to our barracks needs. We held an industry forum last 
November with developers, lenders, and property managers. We learned 
that there is a potential to use private sector financing to improve 
bachelor housing. We are developing three bachelor housing pilot 
projects--Hampton Roads, VA; Camp Pendleton, CA (Del Mar); and 
Quantico, VA (Basic School). We look forward to bringing these 
proposals to the subcommittee in the near future.
Housing Issues
    We appreciate Congress extending the military housing public/
private venture authorities to 2012. DOD is considering additional 
legislative changes to improve our efforts in family housing and remove 
obstacles for the application of these authorities to bachelor housing, 
such as combining family and bachelor housing privatization accounts 
into a single fund to facilitate joint projects.

                               FACILITIES

Sustainment, Restoration, and Modernization
    With this budget, the DON is implementing the new DOD methodology 
for facilities maintenance and repair. Sustainment is the amount of 
funding required for scheduled maintenance and facility component 
repairs over the expected service life of the facility. It does not 
improve the condition or readiness of the facility. It is calculated 
using the DOD Facilities Sustainment Model (FSM), which considers 
facilities quantity data (most often square feet), and unit cost 
factors (most often dollars per square foot) derived from private 
industry. The calculated sustainment requirement is unique to the DON 
infrastructure inventory and adds consistency and audit ability in 
determining our requirement. FSM projects inventory gains (new 
construction) and losses (demolition, privatization, excess facilities) 
to arrive at a total sustainment requirement. The sustainment metric is 
the percentage funded of the FSM generated requirement. While competing 
budget pressures precluded us from doing better, this budget request 
meets more than 85 percent of the Department of Navy FSM calculated 
requirement--much better than in previous years.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Restoration and modernization (R&M) is the portion of SRM that goes 
beyond sustainment to improve the condition and readiness of the 
facility, using operations and maintenance as well as military 
construction funds. The operations and maintenance funds help to 
correct poorly rated facilities and to recapitalize the inventory. R&M 
requirements are based on an investment level to achieve a DOD average 
67 year recapitalization rate, with all facilities satisfactorily 
sustained. Over the FYDP, R&M (O&M and MILCON) is funded to eliminate 
facility deficiencies by 2013. The fiscal year 2003 recapitalization 
rate is 122 years and the FYDP (03-07) average is 83 years.
Anti-terrorism/Force Protection
    Every installation has increased its security posture since the 
attacks of September 11. Additional security personnel, technology 
(security systems, detection devices), security fencing, barriers, 
security boats, and training are being used to enhance our AT/FP 
posture. The SRM budget includes $147 million in AT/FP projects. These 
measures include shatter resistant windows, structural reinforcement, 
and building hardening.
    The military construction budget request has incorporated AT/FP 
measures within the scope of each project, where appropriate. These 
measures include standoff distances, shatter resistant windows, 
structural reinforcement and building hardening. These features account 
for $17.5 million within the projects requested in the fiscal year 2003 
MILCON program.
    There are seven military construction projects totaling $107 
million that support specific AT/FP enhancements and/or improvements. 
These projects were identified after the September 11 attacks:

        <bullet> Advanced Explosive Ordnance Disposal Training 
        Facility, Eglin AFB, FL--$6.4 million;
        <bullet> Shoreline Security Fencing, Naval Station, Norfolk, 
        VA--$2.0 million;
        <bullet> Installation Services Support Center, Naval Support 
        Activity, Bahrain--$26.0 million;
        <bullet> Parking Garage and Perimeter Security Upgrade, Naval 
        Air Station, Sigonella, Italy--$19.6 million;
        <bullet> AT/FP Improvements, Naval Shipyard, Kittery, ME--$11.6 
        million;
        <bullet> AT/FP Improvements, Naval Shipyard, Portsmouth, VA--
        $19.7 million; and
        <bullet> AT/FP Improvements, Naval Shipyard, Puget Sound, 
        Bremerton, WA--$21.7 million.
Building Demolition
    Our centralized demolition program remains a success story. Defense 
Reform Initiative Directive 36 directed the Navy and Marine Corps to 
dispose of excess facilities over the period of fiscal year 1998 
through fiscal year 2002. Navy will exceed its goal of 9.1 million 
square feet (MSF) in fiscal year 2002. The Marine Corps met its goal of 
2.1 MSF in fiscal year 2000. Both Services will continue the demolition 
program. Our fiscal year 2003 budget request continues this effort, 
with Navy planning to spend $42 million on 50 projects to demolish 2.0 
MSF and Marine Corps planning to spend $5 million on 15 projects to 
demolish 0.5 MSF. The Navy has expanded the use of the central account 
funds to allow limited relocation and repair costs to consolidate 
functions before demolishing the vacated building. These actions will 
eliminate obsolete excess facilities, and further reduce SRM needs.
Energy and Utilities Privatization
    To comply with Executive Order 13123 goals, Federal agencies must 
reduce energy consumption 30 percent by fiscal year 2005 and 35 percent 
by fiscal year 2010, using fiscal year 1985 as the baseline. I am 
pleased to report that we have reduced consumption by nearly 25 percent 
through fiscal year 2001, exceeding our target of 24 percent. To meet 
these goals, we are implementing energy efficient technologies, 
conducting energy awareness programs, and using private sector 
expertise. I am delighted that the DON energy program received two of 
the four government wide Presidential Energy Awards presented by the 
Vice President at a ceremony on October 18, 2001.
    We are also expanding the use of geothermal energy production at 
Naval Air Warfare Center China Lake, CA and Naval Air Station Fallon, 
NV. This gives us a cost efficient method to use private sector 
financing to generate additional energy in the western U.S. while using 
our land for military training needs.
    Defense Reform Initiative Directive 49 directed the services to 
privatize their natural gas, water, wastewater, and electrical systems 
except where uneconomical or where precluded by unique security 
reasons. Privatization is expected to reduce total ownership costs 
while upgrading the reliability of our utility systems. The DON is 
continuing efforts to privatize, where economically beneficial, 704 
systems at 122 activities worldwide by fiscal year 2005. Proposals are 
now being evaluated to privatize utility systems at the Marine Corps 
base at Twentynine Palms, CA, and Navy and Marine Corps installations 
in the Great Lakes and Washington, DC regions.
Facilities Issues
    The DOD is considering a number of facilities related proposals, 
including:

        <bullet> Reduction in long-term facility maintenance costs. 
        Expands the demonstration program under Section 2814 of the 
        National Defense Authorization Act for Fiscal Year 2002, now 
        limited to the Army, to allow a single contractor to design, 
        build, operate, and maintain facilities funded with military 
        construction funds. It would allow additional demonstration 
        projects that seek to reduce life cycle costs for facilities 
        within the DOD.
        <bullet> Conveyance of surplus real property for natural 
        resource conservation purposes. Allows the transfer of 
        environmentally sensitive property with endangered species 
        habitat to a non-governmental organization. This type of 
        property can now only be transferred to governmental entities. 
        This proposal would expand the field of potential recipients, 
        expanding the opportunity to dispose of excess property that 
        has limited commercial development potential.
        <bullet> Amend 10 U.S.C. 2810 Construction Projects for 
        Environmental Response Actions. Based on Congress' new 
        definition of repair, the Services are not able to continue to 
        define environmental restoration of soil as repair. The 
        unintended consequence of this redefinition is that these 
        cleanups would have to be classified as MILCON, with all of the 
        necessary approvals inherent with that funding source. This 
        proposal would return the status of environmental restoration 
        projects as repair and allow these cleanup projects to be 
        funded from the environmental restoration accounts in the DOD 
        Appropriations Bill. Notification would be submitted for 
        projects estimated over $10 million.

                   PRIOR BASE REALIGNMENT AND CLOSURE

Status
    We are now in the home stretch to complete environmental cleanup 
and property disposal from the four prior rounds of BRAC, 1988 under 
Public Law 100-526 and 1991, 1993, and 1995 under Public Law 101-510. 
We were authorized to implement a total of 178 actions consisting of 46 
major closures, 89 minor closures, and 43 realignments. We have 
completed closure and realignment of all bases except one move from 
leased space to government owned space.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our focus is now on cleanup and property disposals for 595 parcels 
at 90 installations. I am pleased to report that to date we have 
transferred 354 parcels comprising over 69,000 acres. Conveyance 
actions are complete at 60 of the 90 installations. Still to go are 241 
parcels at 30 installations. Completing environmental cleanup is 
generally the critical path to conveyance. The fiscal year 2003 budget 
is sufficient to meet all regulator requirements and commitments to 
local redevelopment authorities.
A Look Ahead
    We have ambitious plans for property disposals during the remainder 
of fiscal year 2002 and into fiscal year 2003. At Mare Island we have 
signed early transfer agreements that will convey approximately 3,670 
acres to the city of Vallejo and the State of California for economic 
use and development. At Hunters Point, the Secretary of the Navy signed 
an agreement with the city of San Francisco to work with a public/
private partnership to accelerate the conveyance of this property. At 
the former Oakland Naval Hospital, we have initiated action with the 
General Services Administration to sell the 174-acre property by public 
sale. We are nearing conveyance of the final parcels at each of the 
following locations: Annapolis, Long Beach, Louisville, Naval 
Activities Guam, New London, and Orlando, with another seven locations 
working toward planned transfer in fiscal year 2003.
    I will now discuss our environmental efforts, particularly with 
respect to mounting concerns about our ability to sustain military 
readiness.

                         ENVIRONMENTAL PROGRAMS

Sustained Readiness
    Military readiness is essential to the security of the United 
States, to the protection of the lives and well-being of our citizens, 
and to the preservation of our freedoms, economic prosperity, and our 
national heritage. A well-trained military is a principal component of 
military readiness. To be well-trained and prepared, sailors and 
marines must train in the same manner as they fight. Military lands and 
training ranges (including land, sea and air training and operating 
areas) exist to ensure military preparedness by providing realistic 
training opportunities, including the use of live ordnance.
    Having experienced combat first-hand, I can assure you that there 
is no substitute for training. In a world where advanced weapons and 
sensors are available for the right price, no amount of technology, 
hardware, personnel, or leadership can substitute for realistic 
training. When ground forces ashore call for gunfire or close air 
support in future combat, we cannot afford to have the ship or aircraft 
crew learn on the job.
    Population growth, economic development, increased land use, 
expansion of conservation and recreational areas, and urban and 
suburban sprawl, along with State and Federal environmental laws and 
regulations, have significantly restricted the military's access to and 
use of military lands, training ranges, and at-sea operating areas 
(OPAREAS), and limited its ability to engage in live-fire training. 
This phenomenon--sometimes referred to as ``encroachment''--has 
markedly restricted the military's ability to train realistically and, 
unless checked, promises to produce further restrictions in the future.
    Access restrictions have already negatively affected military 
readiness and will continue to erode it unless this trend is reversed. 
In some cases, the application of certain environmental laws and 
regulations to military lands and training ranges challenges their 
primary mission as locations for military training.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Our goal is to enhance readiness, not to roll back environmental 
protection. We are not looking for an exemption for everything the 
military does, but a balanced approach between environmental concerns 
and unique military readiness needs.
    Among the elements of our national heritage protected by the shield 
of military readiness is our Nation's environment--our land, air, and 
water as well as the fish, wildlife, and plant species that inhabit 
them. In addition to defending against foreign threats, the military 
acts as trustee, helping to protect the environment by its prudent and 
conscientious management of natural resources. Largely as a result of 
this stewardship, military lands present favorable habitats for plants 
and wildlife, including protected species.
    The DOD is a recognized leader in environmental stewardship and 
will continue to protect the Nation and the environment. We must have 
the flexibility to use military lands and OPAREAS for national defense 
as the first priority. There are numerous examples of environmental 
considerations that limit training opportunities, and increase the 
challenge of sustaining readiness.
    The designation of critical habitat under the Endangered Species 
Act (ESA) can undermine the purposes for which military lands have been 
set aside. Under the ESA, if an agency action may affect critical 
habitat, that agency is required to ensure that its action does not 
destroy or adversely modify designated habitat. We believe that 
designation of critical habitat on lands under military control will 
adversely affect military readiness. The courts have held that critical 
habitat is intended for species recovery. Once critical habitat is 
designated, such lands must be used first for species recovery. Hence, 
the designation of critical habitat is a bar to any land use that 
diminishes the value of that land for species recovery.
    The DOD is already obligated under the Sikes Act to develop 
Integrated Natural Resource Management Plans (INRMP) for lands under 
military control. These INRMPs address management of natural resources 
in the context of the military mission for which the lands were placed 
under the control of the military services. Because INRMPs are prepared 
in cooperation with the Fish and Wildlife Service (FWS) and State 
agencies, these agencies recommend ways for DOD installations to better 
provide for species conservation and recovery. The Sikes Act, however, 
preserves the principal purpose of providing the military with lands on 
which to test, train, and support military readiness.
    Nowhere is the potential impact of critical habitat designation on 
the use of military lands for military training more apparent than in 
Southern California, especially with respect to Marine Corps bases in 
that locale. In February and March 2000, FWS proposed designation of 
16,000 acres (more than half) of Marine Corps Air Station, Miramar for 
critical habitat. Areas proposed for designation included runways and 
other structures, although the runways and facilities themselves were 
not included. FWS also proposed critical habitat designation on about 
57 percent of Marine Corps Base, Camp Pendleton, an installation of 
126,000-acres. At Miramar, the Marines were able to convince FWS that 
the INRMP provided sufficient species protections therefore no formal 
critical habitat designation was made. At Camp Pendleton, FWS 
determined that the harm to military readiness was greater than the 
value of critical habitat designation, and scaled back its designation. 
Non-Federal entities are unhappy with these results, however, and are 
challenging these decisions in court.
    If the challenges are successful, critical habitat designation at 
Miramar could impede the construction and use of ground support 
facilities, such as a rifle range. The Marine Corps will also have to 
consult with FWS for the use of existing runways and other aviation 
support facilities. At Camp Pendleton, a loss could require the Marine 
Corps to consult on training on 57 percent of the base. The Corps is 
already modifying training on that portion of the base currently 
designated as critical habitat: Marine Expeditionary Unit (MEU) 
amphibious landing exercises are seasonally restricted to only one 
beach at Camp Pendleton. In March 2000, the 13th MEU was restricted to 
500 yards out of 17 miles of beach because of a number of encroachment 
restrictions, including endangered species. Instead of a realistic 
night time amphibious landing, units coming ashore on Landing Craft Air 
Cushion (LCACs) vehicles were off-loaded at the LCAC facility before 
moving inland to continue the exercise. They did not go through the 
full kinds of training required to prepare to take a hostile beach. 
This was a very serious degradation of training.
    The Navy has worked hard to ensure that its training needs and 
those of endangered species such as the Western Snowy Plover can co-
exist. Naval Air Base (NAB) Coronado has been home to Navy frogmen and 
SEALs since their inception in World War II. All of the basic skills 
from diving to hydrographic reconnaissance have been taught on the 
beaches and in the bays surrounding the base. Since 1996, the Navy has 
spent about $675,000 per year on conservation and management programs 
for the birds. That effort has successfully increased nesting by almost 
300 percent. Nonetheless, the Navy's stewardship efforts resulted in 
the loss of training area. Due to encroachment, including the increase 
in the Western Snowy Plover and the Least Turn population, and the 
designation of critical habitat for the Pacific population of the 
Western Snowy Plover by FWS in December 1999, NAB Coronado has lost the 
use of over 80 percent of its training beaches. The Navy has had to 
substantially alter training activities or to conduct them elsewhere, 
both of which disrupt training cycles, increase costs and the already 
considerable time sailors must spend away from their families before 
leaving for 6-month deployments.
    Rather than allowing successful stewardship to evolve into an 
infringement on training, there must be incentives that encourage 
continued conservation efforts. The Navy implemented a protection 
program for the endangered California Least Tern and Western Snowy 
Plover at Naval Amphibious Base Coronado, CA. Nests were relocated or 
marked, and areas with marked nests were avoided during training 
exercises. Over the period of 1993 through 2001, the number of Least 
Tern nests increased 600 percent and the number of Snowy Plover 
increased 300 percent. However, the FWS has allowed the Navy to take 10 
Least Tern nests and one Snowy Plover nest annually. The Navy has had 
to move, scale back or drop its amphibious training exercises because 
of the potential to exceed the number of takes allowed. The Navy has 
requested an increase in the number of takes. This would allow more 
effective training, and provide an incentive to continue a program that 
is manpower intensive and costly.
    Litigation under the Migratory Bird Treaty Act (MBTA) may result in 
restrictions on training at ranges and operating areas. MBTA was 
enacted more than 80 years ago to regulate commercial duck hunting and 
conservation of migratory birds. Since a U.S. Circuit Court of Appeals 
ruling, the MBTA has been viewed by some as a vehicle for regulating a 
wide range of activities that affect nearly every species of bird.
    Based on the Circuit Court decision, third parties have filed suit 
challenging the unintentional taking of migratory birds incidental to 
military training. The Navy has been sued over its use of a small, 
uninhabited island in the Western Pacific as a target range because the 
Navy does not have a permit to take migratory birds. We are concerned 
by the impact of the MBTA on training ranges and activities and are 
working within the administration to address this issue.
    The basic competition between military and conservation interests 
in the use of on-base resources highlights one area where we have a 
strong common interest: preservation and enhancement of undeveloped 
off-base land, water, and air resources. Both military and conservation 
interests have a major stake in preserving and enhancing the remaining 
open space surrounding military installations. Recognition of this 
common interest has led to discussions with State and local 
governments, as well as non-governmental organizations to develop a 
partnership approach to addressing our mutual concerns.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Access for military purposes is an issue at sea as well as ashore. 
The Marine Mammal Protection Act's definition of ``harassment'' has 
been a source of confusion since the definition was included in 1994 
amendments to the statute. The statute defines ``harassment'' in terms 
of ``annoyance'' or the ``potential to disturb,'' vague standards that 
are difficult to interpret. The definition of harassment and its 
application are pivotal because an authorization to harass marine 
mammals must be obtained in advance of any activity that would be 
deemed to constitute harassment. The Navy has had to alter or halt its 
training and research efforts to eliminate even the possibility that a 
training event will disturb a marine mammal to avoid the delays and 
uncertainty with getting a permit under this ambiguous standard. A 
clearer definition of harassment is needed. We are working with other 
interested Departments on a legislative proposal to clarify the 
definition of harassment. The recent recommendations of the National 
Research Council that focus harassment on significant disruptions to 
behaviors critical to survival and reproduction may be a worthy 
approach for this administration to consider. Military training plans 
could then incorporate these standards in a consistent, balanced 
manner.
    The DOD is working within the administration to identify ways to 
sustain the readiness of our forces. We must ensure the appropriate 
balance between military readiness and the environment, clarifying 
ambiguous statutory and regulatory requirements, finding more flexible 
ways to protect the environment, and working with conservation 
organizations to protect the environment within as well as outside the 
fence of our bases.
    Section 1041 of the National Defense Authorization Act for Fiscal 
Year 2002 directs the Secretary of Defense to prepare a report to the 
President and Congress on the need for a ``Defense Impact Review 
Process.'' This process would, if enacted, provide the DOD the 
opportunity to review the proposed actions of other Federal agencies in 
order to identify those actions which may have an adverse impact on 
national defense. We believe that just as the DOD must consider 
resource protection and conservation when formulating programs or 
actions, so should other Federal agencies consider national defense 
considerations. We are working with the Office of the Secretary of 
Defense and the other services to prepare the required report.
Munitions/UXO
    The Department has an aggressive program to manage munitions and 
unexploded ordnance (UXO) at operational, closed, and transferred 
ranges. At operational ranges, it is vital that we train our people in 
the same manner and under the same conditions that they would fight. We 
also need to ensure that range operations do not present an 
unacceptable risk to human health or the environment. We plan to 
conduct comprehensive environmental assessments at each of our 
operational ranges to ensure there are no environmental threats. To 
ensure long-term viability of our ranges, Sustainable Range Management 
Plans will be developed for all Navy and Marine Corps ranges. For 
closed ranges and properties to be transferred from DOD ownership, we 
plan to use DOD explosive safety authorities and the procedures 
prescribed under the Comprehensive Environmental Response, 
Compensation, and Liability Act (CERCLA) to take appropriate actions 
(e.g., munitions removal, limiting access) and to cleanup munitions 
constituents. As part of the DOD Munitions Response Committee, we are 
discussing the special nature of clearance and cleanup for munitions 
with State and Federal regulators. The subcommittee has set a goal to 
develop a collaborative decision-making process for clearance and 
cleanup of properties with munitions and munitions related 
contaminants. One of the models for this approach is the successful 
munitions clearance and cleanup at Adak, AK. The Navy, EPA Region IX, 
and the State of Alaska worked together to reach agreement on a risk-
based process for investigation, clearance, and remediation of the 
Navy's property at Adak.
Installation Restoration
    The installation restoration program, also called the cleanup 
program, is focused on the investigation and cleanup of contamination 
at sites located on active Navy and Marine Corps installations. There 
are 3,656 sites on 200 installations--129 of these installations have 
on-going cleanup activities while 71 installations are completed.
    We have established the following operating principles for the 
program:

        <bullet> We will evaluate, and ultimately close out all sites 
        in the program;
        <bullet> We will use relative risk evaluations and risk 
        management to determine priorities for action within available 
        funding;
        <bullet> We will maintain a stable funding profile at a level 
        that protects human health and the environment, and makes 
        progress toward fulfilling our legal obligation to address and 
        reach decisions at all sites;
        <bullet> We will plan, prioritize, and execute the program in 
        open dialogue with regulators and public stakeholders, and 
        ensure meaningful involvement of affected communities; and
        <bullet> We will expedite cleanups by using formal partnering 
        and the flexibilities and lead agency responsibilities 
        described in Executive Order 12580 and the National Contingency 
        Plan for Oil and Hazardous Substances Spills.

    By the end of fiscal year 2001, we had ``remedies in place'' or 
``responses completed'' at 61 percent of the active Navy and Marine 
Corps sites. I am pleased to report that fiscal year 2001 was a 
particularly successful year for us: we improved our process and 
cleaned twice as many sites while doubling the number of installations 
where all cleanup actions have been completed, compared to what we had 
planned to accomplish. Contributing to this success were major 
improvements in our site management database. More importantly, we have 
developed formal partnering arrangements with State and Federal 
regulators. This has led to a more streamlined process with fewer 
disagreements, which should hold us in good stead for the future.
    In 1995, we created a Cost to Complete Index. This index tracks the 
total remaining cost to complete the program, the cumulative amount 
invested and the cost avoidance achieved through the implementation of 
various management initiatives and the application of new technologies. 
The cost to complete for the program has been reduced from $5.23 
billion in fiscal year 1995 to $3.31 at the end of fiscal year 2001, 
including $570 million in cost avoidance. One of the initiatives that 
have paid dividends is the Navy's Alternative Restoration Technology 
Team, which seeks out new technologies and helps our field divisions 
apply them to site cleanups.
    The Navy is working with State and EPA partners on an innovative 
method to ensure long-term management for land use controls. Land use 
controls are used to protect public health where residual contamination 
remains. The Navy has participated in a pilot project where land use 
controls would be managed by a non-profit, private trust specifically 
established for this purpose. There are significant advantages for all 
parties. Transferring responsibility for land use controls would allow 
the DOD to essentially privatize this function, and allow economies of 
scale since all land use controls in a State or region, from both 
public and private parties, could be managed together. It provides a 
degree of assurance to regulators and the public that the controls will 
be monitored and enforced.
Shipboard Environmental Program
    The Navy is a world recognized leader in environmental activities, 
and has invested about $775 million in the last 5 years to identify, 
develop, test, buy, and install environmentally compliant equipment on 
its ships. The goal is to ensure that Navy ships are environmentally 
benign. The Navy will complete the installation of pulpers and 
shredders to process solid waste on all surface ships this calendar 
year.
    The Clean Air Act Amendments of 1990 prohibited the commercial 
production of chlorofluorocarbons (CFCs) that are used by the Navy as 
shipboard refrigerants and the commercial production of Halons that are 
used by the Navy as firefighting agents. The Navy has developed 
alternative shipboard systems that do not rely on the CFCs and Halons 
whose production has stopped.\2\ The Navy is replacing CFC-12 in its 
shipboard cooling systems with ozone-friendly hydrofluorocarbon (HFC)-
134a. The Navy will convert over 900 CFC-12 cooling systems to HFC-134a 
by the year 2005. At the end of fiscal year 2001, 261 of 316 total air 
conditioning plants have been converted and 451 of 655 refrigeration 
plants have been converted. These conversions make 192 ships CFC-12-
free! We have sufficient funding to convert an additional 25 ships in 
fiscal year 2002. Our fiscal year 2003 budget request would convert an 
additional 29 ships.
---------------------------------------------------------------------------
    \2\ The Defense Logistics Agency maintains a reserve supply for 
mission critical needs.
---------------------------------------------------------------------------
    The fleet-wide conversion of shipboard CFC-114 air-conditioning 
plants to use ozone-friendly HFC-236fa is underway. The converted 
cooling systems will incorporate redesigned compressors and 
microprocessor-based monitoring and control that will enhance 
troubleshooting and reduce the workload on sailors assigned to operate 
and maintain the plants. Testing indicates that these converted plants 
perform better and are quieter. As of the end of January 2002, a total 
of 35 plants have been converted aboard 9 ships. Under the current 
conversion schedule all 103 surface ships in the program would be 
completed by 2013. An additional 10 ships will be converted in fiscal 
year 2002. Our fiscal year 2003 budget request converts 13 more ships. 
Under the current conversion schedule, all 103 surface ships in the 
program would be completed by 2013.
    Newly built ships such as the Navy's newest destroyers (Flight IIA 
of Arleigh Burke (DDG 51) class), the new San Antonio (LPD 17) 
amphibious class, the CVN 76 aircraft carrier, and all future 
shipbuilding programs will incorporate Navy designed and tested 
advanced shipboard air-conditioning and refrigeration plants that also 
use HFC-134a.
    Approximately 70 percent of hazardous waste handled by Navy 
homeports originates from used or excess hazardous materials offloaded 
from ships. The Navy is buying commercial off-the-shelf pollution 
prevention equipment to reduce the shipboard use of hazardous 
materials. The goal is to reduce the need for hazardous material on 
ships by up to 35 percent. Savings will accrue not only to reduce 
environmental costs for hazardous waste disposal, but also areas 
outside the environmental budget, e.g., material procurement costs, 
labor, and safety. At the end of fiscal year 2001, 32 ships have been 
outfitted with pollution prevention equipment. Plans are to convert 40 
more in fiscal year 2002, and the fiscal year 2003 budget request 
provides sufficient funds to convert 36 more. The Navy expects to 
complete this effort by the end of fiscal year 2005.
    The Navy has been working with the U.S. Environmental Protection 
Agency to establish uniform national discharge standards not currently 
regulated for naval vessels. These standards will establish standards 
for armed forces vessel discharges that are not currently regulated. 
Phase I was completed with publication in the Federal Register in May 
1999 for 25 identified ship discharges that require marine pollution 
control devices or other management control efforts. The next step is 
to establish performance standards for these 25 to-be-regulated 
discharges. This step has proven to be more complicated than originally 
thought. There are numerous combinations of vessel types, discharges, 
and control devices that must be considered. Navy and EPA are working 
to simplify this process by prioritizing the vessels and discharges of 
most concern and using a sequential rulemaking process. We will be 
updating the appropriate congressional committees on our progress later 
this year with a modified schedule for the Phase II rulemaking.
Environmental Quality
    The Environmental Quality program is focused on ensuring that Navy 
and Marine Corps activities support fleet and fleet Marine readiness 
requirements in full compliance with U.S. environmental laws and 
regulations.\3\ Our environmental quality strategy emphasizes pollution 
prevention (P\2\) as a means to meet environmental compliance standards 
in a cost-effective manner. P\2\ eliminates the contaminant ``at the 
source'' through process changes and substitution of non-hazardous or 
less hazardous materials. Money invested in P\2\ can avoid permitting, 
sampling, testing to ensure that permit standards are met, and 
hazardous waste disposal costs. It can also improve safety and 
occupational health in the workplace.
---------------------------------------------------------------------------
    \3\ At overseas locations, environmental standards are based on 
Final Governing Standards which, in turn, are based on host nation 
standards, Status of Forces agreements, or application of U.S. 
standards.
---------------------------------------------------------------------------
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                               CONCLUSION

    In conclusion, I believe our infrastructure is well positioned for 
the future. We are accelerating the solution to long-standing housing 
shortfalls for Navy and Marine Corps families and enlisted personnel. 
We are making real progress on family housing PPV, and look to apply 
these tools to bachelor housing. Funding to support our prior BRAC 
efforts is on track, and we have a strong environmental cleanup and 
property disposal plan for this year and next.
    We are working within the administration to identify ways to 
sustain the readiness of our forces. Although military commanders do an 
outstanding job of protecting and restoring natural resources in the 
areas used to train our people, urbanization and rigid application of 
some environmental requirements threatens our ability to train our 
sailors and marines to be ready for combat when the President calls. We 
need to ensure the appropriate balance between military readiness and 
the environment.
    This concludes my statement. I look forward to working with the 
subcommittee and staff to best support our sailors, marines, and our 
Nation.

    Senator Akaka. Thank you for your statement.
    Secretary Gibbs.

 STATEMENT OF HON. NELSON F. GIBBS, ASSISTANT SECRETARY OF THE 
     AIR FORCE (INSTALLATIONS, ENVIRONMENT, AND LOGISTICS)

    Secretary Gibbs. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you today to discuss the 
Department of the Air Force's fiscal year 2003 budget request 
for military construction, family housing and dormitories, 
environment programs, and realignment and closure programs.
    The Air Force's total military construction and family 
military housing programs play a vital role in supporting the 
Air Force's operational needs, workplace productivity, and 
quality of life. This subcommittee's support for those programs 
has remained steadfast over the years. Last year, the Secretary 
of Defense made a commitment to transform the Department of 
Defense's installations and facilities into those required for 
a 21st century military.
    Given the ever-present competing priorities, the Air Force 
has developed an executable and fiscally responsible plan for 
getting its facilities on a path to recovery. The Air Force's 
top priorities within this year's President's budget are to 
sustain the facilities that already exist; enhance quality of 
life by improving housing for both single and married members; 
complying with existing environmental statutes; and supporting 
new missions and weapons systems.
    For fiscal year 2003, the Air Force is requesting over $4.2 
billion to invest in Air Force facilities and infrastructure, 
approximately the same level as was submitted in the fiscal 
year 2002 request. This includes nearly $2 billion for 
sustainment, restoration, and modernization to maintain our 
existing infrastructure and facilities, an increase of over 
$360 million from fiscal year 2002.
    This budget request also reflects the Air Force's continued 
commitment to take care of its people and families. Their 
welfare is a critical factor to overall Air Force combat 
readiness and the family housing program, dormitory program, 
and other quality of life initiatives reflect a commitment by 
the Air Force to provide its people the facilities they 
deserve.
    The Air Force is requesting $1.5 billion for family 
housing, of which $700 million is to replace more than 2,100 
worn-out units at 23 bases and improve more than 1,700 units at 
11 bases. This request also supports privatization of more than 
4,500 units at five bases.
    To improve the quality of life for the unmarried junior 
enlisted members, the Air Force is requesting $135 million for 
its fiscal year 2000 dormitory program, which consists of 11 
enlisted dormitory projects, 10 stateside and one overseas.
    The fiscal year 2003 request also includes $500 million for 
Active Force military construction, $50 million for the Air 
National Guard, and $30 million for the Air Force Reserves. 
Included in those numbers are 33 new mission projects totaling 
over $350 million. The Air Force has been a leader and intends 
to continue to be a leader in environmental stewardship by 
focusing on its principles of enhancing operational readiness, 
being a good neighbor, and effectively applying its resources.
    To reach these goals, the Air Force has built an 
environmental program around four key pillars: cleanup, 
compliance, prevention, and conservation. The Air Force's 
compliance program strives to ensure compliance with all 
environmental law as it conducts its mission, and the Air Force 
is proud of its record on open enforcement actions, having 
reduced the total from 268 in 1972 to 17 in 2001. The 
environmental compliance military construction program in 
fiscal year 2003 includes four projects totaling $50 million in 
support of the Clean Air and Clean Water Acts.
    In conclusion, I wanted to thank the subcommittee for its 
continuing strong support of the Air Force military 
construction, family housing, and environmental programs. With 
the subcommittee's assistance and support, the Air Force will 
meet the most urgent needs of commanders in the field while 
providing quality facilities for the men and women who serve in 
and are the backboard of the most respected air and space force 
in the world.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Secretary Gibbs follows:]

               Prepared Statement by Hon. Nelson F. Gibbs

                              INTRODUCTION

    Mr. Chairman and members of the subcommittee, good afternoon. I 
appreciate the opportunity to appear before you and discuss the 
Department of the Air Force's fiscal year 2003 military construction 
program, and the department's environmental and realignment and closure 
programs. Today, I will discuss with the subcommittee our investment 
strategies for facilities, housing, environmental programs, and utility 
systems.

                                OVERVIEW

    The Air Force's total force military construction and military 
family housing programs play a vital role supporting Air Force 
operational needs, work place productivity, and quality of life. This 
subcommittee's support for those programs has remained steadfast over 
the years, and the Air Force is grateful. In recent years, the 
subcommittee's support for innovative programs such as privatizing 
military family housing has given the Air Force additional tools for 
improving the quality of life for its members, and that support has 
been appreciated.
    As Secretary Rumsfeld recently testified to Congress, ``. . . 
September 11 changed our Nation forever.'' The Air Force's challenge is 
to simultaneously accomplish three difficult missions: to win the war 
on terrorism; to restore the force through investments in procurement, 
people, and modernization; and to transform the force to meet 21st 
century demands. In the area of installations and facilities, this 
transformation began last year with the fiscal year 2002 budget.
    Last year, the Secretary of Defense made a commitment--to tranform 
the Department of Defense installations and facilities into those 
required for a 21st century military. Given the competing priorities 
resulting from September 11, the Air Force has developed an executable 
and fiscally responsible plan for getting its facilities on a path to 
recovery.
    While the Air Force acknowledges the importance of robust funding 
for facility sustainment and modernization, other priorities and 
insufficient Department of the Air Force topline have not permitted it 
to fully address the problems associated with an aging infrastructure. 
In fiscal year 2002, this administration proposed a significant 
increase in military construction and housing programs--to $2.7 
billion, the largest in the last decade. That increase was supported 
and, in fact, enhanced by this subcommittee and other members of 
Congress, and was welcomed by the Air Force.
    For fiscal year 2003, the Air Force is requesting over $4.2 billion 
to invest in Air Force facilities and infrastructure. This request 
includes $2.3 billion for total force military construction and 
military family housing, including $644 million for active force 
military construction, $1.5 billion for military family housing, $54 
million for Air National Guard military construction, and $32 million 
for Air Force Reserve military construction. In addition, the Air Force 
has increased the request for operations and maintenance sustainment, 
restoration, and modernization (SRM) funding by $360 million over the 
fiscal year 2002 request, bringing the total force facility investment 
request to the same level as submitted in the fiscal year 2002 budget 
request.
    These Air Force programs were developed using a facility investment 
strategy with the following objectives:

        <bullet> Accommodate new missions;
        <bullet> Invest in quality of life improvements;
        <bullet> Continue environmental leadership;
        <bullet> Sustain, restore, and modernize our infrastructure;
        <bullet> Optimize use of public and private resources; and
        <bullet> Continue demolition of excess, uneconomical-to-
        maintain facilities.

    Air Force missions and people around the world clearly depend upon 
this subcommittee's understanding of, and support for, the Air Force 
infrastructure programs. That support has never wavered, and for that 
the Air Force thanks you.

                        ACCOMMODATE NEW MISSIONS

    New weapon systems provide the rapid, precise, global capability 
that enables combat commanders to respond quickly to conflicts in 
support of national security objectives. The fiscal year 2003 total 
force new mission military construction program consists of 33 
projects, totaling $339 million.
    These projects support the initial basing of a number of new weapon 
systems; two of special significance are the F-22 Raptor and the C-17 
Globemaster III. The F-22 Raptor is the Air Force's next generation air 
superiority fighter. Tyndall Air Force Base, Florida, will house the F-
22 flying training program. Nellis Air Force Base, Nevada, will be the 
location for F-22 follow-on operational test and evaluation. Langley 
Air Force Base, Virginia, will be home for the first operational 
squadrons. The requirements for F-22 related construction at Tyndall 
were funded in the fiscal year 2002 military construction program. The 
fiscal year 2003 military construction request includes one F-22 
project at Nellis for $3 million, and three F-22 projects as Langley 
totaling $40 million.
    The C-17 Globemaster III aircraft is replacing the Air Force's 
fleet of C-141 Starlifters. The C-17 provides rapid global mobility by 
combining the C-141 speed and long-range transport capabilities; the C-
5 capability to carry outsized cargo; and the C-130 capability to land 
on short, forward-located airstrips. The Air Force will base C-17s at 
Charleston Air Force Base, South Carolina; Altus Air Force Base, 
Oklahoma; McChord Air Force Base, Washington; McGuire Air Force Base, 
New Jersey; and Jackson Air National Guard Base, Mississippi. Thanks to 
support from this subcommittee, construction requirements for 
Charleston, Altus, and McChord were all funded in prior-year military 
construction programs. The request for fiscal year 2003 includes a $25 
million facility at McGuire Air Force Base, two facility projects for 
$35 million at Jackson International Airport, and $31 million for C-17 
facilities at a soon to be announced location.
    Other new mission requirements in fiscal year 2003 include 
supporting the Air Force's Global Strike Task Force by building B-2 
aircraft hangars at Royal Air Force Fairford, United Kingdom, and B-2 
aircraft parking pads at Diego Garcia. To support the Space/C\2\ISR 
Task Force the Air Force will build facilities to base the Global Hawk 
unmanned aerial vehicle at Beale Air Force Base, California and to 
support the Defense Satellite Program and future SBIRS at Buckley Air 
Force Base, Colorado. Finally, to support the Global Response Task 
Force the Air Force will build facilities to support Combat Search and 
Rescue aircraft at Davis-Monthan Air Force Base, Arizona, C-130J 
aircraft at Little Rock Air Force Base, Arkansas, and expand aircraft 
parking at Naval Station Rota, Spain, and Ramstein Air Base, Germany.

                       INVEST IN QUALITY OF LIFE

    The Air Force is committed to taking care of its people and their 
families. Quality of life initiatives acknowledge the increasing 
sacrifices airmen make in support of the Nation and are pivotal to 
recruiting and retaining the Air Force's most important resource--its 
people. When members deploy, they want to know that their families are 
stable, safe, and secure. Their welfare is a critical factor to overall 
Air Force combat readiness, and the family housing program, dormitory 
program, and other quality of life initiatives reflect a commitment by 
the Air Force to provide its people the facilities they deserve.

                             FAMILY HOUSING

    The Air Force Family Housing Master Plan provides the road map for 
meeting the Department of Defense goal of providing safe, affordable, 
and adequate housing for our members. The Air Force has increased its 
fiscal year 2003 housing request by $132 million over the fiscal year 
2002 request.
    The $677 million fiscal year 2003 military family housing 
replacement and improvement program replaces more than 2,100 worn-out 
units at 23 bases, improves more than 1,700 units at 11 bases, and 
supports privatization of more than 4,500 units at 5 bases. The Air 
Force housing privatization program will be covered in more detail 
later. The fiscal year 2003 housing operations and maintenance program 
totals $844 million.

                              DORMITORIES

    Just as the Air Force is committed to provide adequate housing for 
families, it has an ambitious program to improve the housing for its 
unaccompanied junior enlisted personnel. The Air Force's dormitory 
master plan is a comprehensive, requirements-based plan, which 
identifies and prioritizes dormitory military construction 
requirements. The plan includes a three-phased dormitory investment 
strategy. The three phases are (1) fund the replacement or conversion 
of all permanent party central latrine dormitories; (2) construct new 
facilities to eliminate the deficit of dormitory rooms; and (3) convert 
or replace existing dormitories at the end of their useful life using 
the Department of Defense ``1+1'' room standard. Phase 1 is complete, 
and the Air Force is now concentrating on the final two phases of the 
investment strategy.
    The total requirement is 79,400 Air Force dormitory rooms. There is 
currently a deficit of 12,700 rooms, and the existing inventory 
includes 3,900 inadequate rooms. It will cost approximately $1 billion 
to execute the Air Force Dormitory Master Plan and achieve the fiscal 
year 2009 Air Force goal to eliminate the deficit and replace the worst 
existing dormitories.
    The fiscal year 2003 dormitory program consists of 11 enlisted 
dormitory projects at ten CONUS bases and one overseas base, for a 
total of $135 million. On behalf of all the airmen benefiting from this 
important quality of life initiative, I want to thank the subcommittee 
for its continued support of this critical quality of life effort.

                            FITNESS CENTERS

    Other quality of life investments include community facilities, 
such as fitness centers, vital in the effort to attract and retain high 
quality people and their families. A strong sense of community is an 
important element of the Air Force way of life, and these facilities 
are important to that sense of community as well as to the physical and 
psychological well-being of the airmen. The fiscal year 2003 military 
construction program includes fitness centers at Andersen Air Force 
Base, Guam; Hanscom Air Force Base, Massachusetts; and Royal Air Force 
Lakenheath, United Kingdom.

                            OVERSEAS MILCON

    The quality of overseas installations continues to be a priority 
for the Air Force because of the impact it has on both individual and 
family morale. Even though the majority of Air Force personnel are 
assigned in the United States, 14 percent of its forces are serving 
overseas, including 33,000 Air Force families. The Air Force overseas 
base structure has stabilized after years of closures and force 
structure realignments. At this level, the overseas infrastructure 
still represents 19 percent of the total Air Force physical plant. The 
fiscal year 2003 military construction request for European and Pacific 
installations is $233 million totaling 14 projects. The program 
consists of infrastructure and quality of life projects in Korea, the 
United Kingdom, Germany, Italy, and Spain as well as critical 
facilities on Guam, Diego Garcia, and Wake Island. The subcommittee's 
support for these operational and quality of life projects is equally 
as important as its support for stateside projects.

           PLANNING AND DESIGN/UNSPECIFIED MINOR CONSTRUCTION

    The Air Force will request $53 million in planning and design for 
fiscal year 2003. These funds are required to complete design of the 
fiscal year 2004 construction program, and to start design of the 
fiscal year 2005 projects. The Air Force is also requesting $21 million 
in fiscal year 2003 for the total force unspecified minor construction 
program, which is the primary means of funding small, unforeseen 
projects.

                 OPERATIONS AND MAINTENANCE INVESTMENT

    To sustain, restore, and modernize what it owns, the Air Force must 
achieve a balance between military construction and operations and 
maintenance programs. Military construction restores and re-capitalizes 
facilities. Operations and maintenance funding ensures the Air Force 
can perform facility sustainment activities, without which facilities 
would fail prematurely. Without proper sustainment, facilities and 
infrastructure wear out sooner. Operations and maintenance funding is 
also used to directly address many of the critical restoration and 
less-expensive recapitalization needs. Without these funds, commanders 
in the field are unable to address facility requirements that impact 
their near-term readiness.
    With last year's ``shot in the arm'' provided to military 
construction, the Air Force is now in a position to restore its 
operations and maintenance balance. In fiscal year 2003, the 
sustainment, restoration, and modernization share of the Air Force 
operations and maintenance funding is $2.0 billion--meeting the 
required sustainment level for the first time in many years. Included 
in this amount is $159 million in operations and maintenance programmed 
for restoration and modernization work.

              OPTIMIZE USE OF PUBLIC AND PRIVATE RESOURCES

    In order to accelerate the rate at which it revitalizes its housing 
inventory, the Air Force has taken a measured approach to housing 
privatization. It started with a few select projects, with the goal of 
identifying successes and ``lessons learned'' to guide follow-on 
initiatives. The first housing privatization project was awarded at 
Lackland AFB, Texas, in August of 1998, and all 420 of those housing 
units are constructed and occupied by military families. There are 
three additional projects under construction that will result in 1,900 
privatized units at Dyess Air Force Base, Texas; Elmendorf Air Force 
Base, Alaska; and Robins Air Force Base, Georgia. In addition, the Air 
Force is on track to award eight projects in the next 12 months that 
will result in an additional 9,000 privatized units across the Air 
Force. On average, the Air Force has realized a five to one leverage on 
the military construction investment for housing privatization, and 
this kind of favorable ratio is expected to hold steady or even 
increase on other projects in the outyears. As mentioned earlier, the 
fiscal year 2003 budget request includes $7.8 million to support the 
privatization of more than 4,500 units at five bases: Maxwell Air Force 
Base, Alabama; Hanscom Air Force Base, Massachusetts; Cannon Air Force 
Base, New Mexico; Shaw Air Force Base, South Carolina; and F.E. Warren 
Air Force Base, Wyoming.
    The Air Force continues to pursue privatization of utility systems 
at Air Force installations. The goal is to privatize utility systems 
where it makes economic sense and does not negatively impact national 
security. The Air Force has identified 434 of 513 systems as potential 
privatization candidates, and has released requests for proposals for 
242 systems and have completed the process on 161 systems.

   CONTINUE DEMOLITION OF EXCESS, UNECONOMICAL-TO-MAINTAIN FACILITIES

    For the past 6 years, the Air Force has pursued an aggressive 
effort to demolish or dispose of facilities that are not economical to 
sustain or restore. From fiscal year 1998 through fiscal year 2001, the 
Air Force demolished 9.6 million-square feet of non-housing building 
space. It expects to demolish an additional 4.4 million-square feet in 
fiscal year 2002 and fiscal year 2003, for a total reduction of 14 
million square feet. This is equivalent to demolishing six Air Force 
bases equal to the combined square footage of Whiteman, Goodfellow, 
Moody, Brooks, Vance, and Pope Air Force Bases. Air Force demolition 
efforts continue to be a success story enabling it to reduce the strain 
on its infrastructure funding by eliminating unneeded facilities.

                        ENVIRONMENTAL LEADERSHIP

    The Air Force has remained a leader in environmental stewardship by 
focusing on its principles of enhancing operational readiness, being a 
good neighbor, and effectively applying its resources.
    To reach these goals, the Air Force built its billion-dollar a year 
environmental program around four key pillars--cleanup, compliance, 
pollution prevention, and conservation. It is now moving to the next 
level of excellence by beginning implementation of an environment, 
safety, and occupational health management system, based on the 
International Standard ISO 14001, to continually improve its mission 
performance by systematically reducing environment, safety, and 
occupational health risks and costs.
    The Air Force has made great strides in the cleanup of land and 
resources impacted by its operations, ensuring that it protects human 
health and the environment. Its strategy is to work with community 
stakeholders and evaluate relative risk, and then to cleanup or lower 
the risk at the worst sites first. The Air Force is on target to reach 
Defense Planning Guidance goals for cleanup of all ``high relative 
risk'' sites by 2007, and all ``medium relative risk'' sites by 2011. 
Staying the course will be a challenge as new cleanup standards are 
proposed for chemicals such as perchlorate and trichloroethylene. These 
new cleanup standards may cause both costs and timelines to change.
    The Air Force supports recommended changes to the military 
construction reporting process recommended by the Department of Defense 
for constructing remediation facilities to prevent delays and carry out 
its cleanup responsibilities.
    The Air Force's compliance program ensures compliance with 
environmental law as it conducts its mission activities. The Air Force 
is proud of its record on Open Enforcement Actions, having reduced them 
from 263 in 1992, to 17 in 2001. Its environmental compliance military 
construction program in fiscal year 2003 includes four projects 
totaling $47 million in support of the Clean Air and Clean Water Acts.
    Through its pollution prevention program, the Air Force has 
successfully reduced or eliminated pollution at the source. Its program 
allowed the Air Force to better the Department of Defense goal of 50 
percent reduction in hazardous waste between 1992 and 2000, achieving a 
50 percent goal by 1996, and then reaching a 66 percent reduction by 
2000.
    The Air Force's conservation programs offer some of the most 
visible and rewarding results of its commitment to being a good steward 
of its resources. Land set aside decades ago for the Air Force to 
conduct its military mission has also allowed unique American plant and 
animal species to flourish, and important American cultural resources 
and historic structures to remain preserved and appreciated. 
Ironically, it is precisely its commitment to conservation that now 
threatens the Air Force's ability to carry out its primary mission of 
protecting national security. Military installations, and test and 
training ranges, occupy land ``zoned'' for military operations and 
training. Additional demands from growing local communities, the 
resident plant and animal species now rare outside the installation 
boundaries, the installation's historic structures made significant due 
to past military successes, or the preserved relicts of early 
Americans, now create other land-use designations and limitations 
overlaid on land designated for military purposes. In most cases, these 
potentially competing requirements can be accommodated. The Air Force 
is working closely with the Department of Defense to develop its 
comprehensive strategy to address this issue of encroachment.
    The Air Force's environmental compliance military construction 
program in fiscal year 2003 includes four projects totaling $47 million 
in support of the Clean Air and Clean Water Acts. The program includes 
upgrading two coal-fired power plants in Alaska to meet environmental 
air emissions requirements. In addition, the Air Force is upgrading the 
water distribution and stormwater drainage systems at Vandenberg Air 
Force Base, California, to comply with environmental standards. All of 
these projects satisfy Department of Defense Class-1 requirements, 
which refer to conditions or facilities currently out of compliance 
with environmental laws or regulations, including those subject to a 
compliance agreement, or refer to projects and activities which, if not 
corrected, would result in an out of compliance situation in the 
current program year.

                        REALIGNMENT AND CLOSURES

    This summer the Air Force lowered the flags at Kelly and McClellan 
Air Force Bases, its two most complex closure actions resulting from 
the Base Realignment and Closure Act. The Air Force has now completed 
all 39 of its base closure and realignment actions (22 closures and 17 
realignments). As part of the closure process, the Air Force has worked 
with the local reuse authority at each base to minimize the impact on 
the local community from the closure. This effort has led to the 
creation of over 48,000 jobs and an annual payroll of $1.4 billion in 
the affected communities.
    While these facilities are being returned to their respective 
communities, the Air Force has a continuing responsibility for 
environmental clean up from past industrial activities. The Air Force 
takes this responsibility seriously, having spent $ 2.4 billion since 
1991 in environmental clean up at closing bases. For fiscal year 2003, 
the Air Force is requesting $119 million to continue the clean up.
    Although past base closure rounds have reduced its infrastructure 
footprint, the Air Force still retains excess infrastructure. 
Maintenance of this excess infrastructure forces the Air Force to sub-
optimize use of available operations and maintenance funds. The 
National Defense Authorization Act for Fiscal Year 2002 provides the 
Air Force an opportunity to divest itself of this unneeded 
infrastructure. In preparation for the 2005 base closure round, the Air 
Force will focus first on sizing its force, and then on sizing the 
infrastructure to support that force.

                               CONCLUSION

    In conclusion, I again thank the subcommittee for its strong 
support of Air Force military construction, family housing, and 
environmental programs. With the committee's assistance and support, 
the Air Force will meet the most urgent needs of commanders in the 
field while providing quality facilities for the men and women who 
serve in and are the backbone of the most respected aerospace force in 
the world.

    Senator Akaka. Thank you very much, Mr. Secretary.
    I have several questions.
    Mr. DuBois, was the likelihood that any particular base 
might be the subject of a future base closure action used as a 
criterion in deciding what bases would receive military 
construction funding for new facilities or sustainment funding 
for current facilities in assembling the fiscal year 2003 
budget request?
    Further, will such criteria be used by this administration 
in the preparation of the fiscal years 2004 and 2005 budget 
requests?
    Mr. DuBois. Mr. Chairman, as I tried to indicate in my 
opening remarks, there was no involvement because there is no 
current analysis that would yield categories of where excess 
capacity currently exists by force structure or fighting plans. 
I think it is important, as I indicated, to recognize that the 
only way to rationalize infrastructure is through BRAC, and we 
appreciate that authority. But a short answer to your question 
is no, we did not use the MILCON appropriation on the basis of 
certain bases getting one project or another.
    The Secretary of Defense testified that he and the Service 
Secretaries and Service Chiefs were focusing on mission 
critical requirements, highest of the high priorities. They 
funded competing priorities. With respect to the 
infrastructure, at OSD's level, and I think this is also true 
for the services, the decisions were made in a macro sense. If 
a particular installation received an investment for 
infrastructure, sustainment, restoration, or modernization, it 
was driven by requirements and was not facilities-centric.
    Senator Akaka. The Department of Defense has stated that we 
have 20 to 25 percent excess capacity in our facilities. Will 
the Department make every effort to use the existing capacity 
to house a new Commander in Chief for homeland defense, called 
the Northern Command (CINCNORTH), before requesting funds to 
build new headquarters facilities?
    Mr. DuBois. Mr. Chairman, with respect to the CINCNORTH, 
that proposal is in front of the President, the so-called 
unified command plan. The physical location of the headquarters 
of CINCNORTH, the responsibility being Canada, U.S., and 
Mexico, homeland security if you will, has not been determined. 
In point of fact, the Secretary only recently asked me to begin 
to think about what the options are, not just physical space. I 
want to just touch upon that in a second--what is available, 
where, and why.
    You can rest assured that at this time the Secretary is 
inclined to put the headquarters of such a CINC on current 
military reservation land. We do not intend to go and buy land, 
build, or lease space for it. It may be that we have to build 
something on a current military installation.
    The other issue is what are the criteria that one ought to 
follow to satisfy the requirements of such a CINC, given the 
mission? We are in the process of thinking that through. 
Homeland security within the Department of Defense is a new 
concept and one that drives us toward a new set of requirements 
for the CINC's physical location.
    Senator Akaka. I would ask each one of the three service 
witnesses to give us their assessment of the status of your 
facilities overseas, especially in Germany and Korea, and how 
the quality of the facilities our forces live and work in 
overseas compares to the facilities here in the United States. 
May I hear from all three service witnesses?
    Mr. DuBois. If I might just introduce their answers: The 
military construction and family housing budget, 
percentagewise, is 77-23, 77 percent in the United States, 23 
percent overseas. In terms of total DOD spending it is 79 
percent in the United States, 21 percent overseas. Each service 
has a slightly different cut on that.
    Senator Akaka. Secretary Gibbs.
    Secretary Gibbs. As in the United States, the foreign 
facilities run the gamut from some that are in very good shape 
that we are justifiably proud of and others that are not and 
need to be enhanced. In setting its priorities both for the 
housing activities and for military construction, the Air Force 
takes those into consideration. It ranks its projects 
notwithstanding their physical location and we believe we are 
working on those with the greatest need around the world.
    Senator Akaka. Secretary Fiori.
    Secretary Fiori. Yes, sir. As we look at both in the United 
States and overseas, our overall condition of our 
infrastructure is what we consider C-4 in our installation 
reporting status. In our housing area it is C-3 to C-4, which 
is not the highest in the world. Overseas housing, in general, 
is even poorer than what we have here and consequently, 
particularly in Korea, we are concentrating on putting new 
barracks in as rapidly as we can.
    As I mentioned, we are reorganizing in Germany to get to 
one facility instead of 13 facilities, and in consonance with 
that we are going to have a fairly major construction project 
for infrastructure housing and also the normal MILCON 
facilities. That should provide a significant improvement.
    Our other concern, particularly in Korea, is that we do not 
have much family housing, and that has affected the morale of 
our people on unaccompanied tours. We have goals to increase 
accompanied tours to 25 percent by 2010, and to get about half 
our families there by 2020.
    We have a decent plan to improve family housing overseas 
and we are certainly committed to executing it.
    Senator Akaka. Thank you.
    Secretary Johnson.
    Secretary Johnson. We believe that overseas facilities are 
equal and in some cases better than the U.S. facilities. As you 
well know, we get strong support in Japan and we have a large 
presence there. I talked about the home port ashore program. 
They will build those 5,000 rooms for us when the time comes.
    We have also invested heavily in Italy at Sigonella and 
other places. As you well know, we have not had a choice but to 
invest in Bahrain because of the activities there. In this 
year's budget we have $188 million in fiscal year 2003 for 
overseas MILCON and family housing together. We have stressed 
quality, and we have also gotten some support from the host 
nations.
    Senator Akaka. Thank you very much.
    Let me now call on my colleague for his questions.
    Senator Inhofe. Thank you, Mr. Chairman.
    I want to build a little bit on something you brought up. I 
was not going to, but I think it is significant. We are saying 
that it is just about three-to-one in terms of CONUS versus 
overseas, and we all know the reason for that. A major 
contributing reason is that there is no constituency overseas. 
I think it is natural that we at this table would be a little 
more concerned about things in our State than we are someplace 
else, everything else being equal.
    This is a serious problem. Every year we have gone through 
this thing. I just got back 2 weeks ago from looking at housing 
facilities in Baumholder, Germany. It is about as bad as I have 
ever seen in terms of the on-base family housing.
    Secretary Fiori, have you actually been there and seen that 
particular one?
    Secretary Fiori. No, sir.
    Senator Inhofe. I hope that you get a chance to see it. 
That has to be the poster child for the very worst, including 
stairwells where they have to walk up to the sixth floor and 
then walk all the way down to the basement to do laundry. It is 
something that should not have been tolerated. I am not blaming 
anybody. This is what you are inheriting and it is something we 
need to address.
    Secretary Fiori. Yes, sir.
    Senator Inhofe. Also, while there is some very good stuff 
that I have seen overseas, it seems like there is no plan for 
improvements.
    Secretary Gibbs, you have talked about how our retention is 
moving up due to September 11. I think we all understand that. 
But where are we going to be a few months or a few years from 
now? I can tell you right now that in terms of quality of life 
and retention the facility I mentioned just has to be 
addressed. We found some others almost that bad in different 
places.
    I would like to ask the four of you what ideas are out 
there to overcome this political obstacle of prioritizing 
things at home as opposed to overseas?
    Mr. DuBois. Senator, you clearly point out one of our 
problems.
    Senator Inhofe. Which is our fault, not yours. But how do 
we overcome it?
    Mr. DuBois. One of the interesting statistics is, as I 
said, that 77 percent of the MILCON is U.S., 23 percent 
overseas, with approximately 25 percent of our forces overseas.
    I think there are several ways we are going to try to deal 
with this. I have had several conversations with General 
Schwartz in Korea, as well as General Ralston, who I understand 
testified today. I spent nearly an hour with him when he came 
in from Europe to talk specifically about this issue.
    With respect to the two areas in particular, Korea and 
Europe, we have a land partnership program to reduce our 
footprint program. We are doing this because we have never 
supported adequately the infrastructure of our military in 
either place. We have to reduce that and use those precious 
MILCON and investment dollars in operations and maintenance, 
for sustainment, restoration, and modernization on a reduced 
amount of real estate and infrastructure.
    That is one way that we think we can better manage the 
appropriation which you make to our Department. I think the 
second thing has got to be privatization. You have heard a lot 
about privatization in the United States. We have a similar 
program in Europe called build to lease. These programs 
leverage private capital in Europe to build appropriate and 
adequate housing for our personnel, wherein we then lease it 
back.
    Similar to privatization in the U.S., we use the Bachelor 
Allowance for Housing (BAH) as the cash flow to attract private 
investment. It was a pilot project over the last several years 
and now it has proven itself.
    Senator Inhofe. There are some places where that is working 
quite well, too.
    Mr. DuBois. Yes, sir. I intend to work with my colleagues 
to try to make that happen in more places.
    Senator Inhofe. Rather than have our other three witnesses 
respond now, please do it for the record in writing, unless 
there is something you would like to add now.
    [The information referred to follows:]

    Secretary Gibbs. The Air Force facility investment strategy 
concentrates resources on its Total Force top priorities. The Air Force 
integrates Total Force MILCON requirements into a single priority list 
and funds the most urgent needs of the Total Air Force within budget 
constraints. Urgency of need takes precedence over ``fair share.'' 
Geographic location is not a consideration. Because of the general 
condition of its overseas infrastructure, the Air Force is seeing 
greater portions of its budget request for overseas projects.
    In the fiscal year 2003 request, 32 percent of the Air Force's 
MILCON program is overseas, including 22 percent at permanent overseas 
locations and the additional 10 percent supporting warfighting missions 
at other than permanent locations (e.g., Diego Garcia). In fiscal year 
2003, 23 percent of the Air Force's family housing request is for 
overseas installations, consistent with the 22 percent of the total 
family housing inventory that is overseas.
    Secretary Johnson. To date, all of our attention has been focused 
on privatizing military family housing. We are now in a position to 
build on our experiences and apply the principles of privatization to 
address our critical bachelor housing needs. In November 2001, we held 
an industry forum with representatives from the development, property 
management, and financial segments of the private sector. Although 
bachelor housing privatization presents unique challenges, the 
consensus was that bachelor housing privatization can work. Finally, 
although Title 10 provides authority for bachelor housing 
privatization, there are some legislative obstacles that prevent 
implementation. We are prepared to work with the committees to address 
these considerations.

    Secretary Fiori. I did want to say two things. First, I 
said we wanted 50 percent of our families in Korea in 2010. It 
is 25 percent in 2010, 50 percent by 2020. Second, in Korea and 
in our request for Grafenwoehr, Germany, we are addressing many 
of these problems and we are doing the lease-build situation in 
Grafenwoehr as we consolidate. We need the support. This budget 
requests approximately $600 million through 2009 or 2010 just 
in Germany. It is a serious problem to get those resources, but 
we are going to work on it.
    Senator Inhofe. Building on something that our chairman 
brought up, let me ask a question in a different way: Are all 
of you saying that the delay in base closure is not related to 
the problems that we are having in getting these units funded? 
Do you all agree with that?
    Secretary Fiori. Yes, sir, I do.
    Secretary Johnson. I agree, sir.
    Secretary Gibbs. Yes, Senator. I went back and checked with 
the people who deal with the details and I am convinced that 
there was not a BRAC consideration in the determination of 
prioritizing the Air Force's request.
    Senator Inhofe. I am looking at the comptroller's report 
dated February 2002, which says in regards to modernization of 
infrastructure: ``Rate slowed by base closure dates.'' Is this 
incorrect?
    Mr. DuBois. As I tried to indicate, it is inescapable that 
we will have less infrastructure at some point after 2005 than 
we do today. Did that enter into the macro decision with 
respect to the five major accounts in defense? What was the 
only account to be less this year than the President's request 
last year? It was MILCON.
    Did BRAC delay, defer, imply, or impact to a measurable 
extent that the MILCON would go down by a specified amount? The 
answer is no. But it is inescapable that it is out there. I do 
not want to say that Dr. Zakheim was wrong. I want to say quite 
frankly that from my point of view the emphasis on BRAC was 
incorrect. As the three Assistant Service Secretaries have 
said, decisions were made on the basis of mission critical 
requirements, not installation-specific requirements.
    Senator Inhofe. If it was not a consideration, I will 
accept that and forget about this report.
    Let me just clarify my position. I have been supportive of 
the process. I was elected to the House in 1986 and Dick Armey 
came up with this idea and it was one that had to be addressed. 
You had to take politics out of it. I did support it and I 
supported it through the four BRAC rounds. It was not until the 
fourth one, the last one, when politics entered into it, the 
very thing that gave birth to the concept of having a non-
political BRAC process.
    We have closed 96 major installations, 150 total. BRAC has 
worked well, but it fell apart this last time and that is what 
is creating the problem right now.
    The other problem is that we know from this meeting today 
and from previous hearings that even though we have had an 
increase of $48 billion, it is still inadequate in terms of 
taking care of the needs that we have out there. My feeling is 
we need to have access to as much money to take care of the 
immediate problems, some of those that we are talking about 
today.
    One thing we know for sure is that when you close an 
installation it costs money, for a period of 2 to 4 years, 
depending on the type of installation.
    I do not want you to think that I have always opposed the 
process. I was a supporter of the process. I also have to say 
that Oklahoma is the only State that has actually benefited 
from all four rounds, so that says something about Oklahoma.
    I am not going to overextend my time, but I briefly want to 
raise the concern I have had over a long period of time over 
the Vieques problem. I do not think any of you or anyone at 
this side of the table can remember a time or a place in 
history when we allowed a bunch of illegal trespassers to kick 
us off a range that we had.
    I have one of the largest ranges in my State of Oklahoma, 
Secretary Fiori, and it is one that they call the ``Sound of 
Freedom.'' We are talking about a huge range there. But this 
being the case, we wrote into the defense authorization bill 
last year provisions addressing Vieques, anticipating this may 
become a political issue and there may be politicians trying to 
cater to the Hispanic vote, whether that person at that time 
could have been Al Gore, George Bush, or John McCain. We 
actually wrote that certain things are going to happen if that 
became a reality.
    One of the things we wrote in to law is the closure of two 
major installations in Puerto Rico: Roosevelt Roads and Fort 
Buchanan. I would hope, and if you want to make any comment, 
that many of these benefits that have gone to the island are 
going to cease because they are there by virtue of the fact 
that we had that opportunity to use that range.
    Any comments on that in the panel as to that?
    Secretary Johnson. Certainly, sir. If we pull out of 
Vieques other activities that support it at Roosevelt Roads and 
so forth would be downsized accordingly. We certainly have not 
looked at the level of downsizing, whether we would have 
remaining missions there or not. But we agree with you that if 
you come out of Vieques you come out of the support base also.
    Senator Inhofe. That level actually is written into the 
law, so you might go back and look at that, because it is 
pretty specific. We had to do that because I did not want to be 
the bad guy coming along afterwards saying we have to revoke 
certain benefits.
    I would like to hear from Secretary Fiori and Secretary 
Gibbs. Vieques is critical for integrated training of marines 
and sailors, and as recently as 2 weeks ago I looked at the 
substitute they are using for that training. Everybody agrees 
it is not adequate. We have already had one accident in Kuwait 
that has cost six lives, five of which were American lives, as 
a result of not having live-fire training.
    I would like to know from the Army and the Air Force 
perspective, recognizing this is not just a Navy problem. If we 
allow Vieques to close, it is going to happen to other ranges. 
I would like to have you share with us the potential 
encroachment you might see from some of your ranges as a result 
if they are successful in closing Vieques.
    Secretary Fiori. Sir, our most recent experience are on 
encroachment was in the Massachusetts area and that had to do 
with the fact that the water was contaminated. We did have an 
agreement with the State that we could use the facility, but we 
cannot do live-fire training. So that certainly is a major 
handicap, but we believe we have sufficient ability and space 
there that we can do a certain number of work-arounds. 
Obviously, when you need live-fire training you are going to 
have to go to one of our facilities and that is going to take 
people away from their families.
    Similarly, in Hawaii we have only 37 allowable exercises a 
year and we have a need, just for the Army, for at least 18 
more per year. As I mentioned to you, that eliminates the 
access for our National Guard, our Reserves, and also the 
marines that were using our these facilities.
    We are looking at expanding our National Training Center. 
The encroachment there has more to do with environmental issues 
and time-distance. As I mentioned to you, we need some larger 
spaces if we are going to move faster.
    Senator Inhofe. You also have some protest encroachment 
there, too.
    Secretary Fiori. Yes, sir. Right now we are working around 
it. I visited Fort Hood and saw some training there. They are 
doing a good job of using creative means to train their 
soldiers in live firing. They have been innovative in their 
safety procedures. They always want to guarantee safety in live 
firing, but there are some very innovative ways that our 
soldiers have figured out how to use the geography of the place 
and not always firing to the same hole in the ground. There are 
some very imaginative ideas going on but it is a constant 
concern.
    Senator Inhofe. Secretary Gibbs.
    Secretary Gibbs. Secretary Fiori used the phrase that we 
hear a lot in the Air Force: work-around. We work each 
situation individually and have been successful in most 
situations to avoid substantive diminution in the training. But 
we are beginning to become concerned as people get closer to 
some of the reservations.
    I think you are aware of the Nellis Air Force Range. There 
is an innovative solution there. We have a load-out area off 
the end of the runway. We have airplanes taking off with live 
weapons headed to the range and developers wanted to come in 
and develop that area. We are working with the Department of 
the Interior to do a land swap to give the developer some other 
lands so that we can get that.
    We are managing the problem at this point, but we watch it 
very carefully.
    Senator Inhofe. As someone who has been involved in this 
issue for a long time, let me just be sure that you understand 
that right after the Vieques issue came up, all of a sudden 
there was a new way to close a range: protest and do things 
that are illegal. I was in Capo Teulada in southern Sardinia 
and there were articles in the newspaper saying, ``If they get 
by with that, why are we going to let them come over here and 
bomb our beach?'' The same thing in Cape Wrath in northern 
Scotland. I can show you the newspaper articles.
    So it affects all ranges. I know I have abused my time, but 
maybe for the record, Secretary Johnson, since I cannot stay 
for another round, you could address the National Environmental 
Policy Act (NEPA) thing. We know the NEPA process takes 
generally 18 to 24 months, but in case of ranges it takes 2 to 
3 years. If we are going to have a substitute we are going to 
have to go through that process. Is it safe to say that we have 
not started that process anyplace right now?
    Secretary Johnson. We certainly have been thinking.
    Senator Inhofe. Yes, but thinking does not help. If you are 
going to be closing it down in 2003 and it is going to take 2 
to 3 years to go through that process before an alternative 
comes up, that is a serious problem.
    Secretary Johnson. We have been thinking and we are 
progressing on some of the ranges that we can expand. We do not 
have an actual NEPA that has been signed yet, but we are 
preparing them.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you.
    Secretary--Senator Nelson.
    Senator Ben Nelson. Thank you very much. I have enough 
trouble being a Senator right now, Mr. Chairman. I am not ready 
to take on a secretary role as well. But thank you very much.
    Senator Inhofe. Particularly after today.
    Senator Ben Nelson. Particularly after today, exactly.
    I have two temptations right now. The first is to raise the 
questions of how you can decide what your needs and base 
support are before you have decided where you are going. But 
that is for another day if it comes back up, particularly in 
light of all the debate today and all the discussion about 
homeland security. I think the cart's clearly before the horse 
on this. I think it ought to be about base realignment.
    Voting for BRAC has created more opportunities for 
consultants to run around the country and help themselves as 
they work with communities and others to try to tell people how 
to keep from having their base closed. You can tell from my 
comment how I voted. But again, that is for another day.
    My second temptation is to commend you on the 3 percent 
budget reduction. But before I do I want to satisfy myself that 
it is not just a cost-cutting measure. I think it was George 
Will who said that in Washington if you want to get out of a 
10-foot hole this is the one place you can assume that you have 
an 11-foot ladder.
    Remember the fire station I talked about at Offutt, 
Secretary Gibbs? If you want to put things off and call it a 
hockey stick or if you want to force things out into year 2005, 
where I understand that that may be, then the question is, are 
you really dealing with the needs? I remember a year ago 
looking at all the leaky roofs and pipes, and so I have to ask 
myself and then maybe ask you the same, how can we suddenly 
with the budget process do more with less?
    As a former governor, I used to try to do that and I 
commend it when people do. I do not want to be critical of 
people who are trying to do that, if that is what the case is. 
But if it is just a matter of cost-cutting to show less in this 
budget so that there can be more money spent on other 
priorities, which I think are also important, then I raise a 
question of whether or not it is truly good budgeting process. 
I question if it is just making the numbers work out in the 
bottom line after you have decided what the bottom line is and 
work your way back.
    Maybe you can help me come to the conclusion that the leaky 
roofs are going to get taken care of. Senator Inhofe was 
concerned about what he saw. I just spent a night at K2 in 
Uzbekistan. I do not expect you to take care of the issues over 
there right now. That is temporary.
    Mr. DuBois. Not this year, at least.
    Senator Ben Nelson. That is exactly right. But I do know 
from my own personal experience of having seen the evidence of 
infrastructure not being taken care of that it is hard for me 
to believe that you can do all that job and still cut the 
budget 3 percent. It is also hard for me to believe that it 
does not have something to do with BRAC somewhere along the 
line.
    I think the extension of BRAC to 2005 threw a monkey wrench 
into a lot of this, because I do not know how you do decide to 
spend money on facilities without thinking if they will be 
around. I have done budgeting in the past myself, so I know the 
challenges. I am a friend of the court. I am not your enemy. 
But I do think I have the obligation to ask the difficult 
questions.
    Mr. DuBois. They are very difficult questions, Senator 
Nelson, and there are days, perhaps more days than not, when I 
think I have an 11-foot hole and only a 10-foot ladder.
    Senator Ben Nelson. Could be.
    Mr. DuBois. The issue of leaky roofs and pipes and broken 
windows are issues that are dealt with through the sustainment 
account. The sustainment, that is to say trying to maintain 
what we have now as best we can, is what, quite frankly, this 
budget is all about. It is true that last year we had an 
enormous increase in MILCON, as well as sustainment, with your 
help.
    I do want to point out that this year's MILCON request is 
the second largest in 6 years. Last year was the largest. But 
with respect to sustainment, what we call the operations and 
maintenance sustainment, is up year over year 2 percent for the 
Army. The Navy and the Marine Corps are up year over year 14 
percent. The Air Force is up year over year 18 percent. 
Sustainment was our number one priority, but it is true that on 
the restoration and modernization account, the account that 
would be used to replace a 20-year roof was drawn down.
    I was trying to explain this to my wife last night, and I 
said it would be as if you lived in Nebraska and in Washington, 
DC, and you maintained two homes. You have been here for some 
time and now you and your wife have decided that 3 years from 
now you are going to move to one or the other places. In the 
meantime, both houses have 20-year roofs, and their life is 20 
years. You probably are not going to replace the roof on either 
house until you have made the decision 3 years from now as to 
which house you are going to end up living in.
    The artificiality of my metaphor is obviously that in the 
case of the military we do not get to sell one of those houses. 
It is not like investing to get a higher return when I 
eventually sell the house or make the decision of which one to 
sell. I must give one of those houses to a nonprofit, in the 
case of the military, a no-cost economic conveyance. It is that 
kind of decision that creates the framework within which we 
live.
    To continue my analogy, while we might not replace the 
roof, we would repair all the windows, leaky pipes, and the 
garage door opener that is busted. I apologize that it is 
somewhat simplistic, but there is a certain similarity to the 
difficult decision that we face.
    Senator Ben Nelson. That is why I wondered about extending 
BRAC. If we are going to do BRAC, it seems to me that they 
ought to do it at the earliest possible moment, not extend it. 
You only extend the problem that much longer. Incidentally, 
keep the facilities in Nebraska because, if you are like we 
are, the hail took care of our roof last year and we have a 
brand new one.
    Mr. DuBois. I will make a note of that.
    Senator Ben Nelson. I understand the nature of the problem 
and that is why I say I want to be a friend of the process 
here. But I think we have to ask the difficult questions about 
whether or not BRAC is playing a big role in the concept. It is 
hard for me to believe it is not, but I take your word on it.
    I have been known as being tight as three coats of paint. 
As a matter of fact, part of the budget woes in Nebraska are 
due to the fact that I cut taxes. That is what somebody said 
the other day, which I think is fine.
    But I think it is important to put the money where it needs 
to be when it needs to be there, and I think increasing the 
amount in this area to take care of not just leaky roofs, but 
the other needs, is a good expenditure of money.
    Mr. DuBois. Yes, sir. I concur. Any of my colleagues want 
to comment?
    Secretary Johnson. Yes, sir. We intentionally placed our 
emphasis on quality of life and sustainment, as opposed to some 
of the MILCON. We're doing what you talked about. But we also 
placed a great emphasis, as did the other departments, on 
destroying buildings that are no longer needed on 
installations.
    We spend $45 million destroying buildings. I cannot imagine 
the savings we achieved. If you leave a building up, someone 
finds a use for it. So if we do not need it, we destroy it.
    Secretary Gibbs. The Air Force went through a lengthy 
debate in terms of how to use the construction funds and the 
conclusion was that we have to support that which we have 
first. They are deteriorating. When I first came on and got 
last year's installation readiness report (IRR), I was somewhat 
appalled. I got the next one 6 months later and it was not any 
better.
    So the Air Force has very specifically made the 
determination to put money into sustainment. We have also had 
the opportunity to spread it around better because the projects 
are smaller and we can cover more areas. In the new MILCON 
budget, the decision was principally in those cases where we 
have to be prepared to take on new missions and new weapons 
systems. As I said, over $350 million of the $500 million in 
new MILCON is for that. The remainder, which is only seven 
projects, are really for items that just had to be replaced. 
That was really the requirement. If we have something that has 
to be replaced, we put it in. If we can live with it another 
year, we are going to do that, and we are going to spread the 
money around.
    As it relates to your comment on BRAC, if you do not mind 
my taking a moment, I would agree with you that sooner would 
have been better, but that is not reality. Once the Air Force 
has made an overt decision, we will not be talking at all in 
calendar year 2002 regarding individual facilities. That time 
is going to be taken to do the force structure study, which is 
required to identify what must be based and generally or 
generically where it may be based. It is not relative to any 
individual facility. We will not start that process until 2003.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much for your statement.
    Since it has come up, I want to pursue the issue of 
encroachment. I am concerned that some in the Department view 
the so-called encroachment problem as one that is mainly caused 
by environmental statutes. In my view, the problem is much more 
complex and any effective solution must recognize and address 
the complex reality. We cannot single out one statute like the 
Endangered Species Act (ESA), if we want to seriously address 
this issue.
    The Department of Defense should not seek solutions that 
exempt it from the laws that others must follow. Any workable 
solution will require consultation and cooperation with other 
communities and interested parties.
    Last year, this subcommittee held a hearing on the impact 
of various factors that can affect military training, which 
some have called encroachment issues. At that hearing witnesses 
representing the three military services agreed that it was 
important for the Department to address environmental issues in 
partnership with States, local communities, and regulatory 
authorities. For example, General Robert Van Antwerp, the Army 
witness, explained that addressing these issues will ``require 
a partnership, strong emphasis on outreach, on community 
involvement. It means partnership with our friends and 
neighbors who border our installations. It means partnership 
with other agencies, the regulatory agencies that have the 
ability to govern and to determine what are the areas that 
should be set aside for threatened and endangered species and 
regulatory things.''
    I would like to ask would you agree that it is important 
for the Department to work in partnership with local 
communities and regulatory agencies to address encroachment 
issues, and will your Departments meet with other agencies and 
outside groups to attempt to reach consensus on any statutory 
or regulatory changes that may be proposed?
    Mr. DuBois. Mr. Chairman, as I indicated, the Deputy 
Secretary in December of last year set up an integrated team to 
represent each service and to represent various disciplines 
within the Department to assess the impact on realistic combat 
training and readiness. With respect to the term 
``encroachment,'' encroachment is, as you have pointed out, not 
necessarily an issue which is solely focused on endangered or 
threatened species or environmental legislation of the past.
    We have a 30-year legacy in this country. In fact, I 
believe this is the 30th anniversary of the Clean Water Act. 
The Department of Defense recognizes its responsibilities with 
respect to environmental stewardship. I think that it has been 
documented and testified to by members of the Department, the 
Nature Conservancy, the EPA, and others, that the Department 
does a superb job, perhaps even second to none, when it comes 
to the maintenance of natural resources.
    Spectrum competition, urban density, and air space 
management all go into the encroachment basket. We are and we 
have been for the past several months in discussions in an 
informal and lower level way. It was not at the Cabinet level 
by any means, with EPA, the National Oceanic and Atmospheric 
Administration (NOAA), the Department of Interior, and the Fish 
and Wildlife Service, on issues that are of concern to us.
    I personally have met with Secretary Norton, Administrator 
Christie Todd Whitman, and the head of NOAA, Vice Admiral 
Lautenbacher, to discuss generalities and issues in this arena.
    I also want to address your very important point that all 
politics is local. The local land trusts, governments, and 
chapters of the Nature Conservancy are the entities with which 
we have worked in the past and continue to work in the future 
to expand, not contract, critical habitat in and around our 
military installations. As you probably know, at Fort Bragg, 
North Carolina, there is an active program with the Nature 
Conservancy and the Fish and Wildlife Service to allow property 
and lands around Fort Bragg to come under their control. In 
this case, this is so the critical habitat of the red-cockaded 
woodpecker is not solely within the fence line of the base, but 
rather extends outside the fence line, allowing us an 
opportunity to train effectively at Fort Bragg.
    Fort Hood, a military installation that is a corps 
headquarters with two divisions and an air cavalry regiment, 
has nearly 200,000 acres, of which 154,000 are devoted to 
training. Of that 154,000 acres, however, only 45,000 are 
unrestricted. The other 105,000 plus have some form of 
environmental restriction.
    We are trying to determine an appropriate balance. We are 
not making in any way, shape, or form a suggestion that 
amendments to environmental legislation is the way to go. 
However, there are administrative and regulatory actions which 
we are considering asking the administration to consider. The 
House Armed Services Committee has called a hearing to 
specifically focus on this issue. We are trying to determine 
how the Defense Department and the executive branch responds to 
these very appropriate questions.
    We know and recognize that in the final analysis we must 
work with the local communities to determine what is best for 
managing natural resources, including endangered and threatened 
species, on our current military installations.
    Senator Akaka. Thank you very much for that.
    I want to make a statement and hear how you feel about it. 
I must say that Makua, Hawaii, has been a model of how these 
issues can be resolved.
    Mr. DuBois. I agree with that, sir.
    Senator Akaka. I commend the services for the way they 
worked it out and for taking into consideration the community 
and their traditions. I thank you for that.
    Are there any further comments to make on that issue?
    Secretary Gibbs. I do not have any.
    Secretary Fiori. I do not.
    Secretary Johnson. I certainly support the joint effort.
    Senator Akaka. Thank you.
    I would like to ask the assistant secretaries of each of 
the military departments whether your operation and maintenance 
amounts fully fund 100 percent of your sustainment 
requirements, that is the amount needed to keep your facilities 
in current condition, in fiscal year 2003. If not, then how 
much additional funding would each department require to fully 
fund facilities sustainment?
    Do your sustainment requirements include all current 
facilities or are you basing your requirements on less than 
your current inventory in anticipation of the 2005 base closure 
round?
    Mr. DuBois. If I just might set the stage for my 
colleagues. As I indicated, facilities sustainment, both 
funding and requirements, is focused on our current footprint. 
It is not focused on some artificiality that we only want to 
sustain 20 percent less than what we really have. For all the 
services the requirement in fiscal year 2003 is $6.021 billion. 
We are sustaining it at $5.578 billion for a 92.6 percent 
level.
    Mr. McCord and Mr. Lauffer can do the mathematics, but the 
issue here is it is not 100 percent. The services range from 
the Air Force at 97.6 percent to the Navy at 83.9 percent. But 
there is also an uneven level of current conditions, if you 
will, in the services and therefore they have different levels. 
But all services were at a 92.6 level, an all-time high.
    It is true there is a delta and the delta is in the 
vicinity of $300 or $400 million. Would it be executable? I 
would have to defer to my colleagues. Perhaps Secretary Johnson 
wants to go first.
    Secretary Johnson. We certainly have to make tradeoffs as 
we build our budget and we intentionally did not go over 90 
percent on sustainment due to execution. Would we like to have 
more money? Of course we would, but there are other areas that 
probably would come first if we had discretionary funds.
    On sustainment, I am not sure I would ever want to do 100 
percent.
    Senator Akaka. Secretary Gibbs.
    Secretary Gibbs. I have a slightly different number than 
Mr. DuBois does. I do not know if it is in the numerator or the 
denominator, but the Air Force believes it funded 100 percent 
of the sustainment using the OSD model this year. That is an 
internal decision that we had made on sustaining what we have, 
and that was the guidepost that we used. I do not know whether 
there are more facilities that popped up late, but we believe 
we funded 100 percent.
    Senator Akaka. Secretary Fiori.
    Secretary Fiori. We set our Active, National Guard, and 
Reserves all at 92 percent. I think that is an achievable goal 
this year and we will be able to carry it out. We are still 
looking at the importance of barracks, strategic mobility, and 
transformation in the order of priorities as we established our 
budget for 2003.
    Senator Akaka. Secretary Fiori, the Army has announced the 
locations of four of six Interim Brigade Combat Teams. One of 
these will be the Second Brigade of the 25th Infantry Division 
at Schofield Barracks, Hawaii. Of course, I have supported the 
Army transformation effort. It is important that the Army 
provides the funding needed to make both these interim brigades 
and its larger transformation goals successful.
    The first question is what is the total funding required in 
terms of military construction, land acquisition, and related 
costs to modify the host installations for these new brigades? 
How much of that funding is in the fiscal year 2003 budget 
request and FYDP? Finally, how many of the six brigades does 
the funding in the FYDP support?
    Secretary Fiori. Yes, sir. For the fiscal 2003 budget we 
have $195 million. For fiscal year 2004 and out we are 
predicting a total amount of approximately $763 million for the 
six interim brigade combat teams. We will start spending on the 
Schofield Barracks brigade in 2004.
    For this year we have Fort Lewis, Fort Wainwright, and Fort 
Polk, where we are continuing to finish those facilities. The 
total amount for these six brigades from the very beginning was 
about $958 million. The total amount that will be at Schofield 
is $308 million.
    Senator Akaka. I am particularly interested, as I said, in 
knowing how we are coming along with the brigade combat teams 
and your plans of funding in the FYDP. That is the reason for 
the question. I understand that you are planning the funding 
for the six brigades in the FYDP.
    Secretary Fiori. Yes, sir, we are. I could give more detail 
for the record.
    Senator Akaka. Thank you.
    [The information referred to follows:]

                  Interim Brigade Combat Team Funding

    The total validated requirements for fiscal years 2002-2009 
military construction (MILCON), includes land acquisition, planning and 
design, operation and maintenance (O&M), environmental, and information 
infrastructure for all Interim Brigade Combat Teams (IBCTs) is over 
$2.37 billion.
    The requirements for each brigade are:

        <bullet> Fort Lewis, WA (IBCTs 1 & 2)--$324.8 million;
        <bullet> Forts Wainwright and Richardson, AK (IBCT 3)--$672.8 
        million;
        <bullet> Fort Polk, LA (IBCT 4)--$216.7 million;
        <bullet> Schofield Barracks, HI (IBCT 5)--$615.1 million;
        <bullet> Pennsylvania Army National Guard (IBCT 6)--$317.8 
        million (includes requirements in PA and VA); and
        <bullet> Planning and Design (P&D) for all IBCTs--$174.1 
        million.

    The Army has funded in fiscal year 2002, or programmed in the 
Future Years Defense Plan over $1.2 billion for the IBCTs.
    The funded and programmed amounts for each brigade are:

        <bullet> Fort Lewis, WA (IBCTs 1 & 2)--$285.7 million;
        <bullet> Forts Wainwright and Richardson, AK (IBCT 3)--$299.1 
        million;
        <bullet> Fort Polk, LA (IBCT 4)--$171.9 million;
        <bullet> Schofield Barracks, HI (IBCT 5)--$326.7 million;
        <bullet> Pennsylvania Army National Guard (IBCT 6)--$99.9 
        million; and
        <bullet> Planning and design (P&D) for all IBCTs--$39.9 
        million.

    All six brigades are supported by the programmed amounts in the 
President's Budget FYDP.
    The Army is addressing shortfalls between requirements and 
currently programmed amounts in the fiscal year 2004-2009 Program 
Objective Memorandum (POM).

    Senator Akaka. The Army had been funding the cleanup of 
formerly utilized defense sites (FUDS) at a level that would 
lead to remedies in place by 2014. This year the Comptroller 
arbitrarily stretched the program out to 2020 to reduce the 
funding level required. At best, however, the Army expects to 
have remedies in place for unexploded ordnance problems by 
2089. I would like to ask this question to Mr. DuBois and 
Secretary Fiori. Do you believe that 2089 is an acceptable goal 
for addressing problems with unexploded ordinance at formerly 
utilized defense sites? If not, do you plan to seek additional 
funds for UXO?
    Mr. DuBois. Mr. Chairman, let me be clear about this. The 
FUDS funding levels are determined at OSD level. The United 
States Department of the Army is the executive agent and 
executes the program. I want to compliment them. They have 
executed very well. But I do not want to place the burden on 
them for certain decisions that were made at OSD level.
    It is a very difficult program, make no mistake about it. 
We are on track to complete the requirements of the National 
Defense Authorization Act for Fiscal Year 2002, section 313, 
which requires us to provide a plan, an assessment, a schedule, 
and a cost estimate for the FUDS program to Congress by April 
2003. As you indicated, the DOD Comptroller, Dr. Zakheim, 
adjusted the FUDS goal from 2014 to 2020 in large measure 
because of the strong fiscal realities we currently face in the 
Department.
    The one thing that I can say to you now, having worked with 
Dov Zakheim for the past year, is that he is very committed and 
insistent on as honest a portrayal of programmatic issues as 
possible as they translate into financial requirements over 
time.
    I do not know whether 2089 is correct. I share with you a 
hesitancy to embrace such a number. It is so far away. But as 
we all know the characterization of ranges, active, closed, 
closing, or transferred, is a difficult task. However, we are 
committed to doing better job of that. As I indicated, we will 
report to you by April 2003, as required under section 313. In 
that regard, one of the first letters that I drafted when I 
took this job last spring, I believe Deputy Secretary Wolfowitz 
signed it to Congress, admitted that we do not have good 
software or characterization data for transferred or closed 
ranges with UXO. It is difficult. We intend to honor our 
commitment and obligation to report to you by April 2003.
    The money involved, which is rather large over time, is 
still yet to be determined. We are doing the best we can within 
the fiscal constraints.
    Senator Akaka. Thank you, Mr. DuBois, I understand that the 
DOD Comptroller has determined that, contrary to the 
Department's longstanding practice, only military construction 
funds may be used for environmental projects costing more than 
$750,000. Several members of the panel have made reference to 
this problem. The question is do you expect to propose 
legislation to address this issue? If you do, then when can we 
expect to see it?
    Mr. DuBois. I would like to take that question for the 
record, sir. But I want to just have, if I might, a 
clarification. Are we talking about the $750,000 MILCON 
threshold below which we do not have to identify, or are we 
talking about an issue pertaining to environmental programs?
    Senator Akaka. These would be those used for environmental 
projects that cost more than $750,000.
    Mr. DuBois. I will take that question for the record, and 
report back to you.
    [The information referred to follows:]
        Use of MILCON for Environmental Restoration Requirements
    Mr. DuBois. Yes, the proposed legislation addressing this issue was 
submitted with the MILCON bill last month. The issue arose as a 
consequence of the 1998 Defense Authorization Act, amendment to section 
2811, of 10 U.S.C., which included a definition of repair. This change 
was in response to what Congress perceived as abuses connected to the 
environmental restoration program. The new definition does not permit 
the services to continue to define repair as including environmental 
restoration of the installation's soil. This was an unintended 
consequence of the amendment. Consequently, all environmental 
restoration account funded environmental restoration that fits the 
definition of construction must now be classified as military 
construction.
    As MILCON, such projects are now subject to all the paperwork that 
MILCON requires, including individual notifications to Congress. This 
will significantly increase the number of such notifications as well as 
cause delays in the restoration program while those packages are 
processed. Because of the need to ensure communications to Congress are 
accurate, such notifications require extensive time to prepare and 
review before approval. Such notifications delay environmental 
restoration actions, drain resources that would otherwise be applied to 
environmental restoration, and are redundant given the annual 
restoration reports already provided to Congress.
    Our legislation proposes changes to section 2810 of 10 U.S.C., 
which would return the status of environmental restoration projects to 
virtually the same position they had prior to the enactment of the 
statutory definition of ``repair'' provided in the amendment to section 
2811 of 10 U.S.C.

    Senator Akaka. The House energy bill contains a provision 
that would require all Federal buildings to be metered within 5 
years. I understand that the Department of Defense considers 
the provision to be burdensome and unworkable. Yet metering is 
acknowledged to be an important tool for understanding and 
controlling energy costs. Is the Department prepared to put 
together an alternative to the House provision which would 
contain realistic objectives and timetables and still 
accomplish the objective of encouraging energy conservation 
through the use of metering within the boundaries of DOD 
facilities?
    Mr. DuBois. The answer is somewhat complicated, as most 
answers in this arena are. I have on my desk, as a matter of 
fact, a views report that I read yesterday. I edited it. I will 
re-edit it when I get back tonight.
    DOD installations are metered. But many, in fact most, of 
the DOD buildings are not metered. Let me put this into two 
baskets if I can. We are committed to metering family housing, 
especially family housing that is being privatized, built, or 
rehabilitated, because we want to, obviously, inject some 
discipline in the system. It is estimated that it will cost 
$1.5 billion to meet a mandatory metering requirement. That is 
a lot of money.
    We recognize that metering can play a useful role in energy 
conservation, but we would suggest that it is not necessarily a 
universal solution.
    On the issue of energy consumption reduction, I think the 
Defense Department has a very good record. All four services, 
all three military departments, have a very good record. I come 
from a background wherein I devoted a number of years to energy 
conservation in the industrial sector. You are absolutely 
right, metering is a wonderful discipline. But it is not the 
only discipline that one can use to reduce energy consumption 
per financial unit.
    I will recommend to the Deputy Secretary that he sign this 
views letter back to you. It does address the H.R. 4 and S. 
1766 issues raised both with respect to mandatory metering 
provisions and other provisions, such as the royalty schedule 
for geothermal production on military property. We will provide 
answers in that views letter, but as a practical matter at this 
point it is a very expensive proposition to meter at every 
building that we have.
    The square mileage of lands and buildings owned by DOD is 
in excess of the State of Pennsylvania. This is all the more 
reason to do everything that we can to conserve energy and to 
use renewable energy, too. That is the best answer I can give 
you right now, and we will continue to give you more refined 
answers in the future.
    I do not know if any of my colleagues want to address the 
energy issue.
    Secretary Johnson. We have been very successful, as I 
mentioned in my opening comments, with energy conservation. We 
agree on metering, but our people are really committed to 
conserving energy and doing a tremendous job.
    Senator Akaka. Secretary Johnson, in your written statement 
you state the Navy's position that it has met the goals of the 
legislation passed by Congress to allow public access for 
cultural, religious, and educational purposes on the island of 
Kaho'olawe, Hawaii, which was utilized as a bombing range. This 
is despite the Navy's inability to meet the goals in the 
memorandum of understanding (MOU) with the State of Hawaii, 
which addressed the clearance of UXO on Kaho'olawe.
    I fully understand the difficulties associated with 
clearing ordnance on this island. However, I also know that the 
Navy's ability in the eyes of the Hawaiian community to fulfill 
its obligations with respect to Kaho'olawe will have a major 
impact on the willingness of the local communities in Hawaii to 
work with the military on difficult issues. What are the Navy's 
plans to meet its obligations with respect to the clearance of 
ordnance on the island of Kaho'olawe, and would an increase in 
funding assist the Navy in meeting the goal set forth in the 
MOU agreed to in 1994?
    Secretary Johnson. Yes, sir. At the beginning of this year 
we were at 43 percent of the goal, and I think it is the same 
on the MOU. I gave a copy to your staff, and would like to come 
visit with you and the experts to go over the goals versus the 
MOU. At the current funding level we will be at 62 percent when 
we finish in 10 years. That is November 2003. If we have 
continued adds, as we have in the past, we can get up to 80 
percent, and we would like to ensure that we are meeting the 
MOU as you and the State of Hawaii want us to. We would bring 
the contractor as well as the engineering experts.
    Senator Akaka. I thank you very much for that.
    The Navy has continued to clear Kaho'olawe and it is coming 
to a point now where the Navy will be passing it to the State 
of Hawaii, and I am particularly interested in the clearance.
    Secretary Johnson. We would like to talk to you about what 
happens in November 2003, whether you want the Navy and our 
contractor team to continue or if you want to have a 
relationship with the States.
    Senator Akaka. I know this has been a long hearing now. I 
thought that was the right time. [Laughter.]
    Mr. DuBois. It does not seem that long, sir.
    Senator Akaka. I thank you so much. You have been so 
responsive to our questions. I would like to thank all of the 
witnesses for your testimony. This subcommittee looks forward 
to working with you to address the difficult issues we have 
discussed today and others that will be facing us.
    With respect to encroachment, the Department needs to 
continue to work with the local communities, States, and 
organizations to address these issues. Similarly, it is 
important that the Department fulfill its obligations as it 
reflects the credibility of the Department. I look forward to 
working with all of you in the days ahead, and I want to wish 
all of you well in your responsibilities. We are doing the best 
for our great country as we face today's challenges.
    A person made a remark to me that I was surprised about, 
and it made me think. The person asked, ``Are we in a war?'' We 
are. We have certainly declared war on terrorism. As the 
President said, it is going to be a long one, but we are in 
that situation. As such, we are trying the best we can, and you 
are too, to continue to provide the best quality of life for 
our troops, wherever they are, and give them the best training. 
In the future, I hope we can also help them with further 
compensation and pay increases.
    All of us we need to think about the future. Again, I want 
to thank you. I do not know whether you have any closing 
comments you want to make.
    Secretary Fiori. No, sir. Thank you.
    Mr. DuBois. Thank you very much, Mr. Chairman.
    Senator Akaka. This hearing is adjourned.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                          UNEXPLODED ORDNANCE

    1. Senator Akaka. Secretary Fiori, the Army has been funding the 
clean-up of BRAC sites at a level that would lead to remedies in place 
by 2005. The Army has excluded Unexploded Ordnance (UXO) problems from 
this effort, providing only a minimal level of funding for UXO. As a 
result, facilities with significant UXO problems will not meet the 2005 
clean-up goal. Do you believe that it is acceptable to set aside UXO 
problems at BRAC facilities to be addressed at a later date, or should 
the Army be addressing these problems now?
    Secretary Fiori. The Army is addressing UXO problems as part of its 
overall effort to ensure that BRAC properties are suitable for 
transfer. The Army is providing funds to perform munitions responses, 
which includes the removal of UXO, at its BRAC installations. As of the 
end of fiscal year 2001, the Army has spent approximately $90 million 
on munitions responses at BRAC sites. This fiscal year, the Army plans 
to spend an additional $20.2 million. The Defense Planning Guidance 
(DPG) for BRAC properties establishes a goal for complete cleanup for 
hazardous and toxic wastes by fiscal year 2005, but the DPG does not 
currently establish goals for munitions responses. Nevertheless, the 
Army is committed to performing adequate responses at its properties. 
Because of the complexity and multitude of challenges associated with 
the conduct of munitions responses, properties with significant 
munitions-related issues will not be ready for transfer by fiscal year 
2005. Some of these challenges are: gaps in existing UXO identification 
and discrimination technologies; the collective inability to quantify 
risks posed by UXO; and overlapping Federal and State environmental 
laws and regulations. The Army and the Department of Defense, in 
coordination with other Federal agencies, the States, and the Tribes, 
are actively addressing these challenges.

                        REPLACEMENT FOR VIEQUES

    2. Senator Akaka. Secretary Johnson, Secretary England has stated 
that the Navy plans to find a replacement for Vieques by May 2003. Any 
funds needed to prepare an alternative location by that date would have 
to be expended in fiscal years 2002 and 2003. Has the Navy requested 
any funding in the fiscal year 2003 budget to set up an alternative 
site or sites for east coast training? If not, how can the Navy hope to 
meet Secretary England's goal?
    Secretary Johnson. Funding was not included in the fiscal year 2003 
President's budget. Different alternatives are being considered in 
development of the FYDP in fiscal year 2004 as the fleet requirement 
solidifies. A funding profile has not been finalized, but Navy intent 
is to support the validated requirements for interim and long-term 
measures to support infrastructure improvements and environmental 
documentation for some of our east and gulf coast facilities and Range/
OPAREA complexes that will ensure fleet readiness.

    3. Senator Akaka. Secretary Johnson, has the Navy prepared an 
estimate of how long it is likely to take and how much it is likely to 
cost to get a replacement training range up and running?
    Secretary Johnson. The Navy anticipates that a combination of 
alternative training sites, methods, and various advance technologies 
using simulation will provide the required mix of training 
capabilities. The Navy is waiting for the CNA study, which will provide 
recommendations on future training options. In addition, the Navy is 
developing a strategy to repair and upgrade existing training ranges 
supporting Atlantic Fleet pre-deployment training and to build 
cooperative efforts with other services. The strategy will provide the 
resources to reverse degradation of range infrastructure and associated 
support facilities, improve realism of pre-deployment training, and 
take advantage of available technology to further enhance training. It 
is envisioned that the strategy will increase the capacity and 
capability of ranges supporting Atlantic Fleet commanders and improve 
their flexibility in reacting to disruptions such as weather, periodic 
reduction, or loss of access to a particular range facility without a 
resulting loss in training fidelity. This strategy, however, has not 
been finalized.

                       POLICY ON LAND ACQUISITION

    4. Senator Akaka. Mr. DuBois, it is my understanding that any 
request by the military departments to acquire more than 1,000 acres of 
land, or any land worth over $1 million, must be approved in advance by 
the Office of the Secretary of Defense. I also understand that the 
services generally have not considered acquiring land they do not 
actually plan to train on because they have no specific military use 
for it. Acquiring such buffer zones to provide space between training 
areas and the local communities, or perhaps to provide critical habitat 
that is not also a critical training area, might be useful in 
preserving key training ranges. Is the Department of Defense 
considering this as one approach to preserve key training areas?
    Mr. DuBois. The Department recognizes that targeted land 
acquisitions can be very useful in preserving key training ranges, and 
the proposed legislation includes a provision that would enhance the 
Department's ability to preserve open space in the vicinity of military 
installations. This proposal would authorize the Secretary of each 
Military Department to enter into agreements with any private 
organization that has the conservation, restoration, or preservation of 
land and natural resources, or a similar objective, as its stated 
principal organizational purpose or goal, to preserve high-value 
habitats or forestall incompatible development.

                    HOUSING PRIVATIZATION IN HAWAII

    5. Senator Akaka. Secretary Johnson and Secretary Fiori, both the 
Navy and the Army are contemplating housing privatization in Hawaii. To 
date, this privatization of military housing has not been attempted in 
Hawaii, in part due to the issue of ceded lands. What are your 
Department's plans for housing privatization in Hawaii, and how do you 
plan to deal with the unique land ownership issues there?
    Secretary Johnson. The Navy and Marine Corps' family housing master 
plans include privatization of existing military family housing on the 
island of Oahu. Funding for the first phase is included in our Fiscal 
Year 2003 budget request. None of the housing identified for the first 
phase is sited on ceded lands. We will review records to determine 
what, if any, housing in future phases may be on ceded lands.
    Secretary Fiori. The Army plans to privatize 8,178 homes in Hawaii 
(3,045 housing units at Fort Shafter and 5,133 units at Schofield 
Barracks) during 2003. Major milestones include:


  Notify Congress of Solicitation.........  June 15, 2002
  Conduct Industry Forum/Issue              August 28, 2002
   Solicitation.
  Notify Congress of Community Dev & Mgt    January 2003
   Plan (CDMP) Award.
  Select Developer to Prepare CDMP........  February 2003
  Notify Congress of Project Execution....  October 2003
  Issue Partner Notice to Transition/       November 2003
   Proceed.
  Transfer Operations and Assets to         March 2004
   Developer.



    A majority (60 percent) of Army family housing in Hawaii is located 
on ceded lands. However, the Army's approach to privatization will 
minimize legal concerns regarding ceded lands because, the Army retains 
title to the land. Additionally, the Army retains a vested interest in 
the project, as a member of a Limited Liability Corporation (LLC). 
Finally, the land and improvements will continue to be used to house 
military families. In February 2002, the Army's privatization team met 
with the local Hawaiian congressional delegation and Chamber of 
Commerce Military Advisory Committee to discuss the Army's 
privatization efforts in Hawaii. Coordination will continue among all 
key stakeholders. At the recommendation of the local congressional 
delegation, the Army plans to contact the State's Attorney General 
office to brief the Army's military housing privatization program and 
discuss any legal issues or questions they may have.

               PRIVATIZATION OF BACHELOR ENLISTED HOUSING

    6. Senator Akaka. Secretary Johnson, your statement mentioned the 
Navy's interest in attempting to privatize the operation of bachelor 
enlisted quarters in the Navy. Although this authority has existed for 
several years, no such projects have been attempted. Why does the Navy 
believe this approach is now more likely to succeed?
    Secretary Johnson. To date, all of our attention has been focused 
on privatizing military family housing. We are now in a position to 
build on our experiences and apply the principles of privatization to 
address our critical bachelor housing needs. In November 2001, we held 
an industry forum with representatives from the development, property 
management, and financial segments of the private sector. Although 
bachelor housing privatization presents unique challenges, the 
consensus was that bachelor housing privatization can work. Finally, 
although Title 10 provides authority for bachelor housing 
privatization, there are some legislative obstacles that prevent 
implementation. We are prepared to work with the committee to address 
these considerations.

    7. Senator Akaka. Secretary Johnson, what impact would 
privatization have on the character of such facilities, including their 
role in promoting unit cohesion?
    Secretary Johnson. I strongly believe that the privatization of 
bachelor housing is compatible with service goals, such as unit 
cohesion and team building. We expect that service bachelor housing 
assignment policies, which are based on these goals, can carry over to 
privatized housing.

                            FORCE PROTECTION

    8. Senator Akaka. Mr. DuBois, is the Department of Defense 
attempting to assess the requirements and costs of the higher force 
protection standards we are implementing, and may well be using for the 
foreseeable future, at our facilities around the world? Is the 
Department of Defense attempting to fund such construction costs, 
including the relocation or significant renovation of existing 
facilities, in the near-term using emergency funds, or will this mostly 
be a long-term effort built into future military construction budgets?
    Mr. DuBois. The ``DOD Anti-Terrorism Standards for Buildings,'' 
establishes the minimum requirements for force protection. We perform 
vulnerability assessments at 80 to 100 installations per year. The 
installation commanders take that information and determine the level 
of protection required. As a result, some projects may require higher 
than minimum standards. Based on the fiscal year 2002 and fiscal year 
2003 military construction programs, we are predicting a 3 to 5 percent 
increase in costs. This varies, depending on the type of project, 
whether it is new construction or renovation, and the percentage of 
renovation. In the fiscal year 2002 program, the added costs ranged 
from 1 percent to 28 percent.
    The Department is requesting emergency funds only for those 
projects with an immediate need for force protection. Upgrading all 
Department of Defense facilities according to our force protection 
standards will be a long-term process. We expect these costs to be part 
of future military construction programs.

                      ARMY INSTALLATION MANAGEMENT

    9. Senator Akaka. Secretary Fiori, the Army is planning a new 
installation management structure under which the funds needed to run 
and maintain Army bases would be placed under your control and would no 
longer be available to the division commanders to deal with unexpected 
training needs without the approval of senior Army leaders. How would 
division commanders work with the garrison commanders (who will report 
to you and the Assistant Chief of Staff for Installation Management) to 
set requirements and priorities, and deal with real-world changes, 
under this new structure?
    Secretary Fiori. I fully expect division commanders and the 
garrison commanders will continue to work together as they are now. 
Garrisons commanders, by the nature of their command, are charged with 
servicing the needs of their Army community. However, execution of 
training remains the responsibility of division commanders. Our 
garrison commanders have flexibility with their base support funding, 
and we will also retain flexibility at the Installation Management 
Agency to address unforeseen circumstances within the garrison 
commander's area of responsibility.
    To ensure mission commanders are closely involved in setting 
installation management requirements and priorities, we are placing the 
senior mission commander in the rating chain for our garrison 
commanders. The division commander at a division post, such as 
Schofield Barracks or Fort Drum, will be the garrison commander's 
senior rater. In the Army culture, that is the best means to ensure 
satisfactory customer service to senior commanders. To provide further 
influence at a senior level, commanding generals will sit on our new 
Installation Board of Directors, helping to set priorities and 
strategies for Army installations.

           MILITARY CONSTRUCTION FOR NATIONAL MISSILE DEFENSE

    10. Senator Akaka. Mr. DuBois, does the Department of Defense plan 
to use any military construction funding for construction of a national 
missile defense system, and if so, does the fiscal year 2003 budget or 
Future Years Defense Program contain military construction funds for 
this program?
    Mr. DuBois. No military construction funds are requested in fiscal 
year 2003 for Ground-Based Midcourse (GMD) (formerly National Missile 
Defense) construction. All construction funds are in RDT&E. In fiscal 
year 2002, the Administration requested, and Congress approved, 
legislation that stated the following: ``(1) The Secretary of Defense, 
using funds appropriated to the Department of Defense for RDT&E for 
fiscal years after fiscal year 2001 that are available for programs of 
the Ballistic Missile Defense Organization (now MDA), may carry out all 
construction projects, or portions of construction projects, including 
projects for the acquisition improvement, or construction of 
facilities, necessary to establish and operate the Missile Defense 
System Test Bed; and (2) The authority provided in subsection (a) may 
be used to acquire, improve, or construct facilities at a total cost 
not to exceed $500,000,000.''
    In fiscal year 2002, $281 million of RDT&E funds was appropriated 
for GMD construction. The budget request for fiscal year 2003 for GMD 
construction is $137 million.

                       NAVY ENCROACHMENT STRATEGY

    11. Senator Akaka. Secretary Johnson, your prepared statement 
focuses on critical habitat when discussing concerns about training. 
However, a Department of Defense issue paper identifying encroachment 
issues that the Navy currently faces at various bases found that at 8 
of the 14 bases, the problems came from noise, airspace restrictions, 
or unexploded ordnance, rather than from environmental constraints. 
What steps is the Navy taking to develop a comprehensive encroachment 
strategy that addresses all of the many factors that have an impact on 
Navy training?
    Secretary Johnson. The DON and DOD have developed a comprehensive 
approach to improve and manage DOD ranges, including encroachment 
issues. The Senior Readiness Oversight Council (SROC) identified 
recapitalization, modernization, and sustainability as the key issues 
in improving and maintaining DOD ranges. The SROC is addressing 
recapitalization and modernization of ranges separately and has 
established an Encroachment Integrated Product Team (IPT) to coordinate 
all issues of encroachment. The IPT is developing action plans to 
address specific encroachment issues, and oversees their 
implementation. Another important group reporting to the SROC on 
encroachment issues is the Operational and Environmental Executive 
Steering Committee for Munitions (OEESM). OEESM has developed the DOD 
Munitions Action Plan (MAP) addressing life-cycle management of 
munitions for range sustainment. DOD also manages issues on a regional 
basis, specifically the Southern California/Arizona region. The 
strategy will engage stakeholders and range managers to identify issues 
and develop solutions to regional encroachment that will be applied 
nationally if successful. In addition, DOD has established planning 
goals, and DON is budgeting for comprehensive range sustainability 
studies at Navy and Marine Corps ranges. These studies will include 
Range Complex Management Plans, regulatory compliance evaluations, on-
site contaminant assessments, and encroachment vulnerability analyses. 
DOD and the services are actively communicating the importance of a 
balance between military readiness and environmental stewardship with 
environmental groups, the public, other stakeholders, and members of 
Congress and their staffs.
    In addition to these programmatic solutions to encroachment, DOD 
and the military services have been in discussions with OMB, the 
Council of Environmental Quality, the Environmental Protection Agency 
(EPA), the Fish and Wildlife Service at the Department of Interior, and 
the National Oceans and Atmospheric Administration (NOAA) at the 
Department of Commerce. Together, as a team, and with the help of 
Congress, we will work to find solutions. If the administration decides 
to pursue statutory clarifications, we are ready to work closely with 
the appropriate congressional committees on any necessary 
clarifications.

                          CONTRACTS WITH ENRON

    12. Senator Akaka. Mr. DuBois, please provide a list of the 
contracts for the provision of energy services or any utility 
privatization contracts that the military departments and the defense 
agencies had with the Enron Corporation at the time it declared 
bankruptcy; a description of whether the services the government 
contracted for are still being provided; and in any cases where there 
was a default, how those services are now being provided.
    Mr. DuBois. The Department has contracted directly with Enron or 
its subsidiaries in three areas--utilities privatization, natural gas 
procurement, and renewable energy  purchases.
    The Army awarded Enron Federal Solutions Inc. (EFSI) the contract 
for privatization of the water, wastewater, natural gas, and electric 
systems at U.S. Army Garrison, Fort Hamilton, NY. The contract called 
for EFSI to upgrade these utility systems prior to conveyance. EFSI 
made the capital investments to upgrade most of the utilities 
infrastructure, but has stopped performing the operations and 
maintenance functions. The operations and maintenance services are 
currently being provided by an existing base operating support 
contract. The Army filed a stipulation with the bankruptcy court to 
obtain permission to terminate the contract and is expecting funds from 
the performance and payment bonds to support completion of some of the 
contracted work. The Army plans to competitively re-solicit the 
privatization contract.
    The Defense Energy Support Center (DESC) awarded Enron Corporation 
contracts to supply natural gas to Federal customers at various 
locations. These contracts were terminated for default on December 1, 
2001, because Enron was unable to deliver  the gas. The customers were 
able to revert to gas supplied by the local utility, so there was no 
interruption of service. DESC has since awarded new contracts to other 
suppliers.
    In May 2001, the Air Force contracted with Enron to supply 
renewable power to Edwards AFB. This contract was part of the  
Department's plan to reduce electricity demand from the commercial 
power grid in the western U.S. Although Enron is still providing power 
under this contract, it is uncertain that this will continue much 
longer. DFAS is holding payment in abeyance pending a ruling by the 
bankruptcy court. If necessary, Edwards AFB will procure electricity 
from the local utility supplier--the Western Area Power Administration 
(WAPA)--at the tariff rate. WAPA is soliciting for a new supplier.
    Additionally, there are two instances where DOD was procuring 
electricity from Enron indirectly.
    The Navy entered into an interagency agreement with WAPA in March 
2001 to obtain 80-megawatts of electricity for 12 Navy and Marine Corps 
installations in the San Diego region. WAPA then procured the 
electricity from Enron. Although Enron has continued to supply the 
electricity as contracted, WAPA has made arrangements with the 
California Independent System Operator to ensure no interruptions of 
service occur, should Enron fail to deliver.
    Hanscom AFB, MA, has an agreement to purchase electricity from the 
General Services Administration (GSA), which obtained the power from 
Enron. GSA has already awarded a replacement contract to another 
supplier.

                       CENTRAL COMMAND FACILITIES

    13. Senator Akaka. Mr. DuBois, are emergency funds being used at 
this time only for temporary needs related to Operation Enduring 
Freedom, or also to construct facilities that U.S. forces intend to use 
on a long-term basis?
    Mr. DuBois. The fiscal year 2003 Defense Emergency Response Fund 
request is designed to respond to, or protect against, acts or 
threatened acts of terrorism against the U.S. The majority of military 
construction projects are for construction of perimeter security and 
gates, providing increased security in the long-term. Some of the 
projects may be used on a short-term basis, but most will be used for 
the foreseeable future.

                          CORROSION PREVENTION

    14. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, studies now being prepared for submission to Congress 
have found that the Department of Defense incurs at least $20 billion 
each year in damage to equipment and weapon systems because of 
corrosion. Are you aware of similar studies, analyses, or reports on 
the effects and costs of corrosion for military infrastructure and 
facilities?
    Secretary Fiori. The Army Corps of Engineers, Engineer Research and 
Development Center (ERDC) is aware of many studies including the 
following recent study of the national cost of corrosion by CC 
Technologies and the National Association of Corrosion Engineers (NACE) 
International: ``Corrosion Costs and Preventive Strategies in the 
United States,'' Report to Federal Highway Administration (FHWA), 
Office of Infrastructure Research and Development, Report FHWA-RD-01-
156, September 2001. This report concluded that the national direct 
cost of corrosion in the U.S.A. was $276 billion. The total annual 
direct cost of corrosion incurred by the military services for systems 
(military equipment and hardware) and infrastructure is approximately 
$20 billion. For DOD facilities, this study concludes the following: 
``Information on corrosion-related costs for these DOD assets was not 
available; however, based on other studies described in this report, it 
is reasonable to assume that these costs are on the order of several 
billion dollars annually.''
    Secretary Johnson. We are not aware of any service-wide study of 
the cost of corrosion for military infrastructure and facilities. About 
5 years ago, Naval Facilities Engineering Service Center (NFESC) 
conducted a sampling of the Commander in Chief, Pacific Fleet 
(CINCPACFLT) claimant level efforts and determined that sustainment and 
restoration projects to address operational waterfront facility 
corrosion problems has cost CINCPACFLT approximately $5 million per 
year. Considering a similar impact for Commander in Chief, Atlantic 
Fleet (CINCLANTFLT) would create a requirement in excess of $10 million 
for the fleet. This does not account for corrosion projects to correct 
problems related to non-critical facilities such as building exteriors, 
fences, antennas, or other metal structures.
    Secretary Gibbs. The Air Force is not aware of any such studies 
related to corrosion for military infrastructure and facilities.

    15. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, how much of your facility maintenance budgets are 
dedicated to fixing or preventing corrosion-related damage?
    Secretary Fiori. Our sustainment requirement does not separately 
identify costs for corrosion. The operation and maintenance (O&M) 
funding is allocated to the major commands and installations to repair 
our most critical readiness requirements that includes corrosion as a 
component of the total project.
    Secretary Johnson. Based on the NFESC study, the annual cost of 
corrosion for the Naval Shore Establishment is estimated to exceed $10 
million for critical facilities. Corrosion prevention in facilities is 
normally addressed as part of the installation recurring maintenance 
and thus more precise estimates are not readily available.
    Secretary Gibbs. The Air Force does not distinguish between the 
annual cost of corrosion damage/maintenance (Question 18) and how much 
of our facility maintenance budgets are dedicated to fixing or 
preventing corrosion-related damages (Question 15). Additionally, the 
Air Force does not specifically track day-to-day maintenance (including 
man-hours expended) to prevent or fix corrosion damage, nor does the 
Air Force track the annual cost of corrosion control or related damages 
to Air Force facilities and infrastructure.
    The Air Force does have corrosion control programs established at 
each installation and have been successful in reducing and preventing 
our corrosion maintenance requirement. For facilities, those programs 
are multi-faceted in scope, generally centered on protective coatings, 
cathodic protection, and industrial water treatment.
    Facility requirements to restore or prevent corrosion-related 
damage to facilities compete for available funds with other facility 
needs based on their impact to the installation mission. The amount 
will therefore vary from year to year. However, these requirements are 
primarily accomplished by contract when funded.

    16. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, what initiatives are you taking to reduce corrosion 
maintenance costs?
    Secretary Fiori. The following initiatives currently underway help 
to reduce corrosion related maintenance costs:
    (a) Army Corps of Engineers sponsored PROSPECT Training in 
Corrosion Control has been conducted annually since 1975;
    (b) Army Corrosion Control Technology Program at select 
installations demonstrates and implements emerging corrosion control 
technologies; and
    (c) All new construction of underground distribution systems or 
storage tanks use nonmetallic materials where appropriate. Where 
nonmetallic materials are technically impractical or not life cycle 
cost effective, coatings and cathodic protection systems are provided 
to eliminate or minimize external corrosion. Hydronic heating and 
cooling systems often include automatic systems for the chemical 
treatment of water to minimize or prevent internal corrosion.
    Secretary Johnson. Corrosion initiatives initiated through Naval 
Facilities Engineering Command (NAVFAC) include:

        <bullet> Establishing corrosion control technical expertise at 
        the Naval Facilities Engineering Service Center (NFESC);
        <bullet> Conducting periodic base corrosion surveys. Work done 
        by the technical experts, NAVFAC Engineering Field Division 
        (EFD) corrosion managers, or by contract;
        <bullet> Activity, EFD, and NFESC personnel collaborate to 
        determine corrosion control requirements for POL facilities for 
        programming by the Defense Energy Support Center Corrosion 
        Control Program;
        <bullet> Periodic waterfront underwater assessment surveys 
        managed by technical experts at the NFESC;
        <bullet> Revision of outdated design criteria to install proper 
        corrosion control during initial installation to avoid 
        unnecessary maintenance costs;
        <bullet> Corrosion control training classes, as requested, are 
        conducted periodically throughout the Naval Shore 
        Establishment;
        <bullet> The NAVFAC Engineering Network (ENET), as well as 
        corrosion technical expert web sites, are established to 
        identify Navy personnel knowledgeable in corrosion control, 
        transfer lessons learned, and help field personnel obtain 
        assistance with corrosion control problems; and
        <bullet> Research and development investments into corrosion 
        resistant paints and application techniques, as well as 
        corrosion control practices.

    Secretary Gibbs. The Air Force's intent is to reduce corrosion 
maintenance requirement through effective corrosion prevention 
programs. For facilities, those programs are multi-faceted in scope, 
generally centered on protective coatings (exterior facility painting), 
cathodic protection (protecting underground metal piping and above 
ground storage tanks), and industrial water treatment (internal 
treatment of heating and cooling systems). In recent years, the Air 
Force has outsourced the majority of these operations. In those cases, 
it has found the use of blanket purchase agreements and requirements 
contracts as an effective way to reduce its contract costs.

                           CORROSION CONTROL

    17. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, corrosion control and prevention is an essential 
element of a maintenance program. However, because of its nature, 
corrosion has been simply accepted as a normal degradation of military 
equipment. In planning for maintenance, the military services and the 
Department of Defense have done little to train their technicians and 
have not specifically allocated funding to address corrosion of 
facilities and equipment. When formulas are developed to project 
military maintenance costs, corrosion is rarely considered. Do you 
document the impact of corrosion on your facilities? If so, who 
provides the information? Where is that information stored? Is it used 
in resource planning and determining facility maintenance requirements? 
Is such information made available and shared with others? If you do 
not document the impact of corrosion, why?
    Secretary Fiori. The Army has documented the impact of corrosion on 
its facilities via Army-wide corrosion surveys until 1998.
    This information is currently stored at the U.S. Army Engineer 
Research and Development Center (ERDC) Construction Engineering 
Research Laboratory (CERL) in Champaign, Illinois.
    It has been used in research resource planning and determining 
maintenance requirements.
    It is made available and shared with Army Installations, Major 
Commands (MACOMs), and the Assistant Chief of Staff for Installation 
Management (ACSIM).
    Secretary Johnson. The impact of corrosion is documented in 
individual reports of corrosion control surveys conducted under 
NAVFACENGCOM and Defense Energy Support Center (DESC) Corrosion Control 
Programs. These survey reports are stored either at activities, 
NAVFACENGCOM Engineering Field Divisions (EFDs), or at DESC. This 
information is being used to identify corrosion related projects, and 
to some extent, prioritize such projects. As an example, at their 
request CINCPACFLT and the NFESC have collaborated in developing a 
single report summarizing cathodic protection (one major method of 
corrosion control) status at all CINCPACFLT activities and prioritizing 
the deficiencies at each activity. DESC uses information from surveys 
conducted under their program to develop their execution plans.
    Secretary Gibbs. Facility maintenance programs are managed by 
engineers at each Air Force installation. Those engineers conduct 
recurring facility inspections, during which they gather and document 
maintenance requirements in databases stored at each installation. 
Corrosion management is part of these recurring facility inspections. 
As each installation develops its annual budget request for facility 
maintenance, it considers corrosion prevention and maintenance 
requirements (along with all other facility maintenance requirements). 
As funds are appropriated by Congress and made available to each 
installation, installation commanders then execute their facility 
maintenance programs.

    18. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, what is the annual cost of corrosion damage/
maintenance for your military facilities?
    Secretary Fiori. The annual direct cost of corrosion/maintenance is 
not provided for in the budget process and is not available.
    Secretary Johnson. Based on the NFESC study, the annual cost of 
corrosion for the Naval Shore Establishment is estimated to exceed $10 
million for critical facilities. These costs are part of the 
installation's recurring maintenance and thus more precise estimates 
are not readily available.
    Secretary Gibbs. See answer to question no. 15.

    19. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, where do you receive your guidance for corrosion 
management?
    Secretary Fiori. The Army Corps of Engineers and my office, the 
Office of the Assistant Secretary of the Army (Installations and 
Environment), provide technical and policy guidance, respectively. In 
general, the installations use industry standards and practices via 
contract support.
    Secretary Johnson. A Tri-Service Committee develops all guidance 
for the Department of Defense. In response to the Appropriations 
Conference Report 105-247 and the DOD Installation Policy Board 
directive of January 13, 2000, the Tri-Service Committee on Unified 
Design Guidance was formed. The Naval Facilities Engineering Command, 
the Army Corp of Engineers, and Air Force Civil Engineering Support 
Agency develop all new DOD facility guidance jointly. One example of 
this in the corrosion control area is the Unified Facility Criteria 
(UFC) document UFC 3-570-06 which provides Tri-Service guidance on 
maintenance and operation of cathodic protection systems, and which is 
under final review by the Air Force.
    Secretary Gibbs. The Air Force works together with the other 
services, service laboratories, and the private sector corrosion 
maintenance industries, including both the National Association of 
Corrosion Engineers (NACE) International and the Steel Structure 
Painting Council (SSPC), to collect and implement guidance on corrosion 
prevention and maintenance.

    20. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, do you provide guidance to your military units on 
corrosion management? If so, in what format and to whom?
    Secretary Fiori. The Army provides guidance to the Army 
Installation's Director of Public Works (DPW) staff on corrosion 
mitigation through Technical Manuals and Bulletins.
    Secretary Johnson. Guidance is provided through various methods 
including:

        <bullet> NAVFACENGCOM Design Criteria and Instructions. 
        Criteria are updated periodically and distributed to Navy 
        Design and Public Works Departments. A NAVFACENGCOM corrosion 
        control program instruction is currently being revised.
        <bullet> NAVFACENGCOM corrosion control technical experts at 
        NFESC and Engineering Field Divisions provide guidance to field 
        personnel through technical reports, training classes, and 
        electronic and telephonic means.

    Secretary Gibbs. Yes. The Air Force Civil Engineer Support Agency 
(AFCESA) at Tyndall AFB, FL is the lead agency for providing facility 
corrosion maintenance technical assistance to Air Force installations. 
They do so on an as-requested basis. In addition, AFCESA publishes 
technical papers and operating guidance made available to the field via 
various forms of electronic media. When requested and practical, AFCESA 
personnel visit installations to provide on-site technical assistance.

    21. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, do you conduct periodic inspections of facilities to 
ensure they are being maintained to published standards? Do these 
inspections include the analysis of the impact of corrosion? If not, 
why?
    Secretary Fiori. The Army uses an annual report, the Installation 
Status Report (ISR), as a tool in determining the quality and quantity 
of facilities Army-wide. The ISR uses Army-wide standards developed by 
the Army staff to measure the condition of facilities.
    Occupants of the buildings do the inspection using rating sheets 
and booklets. Several of the booklets, especially those pertaining to 
medical facilities, include specific corrosion reporting items. As a 
result of these inspections, the condition of the facilities are 
classified as red, amber, or green. Sustainment, renovation, or 
construction costs are then developed.
    ISR does not separately analyze the effects of corrosion. This type 
of inspection would require technical analysis. Corrosion within pipes 
is a difficult check since it requires shutting down the system and 
dismantling the pipes. This causes disruption of service to a 
customer's facility and is usually only discovered when repairs are 
being done.
    Secretary Johnson. Yes, Navy and Marine Corps activities conduct 
periodic inspections of the facilities and document deficiencies:

        <bullet> Activities conduct some specialized inspections/
        maintenance of corrosion control systems either in-house or by 
        contract;
        <bullet> NFESC/EFD technical experts conduct periodic base wide 
        corrosion and waterfront underwater inspection surveys that 
        include analysis of corrosion control systems such as cathodic 
        protection; and
        <bullet> Periodic surveys of POL systems at Navy activities are 
        conducted under a Defense Energy Support Center corrosion 
        program when such a requirement has been justified.

    The inspections conducted by the NFESC/EFD technical experts and 
the inspections conducted under the DESC program will most often 
include analysis of the impact of corrosion. Activity specialized 
inspections will sometimes include such analysis.
    Secretary Gibbs. The Air Force does not conduct any centrally 
directed formal inspection program for corrosion maintenance at its 
installations. However, each Major Command conducts installation visits 
to inspect installation infrastructure, including the different aspects 
of corrosion maintenance. Each installation commander is responsible 
for performing recurring facility inspections, gathering and 
documenting facility maintenance requirements, and utilizing available 
resources to best meet those requirements.

    22. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, do you receive guidance from the Department of Defense 
on corrosion management? If so, from what office? If not, from whom 
would you expect to provide this guidance?
    Secretary Fiori. We do not receive specific guidance for corrosion 
management from the Department of Defense. My office, the Office of the 
Assistant Secretary of the Army (Installations and Environment), 
provides policy guidance and the Army Corps of Engineers provides 
technical guidance for construction projects.
    Secretary Johnson. The Office of Under Secretary of Defense 
(Installation and Environment) provides guidance on corrosion control 
developed by the Tri-Service Committee on Unified Design Guidance. 
Currently, Unified Facility Criteria (UFC) document UFC 3-570-06, which 
provides Tri-Service guidance on maintenance and operation of cathodic 
protection systems, is under final review by the Air Force.
    Secretary Gibbs. The Air Force does not receive specific guidance 
from DOD on facility corrosion prevention and maintenance, nor does it 
require it. The Air Force works with the other services and industry to 
develop the corrosion prevention and maintenance guidance it needs.

    23. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, how do you ensure that your corrosion-related 
maintenance is safe for the environment and the personnel who perform 
the maintenance?
    Secretary Fiori. All procedures and chemicals used by installations 
are in compliance with applicable Occupational Safety and Health 
Administration, Environmental Protection Agency, and State and local 
regulations.
    Secretary Johnson. The Department has safety and environmental 
offices at the Navy and Marine Corps headquarters down to the 
individual installations that monitor compliance. Environmental 
personnel are involved in the design and review process of these 
projects. Corrosion technical experts participate in military and 
private sector committees developing military criteria and industry 
standards to ensure environmental compliance. They keep abreast of 
changing environmental and safety requirements from such agencies as 
EPA, Office of Underground Storage Tanks, and the Office of Pipeline 
Safety. Updated information is sent to field personnel through criteria 
updates, technical reports, project reviews, and electronic/telephonic 
means.
    Secretary Gibbs. Corrosion maintenance-related environmental 
guidance is established and distributed by the Air Force Civil Engineer 
Support Agency, based on its crossfeed with the other services and the 
corrosion maintenance industry. Further, the environmental protection 
and safety experts on each Air Force installation work with the 
installation maintenance and contract personnel to ensure only 
environmentally/occupationally safe products are used on the 
installation.

    24. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, if you were able to reduce the frequency of corrosion-
related maintenance, what benefits, including cost savings, would you 
project for military resources and the environment?
    Secretary Fiori. While we are unable to project cost savings, it is 
expected that the major benefit is that the life cycle costs are going 
to be significantly lower because of life extension of facilities and 
equipment. The reliability and readiness of facilities will also be 
increased, which is critical for systems that contain or transport 
substances that could harm people or the environment, such as natural 
gas or transportation fuels.
    Secretary Johnson. Reduced frequency of corrosion-related 
maintenance would allow sustainment resources to be applied to other 
requirements. Corrosion control systems that are properly designed, 
installed, and maintained could result in significant cost avoidance. 
For example, a pipeline with a properly designed coating and cathodic 
protection system will be free of leaks for the designed service life. 
The cost to install and maintain the corrosion control system is 
usually much less than it takes to periodically replace or perform a 
major repair to the pipeline. One major fuel leak could result in 
environmental cleanup/penalty costs of $500,000 to $2,000,000. In 
addition, by prolonging the lives of facilities, the costs for 
premature major repairs or replacements will be avoided.
    Secretary Gibbs. In addition to the cost savings from avoided 
material replacement, the Air Force expect benefits would include 
manpower savings and a reduction in hazardous waste generation.

    25. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, for corrosion-related facilities maintenance, who does 
the work? What are the annual costs? How many man-hours are expended 
annually on corrosion repairs?
    Secretary Fiori. The Installation Department of Public Works staff 
and contractors perform the corrosion related maintenance work. The 
Army does not track or have records which report maintenance work 
specifically for corrosion control or repairs.
    Secretary Johnson. A mixture of in-house and contract personnel 
accomplish corrosion-related facilities maintenance work. The mixture 
is dependent on the extent of the work and the capability of the in-
house force. Costs and man-hours are not specifically collected for 
corrosion repairs, and are thus not readily available.
    Secretary Gibbs. See answer to question no. 15.

    26. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, can you provide an analysis of the return on 
investment from corrosion repairs or preventative measures?
    Secretary Fiori. We are unable to provide specific information on 
return on investment from corrosion repairs or preventive measures. 
Anecdotal evidence suggests that the return on investment resulting 
from a properly executed corrosion control program for utilities and 
facility components is between 10 to 1 and 100 to 1.
    Secretary Johnson. Economic analyses have been used to justify many 
corrosion control projects, but historical return on investment numbers 
have not been kept.
    The cost of implementing corrosion control typically amounts to 
about 15-20 percent of the total facility construction, depending on 
the type of construction. Corrosion systems would also require some 
small amounts of annual investment for operation and periodic 
maintenance. A properly designed and maintained corrosion control 
system can extend the life of a structure for 15-20 years, and if the 
corrosion control systems are replaced every 15-20 years, the 
structural life can be extended indefinitely. The maintenance, 
operation, and periodic system replacement costs far less than major 
repairs or replacement of a structure caused by uncontrolled corrosion.
    Other impacts that can be avoided as a result of preventing 
corrosion are:

        <bullet> Downtime and disruption of service;
        <bullet> Expensive loss of product (fuel);
        <bullet> Environmental and safety hazards and costs;
        <bullet> Decreased system capacity (e.g. loss of a storage 
        tank); and
        <bullet> Adverse impacts on operational readiness.

    Secretary Gibbs. No, the Air Force does not currently track 
separate investments made on separate corrosion repairs or preventative 
measures, as these are embedded in each installation's other 
infrastructure maintenance and repair programs.

    27. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, for your corrosion maintenance, do you use materials, 
techniques, and processes prescribed by military commands or 
laboratories, or are you using commercial products and processes? Are 
they safe? Are they effective? Do they provide a savings to the 
government?
    Secretary Fiori. The materials, techniques, and processes for 
corrosion maintenance are generally prescribed by manufacturers and 
suppliers. The laboratories assist in the proper selection and 
evaluation of materials and technologies. Judiciously selected 
materials, techniques and processes for corrosion control are widely 
accepted as safe and effective, and have been shown to reduce costs of 
operations and maintenance.
    Secretary Johnson. Occasionally, the Department will use techniques 
and processes prescribed by military commands when they are found to be 
superior to commercial products or where commercial standards are too 
general or vague to ensure the required quality. For the most part, the 
Department uses commercial products for facility corrosion maintenance.
    For example, in September 2001, Tri-Service Paints and Coatings 
Guide Specification was revised to replace all references to Federal 
and military coating standards with Non-Government Standards (NGS) 
coating standards. The NGS's reference commercial, off-the shelf 
products instead of the combined formulation/performance requirements 
of the Federal and military standards. Application techniques and 
processes utilized in guide specifications also reference NGS 
standards. The NGS standards are created/developed and maintained by 
committees of field experts so they are the safest and most effective 
techniques possible. Using these standards saves government dollars by 
not having to develop and maintain MIL specifications.
    Navy technical experts also work with environmentally concerned NGS 
organizations to set goals and standards that meet, and preferably 
exceed regulatory requirements. This is done to meet the intent of 
Executive Order 13101: Greening the Government Through Waste 
Prevention, Recycling, and Federal Acquisition.
    Secretary Gibbs. In general, products prescribed by the military 
commands and laboratories are the same as the commercial products and 
processes used in industry. The Air Force continually interfaces with 
the private sector and academia, most commonly through industry forums, 
and thus tries to stay current with and take advantage of the latest 
technologies whenever possible. The products and processes used by the 
Air Force for corrosion maintenance are as safe and effective.

              CORROSION CONTROL--ROLE OF LABS AND ACADEMIA

    28. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, each of the military services has a laboratory system 
that provides technical leadership on materials and corrosion. The 
laboratories are limited in their capabilities as related to corrosion 
and most often seek help from the academic community. How does your 
service seek to leverage the expertise in academia and the private 
sector on corrosion prevention and remediation?
    Secretary Fiori. The Army laboratories continually seek 
opportunities to leverage the expertise in academia and the private 
sector through partnering, conferences and joint research efforts.
    Secretary Johnson. By using up to date techniques and processes 
available through Non Government Standard (NGS) organizations, our 
corrosion technical experts leverage academia and private sector 
expertise into Naval working documents. This meets the intent and 
spirit of OMB Circular No. A-119: Federal Participation in the 
Development and Use of Voluntary Consensus Standards and in Conformity 
Assessment Activities. Projects focused on specific corrosion 
preventive efforts also lead to cooperative efforts between the labs 
and academia and private sectors. Many specialized corrosion control 
studies are contracted with the private sector.
    Secretary Gibbs. The Air Force leverages the expertise in academia 
and the private sector through participation in corrosion-related 
industry forums, including the services co-hosting an annual corrosion 
seminar with the National Association of Corrosion Engineer (NACE) 
International. Very often, scholars from academia participate (and are 
featured) in these forums, and it is an excellent means for the Air 
Force to gather information and discuss its corrosion-related issues 
directly with industry.

    29. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, how do your services' efforts relate to those ongoing 
in the other services? Do you see opportunities for further 
collaboration, both within the military community and with those 
outside of it?
    Secretary Fiori. The Army/Army Engineer Research and Development 
Center (ERDC) staff is dynamic in coordinating Tri-Service activities 
through collaboration and participation in the Annual National 
Association of Corrosion Engineers (NACE) Corrosion Conference, Annual 
Tri-Services Corrosion Workshop, and other related Tri-Services 
meetings. The Army is continually seeking improved leveraging 
opportunities for collaboration both within and outside of the military 
community because of funding constraints.
    Secretary Johnson. Navy corrosion technical experts actively 
participate in Tri-Service committees formed to foster communication, 
collaboration, technical training, and technology transfer on 
facilities related maintenance issues between the services, especially 
with regard to corrosion prevention measures. The committees cover 
paints and coatings, LBP (lead based paint), cathodic protection, 
fuels, water, and other areas of concern.
    Their continued participation on non-government committees and 
industry organizations further leads to many cooperative efforts that 
benefit the Department, the Tri-Services in general, and private sector 
applications.
    Secretary Gibbs. The services co-host an annual corrosion seminar 
with the National Association of Corrosion Engineers (NACE) 
International to bring together corrosion personnel from all levels of 
the service's engineering organizations, service laboratories, and the 
private sector corrosion maintenance industry to collect and implement 
guidance on corrosion prevention and maintenance.

    30. Senator Akaka. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, do you seek guidance from your military laboratories 
to solve corrosion issues? If so, do they satisfy your requirements? If 
not, why?
    Secretary Fiori. We look to our laboratories to provide technical 
guidance and support to solve corrosion issues. The laboratories 
satisfy our requirements.
    Secretary Johnson. Yes, military laboratories (NFESC, US Army CERL, 
NRL, etc.) have been and are still consulted to help solve corrosion 
issues.
    Secretary Gibbs. Yes. The Air Force works with the U.S. Army Corps 
of Engineers and the U.S. Navy labs, as well as the Air Force Research 
Laboratory. These relationships meet the Air Force's requirements.

                         HOUSING PRIVATIZATION

    31. Senator Akaka. Mr. DuBois, how much of the basic allowance for 
housing funding in the military personnel accounts for fiscal years 
2002 and 2003 is dedicated specifically to payments related to housing 
privatization?
    Mr. DuBois. In fiscal year 2002, we project approximately $135 
million of the basic allowance for housing funding in the military 
personnel accounts will be used by members to pay rent at housing 
privatization projects. The new impact of privatization in fiscal year 
2002 will be approximately $68.3 million. The $68.3 million reflects 
the number of service members who, prior to privatization of their 
housing, were living on-base or in MILCON housing and not receiving 
BAH, but now are. For those service members who were receiving BAH to 
pay for housing off-post or in the private sector, that impact on the 
BAH account should be transparent as they move into privatized housing.
    In fiscal year 2003, we project approximately $448 million of the 
basic allowance for housing funding in the military personnel accounts 
will be used by members to pay rent at housing privatization projects.

                         UTILITY PRIVATIZATION

    32. Senator Akaka. Mr. DuBois, are the services still being 
directed to complete the privatization of utility systems by the end of 
fiscal year 2003?
    Mr. DuBois. In December 1998, the Deputy Secretary of Defense 
directed the services to privatize all utility systems by September 
2003, except those needed for security reasons or when uneconomical.
    As of October 1, 2001, the services have privatized 26 systems. Two 
hundred five systems were determined to be uneconomical to privatize or 
exempt due to security reasons.
    The program has turned out to be more complex than when initially 
conceived and has taken much longer to implement than anticipated. We 
are currently reviewing the September 2003 completion milestone. 
Meanwhile, the services are proceeding with efforts to execute the 
program.

                        HOMEPORT ASHORE PROGRAM

    33. Senator Akaka. Secretary Johnson, I understand that in the 
Norfolk area barges fitted for berthing are being used to provide 
berthing for sailors in port. What role do you believe such barges 
should play in the homeport ashore program?
    Secretary Johnson. Junior shipboard sailors should have homes 
ashore, just like their more senior or shore based counterparts. The 
use of berthing barges as they relate to the homeport ashore program 
will continue for uninhabitable ships undergoing overhaul when bachelor 
housing space is not available, until more permanent housing can be 
provided.

             EMERGENCY FUNDING FOR INFRASTRUCTURE PROJECTS

    34. Senator Akaka. Mr. DuBois, Secretary Fiori, Secretary Johnson, 
and Secretary Gibbs, please provide a list of all infrastructure 
projects funded through the Defense Emergency Response Fund using the 
$40 billion appropriated by Public Law 107-38 and the supplemental 
included in Public Law 107-117, to include both military construction 
projects as well as projects involving the improvement of existing 
facilities for purposes including anti-terrorism or force protection.
    Mr. DuBois. The projects funded through the Defense Emergency 
Response Fund and Supplemental are below. There were no defense agency 
projects in these appropriations.

                        [In millions of dollars]
P.L. 107-38:
  Dover AFB Mortuary.......................................        18.8
  Guantanamo Naval Base Detention Facility (PH I)..........        20.6
  Guantanamo Naval Base Detention Facility (PH II).........        13.4
  Classified Project.......................................        75.0

 P.L. 107-117:
  Thurmont, MD--Road Construction..........................         2.0
  Fort Detrick, MD Anti-Terrorism/Force Protection.........         9.1
  Army classified project in Utah..........................         7.0
  Army classified project..................................         4.6
  Air Force classified projects............................        46.7
  Various locations worldwide--Weapons of mass destruction         35.0
   enhanced security.......................................


    Secretary Fiori. The Defense Emergency Response Fund provided funds 
for infrastructure improvement projects both above and below the $1.5 
million life, health, and safety, threshold for military construction 
funded projects. The Army does not have visibility on access control 
projects below the threshold that were accomplished by installation 
commanders' decisions. The list of known projects follows:

                        [In thousands of dollars]
------------------------------------------------------------------------
           State/Location                     Project            Cost
------------------------------------------------------------------------
Active Army
  Maryland
  Fort Detrick......................  AT/FP High Risk              4,950
                                       Facility Hardening.
  Fort Detrick......................  Perimeter Security           1,350
                                       Fence.
  Fort Detrick......................  Remote Delivery              2,800
                                       Facility.

  Utah
  Dugway Proving Ground.............  Classified Project....       7,000

  Inside the U.S.
  Various...........................  Security Measures for       35,000
                                       WMD.

  Outside the U.S.
  Various...........................  Classified Project....       4,600

Army Reserve
  New Jersey
  Fort Dix..........................  Install Lighting......         120
                                      Install Perimeter            1,050
                                       Fence.

  Pennsylvania
  Oakdale (99th RSC)................  Repair Fence and               190
                                       Install Lighting.

  Wisconsin
  Fort McCoy........................  Install Perimeter            1,050
                                       Fence.
------------------------------------------------------------------------

    Secretary Johnson. The following military construction projects 
were funded through the Defense Emergency Response Fund: 


                        [In millions of dollars]
  P.L. 107-38:
  Military Construction:
    Guantanamo Bay Cuba--Detainee Facility I...............        20.6
    Guantanamo Bay Cuba--Detainee Facility II..............        13.4
  P.L. 107-117:
  Military Construction:
    Thurmont, MD--Road Construction........................         2.O



    Funding totaling $75.3 million from P.L. 107-38 was used to 
increase the security posture at various installations. Anti-terrorism 
force protection projects at these installations included fencing, 
perimeter lighting, gate houses, concrete barriers, intrusion detection 
systems, waterside security, flight-line barriers, pop-up gate 
barriers, installation of window film, and building hardening.
    Secretary Gibbs. A list of Air Force infrastructure projects funded 
with the $40 billion Fiscal Year 2002 Defense Emergency Response Fund 
follows:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                                 ______
                                 
               Questions Submitted by Senator Mark Dayton

                  ENERGY SAVINGS PERFORMANCE CONTRACTS

    35. Senator Dayton. Secretary Gibbs, I understand that the Air 
Force currently has six regional energy savings performance contracts 
in place covering Air Force facilities throughout the United States. I 
have been told that some of these contracts are now approaching their 
ceiling prices, and that the Air Force does not plan to perform any 
more work under these contracts until they can be recompeted, a process 
that could take a year or more. Do you support the use of energy 
savings performance contracts to make Air Force facilities more energy-
efficient and reduce the Department's energy costs?
    Secretary Gibbs. Yes, the Air Force supports the use of energy 
savings performance contracts as one of the primary tools it has to 
identify and implement energy saving measures. The Air Force has 
engaged in the use of these contracts in each of its six regions, 
awarding over $250 million to date in task orders funded by the 
respective Energy Service Companies (ESCOs) against these six 
contracts. The Air Force reimburses the ESCO up front cost over time 
from annual energy cost savings associated with each task order. The 
Air Force plans to continue the use of these six contracts and is 
currently considering an additional $350 million in task orders 
identified by the ESCOs.

    36. Senator Dayton. Secretary Gibbs, do you believe that it would 
be appropriate to raise the ceiling prices on existing contracts to the 
extent necessary to avoid a gap in performance during the period in 
which these contracts are being recompeted?
    Secretary Gibbs. Currently, the Air Force does not anticipate any 
gap in awarding new energy saving measures. The existing contracts are 
approximately 4 years old, and each has a term of 25 years. The Air 
Force is in the process of procuring a new contract in one region where 
the awards to the ESCO have reached 80 percent of the original $250 
million ceiling available for that region. That new contract should be 
in place by the end of this fiscal year. However, the Air Force does 
not anticipate reaching the ceiling on that contract or in any other 
region before a new contract has been awarded.

    37. Senator Dayton. Secretary Gibbs, will you review the Air 
Force's current contracting effort and report on the extent to which 
this contracting mechanism is or is not being used today?
    Secretary Gibbs. I have reviewed the current Air Force effort. The 
Air Force has pursued energy savings performance contracting and to 
date has approved and implemented more than $250 million in energy 
saving performance task orders funded up front by the ESCO, and 
reimbursed over time from Air Force energy cost savings. In addition, 
the Air Force is currently considering contractor proposals for another 
nearly $350 million in task orders across the six regions.

    38. Senator Dayton. Secretary Fiori, I understand that the Army 
currently has two energy savings performance contracts covering Army 
facilities throughout the United States. I have been told that the Army 
has stopped placing work orders under these contracts. Do you support 
the use of energy savings performance contracts to make Army facilities 
more energy-efficient and reduce the Department of Defense's energy 
costs?
    Secretary Fiori. The U.S. Army Corps of Engineers, Huntsville 
Center, awarded two sets of energy savings performance contracts 
covering Army facilities throughout the United States for a total of 
eighteen contracts. In addition, the Army Medical Command awarded nine 
contracts for use in its medical facilities, and the U.S. Army Corps of 
Engineers, European District, has awarded several contracts for use in 
Europe. Army installations are also using Department of Energy 
contracts at some locations. All of these contracts permit the 
contractor to develop multiple energy saving projects.
    We have not stopped placing work orders against any of these 
contracts. We have suspended the use of energy savings performance 
contracts in Army family housing units that are part of the Army's 
Residential Communities Initiative effort due to some extremely complex 
coordination issues.

    39. Senator Dayton. Secretary Fiori, will you review the Army's 
current contracting effort and report on the extent to which this 
contracting mechanism is or is not being used today?
    Secretary Fiori. The Army is using energy savings performance 
contracts extensively. The Army awarded 23 projects in fiscal year 2000 
with an investment value of $107 million and 15 projects in fiscal year 
2001 with an investment value of $135 million. So far in fiscal year 
2002, we have awarded three projects with an investment value of over 
$12 million.

    40. Senator Dayton. Secretary Fiori, does the Army have adequate 
resources to manage and administer these programs?
    Secretary Fiori. Yes.

    41. Senator Dayton. Secretary Fiori, is there a funding shortfall 
in terms of managing this effort?
    Secretary Fiori. No.

    42. Senator Dayton. Secretary Fiori, could the Army execute more 
energy savings performance contracts with additional administrative 
support?
    Secretary Fiori. No. New technology and renewable energy projects 
are often not cost effective under energy savings performance contracts 
and cannot be accomplished. Direct funding to reduce the private sector 
investment will increase the use of renewable energy sources.

    43. Senator Dayton. Secretary Gibbs and Secretary Fiori, how much 
has been saved by energy savings performance contracts since the 
inception of the program?
    Secretary Gibbs. Because of the structure of the contracts and the 
timeframes involved, it is difficult to quantify savings at this point. 
Each awarded task order is funded up front by the ESCO who is 
reimbursed by the Air Force over time according to the specific annual 
energy savings identified in the task order. Payback periods may range 
from 1 to 25 years. After the task order is reimbursed, continuing 
savings revert to the Air Force, and will accumulate indefinitely after 
payback. To date, the Air Force has awarded $250 million in task 
orders, all of which will be reimbursed to the ESCO by 2023, and 
contribute to Air Force savings.
    Secretary Fiori. Since the inception of the program in 1996, the 
Army has awarded 85 projects with over $400 million in investment at 
our installations. These projects are expected to reduce energy 
consumption by 3 million MBTUs of energy (approximately equal to 20 
million gallons of oil) each year. Virtually all the dollars saved are 
used to pay for the private sector investment.

    44. Senator Dayton. Secretary Gibbs and Secretary Fiori, could 
additional savings be generated? If so, how much?
    Secretary Gibbs. The Air Force works with the ESCOs to identify 
additional savings opportunities. Good ideas are cross-fed across 
installations and regions to take advantage of successful projects. 
While the ESCOs continue to identify additional savings opportunities, 
the future unidentified potential cannot be quantified.
    Secretary Fiori. Most of our installations have executed projects 
using energy savings performance contracts. We expect to award an 
additional $200-$250 million in projects over the next 5 years, with an 
estimated savings of 1.5 million MBTUs of energy (approximately equal 
to 10 million gallons of oil per year).
                                 ______
                                 
               Questions Submitted by Senator John McCain

                             BASE TRANSFERS

    45. Senator McCain. Mr. Dubois, in a letter on January 16, 2002, I 
raised the fact that the David W. Taylor Research Center in Annapolis, 
Maryland, selected for closure in 1995, had not yet been transferred to 
the local reuse authority. Secretary Aldridge responded on February 19, 
2002 suggesting, ``a pending court decision regarding a private 
citizen's lawsuit'' was the ``critical issue'' holding up the transfer. 
Department of Defense officials have since informed my staff that this 
lawsuit is not relevant to the Navy's transfer of the David W. Taylor 
Research Center. Are you now of the understanding that the process to 
fully close the David W. Taylor Research Center and transfer the 
property to the local reuse authority will move forward expeditiously? 
Please provide me with a timetable for the transfer of this property.
    Mr. DuBois. The referenced civil suit, while one of several local 
issues, is not delaying Anne Arundel County from accepting title to the 
property. Rather, the County Executive cannot close on the David Taylor 
transfer documents without authorization from the County Council. This 
local authorization requires agreement between the master developer, 
the County, and the Navy. Most provisions necessary for the local 
legislative process to proceed have been ironed out and the County 
expects property settlement and transfer by September 30, 2002.

    46. Senator McCain. Mr. Dubois, what steps is the Department of 
Defense taking to review the caseload of bases awaiting final transfer 
and what resources have been devoted to ensure this effort happens in a 
timely manner?
    Mr. DuBois. I have directed the military services to identify 
impediments to transfer, and to propose remedies at all BRAC sites with 
some outstanding property. I will routinely review the progress we are 
making in the transfer of these properties with the military services 
and seek remedies to any impediments as they are encountered. This 
review will include the development of an updated transfer schedule for 
each installation, and validation of budgets to ensure adequate 
resources are dedicated to these efforts. Each military service is 
responsible for the disposition of this property and it is within each 
service that the preponderance of resources are being expended to 
facilitate the remaining transfers.
    Among the actions OSD is undertaking include:

        <bullet> A complete review of the environmental programs 
        presently underway for time/cost-saving opportunities;
        <bullet> A review of sites where transfers appear to be impeded 
        due to the community reluctance to accept transfer, or the 
        consideration of alternative transfer options; and
        <bullet> Direct the military services to review their existing 
        procedures to ensure the timely preparation of transfer 
        documents and funding of necessary actions to facilitate 
        transfer.

    It should be recognized that not all property can be transferred 
since there are some installations at which ongoing DOD missions after 
BRAC will delay property transfer for several years, e.g. chemical 
demilitarization operations at Pueblo and Umatilla Army Depots, and a 
Missile Defense Agency mission at Ft. Wingate.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                       DOD RECAPITALIZATION RATE

    47. Senator Inhofe. Mr. DuBois, last year you announced with great 
enthusiasm the Department of Defense's 67-year recapitalization cycle. 
Congress provided a level of funding to support an 83-year cycle. This 
year's request funds a 121-year cycle. What funding levels are required 
to achieve the 67-year cycle and when do you intend to provide the 
funds to support this goal?
    Mr. DuBois. In fiscal year 2003 dollars, and given our current 
inventory forecast, we need about $6.4 billion annually in restoration 
and modernization funding, using a combination of military construction 
and operations and maintenance funds, to achieve a 67-year rate. In 
addition, we have to fund full sustainment levels in the O&M accounts, 
or the facilities will not last the required 67 years on average. The 
fiscal year 2003 President's budget includes funds to achieve the 67-
year recapitalization cycle by fiscal year 2006 or fiscal year 2007 
depending on the inventory that remains at that time. Sustainment 
levels improve and reach 97 percent in fiscal year 2007.

    48. Senator Inhofe. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, assuming there is no increase in military 
construction, sustainment, restoration, or modernization funding over 
the fiscal year 2003 request, what is a realistic goal for achieving 
the 67-year recapitalization goal?
    Secretary Fiori. The current funding level in 2003 reflects a 
recapitalization rate of 123 years. We have programmed additional 
funding in the FYDP and are on track to reaching the 67-year cycle by 
2010.
    Secretary Johnson. Attainment of the 67-year recapitalization rate 
is predicated on increased funding programmed in FYDP. However, given 
the uncertainty presented by BRAC 2005, which would eliminate the need 
to recapitulate some unknown fraction of the DON infrastructure, it 
would be conjecture to estimate an alternate timeframe. The DON 
recapitalization rate included in the fiscal year 2003 President budget 
is 122 years.
    Secretary Gibbs. Based upon the present fiscal plan, the Air Force 
reaches the 67-year recapitalization rate goal in fiscal year 2007. 
However, competing fiscal priorities and the need to balance 
sustainment of existing infrastructure with the need for new 
construction may impact that schedule.

                     OVERSEAS MILITARY CONSTRUCTION

    49. Senator Inhofe. Mr. DuBois, last month I traveled to Germany 
and received a briefing on the Efficient Basing East Program. I 
understand that our forces in Korea through the Land Partnership Plan 
have a similar effort to reduce the number of installations from 41 to 
21. Although I support these efforts since they benefit our forces and 
reduce cost, these plans are also a benefit to the host nations. What 
are Korea and Germany doing to support these efforts?
    Mr. DuBois. At this point, German reaction to the Efficient Basing 
East (EBE) initiative is unknown, since the U.S. Embassy in Berlin just 
began host nation consultations with the Federal Republic of Germany 
(FRG). It is possible that the affected states within Germany may have 
different reactions--the losing state may be concerned about job 
losses, while the gaining state may react very positively. The FRG has 
the opportunity to raise any concerns during the host nation 
consultation process. After consultations are completed, the Secretary 
of Defense will make the final decision on the complete return of 12 
installations and the partial return of one installation. Assuming he 
decides to return the affected installations, the Department plans to 
accomplish certain construction projects supporting EBE through 
payment-in-kind compensation provided by the Germans as reimbursement 
for U.S.-funded improvements on returned facilities.
    The Land Partnership Plan reflects substantial support from the 
Republic of Korea. Of the entire Land Partnership Plan cost, only 13 
percent ($297.6 million) will come from the United States through 
already programmed military construction projects. The remaining 87 
percent ($1.07 billion) will be paid from Republic of Korea funded 
construction, and additional host nation funding produced by sales of 
returned, high value land.

    50. Senator Inhofe. Mr. DuBois, what are your plans for expansions 
and/or reductions to the infrastructure in Southwest Asia?
    Mr. DuBois. The combatant commanders are currently assessing their 
overseas basing structure. The study will be provided to Congress when 
it is completed.

    51. Senator Inhofe. Mr. DuBois, what support is the United States 
getting to maintain or build new facilities from the various countries 
in the region?
    Mr. DuBois. The current level of support provided by each country 
is outlined in the Status of Forces Agreements and burdensharing 
agreements applicable to that country. The burdensharing report will be 
published soon, and we are exploring additional opportunities to 
increase burdensharing by our Allies.

                              F-22 BEDDOWN

    52. Senator Inhofe. Secretary Gibbs, the Air Force is requesting 
$42.8 million for the beddown of the F-22. This is a follow-on to $54 
million appropriated last year. How much additional funding will be 
required to provide for the beddown of the F-22 and how much of your 
budget is dedicated to new mission programs?
    Secretary Gibbs. Based on the current F-22 production schedule, an 
additional $36.9 million in fiscal year 2004, $43.2 million in fiscal 
year 2005, $60.1 million in fiscal year 2006, $96 million in fiscal 
year 2007, $83.5 million in fiscal year 2008, and $16.4 million in 
fiscal year 2009 is required to beddown the F-22. This allows unique F-
22 facility requirements to be met at all beddown locations.

                     EFFICIENT BASING EAST PROGRAM

    53. Senator Inhofe. Secretary Fiori, during my last visit to 
Germany, I received a briefing on the Army's Efficient Basing, East, 
Program. Although I support the plan, I understand that the $350 
million cost has risen significantly. What is the projected cost for 
moving the Brigade Combat Team and their families to Grafenwoehr, 
Germany? What are the efficiencies you expect from this relocation?
    Secretary Fiori. The total construction cost is estimated at 
approximately $695 million. This cost is comprised of military 
construction, Army (MCA) of $596 million and military construction, 
Defense-Wide of $100 million for non-Army construction (DODEA, DECA, 
AAFES, and Defense Medical). There has been no increase in the cost of 
this program.
    The initiative is necessary and efficient. Efficient Basing, East 
consolidates a heavy Brigade Combat Team from 13 small, scattered 
installations to a single installation. It is good for soldiers, it 
will improve operations and training, and it saves money. Soldiers will 
be located next to their major training area, work in facilities built 
to support their job most efficiently, and housed in modern barracks 
and family housing, properly sized and outfitted to today's standards. 
This initiative saves money because, in the long run, it is cheaper to 
build new in a single location than rehabilitate and refurbish old 
outmoded facilities in a dispersed World War II footprint.

                       PRIVATIZATION OF BARRACKS

    54. Senator Inhofe. Secretary Johnson, I understand that the Navy 
is considering the privatization of barracks to meet its goal of 
providing dormitory space to shipboard sailors. What is the incentive 
behind your program, especially when earlier attempts to privatize 
barracks were rejected?
    Secretary Johnson. It will be a number of years before we are able 
to address our critical bachelor housing needs through traditional 
military construction funding. Based on our successful experience with 
family housing privatization, we believe there is a potential to 
similar leverage our resources to improve living conditions for single 
sailors and marines much faster. Although there are unique challenges 
posed by bachelor housing, such as extended deployments, we are 
developing pilot projects that, we believe, will address these issues 
and remain compatible with service operational objectives such as unit 
cohesion and team building.

                  ANTI-TERRORISM AND FORCE PROTECTION

    55. Senator Inhofe. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, although anti-terrorism and force protection measures 
have been on the forefront for some time, the tragic events of 
September 11 dramatically demonstrated the need to provide additional 
protection to our military installations. Although protective measures 
are important, the greatest defense measure is standoff distance from 
the surrounding community. In the past we have discussed the impact of 
encroachment on our training environment. What is the impact of 
encroachment on our ability to protect our installations? What are we 
doing to resolve this matter?
    Secretary Fiori. There are Army installations where the 
encroachment of the civilian community on the installation's perimeter 
is unavoidable. The impact of encroachment creates challenges for 
installation commanders, and requires a balance between community 
development and force protection. Each installation commander performs 
a risk analysis to make effective decisions on force protection and the 
impact on the installation and the surrounding communities. The Army, 
working with the local community leaders and boards, can achieve a 
balance with community development and force protection.
    Currently, revised standards for minimum standoff distances are 
being written and will apply to all new and existing structures. Where 
those distances are not available, the structure will be analyzed by an 
engineer experienced in blast-resistant design and hardened as 
necessary.
    In addition, open communication, community interaction, and a 
thorough information campaign assist in protecting and reassuring both 
the installation and the community on security issues. The key to this 
is the involvement of public affairs officers and liaison activities 
with leaders in local government, public agencies, civic organizations, 
and the local public media.
    Secretary Johnson. Just as encroachment at training ranges impacts 
our process for assuring combat readiness, encroachment on our 
installations contributes to a myriad of security challenges for Navy/
Marine Corps installations and can compromise the security of our 
civilian and military personnel. Inadequate standoff distance around 
our installations associated with encroachment has several impacts 
including: inadequate setback for blast protection; compressed security 
force response time; opportunities for close surveillance of military 
operations by adversaries; communications challenges as civilian use of 
the frequency spectrum competes with military training, security, and 
communications requirements; and increased threat to flight and other 
military operations. September 11, also highlighted the accessibility 
of our installations from threats from the air, the sea, and through 
various existing easements, highways, and railroads that pass through 
our installations (e.g. I-5 at Camp Pendleton).
    Every installation has increased its security posture since the 
attacks of September 11, 2001. Additional security personnel, 
technology (security systems and detection devices), security fencing, 
barriers, security boats, and training are all being provide to enhance 
our antiterrorism/force protection (AT/FP) posture. The military 
construction (MILCON) projects in the fiscal year 2003 budget request 
have incorporated AT/FP measures within the scope of the project. These 
measure include standoff distances, shatter resistant windows, 
structural reinforcement, and building hardening. There is 
approximately $107 million in Navy MILCON projects to support this 
objective.

                        [In thousands of dollars]
------------------------------------------------------------------------
            AT/FP                Project
------------------------------------------------------------------------
EGLIN AFB FL NAVSCLEO.......          903   ADV EXPL ORD           6,350
                                             DISP TRAINING
                                             FAC.
BAHRAINNAVSUPPACT...........          911   INSTALLATIONSVC       25,970
                                             SUPTCNTR.
NORFOLK VA NS...............          469   SHORELINE              2,O30
                                             SECURITY
                                             FENCING.
SIGONELLA ITALY NAS.........          625   PARKING GARAGE.       19,560
KITTERY ME PORTSMOUTH NSY...          904   AT/FP                 11,600
                                             IMPROVEMENTS.
PORTSMOUTH VA NORFOLK NSY...          902   AT/FP                 19,660
                                             IMPROVEMENTS.
PUGET SOUND WA BREMERTON NSY          903   AT/FP                 21,670
                                             IMPROVEMENTS.
                                                            ------------
  Total.....................                                     106,840
------------------------------------------------------------------------

    In addition to the above projects that specifically address AT/FP 
enhancements and/or improvements, each of our MILCON projects has AT/FP 
construction features (appropriate to the type and function of the 
project). These features account for $17.5 million or approximately 3 
percent of the projects requested in the fiscal year 2003 Navy MILCON 
program.
    DON is also exploring various land use controls measures that may 
assist in restricting development of lands surrounding our 
installations from uses that are incompatible with military 
requirements. Initiatives such as the Joint Land Use Study (JLUS) 
program, an initiative sponsored by the Office of Economic Adjustment 
and Air Installations Compatible Use Zones can facilitate joint 
planning between DOD and local communities to protect military 
operations and public safety.
    Secretary Gibbs. To date, urban encroachment has not been an issue 
impacting the Air Force's ability to protect its installations.
    The objective of the Air Force anti-terrorism program is to reduce 
the vulnerability of personnel and facilities while balancing defensive 
measures with mission requirements and available resources. The Air 
force goal is not to fortify the installation, but make it a less 
attractive target. This is achieved by incorporating flexible and 
common sense protection through appropriate base development planning. 
As the Air Force works to enhance its urban encroachment program, asset 
and force protection will be one of many issues that it addresses.

                 MAINTENANCE AND PRODUCTION FACILITIES

    56. Senator Inhofe. Secretary Gibbs, at virtually every hearing, 
the service chiefs testify that the aging equipment in our military is 
impacting readiness due to heavy maintenance requirements. I was 
therefore surprised to see that funding for maintenance and production 
facilities in the Department of Defense's request was down almost 60 
percent from the National Defense Authorization Act for Fiscal Year 
2002. The Air Force's request is down almost 80 percent from last year. 
How does the Air Force intend to provide adequate maintenance and depot 
support at these funding levels?
    Secretary Gibbs. The year-to-year distribution of facilities 
funding varies by facilities categories. The Air Force does not budget 
to maintain a level investment for each facility category. It budgets 
with a wider viewpoint--while the military construction request for 
maintenance and production facilities is lower this year, the 
sustainment budget for all Air Force facilities has been increased from 
fiscal year 2002 to fiscal year 2003.
    The Air Force is requesting over $4.2 billion in total to invest in 
Air Force facilities and infrastructure in fiscal year 2003, the same 
level as submitted in the fiscal year 2002 budget request. The Air 
Force's focus in fiscal year 2003 will be to sustain the facilities 
that already exist, investing nearly $2 billion for sustainment, 
restoration, and modernization, an increase of over $360 million from 
fiscal year 2002.

                          REPAIR OF FACILITIES

    57. Senator Inhofe. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, I have a special interest in the training of our 
military personnel and take a special interest in operation and 
maintenance (O&M) funding. Last year, your services reported that you 
allocated more that $370 million for 31 building repair projects. That 
number reflects only those projects costing more than $7.5 million. I 
am concerned that you are using training dollars to support the 
military construction (MILCON) program. What criteria are you using to 
decide whether or not a project should be funded using MILCON or O&M? 
What is the source of the O&M funding you are using for these projects?
    Secretary Fiori. The Army appropriately uses O&M funds to repair 
facilities that require immediate attention, overhauling or replacing 
failed or failing components or materials. The condition of these 
facilities must be addressed quickly to prevent accelerated 
deterioration and potential unsafe conditions and cannot wait for long-
term MILCON programming to correct. The use of O&M funds for repair 
projects may include some associated minor construction that may not 
exceed a new cost limitation of $750,000. If this minor construction 
corrects a deficiency that is life, health, or safety threatening, then 
the cost limitation for associated construction is $1.5 million. Any 
repair project that has associated minor construction that exceeds 
these cost limitations must be considered and programmed for either 
Unspecified Minor Military Construction, Army (UMMCA), or Military 
Construction, Army (MCA). Repair projects exceeding a total cost of 
$7.5 million are reported to Congress.
    The Army distributes O&M funds to the Major Army Commands (MACOMs), 
who in turn, distribute to the installations. Amounts for these funds 
are specified for use in training, operational costs, and for 
sustainment, restoration, and maintenance costs.
    Secretary Johnson. The Department does not use funds programmed for 
military personnel training to repair buildings or construct new 
buildings. Title 10 U.S.C. Chapter 169 provides the criteria to 
determine if a project should be MILCON funded. The Navy and Marine 
Corps have implementing guidance on O&M funded repair and minor 
construction projects, OPNAVINST 11010.20F and MCO P11000.5. O&M funds 
are requested in the budget for sustainment, restoration, and 
modernization (SRM). These funds are programmed for repair of real 
property facilities.
    Secretary Gibbs. To sustain, restore, and modernize its 
infrastructure, the Air Force must achieve a balance between military 
construction and operations and maintenance programs. Military 
construction restores and re-capitalizes facilities. Operation and 
maintenance funding ensures the Air Force can perform facility 
sustainment activities, without which facilities would fail 
prematurely. Operation and maintenance funding is also used to directly 
address many of the critical restoration and less-expensive 
recapitalization needs. Without these funds, commanders in the field 
are unable to address facility requirements that impact their near-term 
readiness.
    When the Air Force builds its annual budget request, it projects 
the requirement for operations and maintenance and program funds in the 
O&M facility sustainment, restoration, and modernization line. Once 
appropriated by Congress, these are the funds we use to address our O&M 
facility repair requirements.

                      FAMILY HOUSING PRIVATIZATION

    58. Senator Inhofe. Mr. DuBois, the Department of Defense plans to 
privatize about 100,000 family housing units over the next several 
years. Based on the latest report, which reflects data since 1996, the 
Department of Defense has less that 30,000 units awarded or pending 
award. Although this is a major improvement over the fiscal year 2001 
report, there is still a great deal of work ahead to achieve the 
100,000 goal. Are you satisfied that each service now has a housing 
privatization program that will support the Department of Defense's 
privatization goals?
    Mr. DuBois. The Secretary of Defense accelerated the Department's 
goal for eliminating inadequate housing (which totals about 168,000 
units) from 2010 to 2007. At this point, all the services, with the 
exception of the Air Force, met the 2007 goal (Air Force is now using 
2010). Accordingly, we are accelerating housing privatization, but 
working to implement this program in a manner that ensures high quality 
construction and operation of military family housing.
    As I noted in my testimony before the House Appropriation 
Committee, Subcommittee on Military Construction on March 13, 2002 
regarding the DOD housing privatization program, we awarded 10 projects 
in 5 years (fiscal year 1996-2001), producing about 7,000 privatization 
units. Only 1 year later, we have awarded a cumulative total of 16 
projects (7 Navy, 1 Marine, 4 Air Force, and 4 Army) producing about 
25,000 privatized units. The six privatization projects awarded over 
the last year more than tripled the number of units already privatized.
    Through the experience of creating, awarding, and executing the 
first 16 Military Housing Privatization Initiative projects, the 
services have developed internal expertise and capacity in disciplines 
important to housing privatization. Each service now has experienced 
privatization teams in-place with expertise in project management, 
acquisition, financial management, personnel, legal, and real estate/
housing management. This expertise can be found at the installation, 
command, and headquarters levels of each service. I believe the program 
has momentum, and service project privatization plans are moving 
forward to achieve our 2007 goal. Assuming our congressional support 
and funding remain stable the Department will: privatize 35,000 units 
in fiscal year 2003; award a cumulative total of 60,000 units 
privatized by the end of fiscal year 2003; and continue that 
acceleration through fiscal year 2004-2007.

                   CHEMICAL DEMILITARIZATION PROGRAM

    59. Senator Inhofe. Secretary Fiori, Congress has appropriated $1.3 
billion for the construction of chemical demilitarization facilities. 
This year, the Army budget includes an additional $167 million. What 
have the taxpayers received for this huge investment?
    Secretary Fiori. The military construction funds financed design 
and construction of large scale industrial disposal facilities, depot 
infrastructure support projects, and a training facility. Funds have 
been used to design and construct the Tooele, Umatilla, and Anniston 
Chemical Agent Disposal Facilities. Funds have also been used to design 
and continue construction at Pine Bluff, Aberdeen, and the Newport 
Chemical Agent Disposal Facilities. In addition, military construction 
funds are used at each of the sites to construct depot infrastructure 
upgrades that are required to support the chemical agent disposal 
facilities such as utility and road upgrades. A training facility was 
also built to support to chemical demilitarization destruction program.
    Construction at Tooele was completed in 1993, and the facility is 
now in agent operations. To date, Tooele has destroyed 44 percent of 
the chemical agent and 81 percent of the munitions stored at the 
Deseret Chemical Depot. In addition, Johnston Island has completed 100 
percent destruction of all the chemical munitions stockpile stored on 
the island and is in the closure process. Construction at Anniston and 
Umatilla was completed in 2001, and these two facilities are currently 
in the systemization-testing phase with planned disposal operations to 
start in fiscal year 2003. Construction is currently ongoing at Pine 
Bluff (83 percent complete), Aberdeen (25 percent complete), and 
Newport (26 percent complete). The Aberdeen, MD, facility has 
accelerated the neutralization process by as much as 2 years for 
disposal of mustard bulk agent. The Army is evaluating a similar option 
to accelerate disposal of the bulk VX nerve agent stockpile at Newport, 
IN, and will continue to evaluate options at other sites. As permitted 
by law, depot upgrade contracts that are technology neutral have also 
been started at Pueblo Chemical Depot and Blue Grass Army Depot to 
support the planned chemical disposal facilities at those locations. 
The training facility in Edgewood, MD, was completed in 1991 and is 
used to provide initial and refresher training of systems contractor 
personnel in a hands-on replica of a functioning disposal facility.
    The Non-Stockpile Product is continuing construction of the 
Munitions Assessment and Processing System at Aberdeen, MD, which will 
be used to destroy recovered munitions.

    60. Senator Inhofe. Secretary Fiori, how much additional military 
construction funding is programmed to complete facilities?
    Secretary Fiori. In addition to the $167 million programmed for 
fiscal year 2003, a total of $537.5 million is also programmed in 
fiscal year 2004 ($187.7 million), fiscal year 2005 ($180.5 million), 
fiscal year 2006 ($115.6 million), and fiscal year 2007 ($53.7 
million). These funds are to complete the construction at Newport 
($88.0 million) and to fully fund the construction of the disposal 
facilities at Pueblo ($201.3 million) and Blue Grass ($248.2 million). 
Start of construction at Pueblo and Blue Grass disposal facilities will 
begin once process technology decisions are made and Resource 
Conservation and Recovery Action (RCRA) permits are approved. A 
technology decision for Pueblo is planned for the third quarter fiscal 
year 2002 and Blue Grass is planned for the first quarter fiscal year 
2003.

    61. Senator Inhofe. Secretary Fiori, will the Army meet the 2007 
treaty-imposed deadline to destroy the unitary chemical stockpile?
    Secretary Fiori. The Army is exploring all viable options to safely 
destroy the chemical stockpile at the earliest possible date. The 
Office of the Secretary of Defense (OSD) has completed a major program 
review (September 2001) that resulted in the recognition that the 
existing stockpile destruction milestones would not be met. The largest 
contributor to this is the incorporation of our chemical agent 
destruction experience at Johnston Island and at Tooele, Utah, into 
realistic forecasts for other disposal sites.
    The Army is accelerating the effort to neutralize the chemical 
agent stockpile at Aberdeen Proving Ground, MD, and is studying the 
feasibility of a similar effort at Newport, IN, and will evaluate 
similar options at other sites. Using the accelerated neutralization 
process, the Army will eliminate these two stockpiles before the treaty 
deadline.
    The Non-Stockpile Product Program continues to execute the disposal 
of the U.S. chemical warfare materiel that is not part of the unitary 
chemical stockpile, in compliance with the Chemical Weapons Convention 
(CWC). The non-stockpile program is on schedule to meet the 80 percent 
CWC deadline (April 2005), and the 100 percent CWC deadline (April 
2007) for the destruction of Schedule 1 Chemical Weapons Production 
Facilities.

                         GUAM ELEMENTARY SCHOOL

    62. Senator Inhofe. Mr. DuBois, due to the inadequacy of Guam's 
education system, the Department of Defense directed the Department of 
Defense Education Agency (DODEA) to establish a school system on 
Anderson Air Force Base and Naval Station Guam. Congress supported the 
decision by authorizing funding to provide interim facilities. However, 
it was agreed that the Department of Defense would include funding in 
future budgets to build new facilities. To date only the middle school 
at Anderson Air Force Base has been completed. I understand that 
funding for the construction of the new high school is in the Future 
Year Defense Program, but nothing has been programmed for the Navy 
middle school. I understand that the condition of the Navy middle 
school is deplorable and that it is not compliant with the Americans 
with Disabilities Act. The Navy's decision to homeport new ships in 
Guam will only aggravate the situation and cause further hardship on 
the students and faculty. Since this is a critical quality-of-life 
issue, when will the Department of Defense provide the funding to DODEA 
for the construction of the Navy middle school?
    Mr. DuBois. The Department of Defense is examining all restationing 
efforts, to include the Guam restationing. The Guam Elementary/Middle 
School is a priority and will be reprioritized to meet the educational 
needs of our students. The construction of a new middle school is 
needed with or without the influx of population from the restationing 
effort.

                     DEFENSE IMPACT REVIEW PROCESS

    63. Senator Inhofe. Mr. Dubois, Section 1041 of the National 
Defense Authorization Act for Fiscal Year 2002 directs the Secretary of 
Defense to prepare a report to the President and Congress on the need 
for a Defense Impact Review Process. This process would provide the 
Department of Defense with the opportunity to review the proposed 
actions of other Federal agencies in order to identify those actions 
that may have an adverse impact on national defense. This report is due 
June 2002. How will the Section 1041 Defense Impact Review Process be 
beneficial for the Department of Defense in addressing encroachment 
issues? Has the Department started preparing the report? Will it be 
here on time?
    Mr. DuBois. Secretary Mayberry and I are directing the effort to 
prepare the Section 1041 Report and that effort has begun. We do 
believe that action agencies should be required to consider military 
readiness impacts during any regulatory or administrative process that 
may result in an action that has the potential to affect military 
testing, training, or operations. Action agencies could be required to 
prepare formal ``defense impact analyses,'' much as they routinely 
prepare environmental impact analyses today. Other mechanisms under 
consideration that would be beneficial ensure that DOD is given: (1) 
advance notice of proposed agency actions that have the potential to 
affect military testing, training, or operations; (2) a reasonable 
opportunity to bring DOD's concerns, if any, to the action agency's 
attention; (3) assurance that DOD's readiness concerns will be given 
appropriate consideration; and (4) an opportunity for DOD to raise its 
concerns within the Executive Office of the President should the action 
agency decide it must act notwithstanding DOD's concerns. The 
Department will submit its report in June 2002.

    64. Senator Inhofe. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, it is expected that the input of the military 
departments will be a critical aspect of the review process and report 
preparation. What role has the military departments played in the 
Defense Impact Review Process? Do you anticipate that this process will 
help to address your departments' environmental encroachment concerns 
in a substantive manner?
    Secretary Fiori. The Army has actively participated with the Office 
of the Secretary of Defense and our sister services in the development 
of the Secretary of Defense's recommendation to the President. The Army 
is evaluating the probable benefits of a formalized National Defense 
Impact Review Process against the potential costs and administrative 
burden that such a process may create.
    Federal agencies sometimes take actions, particularly at the local 
and regional level, without adequate consideration of the effects those 
actions will have on national defense. These actions often affect or 
have the potential to affect our ability to train soldiers and ensure 
military readiness. In large part this is due to the fact that there is 
no process through which we can ensure national defense concerns are 
identified and considered, and the appropriate balance between defense 
and other important national policies is achieved. The Army believes 
that such a process should consist of five critical elements: 
notification of proposed agency actions, reasonable opportunity for DOD 
to comment, consideration of Defense Department views, consultation to 
resolve disagreements, and submission of an annual report to OMB.
    Secretary Johnson. The Office of the Secretary of Defense asked 
each military department to report on the impact of federal regulatory 
and administrative actions on defense activities consistent with the 
requirements of Section 1041 of the Fiscal Year 2002 National Defense 
Authorization Act. The Department of Navy tasked the Navy and Marine 
Corps to survey their bases and provide specific examples of how 
military activities were being impacted or restricted by other federal 
actions. The services reviewed their files and documented specific 
cases where the services had raised concerns about the potential impact 
of federal regulatory actions on military readiness but those concerns 
were not addressed by the acting agency. In the Department of Navy's 
response to the Department of Defense, we will provide a summary of the 
examples that we have found and recommendations on how best to address 
military needs in the regulatory process.
    The Defense Impact Review Process provides an important vehicle for 
addressing regulatory impacts on military readiness. Based on this 
review, DOD will recommend needed changes in the process to help ensure 
military readiness is given appropriate consideration in the federal 
regulatory process.
    Secretary Gibbs. OSD has requested, and the Air Force has provided, 
examples of encroachment related to other Federal agency actions for 
OSD's report to Congress. The Defense Impact Review Process can assist 
the Administration in minimizing gaps in interagency cooperation to 
prevent potential mission impacts.
    Currently, the Air Force's only formal means of addressing impacts 
is as a cooperating agency under the National Environmental Policy Act 
(NEPA) when other Federal agencies perform environmental impact 
analyses. Generally, other agencies do not request military departments 
to be a cooperating agency; therefore this tool is not always used 
effectively.
    When not a formal cooperating agency, the Air Force provides 
comments and input on potential readiness issues on an ad hoc basis. 
The Air Force reviews environmental analyses for other agency's 
proposals when provided the opportunity; when the Air Force identifies 
other agency proposals via the Federal Register; or when other agencies 
provide copies of their environmental documentation as a matter of 
routine (not necessarily an active engagement). These efforts often 
fail to identify readiness impacts as an issue, thus the Defense Impact 
Review Process can be of significant benefit.

                        ALTERNATIVES TO VIEQUES

    65. Senator Inhofe. Secretary Johnson, in his March 20, 2001, 
testimony before the Readiness and Management Support Subcommittee, 
Vice Admiral James F. Amerault stated, ``Encroachment is a serious 
problem--we are finding it increasingly difficult to train our sailors 
effectively at other locations due to overly broad legal requirements--
we are witnessing a loss of training realism. . . .'' Given the Navy's 
expressed intent to find equivalent training facilities to replace 
Vieques, how do you propose to address the continuing environmental 
encroachment pressures that diminish the quality of training at 
alternative ranges?
    Secretary Johnson. We have identified several encroachment issues 
that if allowed to go unmanaged and unregulated will continue to 
compromise the effectiveness of all our training and testing missions. 
DOD and the military services have been in discussions with OMB, the 
Council of Environmental Quality, the Environmental Protection Agency 
(EPA), the Fish and Wildlife Service at the Department of Interior, and 
the National Oceans and Atmospheric Administration (NOAA) at the 
Department of Commerce. Together, as a team, and with the help of 
Congress, we will work to find solutions and we will properly address 
the challenges of encroachment on all of our ranges. We are hopeful 
that we can find long-term solutions rather than ``work-arounds'' to 
the pressures of encroachment that will allow the Navy to sustain range 
operations.

    66. Senator Inhofe. Secretary Johnson, regarding Vieques, the Navy 
maintains that by May 2003 they will be able to identify ``one or more 
alternative training facilities--to provide an equivalent or superior 
level of training for units of the Navy.'' A number of land- and sea-
based ranges on the east coast are being considered as alternatives to 
Vieques. Has the Navy begun its National Environmental Policy Act 
(NEPA) analysis regarding the use of these alternative training 
facilities? When will that NEPA analysis likely begin and end? Will 
training be interrupted pending the completion of the NEPA analysis?
    Secretary Johnson. Independent of replacing Vieques, Navy has begun 
environmental analysis to support enhancement of training capabilities 
at individual land and sea-based ranges on the east coast. Some of 
these site-specific analyses are already complete; others will require 
more time. This process of site specific analyses is designed to 
optimize training opportunities at individual locations and provide 
flexibility to operational commanders so they can adapt unit and battle 
group training needs in response to a dynamic mission, training 
schedule, and natural environment. We anticipate that some of these 
sites could accommodate training currently done on Vieques. While much 
has been accomplished in planning for alternative training sites, we 
have not formulated a final plan to replace the training opportunities 
now available on Vieques.

    67. Senator Inhofe. Secretary Johnson, given the fact that 
environmental encroachment issues already exist at ranges all along the 
east coast, what would the Navy propose to do if, after May 2003, the 
NEPA analysis reveals that many of the alternative ranges cannot 
support additional training?
    Secretary Johnson. The Navy anticipates a training strategy that 
will use a combination of existing ranges, methods, and advanced/
improved technologies to meet future training requirements. The intent 
of the strategy will be to ensure no single range complex becomes a 
point of failure for the training strategy as a whole.

    68. Senator Inhofe. Secretary Johnson, at Camp Lejeune, North 
Carolina, the community has already reacted very negatively to the 
possibility of serving as a training alternative to Vieques. How does 
the Navy propose to deal with such inevitable community reactions?
    Secretary Johnson. The Navy is, and will continue to be, a good 
environmental steward of the properties entrusted to us. The 
appropriate level of analysis will be prepared pursuant to the National 
Environmental Policy Act (NEPA) to ensure that Navy decision makers and 
the public are fully informed about potential environmental impacts 
associated with training alternatives.

               GENERAL ENVIRONMENTAL ENCROACHMENT ISSUES

    69. Senator Inhofe. Mr. DuBois, Secretary Fiori, Secretary Johnson, 
and Secretary Gibbs, the military departments have primarily responded 
to environmental encroachment issues through the development of ``work-
arounds'' or training constraints imposed as a result of legal 
requirements. Other than ``work-arounds,'' what specifically is each of 
the military departments doing to resolve these issues to ensure 
realistic training now and in the future? How is the Department of 
Defense facilitating the services' efforts in this area?
    Mr. DuBois. Last December, the Deputy Secretary of Defense directed 
the Under Secretary of Defense for Personnel and Readiness and myself 
to form an Integrated Product Team (IPT) to act as the Department's 
coordinating body for all encroachment issues on ranges, operating 
areas, and other training locations. The IPT is formally working these 
issues. It has formed two groups, an Overall Integrated Product Team 
(OIPT), which Dr. Mayberry and I chair with Department principals, and 
a working IPT, which includes staff members from both OSD and the 
military departments. Although we have many initiatives underway, they 
can be categorized under five broad headings: leadership and 
organization, policy and plans, programs and funding, outreach, and 
legislation and regulation. The IPT is working under the broad guidance 
of the Department's Senior Readiness Oversight Council, which is 
chaired by the Deputy Secretary. The IPT has begun work on key elements 
of the problem, and we have significant initiatives planned and 
underway.
    Secretary Fiori. The Army is working internally and with other 
agencies with environmental regulatory responsibilities to mitigate the 
effects and potential effects that encroachment has on our training and 
readiness. Our principal internal effort is the Sustainable Range 
Program (SRP). The objective of SRP is to maximize the capability, 
availability, and accessibility of ranges and training land to support 
doctrinal training and testing requirements. SRP is based on three 
tenets:
    (1) Scientifically defensible information. Develop and maintain 
complete data on all aspects of ranges--operational characteristics of 
training facilities, physical characteristics of real property, and 
data on the range as part of the natural and cultural environment.
    (2) Integrated management. Integrate across the four disciplines 
that directly affect ranges: range operations and modernization; 
facilities and installation management; explosives safety; and 
environmental management.
    (3) Outreach. Inform political leadership, regulators, and 
communities and improve understanding of the Army's need for training 
and testing and the Army's more sophisticated range management 
approach. The Office of the Secretary of Defense is working with the 
services to develop overarching Department policy for sustainment of 
ranges and operating areas. This policy will support the long-term 
planning and programming necessary to ensure our ranges and training 
areas meet mission needs now and into the future.
    Secretary Johnson. DOD and the military services are pursuing 
programmatic solutions, administrative fixes, and regulatory changes. 
We have developed a comprehensive range sustainment approach to manage 
encroachment issues. The approach includes the development of 
comprehensive Range Complex Management Plans, efforts to establish 
regulatory clarifications, public outreach and education, dialogue and 
negotiations with regulatory agencies, and regional and national 
initiatives. The SROC established an Encroachment IPT to coordinate all 
issues of encroachment within the services. The IPT developed action 
plans to address specific encroachment issues, and oversees their 
implementation. Another work group has developed the DOD Munitions 
Action Plan (MAP) addressing life-cycle management of munitions from 
acquisition through demilitarization. DOD is also working on an 
encroachment strategy for the Southern California/Arizona region. The 
strategy will engage stakeholders and range managers to identify issues 
and develop solutions to regional encroachment that will be applied 
nationally if successful. DON is budgeting for comprehensive range 
sustainability studies at Navy and Marine Corps ranges. These studies 
will include Range Complex Management Plans, regulatory compliance 
evaluations, on-site contaminant assessments, and encroachment 
vulnerability analyses.
    We have engaged OMB, CEQ, EPA, DOI, and DOC in discussions 
regarding encroachment issues. In some instances, however, legislative 
changes may be required. In some cases, the requirements that must be 
amended or clarified are in existing legislation so legislation 
provides the best vehicle to address the issue.
    Secretary Gibbs. Several policies and initiatives ongoing in the 
Air Force will be of assistance to avoiding readiness impacts in the 
future. First, the Air Force is working to develop effective metrics to 
better define readiness requirements and vulnerabilities. A better 
understanding of the problem will allow better solutions. Second, the 
Air Force will continue the practice of investing in scientific 
research and analysis to better inform regulatory decision makers and 
avoid unnecessary readiness limitations.
    The military departments also participate continually in 
legislative and regulatory processes to craft solutions for readiness 
and the environment. The Air Force has developed standardized language 
for proposed wilderness bills to preserve access and overflight of the 
lands proposed as wilderness in support of our military mission, while 
training in a manner compatible with the wilderness designation.
    Finally, the Air Force is working closely with the Federal Aviation 
Agency (FAA) on the National Airspace redesign efforts, and is 
emphasizing pollution prevention initiatives in operational activities.

    70. Senator Inhofe. Mr. DuBois, Secretary Fiori, Secretary Johnson, 
and Secretary Gibbs, the ability to conduct live-fire training at 
military ranges is at risk because of a broad spectrum of environmental 
encroachment issues. I am aware of the training restrictions imposed at 
Massachusetts Military Reservation and the threats to live-fire 
training at Makua Military Reservation and other ranges throughout the 
Department of Defense. In light of these issues, what macro resolutions 
are being sought to preserve quality training throughout the Department 
of Defense?
    Mr. DuBois. Draft legislation will be provided to Congress to 
clarify and amend existing legislation that will contribute toward 
preserving quality training throughout the Department of Defense. 
Because maintaining the readiness of our forces is one of the 
Department's highest priorities, it is critical that we strive to 
maintain a ``measured balance'' between our test and training 
requirements and sound environmental stewardship. We aim to seek this 
balance in a way that considers the concerns of the neighboring 
communities near our ranges and operating areas. Some of the issues may 
be amenable to regulatory fixes or even to administrative policy 
solutions. As the administration pursues statutory clarification, we 
are ready to work closely with appropriate congressional committees to 
fully apprise these committees of the basis for and objectives of any 
necessary clarifications. I am convinced that the goals of 
environmental stewardship and realistic military training are not 
mutually exclusive.
    Secretary Fiori. As I stated in response to your previous question, 
the Army is working internally and with other agencies with 
environmental regulatory responsibilities to mitigate the effects and 
potential effects that encroachment has on our training and readiness. 
Our principal internal effort is the Sustainable Range Program (SRP). 
The Office of the Secretary of Defense is working with the services to 
implement a Department wide policy for the sustainment of ranges and 
operating areas.
    Although we believe that our efforts will minimize the impacts of 
encroachment on our ranges and training lands, we also recognize the 
need to clarify the application of several environmental laws to 
military testing and training. The Army has been working with our 
sister services and the Office of the Secretary of Defense to develop 
initiatives that clarify our responsibilities under a variety of 
environmental statutes. These initiatives focus on supporting our 
training activities and allow flexibility to consider impacts to 
military readiness in the implementation of environmental statutes.
    Secretary Johnson. The Department of Defense is subject to a great 
number of environmental requirements, and is looking toward both micro 
and macro resolutions. Micro resolutions are typically done at specific 
sites or throughout a region. The Department is also working with OMB 
and other Federal agencies on macro, or nation-wide solutions. Where 
specific issues cannot be resolved through policy or regulatory 
actions, the Department will seek the support of Congress for 
legislative clarifications.
    Secretary Gibbs. The Air Force is implementing a variety of 
solutions to preserve quality of training on its ranges. These include 
effective readiness metrics; good science; legislative and regulatory 
interface; and investment in pollution prevention. Other macro level 
efforts include using the Integrated Natural Resource Management Plan 
(INRMP) process to engage local, State, and Federal wildlife officials 
to resolve many of the management issues at Air Force ranges. The Air 
Force is also working to ensure its weapon system acquisition processes 
address encroachment issues such as noise in the design and production 
phases to limit impacts when aircraft or ordnance are deployed.

                       ENVIRONMENTAL LEGISLATION

    71. Senator Inhofe. Mr. DuBois, growing urbanization has 
transformed many military training ranges into ``islands of 
biodiversity'' that contain endangered species and critical habitats. 
Fleet operations have also been effected by concerns related to marine 
species and the sustainability of the maritime environment. During the 
hearing, it was noted that there are some legislative proposals that 
under consideration within the Department. Could you describe the 
nature and status of these proposals in more detail?
    Mr. DuBois. Yes, the Department intends to submit draft legislation 
to Congress. The major elements are:
    Endangered Species Act (ESA): Confirm an existing policy (under 
court challenge) that provides that DOD cooperation with the U.S. Fish 
and Wildlife Service on natural resource management may make the 
designation of critical habitat on DOD lands unnecessary.

        <bullet> This legislation confirms existing policies of the 
        last two administrations.
        <bullet> The legislation explicitly requires that the Defense 
        Department continue to consult with the Fish and Wildlife 
        Service and the National Marine Fisheries Service under Section 
        7 of the ESA; the provisions of the ESA, as well as other 
        environmental statues such as the National Environmental Policy 
        Act, would continue to apply.

    Marine Mammal Protection Act (MMPA): Follow the National Research 
Council's recommendation that the current, ambiguous definition of 
``harassment,'' of marine mammals, which includes ``annoyance'' and 
``potential to disturb,'' be focused on more biologically significant 
effects.

        <bullet> The legislation confirms existing practices of the 
        last two administrations, endorsed by the National Research 
        Council.
        <bullet> Although excluding transitory, biologically 
        insignificant effects from regulation, the MMPA would remain in 
        full effect for biologically significant effects--not only 
        death or injury but disruption of biologically significant 
        activities.
        <bullet> DOD currently funds much of the most significant 
        research on marine mammals, and will continue this research in 
        the future.

    Migratory Bird Treaty Act (MBTA): Reverse a March 2002 court 
decision interpreting the MBTA to prohibit training at the Farallon de 
Medinilla (FDM) range in the Western Pacific due to concerns about even 
low numbers of bird deaths.

        <bullet> The legislation restores the legal and regulatory 
        status quo as it existed for over 80 years, until the FDM 
        decision in March 2002.
        <bullet> The FDM case was brought in the DC Circuit, which has 
        jurisdiction over all DOD activities. As a result, the FDM case 
        puts at risk military aviation, military telecommunications, 
        and live-fire training nationwide.

    Clean Air Act (CAA): Maintain DOD's commitment to CAA standards 
while providing flexibility to meet State air quality policies and 
training and readiness requirements. 

        <bullet> The CAA currently prevents DOD from beginning 
        readiness activities involving even relatively minor increases 
        in emissions until it can demonstrate immediate compliance with 
        State clean air plans.
        <bullet> Without greater flexibility, the conformity 
        requirement could be a significant obstacle to basing military 
        aircraft in any Southern California location, as well as a 
        potentially serious factor in siting the Joint Strike Fighter 
        and the Advanced Amphibious Assault Vehicle.
        <bullet> The legislative proposal reaffirms DOD's obligation to 
        meet State air requirements but allows DOD and State regulators 
        more time to ensure full compliance.

    Resource Conservation and Recovery Act (RCRA) and Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA), 
commonly known as Superfund: Confirm that the cleanup of military 
munitions is not required so long as munitions remain on the 
operational ranges. DOD's obligation to cleanup off-range munitions and 
munitions causing imminent danger on-range would remain unchanged.

        <bullet> The legislation does not modify DOD's cleanup 
        responsibilities under CERCLA or RCRA at Formerly Used Defense 
        Sites; closed, closing, or transferring ranges; or currently 
        operational bases that close in the future.

    Cooperative buffer zone acquisition authority: Allows military 
departments to enter into agreements with third parties--such as 
private land preservation organizations--to prevent urban development 
that threatens testing and training. The proposal would assist DOD with 
preserving ``buffer zones'' between ranges/bases and urban areas. 
Buffer zones provide critical habitat for endangered and threatened 
species.
    Conveyance of surplus property for conservation purposes: Allows 
DOD to convey surplus property to a State or local government, or to a 
nonprofit conservation organization. The proposal allows the transfer 
of land only if it is used for conservation purposes in perpetuity.

    72. Senator Inhofe. Secretary Fiori, Secretary Johnson, and 
Secretary Gibbs, growing urbanization has transformed many military 
training ranges into ``islands of biodiversity'' that contain 
endangered species and critical habitats. Fleet operations have also 
been effected by concerns related to marine species and the 
sustainability of the maritime environment. During the hearing, it was 
noted that there are some legislative proposals that under 
consideration within the Department. What, if any, impediments are each 
of you experiencing regarding these proposals?
    Secretary Fiori. I would not characterize the efforts to develop 
our legislative clarification proposals as ``impediments.'' Rather, the 
Department is working internally and with other agencies within the 
administration to refine and focus the proposals to just those needed 
to preserve military readiness without reducing the level of protection 
to human health and the environment. When the Department provides the 
legislative clarification proposal to Congress it will be a fully 
coordinated administration position that serves both military readiness 
and environmental protection requirements.
    Secretary Johnson. We have worked closely within the Department of 
Defense and other federal agencies, including the Department of 
Transportation, the Department of Commerce, the Environmental 
Protection Agency, and the President's council on environmental quality 
to craft a carefully tailored legislative package that provides us with 
the flexibility and balance we need to meet mission requirements while 
still protecting the environmental values that we as a nation cherish. 
This debate has taken more time than expected, but we feel that 
important to present a fully vetted administration proposal to 
Congress.
    Secretary Gibbs. Several proposals to clarify the implementation of 
environmental laws to military readiness activities were developed by 
the Department of Defense and are currently under consideration by 
Congress as the Readiness and Range Preservation Initiative.

    73. Senator Inhofe. Mr. DuBois, Secretary Fiori, Secretary Johnson, 
and Secretary Gibbs, during this session of Congress the Senate is 
expected to resume debate on comprehensive energy legislation. 
Apparently, the Department of Defense and the services have concerns 
regarding both the House and Senate versions of this legislation. Could 
you explain those concerns and how you propose to address them with 
Congress?
    Mr. DuBois. The attached Statement of Administration Policy from 
the Secretary of Energy reflects the Department of Defense's position 
as well.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Secretary Fiori. The Army concurs with the views expressed by Mr. 
DuBois. The Army is committed to reducing its energy consumption since 
lower energy costs free up resources for more critical items, it 
reduces our reliance on foreign energy sources, and it benefits the 
environment.
    While the Army supports comprehensive energy legislation, we 
believe that there are provisions in the proposed legislation that will 
adversely affect national security, and our ability to meet energy 
reduction goals.
    The proposed legislation changes the performance standards for 
energy reduction goals and the baseline from 1985 to 2000. This creates 
different baseline performance standards than those used in Executive 
Order 13123 and Fiscal Year 2002 National Defense Authorization Act, 
doubling the Army's tracking and reporting requirements. The new 
performance goals also penalize the Army for pursuing energy 
conservation aggressively since 1985. The Army has achieved a 27.1 
percent reduction since 1985, and is on track to meet the current 
fiscal year 2010 goal.
    The proposed legislation requires that all Federal buildings be 
metered or sub-metered by October 2002. All Army installations are 
metered, but few buildings are separately metered. Initial cost to 
meter every building is estimated at $500 million, with continuing 
costs to read and maintain. Metering buildings will divert resources 
from readiness, quality of life, and facilities sustainment, and weaken 
efforts to make the most effective use of our energy conservation 
dollars. Metering can be useful in energy conservation, but does not 
save energy by itself.
    The Army is also interested in protecting its ability to develop 
geothermal energy resources on Army land. The pending amendment to the 
Senate bill threatens the Army's ability to manage and control 
geothermal energy production on its lands. Such provisions will also 
restrict the Army's ability to ensure continuous and effective use of 
its lands for their primary functions: testing of weapons systems and 
mission essential training of soldiers.
    Secretary Johnson. While the Department of the Navy supports 
comprehensive energy legislation, there are several provisions that we 
believe will affect national security adversely, while other provisions 
could be modified to better support our energy efforts. This bill would 
require the Department to expend fiscal resources needed for more 
critical programs. Some examples of specific issues are:
    The House version of the energy bill, and a pending amendment to 
the Senate bill, threaten the Department's ability to manage and 
control geothermal energy production on its lands. Such provisions will 
also restrict the Department's ability to ensure continuous and 
effective use of its lands for their primary functions: testing of 
weapons systems and mission essential training of pilots. Also, the 
revenues from the geothermal energy programs are used by the military 
departments to offset the costs of managing the programs and are re-
invested in various renewable energy programs (e.g., solar and wind 
energy). Provisions impacting the Department of Defense's geothermal 
program will adversely impact the development of additional geothermal 
energy at Naval installations.
    Both bills propose that all Federal buildings be metered or sub-
metered. Metering for the Department is done at the installations 
level. However, only some of the Department's individual buildings are 
metered. The cost to meter all buildings is estimated at $500 million 
and is cost prohibitive. Metering buildings would divert resources from 
readiness, quality of life, and facilities sustainment, while 
undermining efforts to ensure the most effective use of our energy 
conservation dollars. Metering can play a useful role in energy 
conservation, but is not a universal solution. Recommend continuing 
metering decisions based on life cycle cost.
    Proposed legislation would change the performance standards for 
energy reduction goals and the baseline from 1985 to 2000. This creates 
a different baseline and performance standards than used in Executive 
Order 13123 and fiscal year 2002 Defense Authorization Act (PL 107-
107), effectively doubling the Department of Defense's tracking and 
reporting requirements. The new performance goals are a 20 percent 
reduction by 2011 from a 2000 baseline, as compared to the existing 30 
percent reduction by 2005 and 35 percent reduction by 2010 from a 1985 
baseline. The section also penalizes the Department for pursuing energy 
conservation aggressively since 1985. Agencies with less aggressive 
programs, which consumed more energy in 2000, will find it easier to 
meet the new standards. Recommend retention of current Executive Order 
13123 and fiscal year 2002 Defense Authorization Act (Public Law 107-
107) goals and retention of fiscal year 1985 baseline.
    The proposed legislation will require the Federal government to 
purchase at least 3 percent of its electricity from renewable sources 
by fiscal year 2003, 5 percent by fiscal year 2005, and 7.5 percent by 
fiscal year 2010. The Department of Defense currently purchases less 
than 1 percent of its electricity from renewable sources, primarily 
because purchasing renewable energy usually requires a premium over 
standard rates. Increasing demand ahead of the available supply will 
only exacerbate this problem and force the Department to divert 
resources from readiness, facilities sustainment, and quality of life 
to meet this requirement. Essentially, the Department of Defense will 
be indirectly subsidizing the renewable electrical energy industry.
    Secretary Gibbs. The Air Force has prepared position papers 
addressing key provisions of concern. All the services coordinated on 
the papers, which were also provided to OSD. The Navy and Air Force 
Secretariats will be communicating the concerns via respective 
legislative liaison functions.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
                     BASE REALIGNMENTS AND CLOSURES

    74. Senator Inhofe. Mr. DuBois, Secretary Fiori, Secretary Johnson, 
and Secretary Gibbs, the National Defense Authorization Act for Fiscal 
Year 2002 authorized an additional round of base realignments and 
closures (BRAC). Previous congressional opposition to BRAC was 
influenced by many factors, including the Department of Defense's 
inability to accurately quantify cost savings, the lack of 
accountability for unexpended cleanup funds, inadequate funding for 
environmental cleanup, criticism regarding delayed property transfers, 
concerns regarding political intervention in the 1995 BRAC round, and, 
more recently, questions related to the infrastructure necessary to 
support the war on terrorism. How are the services addressing these 
concerns, particularly as an additional round of BRAC is considered 
within the Department of Defense?
    Mr. DuBois. The Department estimates that, through 2001, the four 
BRAC rounds have generated almost $17 billion in net savings, with over 
$6 billion in annual recurring savings thereafter. The General 
Accounting Office has consistently stated that BRAC generates 
significant savings. Their latest report validates these costs and 
savings estimates. The Department recognizes, as has the GAO, that 
these savings, while significant, are difficult to track with 
precision. To improve the process for estimating savings for a BRAC 
round in 2005, the Department will develop a Defense-wide systematic 
approach for the periodic updating of initial base closure savings 
estimates.
    Regarding the management of unexpended cleanup funds, the 
Department is taking steps to ensure all BRAC funds are both obligated 
and expended in a timely manner. The military services are recovering 
prior year funds that are no longer required and are applying these 
funds to current requirements. Over 90 percent of the Department's 
fiscal year 2001 appropriation was obligated during the first year. 
Through February 2002, the military services have expended or 
liquidated 99 percent of all obligations of fiscal year 1996 and prior 
year BRAC appropriations, as reported by the Defense Finance and 
Accounting Service. The Department will be closely monitoring these 
resource management issues in the future and applying lessons learned 
to the management of BRAC 2005 resources.
    Regarding the perception of inadequate funds for environmental 
cleanup of BRAC properties, the fiscal year 2003 BRAC environmental 
President's budget request is $29 million higher than the fiscal year 
2002 request. The funding request is based on current requirements and 
capacity to execute and ensures funding to meet legal obligations.
    To improve performance in transferring these properties, I have 
directed the military services to identify impediments to transfer, and 
to propose solutions for all BRAC sites at which property awaits 
transfer. I will routinely review the progress we are making in the 
transfer of these properties with the military services and seek 
solutions to impediments as they are encountered. This review will 
include the development of an updated transfer schedule for each 
installation and validation of budgets to ensure adequate resources are 
dedicated to these efforts. Each military service is responsible for 
the disposition of this property and it is within each service that the 
preponderance of resources is being expended to facilitate the 
remaining transfers.
    The BRAC process has proven to be a fair and open process. 
Specifically, the selection criteria will be open to public comment; an 
independent commission will review the Secretary's recommendations, 
conduct their own analyses and hold public hearings to maintain 
fairness throughout the process; finally, Congress will have the 
opportunity to act on the President's recommendations for base 
realignments and closure. In response to BRAC 1995 implementation 
concerns regarding privatization, Public Law 107-107 specifies 
conditions under which privatization-in-place may be used.
    A future BRAC round will enable the Department to eliminate excess 
base infrastructure, currently estimated at 23 percent, and to 
rationalize base structure to better support the force structure. The 
BRAC statute requires the Department to develop a Force Structure Plan 
based on probable threats to national security over the next 20 years, 
which includes the threats posed by terrorism. Based on that Force 
Structure Plan and other statutory requirements, the Department 
develops selection criteria with military value as the primary 
consideration. In this way the needs of the Department to support the 
war on terrorism (and to address other probable threats to national 
security) are considered in the BRAC analysis.
    Secretary Fiori. The Army's inability to accurately quantify 
savings: The savings achieved through BRAC are significant and have 
been verified by the Congressional Budget Office, the General 
Accounting Office, and the Army Audit Agency. The Army has closed 112 
installations and realigned an additional 26, which has generated 
annual savings of $945 million for other Army priorities such as 
readiness and transformation.
    The Army's lack of accountability for unexpended cleanup funds: 
Regarding the management of unexpended cleanup funds, the Army is 
taking steps to ensure all BRAC funds are both obligated and disbursed 
in a timely manner. The Army is recovering prior year funds that are no 
longer required and applying these funds to current requirements. Over 
94 percent of the Army's appropriation was obligated during the first 
year. Through March 2002, the Army disbursed 99 percent of all 
obligations of fiscal year 1996 and prior year BRAC appropriations, as 
reported by Defense Finance and Accounting Service. The Army will be 
closely monitoring these resource management issues in the future and 
apply lessons learned to the management of BRAC 2005 resources.
    The Army's inadequate funding for environmental cleanup: In the 
first four rounds, the Army has spent more than 40 percent of all BRAC 
funds on environmental cleanup. This significant commitment of funds 
represents total spending of $2.3 billion for environmental restoration 
through fiscal year 2003. These funds have allowed the Army to complete 
environmental restoration efforts at 90 of the 116 installations in the 
BRAC program through fiscal year 2001. The Army is also programming 
funds to support the remaining (cost to complete) environmental 
requirements, which are now estimated at $889 million. These funds will 
support cleanup efforts at the remaining 26 installations and the 
continued environmental monitoring and operation of engineered remedial 
systems. This aspect of the program presents the most challenges and 
has delayed reuse of some BRAC properties. Recent successes are 
steering efforts towards privatized cleanup efforts, use of 
environmental insurance, and forming cooperative agreements with the 
local communities to complete environmental cleanup. We remain 
adaptable to innovative methods of cleanup and redevelopment.
    The criticism regarding delayed Army property transfers: BRAC 
property transfers have been delayed for many reasons, and each 
property has a unique story. The Army has successfully transferred more 
than 117,000 acres, which is about 47 percent of the total acres made 
excess through the BRAC program. The Army is currently working with 
several local communities to move additional property into local reuse. 
The Army expects to transfer an additional 18,000 acres during fiscal 
year 2002, which includes the transfer of Oakland Army Base in 
California, Bayonne Military Ocean Terminal in New Jersey, and 
Fitzsimons Army Medical Center in Colorado. The Army will continue to 
support all authorized options for transferring property as early as 
possible to the affected local communities.
    The concerns regarding political intervention in the 1995 BRAC 
round: The Department of Defense has not yet established the criteria 
for selecting additional BRAC installations in the round authorized to 
begin in fiscal year 2005. According to the National Defense 
Authorization Act for Fiscal Year 2002, Congress has required the 
Secretary of Defense to publish the proposed criteria in the Federal 
Register by December 31, 2003. The selection criteria ensures that 
military value is the primary consideration in making recommendations 
for the closure or realignment of military installations.
    The concerns related to the infrastructure necessary to support the 
war on terrorism: The Army continues to reassess our CONUS based 
infrastructure requirements in terms of present and future threats and 
mission requirements. We will need to update the 20-25 percent excess 
capacity that was published in the 1998 report to Congress and take 
into consideration: ongoing stationing decisions, which include unit 
transformations; surge requirements and threat scenarios; and forces 
returning from overseas. BRAC 2005 is a new opportunity; it provides us 
the opportunity to analyze future Army stationing requirements and 
determine excess capacity.
    Secretary Johnson. Studies by the General Accounting Office and 
other federal agencies have consistently confirmed that BRAC savings 
are real and substantial. The most recent GAO report of April 5, 2002 
validates this conclusion. The Department of the Navy estimates that 
savings began to exceed costs to close and realign in 2001, and will 
result in approximately $2.5 billion in annual recurring savings. The 
Department of the Navy will be working with the Department of Defense 
to more precisely track and update base closure saving estimates, with 
a view toward more accurately projecting costs and savings in the BRAC 
round in 2005.
    Regarding the management of unexpended cleanup funds, the Naval 
Audit Service recently completed an audit of prior year BRAC 
unobligatated and unexpended funds. The Department of the Navy is 
recovering prior year funds that are no longer required and have 
applied the funding to fiscal year 2001 and fiscal year 2002 
environmental cleanup needs. These prior year funds, along with 
additional BRAC cleanup funds provided in the fiscal year 2002 Military 
Construction Appropriations Act, have resolved the fiscal year 2002 
BRAC cleanup funding shortfall. The fiscal year 2003 BRAC request meets 
all current regulator and community expectations for cleanup.
    The Department of the Navy has completely transferred 60 of the 90 
bases that were closed and were to be transferred to new owners from 
the first rounds of BRAC. Almost 50 percent of the parcels on the 
remaining 30 bases have been transferred, and as noted above, we have 
increased BRAC environmental funding to accelerate cleanup of the 
remaining parcels. We plan to reach a point where a cleanup remedy is 
in place and operating properly at seven additional bases in fiscal 
year 2002 and five in fiscal year 2003, which will allow transfer of 
those properties. We also have successfully used the early transfer 
authority to convey property at Mare Island, CA and Oakland, CA, and 
are actively seeking to move as much property as possible off the 
federal rolls and quickly as possible.
    The Department of the Navy expects that base infrastructure that 
may be necessary to support the war on terrorism will be fully 
considered as part of BRAC 2005. The fiscal year 2002 Authorization Act 
amendment to the 1990 Base Closure and Realignment Act contains a 
number of provisions to ensure that all bases are considered fairly and 
equally, with military value as the primary consideration in making 
closure or realignment recommendations, and with independent checks and 
balances in place throughout the process. Congress specifically 
provided minimum criteria that DOD must consider. Those minimum 
criteria include preservation of military installations in the United 
States as staging areas for homeland defense missions. The Department 
of the Navy is working with the Department of Defense and the other 
Military Departments on specific guidance for conducting BRAC 2005.
    Secretary Gibbs. The Air Force will conduct an analysis in 
accordance with the provisions of the Base Closure and Realignment law, 
selection criteria that Department of Defense is mandated by the law to 
promulgate, and the Secretary of Defense's policies and procedures. The 
Air Force will initiate its analysis when directed to do so by the 
Secretary of Defense.

              UNIFORM NATIONAL DISCHARGE STANDARDS PROGRAM

    75. Senator Inhofe. Secretary Johnson, the Uniform National 
Discharge Standards (UNDS) Program is an effort to provide a 
comprehensive set of standards for controlling the incidental discharge 
from Navy vessels. Phase I of this program identified 25 discharges 
that will require control based upon the potential for adverse 
environmental impacts. There are indications, however, that only a few 
of these 25 discharges have been, or are programmed to be, explored in 
the Navy's research and development program, which should determine the 
most operationally effective and cost effective solutions. What is the 
present schedule for completion of Phases II and III of the UNDS 
Program?
    Secretary. Johnson. Phase I of the program was completed in June 
1999. This phase took longer than expected because about 7,000 Armed 
Forces vessels had to be divided into vessel classes and then the 
discharges characterized. The characterization included determining 
flow rates, constituents, concentrations, and some sampling. Thirty-
nine discharged were characterized and it was determined that 25 
discharges were of sufficient environmental consequence that control 
may be warranted. Phase II has proven to be even more complex. Each 
potential pollution control device passing an initial screening must 
undergo detailed feasibility and environmental effects analyses. The 
term feasibility analysis is in itself complex, requiring combined 
analyses of operational impact, practicability, and cost. Finally, all 
information from these analyses is summarized in a discharge assessment 
report that leads to the development of recommended pollution control 
devices. We came to the conclusion that conducting these analyses for 
all 25 discharges at once is not possible with available resources and 
staffing. Navy and EPA are discussing a ``batch'' rulemaking whereby 
the top four or five priority discharges would be handled first. Our 
current estimate is September 2005 to complete the Phase II rule for 
these discharges. We are working with EPA to expedite the rule 
development process. However, the process could take longer depending 
on the resolution of issues such as cumulative impact analysis, 
endangered species consultation, and peer review. If phased and 
developed in batches of about 4-5, Phase II would be completed for all 
discharges in February 2011. Phase III could be completed approximately 
1 year after each ``batch'' of discharges completes Phase II.

    76. Senator Inhofe. Secretary Johnson, is there a detailed Phase II 
Program Objective and Milestone (POAM) for each of the discharges 
requiring control?
    Secretary Johnson. Not Yet. We have a preliminary schedule showing 
September 2005 for the first four discharges. A detailed POAM will be 
developed pending resolution of a number of rulemaking issues.

    77. Senator Inhofe. Secretary Johnson, what is the Navy's preferred 
pollution control device for each of the 25 discharges?
    Secretary Johnson. The Navy and EPA have identified numerous 
potential marine pollution control devices (MPCDs). The ``preferred'' 
MPCD for each discharge will not be known until the environmental and 
feasibility analyses are completed.

    78. Senator Inhofe. Secretary Johnson, what are the adverse 
consequences of potential Phase II candidate pollution control devices 
with respect to ship impact, shipboard operations, procurement and 
installation costs, and other compliance costs?
    Secretary Johnson. The Navy and EPA have identified numerous 
potential MPCDs for evaluation in Phase II. Any adverse consequences of 
employing particular MPCDs will be determined as part of the 
feasibility analysis associated with each discharge. However, some 
devices with obvious adverse consequences (e.g., too large for a war 
ship) are screened out initially. Only devices passing the initial 
screening are fully analyzed.

    79. Senator Inhofe. Secretary Johnson, what tests or demonstrations 
have been performed by the Navy to ensure that proposed pollution 
control devices are effective, do not unduly hamper the mission, and 
are affordable from an acquisition, installation, life-cycle cost, and 
manning perspective?
    Secretary Johnson. The UNDS legislation mandates consideration of 
operational impact, feasibility, and cost in identifying potential 
MPCDs. While tests and demonstrations of all potential MPCDs are not 
required by the UNDS legislation, or currently planned, the Navy and 
EPA consider all available performance data from commercial and 
government sources during their analyses and deliberations.

    80. Senator Inhofe. Secretary Johnson, what data has been gathered 
or presented to the Environmental Protection Agency to justify the 
Navy's current status regarding UNDS?
    Secretary Johnson. The Navy and EPA are working jointly on UNDS. 
Substantial detailed data on the nature of discharges was reviewed in 
Phase I. In Phase II, the Navy and EPA have completed some technical 
and feasibility analyses for priority discharges and have developed a 
draft performance standard for one discharge. In addition, data on 
numerous MPCDs has been reviewed.

    81. Senator Inhofe. Secretary Johnson, is there a POAM for Phase 
III of the rulemaking?
    Secretary Johnson. Not at present. A POAM will be developed to 
support Phase III once the Navy and EPA promulgate performance 
standards for the Phase II discharges.

    82. Senator Inhofe. Secretary Johnson, what transitions have been 
planned for systems that have been developed for the treatment of gray 
water discharges?
    Secretary Johnson. The Navy constantly keeps abreast of existing 
and developing technologies in the area of gray water treatment. The 
selection of a treatment technology and the transition of related 
systems to the fleet will be contingent on the completion of UNDS 
rulemaking for gray water.

                       SHIPBOARD WASTE MANAGEMENT

    83. Senator Inhofe. Secretary Johnson, the Navy research and 
development (R&D) program has identified a membrane filtration 
polishing technology that can be added to meet oil discharge 
requirements. However, it is only being implemented on new 
construction. While the cost of this particular technology may be 
prohibitively expensive to back-fit into the entire fleet, there is 
still a need to upgrade the existing systems so that they meet the 
present discharge requirements. Is the Navy's R&D program developing 
alternative, cost-effective ``add-on'' polishing technologies that can 
meet performance standards? If not, why?
    Secretary Johnson. The Navy is not currently developing alternative 
polishing technologies. Additional expenditures of RDT&E program funds 
to develop and test more polishing technologies are not required for 
the following reasons: (1) Navy vessels are currently in compliance 
with domestic discharge regulations for bilge water; (2) Navy has 
already identified the best polishing technology that meets the Navy's 
requirements for new construction ships; and (3) a joint EPA-Navy 
rulemaking process, called Uniform National Discharge Standards (UNDS), 
is currently evaluating all bilge water treatment technologies.

    84. Senator Inhofe. Secretary Johnson, the Compensated Fuel Ballast 
program is being terminated without developing the necessary design 
guidance that would eliminate oil discharges when refueling. Why has 
the program been terminated? How will the need for design guidance be 
addressed?
    Secretary Johnson. The Navy has completed RDT&E for implementing 
Compensated Fuel Ballast System improvements. Modeling tools and basic 
design guidance for compensated fuel ballast systems to reduce 
inadvertent fuel discharges and reduce water intrusion have been 
transitioned to new ship construction programs from the Shipboard 
Environmental Protection Program. Additionally, the fleet has 
implemented stringent fuel transfer requirements on existing ships with 
compensated fuel ballast systems to minimize the risk of oil discharges 
during refueling operations. Finally, the UNDS rule-making process will 
determine future standards of performance for military compensated fuel 
ballast system discharges.

    85. Senator Inhofe. Secretary Johnson, the Plasma Arc Waste 
Destruction program is not being transitioned to the Advanced 
Development Program in spite of the potential interest of future 
aircraft carrier programs. Why is the Plasma Arc Waste Destruction 
program not being transitioned?
    Secretary Johnson. There is no legal or regulatory requirement for 
development, test, and installation of a Plasma Arc Waste Destruction 
System (PAWDS) on a Navy vessel. The present fleet is in compliance 
with applicable solid and plastic waste discharge regulations. New 
construction ships will also be in compliance. Although the Shipboard 
Environmental Protection Program is not funding development of plasma 
arc systems for ships, the future aircraft carrier program office is 
supporting development of PAWDS for the CVN(X).

    86. Senator Inhofe. Secretary Johnson, the Navy has existing 
shipboard waste management systems and equipment used for addressing 
solid waste, sewage, gray water, and bilge water. What is the condition 
of the Navy's shipboard waste management systems and equipment with 
respect to compliance, functionality, maintainability, supportability, 
and affordability?
    Secretary Johnson. The present fleet is in compliance with existing 
domestic discharge regulations on solid waste, sewage, gray water, and 
bilge water utilizing installed equipment that is fully functional 
maintainable and supportable. Affordability issues are fully reviewed 
during the developmental stage of all shipboard waste management 
equipment to ensure procurement of the most cost effective equipment, 
having the least operational impact, and requiring minimal staffing.

    87. Senator Inhofe. Secretary Johnson, have the total actual 
ownership costs of existing shipboard waste management systems and 
equipment been tracked to determine the cost and affordability of 
future solutions? If not, why?
    Secretary Johnson. Total actual ownership cost studies for 
individual shipboard waste management systems and equipment have not 
been done nor are they required. However, procurement, installation, 
and developmental costs are tracked. Affordability issues are always 
considered early in the acquisition process, along with operational 
impacts. The goal is to select equipment with the optimal combination 
of factors such as acquisition costs, maintenance costs, environmental 
impact, staffing requirements, and operational impact.
                                 ______
                                 
              Questions Submitted by Senator Wayne Allard

                   FORMERLY USED DEFENSE SITES BUDGET

    88. Senator Allard. Mr. DuBois and Secretary Fiori, there are at 
least 60 formerly used defense sites in Colorado with environmental 
contamination that have been identified by the Corps of Engineers for 
restoration under the Formerly Used Defense Site (FUDS) program. The 
Corps has been working on FUDS for almost 20 years, yet has failed to 
clean up any of the high priority sites in Colorado--sites with 
uncontrolled environmental toxins threatening drinking water sources 
and hazardous unexploded ordnance contamination. Over the last few 
years, the FUDS cleanup budget has been under funded in Colorado and 
nationally to complete even high risk and high priority sites. What are 
your plans and schedule for funding FUDS cleanup in Colorado and 
nationally?
    Mr. DuBois. There are approximately 60 properties on the Corps of 
Engineers' FUDS Inventory List for the State of Colorado. The Corps 
estimates that fewer than half of those sites are contaminated or 
potentially contaminated, and necessitate cleanup under the FUDS 
program. The Corps has completed the following FUDS projects in the 
State of Colorado: AF Finance and Accounting Center; Denver Ordnance 
Plant; F.E. Warren AFB Sites 9 through 12; Fort Logan; Granada 
Relocation Center; La Junta Army Airfield; Lowry S-1 Complexes 1A and 
1B; and Pueblo Army Air Field. The Corps of Engineers is currently 
working with the State of Colorado to develop a schedule for cleanup, 
or statewide management action plan (MAP), for FUDS in Colorado. The 
MAP will identify cleanup, projected schedules, and overall project 
funding requirements for each FUDS within the State.
    Secretary Fiori. There are approximately 60 properties on the Corps 
of Engineers' FUDS Inventory List for the State of Colorado. The Corps 
estimates that less than half of those sites are contaminated or 
potentially contaminated and eligible for cleanup under the FUDS 
program. The Corps has completed the following FUDS projects in the 
State of Colorado: AF Finance and Accounting Center; Camp Hale; Denver 
Ordnance Plant; F.E. Warren AFB Sites 9 through 12; Fort Logan; Granada 
Relocation Center; La Junta Army Airfield; Lowry S-1 Complexes 1A and 
1B; and Pueblo Army Air Field. The Corps of Engineers is currently 
working with the State of Colorado to develop a schedule for cleanup, 
or a statewide management action plan (MAP), for FUDS in Colorado. The 
MAP will identify cleanup, projected schedules, and overall project 
funding requirements for each FUDS site within the State. Nationally, 
the President's Budget request provides funding for all legal 
requirements and includes an increase over last year's budget request 
specifically targeted to address unexploded ordnance requirements.

    89. Senator Allard. Mr. DuBois and Secretary Fiori, how much 
funding would you expect to need annually to be able to complete the 
FUDS cleanup in the next 20 years?
    Mr. DuBois. The cost to complete estimate for the FUDS program has 
increased dramatically in the last 3 years. The increase is largely 
attributable to conservative assumptions concerning possible future 
actions that may be required to address potential UXO-related problems, 
and is generally based on preliminary information. We currently do not 
know the extent of the requirement, but are in the process of 
developing estimates and potential remedies. The President's budget 
request provides funding to meet all currently established cleanup 
schedules and includes an increase over last year's budget request 
specifically targeted to address known UXO requirements.
    Secretary Fiori. FUDS program requirements have increased 
dramatically in the last 3 years primarily as the result of the 
addition of new FUDS sites and munitions response requirements. Long-
term cost estimates for FUDS cleanup are generally based on preliminary 
information and largely attributable to conservative assumptions about 
possible future actions that may be required to address potential UXO-
related problems. Thus, the UXO-related cost estimates, in particular, 
are not robust enough to be reflective of funding requirements. 
Additionally, regardless of the cost, the Department does not believe 
it is technically feasible to complete required munitions responses in 
20 years. The Department is working diligently to determine the full 
extent of munitions response requirements, assess the technology for 
such, and then to move forward as expeditiously as possible to complete 
required munitions responses. In recognition of this, the President's 
fiscal year 2003 budget request provides funding to meet current 
schedules. It also includes an increase of $22 million, over last 
year's budget request, that is specifically targeted for munitions 
responses.

    90. Senator Allard. Mr. DuBois and Secretary Fiori, how do you 
propose to maintain stable and consistent funding for the life of these 
projects without delaying costs into the out years?
    Mr. DuBois. We believe strongly in the concept of stable funding 
for the environmental restoration program. By stable funding, we mean 
manageable increases or decreases consistent with project requirements. 
Execution capabilities dependent upon staffing, contracting, and other 
resource considerations can be severely affected, both by wide 
fluctuations in funding and by the inability to predict future funding 
levels. DOD continues to seek stable funding and will work within the 
bounds of such funding from year-to-year. The President's budget 
request is in line with the concept of stable funding.
    Secretary Fiori. We believe strongly in the concept of stable 
funding for the environmental restoration prograrn. By stable funding, 
we mean manageable increases or decreases consistent with project 
requirements. Execution capabilities depend on staffing, contracting, 
and other resource considerations and are severely and adversely 
affected, both by wide fluctuations in funding and by the inability to 
forecast and rely on future funding levels. DOD continues to seek 
stable funding and will work within the bounds of such funding from 
year to year. The President's budget request is in line with the 
concept of stable funding.

                 FORMER LOWRY BOMBING AND GUNNERY RANGE

    91. Senator Allard. Mr. DuBois and Secretary Fiori, the Department 
of Defense has been working on the cleanup of unexploded ordnance at 
the Former Lowry Bombing and Gunnery Range (FLBGR) for several years. 
The cleanup is way behind, the budget has been cut in half, and the 
cleanup schedule extended almost 30 years. Under the settlement 
agreement reached with Colorado in 1998, cleanup of the site was 
expected to be complete in about 5 years. Several new subdivisions, 
6,000 new homes, and a high school are being built adjacent to a site 
on the range where simulant filled and inert chemical warfare munitions 
have been recovered. Budget cuts and cleanup schedule delays have 
already delayed construction at several new subdivisions. The high 
school is scheduled to open in August 2003. How much is in your budget 
this year to address cleanup at FLBGR?
    Mr. DuBois. The Corps of Engineers initially discussed a fiscal 
year 2002 budget of $4 million with the State of Colorado. A fiscal 
year 2002 plus-up allowed the Army to increase the FUDS budget for 
Colorado to $6 million. The Corps will add an additional $2 million in 
fiscal year 2002. Extending the cleanup schedule to almost 30 years 
would be necessary if the project were funded at only $4 million per 
year. At $8 million annually, cleanup can be completed in approximately 
10 years.
    Secretary Fiori. The Corps of Engineers initially discussed a 
fiscal year 2002 budget of $4 million with the State of Colorado. A 
fiscal year 2002 plus-up allowed the Army to increase the FUDS budget 
for Colorado to $6 million. The Army will add an additional $2 million 
in fiscal year 2002, restoring the original budget of $8 million. 
Extending the cleanup schedule to almost 30 years would be necessary if 
the project is funded at only $4 million per year. At $8 million 
annually, cleanup can be completed in approximately 10 years.

    92. Senator Allard. Mr. DuBois and Secretary Fiori, can you assure 
us that cleanup will be completed in time for the new high school 
opening?
    Mr. DuBois. No, the cleanup of the Jeep and Demolition Range site 
is not expected to be completed by August 2003 due to the recent 
discovery of potential munitions at the site, and the possibility that 
the area may be designated as a chemical warfare material site. In 
2001, the Corps of Engineers discussed ordnance hazards with the local 
school and the Colorado Department of Public Health and the 
Environment. The Corps notified the school that in the event of an 
incident the evacuation distance could extend to the entrance of 
school. The co-chair of the Corps-sponsored citizen Restoration 
Advisory Board recommended that the school consider delaying 
construction. Notwithstanding this information, the school board 
announced its plan to continue with construction and to open the school 
on schedule, noting bond issues and current overcrowding of existing 
facilities.
    Secretary Fiori. No, the cleanup of the Jeep and Demolition Range 
site is not expected to be completed by August 2003 due to the recent 
discovery of potential munitions at the site and the possibility that 
the area may be designated as a chemical warfare materiel site. In 
2001, the Army discussed ordnance hazards with the school and the 
Colorado Department of Public Health and the Environment. The Army 
notified the school that in the event of an incident the evacuation 
distance could extend to the entrance of the school. Notwithstanding 
this information, the school board announced its plan to continue with 
construction and to open the school on schedule, noting bond issues and 
current overcrowding of existing facilities.

    93. Senator Allard. Mr. DuBois and Secretary Fiori, what are your 
plans and schedule for funding completion of the FLBGR cleanup?
    Mr. DuBois. Details of the schedule for completion of the cleanup 
are provided in the Management Plan, dated March 2001. At a funding 
level of $8-$10 million per year, we expect to complete the 
conventional ordnance clearance activities by 2010. Chemical warfare 
material issues, however, may increase both the cost and time required 
to complete the cleanup.
    Secretary Fiori. Details of the schedule for completion of the 
cleanup are provided in the Management Plan, dated March 2001. At a 
funding level of $8-$10 million per year, we expect to complete the 
munitions response activities for sites containing conventional 
munitions by 2010. However, chemical warfare materiel issues may 
increase the cost-to-complete the cleanup.

                               CAMP HALE

    94. Senator Allard. Mr. DuBois and Secretary Fiori, a news article 
from last week's Denver Post quotes state officials as saying it will 
take the Corps of Engineers 10 years or longer to clean up Camp Hale, 
Colorado. Hikers, hunters, and recreational forest users are finding 
dangerous live unexploded ordnance in the National Forest at Camp Hale. 
The Camp Hale area is one of the must heavily used national forest 
areas in the country. The Forest Service had to close 1,400 acres of 
the forest 2 years ago, including a popular group campground and a 
segment of the Continental Divide National Scenic Trail because of 
unexploded ordnance contamination. The State was informed that there is 
not enough funding in the FUDS budget to address the site. How long do 
you expect the investigation and cleanup of Camp Hale to take? 
Specifically, what are your plans and schedule funding for the 
investigation and cleanup?
    Mr. DuBois. The Corps is currently budgeting approximately $1 
million per year for Camp Hale cleanup. At this time, there is not 
enough information available about the nature and extent of the hazards 
at the site to accurately estimate the cost to complete the cleanup. 
The Corps is currently working in partnership with the Colorado 
Department of Public Health and Environment (CDPHE) and the USDA Forest 
Service (USFS) to characterize the site. Once the Corps completes the 
characterization, it will undertake the appropriate response action at 
the site.
    Camp Hale is a very large site (up to 247,000 acres), with varying 
terrain (mountainous, forest, etc.) and multiple uses. The Corps plans 
to focus characterization efforts in areas known to have hosted 
ordnance related activities, which will help reduce the time required 
to complete cleanup. The Corps anticipates that characterization will 
be completed by fiscal year 2004.
    Secretary Fiori. The Corps is currently budgeting approximately $1 
million per year for the Camp Hale cleanup. At this time, there is not 
enough information available about the nature and extent of the hazards 
at the site to accurately estimate the cost-to-complete the cleanup. 
The Army is currently working in partnership with the Colorado 
Department of Public Health and Environment and the Forest Service to 
characterize the site. Once the Army completes the characterization, 
they will undertake the appropriate response action at the site. Camp 
Hale is a very large site (up to 247,000 acres) with varying terrain 
(mountainous, forest, etc) and multiple uses. The Army plans to focus 
characterization efforts in areas known to have hosted munitions 
related activities, which will help reduce the time required to 
complete response activities. The Army anticipates that 
characterization will be completed by fiscal year 2004.

    [Whereupon, at 4:35 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        THURSDAY, MARCH 21, 2002

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

        READINESS OF U.S. ARMED FORCES FOR ALL ASSIGNED MISSIONS

    The subcommittee met, pursuant to notice, at 10:07 a.m. in 
room SR-232A, Russell Senate Office Building, Senator Daniel K. 
Akaka (chairman of the subcommittee) presiding.
    Committee members present: Senators Akaka, E. Benjamin 
Nelson, and Inhofe.
    Majority staff members present: Richard D. DeBobes, 
counsel; Maren Leed, professional staff member; and Michael J. 
McCord, professional staff member.
    Minority staff members present: William C. Greenwalt, 
professional staff member; Ambrose R. Hock, professional staff 
member; George W. Lauffer, professional staff member; Thomas L. 
MacKenzie, professional staff member; Ann M. Mittermeyer, 
minority counsel; and Joseph T. Sixeas, professional staff 
member.
    Staff assistants present: Leah C. Brewer and Daniel K. 
Goldsmith.
    Committee members' assistants present: Erik Raven, 
assistant to Senator Byrd; Davelyn Noelani Kalipi, assistant to 
Senator Akaka; Richard Kessler, assistant to Senator Akaka; 
Eric Pierce, assistant to Senator Ben Nelson; John A. Bonsell, 
assistant to Senator Inhofe; and Michele Traficante, assistant 
to Senator Hutchinson.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Our hearing will come to order. Our 
chairman, Senator Akaka, is going to be a little bit late, so 
we thought we would go ahead and start our first panel. First 
of all, I have been honored to visit with each one of you in my 
office, except for my good friend General Wald because I was 
unable to be there. I still cannot believe that it was 5 years 
ago that we were together in Aviano, Italy.
    I would like to go ahead and try to abbreviate the witness 
statements and move into a closed session, so we will try to 
expedite this.
    We appreciate everybody being here. I have to say that when 
the control of the Senate went from the Republicans to 
Democrats it really did not change much of what we are doing. 
It happens that Danny Akaka and I are very close friends. We 
were in the same Bible study for 15 years. We have a spirit of 
cooperation that I think exceeds that in any other committee.
    Let me begin by expressing my sympathies and condolences to 
the families, units, and friends of our service men and women 
who were killed or injured yesterday morning during military 
training at Fort Drum, New York. This accident is a vivid 
reminder of the dangers involved in military training. I 
understand that representatives of the Army's Safety Center 
have begun an investigation into the cause of this tragedy. I 
will ask the Army to update the subcommittee during the course 
of the investigation and immediately forward the results to 
this subcommittee when it is completed.
    The Subcommittee on Readiness and Management Support meets 
this morning to discuss the readiness of our Armed Services. It 
is our goal to specifically examine the impact of Operations 
Enduring Freedom and Noble Eagle on the readiness of the total 
force and their ability to conduct their missions. The 
subcommittee will also review the Department's risk assessments 
associated with the revised defense strategy, the status of 
Department's efforts to improve readiness measurements and 
reporting, and the adequacy of the Department's budget request 
for fiscal year 2003 to support both the immediate and the 
long-term readiness goals.
    Along those lines, I would ask, as I did of all of you in 
my office, to be very straightforward. My personal feeling is 
that the budget is inadequate. I think it is probably the best 
that we could get through at this time, but I would like to 
have you talk about those areas that you feel are inadequate or 
not funded properly.
    Let me welcome our witnesses and thank them for 
participating in this hearing this morning. Dr. Paul Mayberry 
has had a distinguished and diverse career in the Defense 
Department and is well prepared for his current 
responsibilities.
    Also, each of the flag officers testifying this morning 
brings a wealth of personal and professional experience with 
them. Collectively, they represent our ability to defend our 
interests in the air and on the land and sea. They have also 
participated in important aspects of military training, an 
integral component of readiness, and I hope they will be able 
to share their perspectives on that as well.
    Like few other times in recent history, our Nation is 
united with the President in our resolve in the war on 
terrorists. In only 6 months, we have destroyed and disrupted 
terrorist networks and liberated a nation held hostage by a 
fanatical regime of terrorists. None of this would have been 
possible without the professionalism and the skill of our 
soldiers, sailors, airmen, and marines.
    I am concerned, however, that the level of readiness and 
the capabilities that have led to the successes in Operation 
Enduring Freedom and Operation Noble Eagle may not be 
sustainable. In fact, the capabilities that the services are 
using today may only represent a limited surge capacity of the 
forces and not the readiness required to sustain a long-term 
war on terrorism and prepare for other challenges to our vital 
national interests.
    We need to do both. Inaction against terrorists is no 
longer an option. We must address the readiness deficiencies 
that we created during the last decade. Our goal was clear 
before September 11: to restore the readiness and vitality of 
the military services to defend all vital U.S. security 
interests. The Clinton administration significantly stressed 
the readiness of the services for nearly a decade. They cut the 
funding while at the same time increasing the deployments of 
our troops and sailors. They virtually stopped funding 
modernization, and this is something that we are going to have 
to overcome.
    Then, of course, along came the war. As the war on 
terrorism continues, restoring readiness and sustaining the war 
is becoming more and more difficult. According to the Commander 
of the National Training Center at Fort Irwin, Air Force 
strategic transport has been unavailable for rotational unit 
support due to war deployments. Two training rotations have not 
deployed their AH-64 attack helicopter units due to the 
nonavailability of the C-17 and C-5 airlift.
    We are really wearing out our airlift capacity, and this is 
something that we hear in every hearing that we have. It is 
going to have to affect where we go from here. I am strongly 
supporting increasing our C-17 fleet. The C-17 was criticized 
during its development, but it has now proved its worth as an 
effective lift vehicle.
    The administration has requested approximately $98 billion 
in funding for fiscal year 2003 for operations and maintenance 
of the services. This averages an approximate increase of over 
9 percent over the amount appropriated in fiscal year 2002. 
With the multitude of tasks the American people are requiring 
of our military, we have to ask ourselves, is this truly 
enough? Can we do more to support the men and women in uniform?
    Lastly, President Bush is right on the mark when he 
encourages Congress, as he did last week, to make funding for 
the military services our highest priority. I agree. I will 
work with Senator Akaka to forward the recommendations of this 
subcommittee with all due haste and diligence. The degree to 
which we can expedite this funding is just one more way we can 
demonstrate our strong support for the men and women in 
uniform.
    This morning the witnesses will testify in two panels: Dr. 
Paul Mayberry, the Deputy Under Secretary of Defense 
(Readiness), and Lt. Gen. Gregory Newbold, the Director of 
Operations (J-3) Joint Staff, will comprise the first panel. 
The second panel will be comprised of the directors of 
Operations for each of the services. Due to the substance of 
the testimony and the subsequent questions, it may be necessary 
for a portion of this hearing to be held in closed session. We 
will have to make that determination after the chairman gets 
here.
    It is important for us to understand that there was a 
wakeup call to the American people. I felt very good about the 
changes in attitude after that horrible tragedy of September 11 
took place. I think there exists the recognition, as tragic as 
it was in New York City and at the Pentagon, that if the 
terrorists had had their weapon of choice, a nuclear warhead on 
a missile, the TV screen that showed the tragedy of the two 
towers would show nothing but a piece of charcoal.
    While this is something that we have faced since the early 
1990s, it is something that the American people did not really 
appreciate. I know because I went out and tried to explain this 
problem. General Wald, you can remember because we talked about 
this in Aviano. I now think that we are in a position to do a 
better job for the American people, but we must do so with all 
haste.
    Dr. Mayberry, we will start with your statement. As is 
always the case, your entire statements will be made a part of 
the record. Dr. Mayberry.

    STATEMENT OF DR. PAUL W. MAYBERRY, Ph.D., DEPUTY UNDER 
                SECRETARY OF DEFENSE (READINESS)

    Dr. Mayberry. Good morning. Thank you very much, Senator. I 
am privileged to be here before you today to address the issues 
of military readiness and the Department of Defense.
    Let me start by saying that our Armed Forces are ready to 
meet the challenges facing our Nation. Our forces, as you said, 
are agile, capable, and well led. From prosecuting the global 
war on terrorism to protecting our Nation's airways, the 
uniformed men and women of our Nation, reinforced by the 
Department's civilians, stand ready to execute the missions 
assigned to them by our Commander in Chief. This readiness is 
not possible without your continued support for our critical 
defense needs.
    You asked us to discuss several issues, and I would 
respectfully request that we do defer some specific discussions 
in terms of the impact of current operations on our readiness 
to conduct other missions to a closed session.
    Senator Inhofe. Let me just interrupt at that point. I 
think it is important on that subject to do as much as you can 
in open session. America needs to know our deficiencies, where 
we are, where we are going to be, and where we have to 
concentrate our efforts and our scarce dollars. So while I know 
there are some sensitive topics, I would hope that as much as 
possible could be handled in open session.
    Dr. Mayberry. I understand and we will do that.
    You also asked that we take a look at the way that we are 
going about revising our readiness reporting system, as well as 
both the Department's budget request for immediate- and long-
term readiness issues. Let me begin by highlighting some of our 
ongoing efforts in the readiness assessment and reporting 
process.
    One of the most essential elements of our reporting system 
in the Department has been the active involvement of our senior 
DOD leadership in resolving these types of readiness issues. 
The Department's Senior Readiness Oversight Council (SROC), 
which is chaired by the Deputy Secretary of Defense, meets 
routinely to review and discuss the most pressing readiness 
needs. Recently, this council met to focus on actions to 
address the growing threats of encroachment on our air, land, 
and sea training ranges.
    A second issue that the SROC addressed has been the 
modernization and transformation of our major combat training 
centers. Finally, it recently met to evaluate the stresses on 
our forces resulting from the global war on terrorism and the 
unique training, personnel, and equipment demands that that 
campaign imposes on our forces.
    With respect to the improvements that we seek to address in 
the current readiness reporting process, the Secretary has 
asked me to specifically focus upon the ability of our Armed 
Forces to execute fully the missions that they have been 
assigned. We are working closely with the Services, Joint 
Staff, and with the combatant commands to identify these needed 
improvements.
    Our study has basically been completed and concludes that 
the Department should implement a new capabilities-based 
readiness system that would provide timely and accurate 
information on the readiness of our forces, as well as their 
supporting infrastructure. This information would be readily 
available in the deliberate planning process, in responding to 
emerging crises, and also in aiding decisionmaking even during 
hostilities.
    A broad spectrum of real-time information provided by a 
variety of sources, including the combatant commanders, the 
Services, and the defense agencies--will be available to aid 
both defense planners and decisionmakers. The system would be a 
source of valuable information on the readiness of our forces 
to execute their joint mission essential tasks, as well as to 
address the issue of sustainability of our forces over time. 
That is something that we do not do completely well now.
    We believe that this improved readiness system can be 
achieved using existing personnel, training, and logistics 
databases, and that it would reduce or even eliminate some of 
the workload and errors associated with the manual input 
systems that we have today. The system would also provide 
information that reveals broad readiness trend information in 
the resource areas of personnel, unit training, equipment, 
supply, and ordnance. It will capture the military judgments of 
unit leaders as well, which is a critical piece of readiness 
reporting as well.
    Senator Inhofe. Our chairman is here now, and we agree that 
you should go ahead and finish before his opening statement so 
we will not lose your train of thought. Not that you will, but 
we might.
    Dr. Mayberry. Thank you.
    Our plans are to publish guidance from the Secretary in the 
next couple of months, field the initial readiness system for 
operational use in the 2004 time period, and have a full 
operational capability achieved in 2007.
    Maintaining the readiness of our Armed Forces and ensuring 
the well-being of our men and women in uniform are the top 
priorities of the leadership in the Department. These 
priorities are reflected in our fiscal year 2003 budget 
request. Our Armed Forces are the best trained, best equipped, 
and most effective military force in the world and we intend to 
keep them that way.
    The President has emphasized the importance of reversing 
past declining trends in readiness and the 2003 budget is a 
beginning step in that direction. This budget improves military 
readiness by increasing the top line by some $48 billion over 
fiscal year 2002 levels, accelerates critical transformation 
programs, funds the war on terror, and also provides for 
critical programs related to the war.
    But perhaps most importantly, it invests in the 
Department's greatest assets: our people. We are seeking 
across-the-board pay raises and 4.1 percent targeted pay raises 
in the range of $300 million for mid-grade officers and 
noncommissioned officers. It improves military housing and puts 
the Department on track to eliminate substandard housing by the 
2007 timeframe.
    The request also puts us on track to eliminate average out-
of-pocket expenses for individuals living off base by 2005. The 
budget also requests nearly $23 billion, an astounding amount, 
to cover realistic military health care costs. These 
investments are critical to ensuring the quality of our forces 
and their families as well as the environments in which they 
live and work.
    The budget also provides for the training of our forces. We 
included $140 billion for the operation and maintenance 
accounts (O&M). This includes substantial funding for our unit 
training, as well as operational readiness accounts to cover 
tank miles, steaming days, and flying hours for the services. 
We have increased funding for critical Army training enablers, 
providing resources to ensure the operations of training ranges 
and simulation centers are covered in the management of ground 
maneuver and live-fire training ranges.
    In the Air Force, we are seeing some positive readiness 
trends that indicate that we may have turned the corner on 
chronic problems associated with parts shortages.
    The budget also improves maintenance and sustainment of 
equipment and facilities and increases the availability of 
spare parts. In conclusion, I want to emphasize that our total 
forces, Active, Reserve, and civilians, are ready to meet the 
challenges facing this Nation. We robustly fund the readiness 
of our forces, as well as transforming to meet future 
challenges. We are improving the ways that we measure our 
readiness and transforming our training to meet new strategy.
    We appreciate the continued support of this subcommittee 
for our Armed Forces that ensures that they remain the best 
manned, equipped, and trained military in the world.
    Thank you very much for the opportunity to appear before 
you today and I look forward to addressing your questions.
    [The prepared statement of Dr. Mayberry follows:]

           Prepared Statement by Dr. Paul W. Mayberry, Ph.D.

    Good morning, Chairman Akaka, Senator Inhofe, and distinguished 
members of this subcommittee. On behalf of the Under Secretary of 
Defense for Personnel and Readiness, Dr. David S.C. Chu, I am 
privileged to speak before this subcommittee on the state of military 
readiness in the Department of Defense. With me today is the Director 
of Operations for the Joint Staff, Lt. Gen. Gregory Newbold of the 
United States Marine Corps.
    Let me start by saying that your Armed Forces are ready to meet the 
challenges facing this Nation. Our forces are agile, capable, and well 
led. From prosecuting a Global War on Terror to protecting our Nation's 
airways, the uniformed men and women of this Nation, reinforced by the 
Department's civilian staff, stand ready to execute the missions 
assigned to them by our Commander in Chief. This readiness would not be 
possible without the continued support of this subcommittee for our 
critical Defense needs.
    For this testimony, you asked that I discuss the risk assessed 
against our new defense strategy and the impact of current operations 
on our readiness to conduct other missions. Today's strategic setting 
presents a number of new challenges that we must be ready to address. 
The 2001 Quadrennial Defense Review provided a new risk framework for 
the Department to assess these challenges in four dimensions--
operational, force management, institutional, and future or 
transformational challenges. I respectfully request we move our 
discussion of these points to a closed session.
    You also asked that I discuss our progress in revising the 
Department's readiness reporting system and the adequacy of the 
Department's fiscal year 2003 budget request in supporting immediate 
and long-term readiness needs. I will focus on these two issues--
readiness reporting and the fiscal year 2003 budget request--in open 
session.

                          READINESS REPORTING

    I would like to begin by highlighting the status of our ongoing 
efforts to enhance the Department's readiness assessment and reporting 
system.
    One of the most essential elements of our readiness reporting 
system is the active involvement of the senior DOD leaders in resolving 
readiness issues. The Department's Senior Readiness Oversight Council, 
which is chaired by the Deputy Secretary of Defense, meets routinely to 
review and discuss the most pressing readiness issues. Recently, the 
council met to focus on actions to address growing threats of 
encroachment on our air, land, and sea training centers and ranges. I 
believe the Service operations deputies panel will echo the importance 
of this issue later today.
    I am convinced that our success in future military operations will 
depend on having a modernized joint training infrastructure that 
supports realistic, combined arms, force-on-force training for our 
military. Unlike Operation Desert Storm, where we had many months to 
prepare, deploy, and stage forces for an overwhelming attack against 
Iraqi forces in Kuwait--tomorrow's conflicts are likely to be short-
notice, ``come-as-you-are'' events. A lesson clearly emerging from 
Operation Enduring Freedom is that we must fight joint. This is the 
current reality and the future of warfare--we must train that way. To 
this end, we have recently completed a strategic plan for transforming 
our training that will serve to guide the Department in ensuring our 
forces remain the best trained and most capable in the world.
    The Senior Readiness Oversight Council has also evaluated the 
stresses on our forces resulting from the global war on terrorism. This 
campaign imposes some unique training, personnel, and equipment demands 
upon our forces--particularly so as we continue to provide for homeland 
defense and work to preserve our readiness for other missions. For 
example, to date, we have mobilized over 93,000 Reserve and National 
Guard members. These soldiers, sailors, airmen, and marines are 
integrated into nearly every aspect of Operation Noble Eagle and 
Operation Enduring Freedom.
    In terms of the system we use to report unit readiness, we 
undertook a project last year, at the direction of the Secretary, to 
improve the way we both assess and report unit readiness. The Secretary 
asked us to specifically focus upon the readiness of our Armed Forces 
to execute fully their assigned missions. Over the last few months, we 
have been working closely with the services and the combatant commands 
to identify possible improvements to the current system. We expect our 
study will be completed in the next several weeks, and anticipate 
publishing implementing instructions for a revised system soon after.
    Our study results suggest that the Department should implement a 
new ``capabilities-based'' readiness system to provide timely and 
accurate information on the readiness of our forces and supporting 
infrastructure. This information would be readily available for our use 
in deliberate planning, responding to emerging crises, and to aid 
decision-making during hostilities.
    In our charter for the study, we envisioned a system capable of 
providing real-time readiness information on the Department's ability 
to execute strategic missions and respond to crises. A broad spectrum 
of relevant information--provided by the combatant commands, Services, 
and defense agencies--will be available to aid both defense planners 
and decision-makers. The system will include valuable information on 
the readiness of forces to execute assigned joint mission essential 
tasks as well as the sustainability of the force over time.
    Given the uncertainties in the strategic environment, we are 
planning for a flexible and adaptive readiness reporting system that 
will reduce the likelihood of the Department being surprised by 
unforeseen readiness challenges in the early stages of crisis planning.
    The system will support assessments of force management and 
operational risk as outlined in the Quadrennial Defense Review. We 
believe that this improved reporting and assessment can be achieved by 
using existing personnel, training, and logistics databases. By 
incorporating information from existing transactional databases, we can 
reduce or eliminate workload and errors associated with manual input of 
data. This will further aid our goals of reducing the reporting burden 
and responding more quickly to requests for readiness information.
    The system will also provide information that reveals broad 
readiness trend information in the resource areas of personnel, unit 
training, equipment, supply, and ordnance, and will capture the 
military judgement of the unit commander in his assessment of his 
unit's readiness.
    Our plan is to field the initial readiness system for operational 
use in fiscal year 2004, with full operational capability achieved by 
fiscal year 2007.

                               RESOURCES

    I will now turn to the fiscal year 2003 budget. Maintaining the 
readiness of our Armed Forces to defend the nation's interests, and 
ensuring the well-being of our men and women in uniform, are the 
highest priorities of the leadership in the Department of Defense. 
America's Armed Forces are the best-trained, best-equipped, and most 
effective military force in the world, and we intend to keep them that 
way.
    The President emphasized the importance of reversing our Armed 
Forces' decline in readiness. The fiscal year 2003 budget helps to 
improve our military readiness by increasing the defense topline by $48 
billion over fiscal year 2002 levels. It accelerates critical 
transformational programs, funds the war on terror, and provides for 
critical programs related to the war. Perhaps most importantly, it 
invests in the Department's greatest asset: its men and women in 
uniform.
    The President's fiscal year 2003 budget requests over $94 billion 
for military pay and allowances, including an across-the-board 4.1 
percent pay raise, and $300 million for the option of targeted pay 
raises for mid-grade officers and non-commissioned officers. It 
improves military housing and puts the Department on track to eliminate 
most substandard housing by 2007--years sooner than previously planned. 
The request also lowers average out-of-pocket housing costs for those 
living off-base from over 11 percent to 7.5 percent in 2003--putting us 
on track to eliminate all out-of-pocket housing costs for the average 
person in uniform by 2005. The budget also includes $10 billion for 
education, training, and recruiting, and nearly $23 billion to cover 
the most realistic cost estimates of military healthcare. These 
investments are critical to ensuring that the smart weapons we develop 
are placed in the hands of smart, well-trained soldiers, sailors, 
airmen, and marines.
    We must maintain the training readiness of our forces to fight the 
wars of today and tomorrow. The fiscal year 2003 budget also provides 
for the training of our forces, and of the equipment with which they 
will train and fight. We requested $140 billion for operation and 
maintenance accounts in fiscal year 2003. This includes substantial 
funding for our unit training and operations readiness accounts.
    This budget funds the services' training and operations accounts--
tank miles, steaming days, and flying hours for the services. It 
preserves crucial training and operating activities essential to the 
safety and well being of our troops, and their ability to successfully 
accomplish their missions. As outlined by the Secretary of Defense in 
his recent budget hearings, the Department increased the funding for 
these readiness accounts, to include:

        <bullet> Aircraft operations/flying hours: $11.8 billion, up 
        from $11.3 billion in fiscal year 2002;
        <bullet> Army OPTEMPO: $3.7 billion, up from $3.3 in fiscal 
        year 2002;
        <bullet> Ship operations: $2.4 billion, up from $2.3 in fiscal 
        year 2002;
        <bullet> Depot maintenance: $4.8, up from $4.5 billion in 
        fiscal year 2002; and
        <bullet> Training: $10.0 billion, up from $9.4 billion in 
        fiscal year 2002.

    We have increased funding for critical Army ``training enablers''--
providing resources to sustain the operation of training ranges, 
simulation centers, and the management of ground maneuver and live-fire 
ranges. Adequately funding these enablers reduces unit-training funds 
to pay these infrastructure bills. In the Air Force, we are seeing some 
positive readiness trends that indicate that we may have turned the 
corner on chronic parts problems and shortages.
    In conjunction with the DOD Comptroller, we have also initiated an 
effort to improve our ability to resource and manage unit training and 
readiness. The Operations Readiness working group, co-chaired by my 
office and the comptroller, with representatives from each Service, the 
Joint Staff, and defense agencies, is a new forum to address unit 
training needs. This initiative was chartered to develop a more 
comprehensive approach to ensuring our budgets and programs adequately 
address unit-training requirements. The group has just finished its 
first quarterly review of flying hours, steaming days, and tank mileage 
including dollar execution, and promises to tighten the linkage between 
funding and unit readiness goals.
    The Department has also added resources in fiscal year 2003 budget 
to address other pressing readiness issues, such as those in support of 
homeland defense and the Global War on Terror. This budget enhances our 
abilities to protect our forces against biological and missile attack. 
The budget also improves maintenance and sustainment of equipment and 
facilities. It increases the availability of spare parts and engines--
keeping ahead of the increasing costs due to equipment age and heavy 
use in current operations.
    In conclusion, I want to emphasize that our forces--our total 
forces--are ready to meet the challenges facing this nation. We are 
robustly funding the readiness of forces and transforming to meet 
future challenges. We are improving the ways we measure our readiness 
and transforming our training to meet the new strategy. We appreciate 
this subcommittee's continued support of our Armed Forces, and of the 
programs that ensure they remain the best manned, equipped and trained 
forces in the world. This concludes my statement. I look forward to 
discussion and any questions you may have.

              STATEMENT OF SENATOR DANIEL K. AKAKA

    Senator Akaka [presiding]. I want to thank my friend and 
colleague, Senator Inhofe, for beginning this hearing. I want 
to welcome the witnesses this morning, and offer my condolences 
to the families at Fort Drum.
    Senator Nelson, do you have a statement to make?
    Senator Ben Nelson. Mr. Chairman, I would be happy to make 
comments in the process of asking questions rather than start 
with an opening statement. Thank you.
    Senator Akaka. I also want to state that I will place my 
full statement in the record in the interest of time.
    [The prepared statement of Senator Akaka follows:]

             Prepared Statement by Senator Daniel K. Akaka

    The Readiness and Management Support Subcommittee meets this 
morning to hold a hearing on the readiness of United States forces to 
meet all of their current missions. Of course, the topic in the news 
and on everyone's mind is our current war on terrorism, and especially 
our operations in Afghanistan. Forces from all four of our military 
services have performed magnificently in these operations, and have 
clearly demonstrated at least two important facts.
    First, our Armed Forces are capable and powerful, but even more so 
when they act in concert with each other and complement each other's 
strengths. Their collaboration and creativity has been astounding, and 
has inspired awe not only here at home, but in the capitals of our 
allies, and perhaps even more importantly, those of our potential 
enemies.
    Second, the collaboration that exists between the services has been 
paralleled by cooperative relationships with other countries that are 
pushing new bounds. Seven months ago, it would have been hard to 
imagine that our government would be working, on many levels, with some 
of the countries who have joined us in our fight against a common 
enemy, terrorism. It is my sincere hope that we can continue to build 
upon these relationships in the future.
    Our military members and those of our allies are fighting valiantly 
on our behalf against the scourge of terrorism, and we are grateful. 
But while our attention is focused on those efforts, it is sometimes 
easy to forget that many other military members are conducting other 
important national missions, and there are still others who support the 
forces we have deployed or are preparing to relieve them.
    These men and women are the topic of today's hearing. We have asked 
our witnesses here today to review our other ongoing military 
commitments, and to make us aware of some of the strains that our 
current war is placing on all of our forces' ability to train for and 
carry out the full range of their assigned missions. Further, we ask 
our witnesses to help us take a longer perspective and alert us to 
future readiness challenges, so that we can better prepare for them. 
Our military is proving how years of the best training and leadership 
have made them ready to take on our enemies of today, but we must 
sustain these capabilities to help protect us against our enemies of 
tomorrow. Finally, we look forward to testimony on how DOD is improving 
our ability to measure readiness and identify future challenges.
    I believe this is the first time that any of our six witnesses are 
testifying before our subcommittee, and I want to extend a warm welcome 
to all of you. We greatly appreciate your insights and expertise, which 
add so much to our efforts here in Congress.

    Senator Akaka. General Newbold, we look forward to your 
statement. I had hoped to see a more substantive written 
statement from you, given the importance of the issues we are 
addressing in today's hearing, and would appreciate your other 
witnesses providing additional detail in answers to questions 
this morning.
    I will also be submitting questions for the record for you 
to address and look forward to your prompt response to them. 
General, will you please proceed with your statement.

 STATEMENT OF LT. GEN. GREGORY S. NEWBOLD, USMC, DIRECTOR FOR 
               OPERATIONS (J-3), THE JOINT STAFF

    General Newbold. Mr. Chairman, I would like to also thank 
the subcommittee for having a hearing on a critical topic. I 
would like to submit my written statement for the record. In 
deference to the important subject, what I would like to do is 
preserve the time for questions and answers and go into depth 
on them. Thank you, sir.
    [The prepared statement of General Newbold follows:]

        Prepared Statement by Lt. Gen. Gregory S. Newbold, USMC

    Members of the subcommittee, I am pleased to provide this written 
statement with my views on the readiness of America's Armed Forces and 
their ability to execute our national military strategy. I look forward 
to the opportunity to appear before you.
    I must first acknowledge and thank Congress for its sustained and 
significant support to the men and women of our Armed Forces. We have 
made considerable progress these past several years in several key 
readiness areas: increasing pay and allowances for the force; efforts 
to reform TRICARE; providing adequate military housing; and, most 
importantly, arresting and turning around the decline in near-term 
readiness. I would like to commend this subcommittee, in particular, as 
your support for our soldiers, sailors, airmen, and marines has been 
instrumental in our forces' impressive performance over the past few 
months.
    On September 10, tens of thousands of U.S. forces were deployed 
around the world engaged in operations such as Northern Watch, Southern 
Watch, and the Balkans. As had been the case for years, they provided a 
deterrent effect against crisis in virtually every corner of the globe. 
The nondeployed forces were focused on being prepared to respond to any 
other emerging threats to our national interest. Then, on September 11, 
our Nation was subjected to a terrorist attack that changed our notion 
of security. Your Armed Forces reacted and refocused remarkably well. 
Within minutes we had aircraft in the air to protect our nation's 
skies. Thousands of Active and Reserve Forces deployed throughout the 
country to provide protection to air travel and critical 
infrastructure. In the days following September 11, our adaptability 
and flexibility effort was evident, and a testimony to the training, 
readiness, and quality of our force.
    Today, we are engaged in wide-spread operations against terrorists 
and tyrants as well as defending the homeland. These operations have 
validated our previous readiness assessments provided to this 
subcommittee through the Quarterly Readiness Reports to Congress. Our 
``first-to-fight'' forces are ready and clearly executing well. 
Moreover, our forces have shown they are not only ready for major 
combat operations, but also demonstrated flexibility to meet emerging 
and unusual mission requirements. In truth, though, if confronted with 
another simultaneous major crisis, we will face challenges in several 
areas, including both traditional readiness issues voiced by the 
services, and joint readiness issues reported by the combatant 
commanders. Furthermore, we have concerns with the potential readiness 
impacts of sustaining, for extended periods, our current pace of 
operations. Aging equipment, spare parts, disrupted maintenance cycles, 
shortages of analysts and linguists, increased demand for radio-
frequency bandwidth and spectrum, and the stress on our individual 
soldiers are but a few of the areas we are monitoring closely. Lastly, 
as the Department's Homeland Defense roles and responsibilities are 
fully defined, the readiness implications of this growing mission must 
be better assessed.
    While these concerns are focused largely on near-term readiness and 
near-term solutions, we are also pursuing long-term remedies. The 
Department is working the details of a new National Military Strategy 
to implement the vision of the Quadrennial Defense Review, which will 
help better articulate the capabilities the Department must have and 
missions we need to be ready to undertake. At the same time, 
modernization and transformation efforts are expected to achieve 
increased military effects without necessarily increasing the size of 
the force. New concepts, new ideas, and new equipment may mitigate many 
of our readiness concerns over the longer term.
    The period since September 11 has re-validated the requirement that 
our forces will be regularly called upon to operate across a wide 
spectrum of operations--from peace enforcement and homeland security to 
major, intense combat operations. You, the President, the Secretary of 
Defense, and the Chairman of the Joint Chiefs of Staff must know how 
ready are we to undertake different tasks; therefore, we are examining 
better ways to assess the department's readiness. In turn, an improved 
readiness reporting and assessment tool will help us determine where we 
can best utilize the resources provided by Congress, and better 
articulate the risks we are assuming in executing our national military 
strategy. Our goal is to provide commanders an effective means to 
report their readiness and allow rapid, accurate assessments that 
support both operational and resourcing decisions. While there is 
confidence that we can derive accurate assessments from our current 
readiness reporting, improvements are necessary in order to add to the 
system's efficiency and effectiveness.
    Finally, experience has proved that readiness can be a fragile 
commodity. If not maintained it can quickly erode. Congress' support 
over the past years has made dramatic, positive impact on the readiness 
of the force, and our ability to effectively ``meet the call.'' Key to 
maintaining readiness is this continued commitment and the timely 
reimbursement for contingency operations. I look forward to your 
questions.

    Senator Akaka. Thank you very much.
    Dr. Mayberry, on page 5 of your statement you recommend a 
capabilities-based readiness reporting system. How will this 
differ from the current system? For example, would units report 
their capabilities to perform both their most stressful wartime 
missions for major theater wars as well as their ability to do 
peacekeeping and other missions? How would that differ from the 
current readiness reporting system where the training element 
is measured against specific wartime tasks?
    Dr. Mayberry. Our military strategy is now transitioning 
from a threat-based approach to being more capabilities-based. 
This offers unique challenges, as you have highlighted here, to 
overall readiness assessment. Our forces must be able to 
respond in this new strategic environment of uncertainty and 
surprise, and this means that we must be trained and ready with 
our forces to be able to respond with specific competencies and 
capabilities that are not tied to specific exact geographical 
locations or against an explicit enemy.
    As the global war on terrorism clearly illustrates, we do 
not necessarily know who our next enemy will be or where we 
will engage them. The basis for this capabilities-based 
assessment will be on the ability of our units to conduct their 
assigned mission-essential tasks. This contrasts to our current 
readiness approach that is focused more on inputs of people, 
equipment, and training, but does not necessarily focus on the 
outputs or the quality of those measures.
    The focus will be on assessing the ability of the unit to 
conduct its assigned mission-essential tasks related to, for 
example, intelligence, surveillance, and reconnaissance (ISR). 
We have a way to go as we transition to this new military 
strategy, and we have already begun thinking through and 
working through what the implications will be for our readiness 
assessment as well.
    Senator Akaka. An additional question on that: why will it 
take until 2007 before this new readiness reporting system will 
become operational?
    Dr. Mayberry. What we are doing now is going through and 
determining the characteristics that we and the Secretary will 
put forward, working with the Joint Staff and the services as 
well as the combatant commands, to put this type of structure 
in place. Within the next several months, we will publish 
guidance from the Secretary that will then allow the services 
to work through their particular plans.
    Our office will be developing operational prototypes that 
get at more of the real-time nature of working with the 
transactions databases that currently exist, to bring these all 
together as a proof of principle even within this year. What we 
see is that by 2004 we will be again carrying this process 
along to be able to make incremental improvements, because a 
lot of what we do today is building upon and not starting anew.
    It is going to take a while as we bring a more 
comprehensive readiness assessment process together.
    Senator Akaka. Thank you very much, Dr. Mayberry.
    General Newbold, when you and your staff were coordinating 
forces to supply to General Franks, what role did Status of 
Resources and Training System (SORTS) reports or other 
readiness reporting data play in your decisions? If you did not 
rely primarily on these reports for indications of unit 
preparedness, what does this imply about their utility?
    General Newbold. Sir, the SORTS and other readiness 
reporting systems apply differently at a variety of different 
levels of command. At the lowest unit level, they have an 
immediate assessment value and importance.
    In the case of sourcing units for General Franks, the Joint 
Forces Command receives the requests for forces from us and 
distributes them based on information that would come out of 
SORTS. They would derive which units are the most ready and 
which units need more time to get ready, so readiness reporting 
systems like SORTS would be of value to them.
    On the Joint Staff, we use the same reporting systems in a 
supplemental way to that. We use it, for example, to make 
decisions on future procurement and the development of budgets. 
We also use it to identify specific weaknesses and stress 
against war plans and use that information to in make 
adjustments. In sourcing specific units, though, we rely on 
Joint Forces Command and the services to make sure that the 
units they send out are the most ready to fight.
    Senator Akaka. Thank you.
    Dr. Mayberry, your testimony notes the creation of a new 
working group to help clarify the relationship between funding 
and unit readiness, which just finished its first quarterly 
review of OPTEMPO funding. What were the results of that review 
and what milestones have been set for future actions by the 
working group?
    Dr. Mayberry. The Operations Readiness Working Group, or 
OPTEMPO working group, is something that we are working on in 
conjunction with the DOD Comptroller. We have initiated this 
effort to really improve our ability to resource as well as 
manage unit training and readiness.
    Each of the services have representatives on this group, as 
well as the Joint Staff and the defense agencies, as we all 
play a role in addressing training needs. The initiative has 
been chartered to develop a comprehensive approach to ensuring 
that our budgets and our programs adequately address the unit 
training requirements. We have just finished, as you said, our 
first quarterly review of the flying hours, steaming days, and 
tank mileage, including the dollars and execution. This 
promises to tighten the linkage between readiness and funding.
    That truly is an ongoing effort to make sure that we 
monitor the execution of dollars that we invest in unit 
training, as well as making sure that those result in the types 
of readinesses that we funded within those existing programs. 
So this is an ongoing and continuing effort, but we also will 
be addressing the metrics of OPTEMPO, seeking to make 
improvements by the end of this fiscal year as well.
    Senator Akaka. Thank you very much, Dr. Mayberry.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    One year ago, nobody believed anything like this could be 
happening today. We are in a different kind of war than we ever 
anticipated. It is very difficult to anticipate what is going 
to happen a year from now, 2 years from now, or 3 years from 
now.
    I would like to have you discuss the lessons you have 
learned, now that we are into something that nobody ever 
dreamed we would be in a year ago. I would also like you to 
address the capabilities needed to meet the challenges that 
come with this new war, specifically in terms of equipment, 
modernization, and endstrength.
    Dr. Mayberry.
    Dr. Mayberry. This is truly the first war of the 21st 
century, and I believe that this validates the past investments 
that this country has made in high-quality people and 
equipment. It also demonstrates our ability to adapt, create on 
the fly, and to operate in a strategic environment of 
uncertainty and surprise in Afghanistan.
    In my opinion, I think one of the primary lessons learned 
is that combat effectiveness is truly a result of our 
jointness. It brings capabilities and uniquenesses of each of 
the services together, and allows us to be greater than our 
individual parts.
    To be able to achieve the degree of jointness we have now 
in wartime requires that we build upon it in peacetime. We need 
to train the way we will fight.
    Afghanistan also represented, I think, a very expanded 
definition of jointness, not just the traditional notion of 
services working among themselves. It also reflects that this 
is a multinational coalitional type of fight. This will again 
be the wave of the future, the inter-agency piece, and the 
dynamic with other government organizations, as well as the 
interoperability continuing piece that we need to focus on 
within our military services. We saw soldiers on horseback 
calling in precision munitions. We have seen maritime forces 
operating hundreds of miles inland. We have seen old bombers 
delivering new weapons. We have seen unmanned vehicles not only 
delivering and gathering intelligence, but delivering a punch 
as well.
    All of those are the types of new concepts I think we are 
going to have to train to in the future. I think that we are 
going to have to build upon these concepts of jointness to be a 
critical part of individuals' careers throughout their service 
experiences as well as their joint assignments.
    Senator Inhofe. General Newbold, any comments on lessons 
learned from your perspective?
    General Newbold. Yes, Senator. Some of the lessons were 
relearned and some of them were predictable. The quantity of 
forces we had to fly to the Afghan theater required the same 
stresses and strains we would have used in another theater, and 
they came up with some of the same issues you have articulated: 
the strain on airlift; strain on ISR platforms; and the strain 
on some of the assets we knew that were in short supply, like 
intelligence analysts.
    These were predictable beforehand, and certainly were 
validated by what we have done over there. There were some 
surprises in my view, because the mission is truly global, and 
because of the requirements for the use of our military here in 
the United States. Our fundamental responsibility is protecting 
the United States and the Combat Air Patrols we have flown over 
the United States were essential, but were not as predictable 
in scope or scale as we are having right now.
    The assignment of National Guard and Reserve Forces has 
been critical, but not always as predictable. So there have 
been missions that were required which caused us to think in 
new ways. The use of unmanned aerial reconnaissance vehicles 
has played a critical role in what we have achieved.
    Dr. Mayberry has talked about individuals as well, like 
Special Forces, that have had a wonderful part to play, and did 
not achieve the same visibility as others, but have been 
critical to the success in Afghanistan. Frankly, the agility of 
the individual soldier, sailor, airman, and marine has been 
something we expected and has proven to be the decisive factor.
    Senator Inhofe. Secretary Rumsfeld said our priorities were 
wrong and we did not buy enough of what we needed. I think 
there is no way to predict in the future what our needs are 
going to be. When you talk about platforms, the V-22 technology 
comes to mind. I have worked on the V-22 issue since 1987, and 
I think of the tragedy that took place in a tough battle at 
high altitudes with the CH-47 helicopter and the loss of eight 
people.
    Would that have been a good place for that technology? If 
we had had that available, would that have been used in that 
environment?
    General Newbold. Sir, the V-22 fully developed and fielded 
would have been a wonderful platform because of what it brings. 
That is my view. We do not currently have the capabilities to 
operate at certain distances, and this would have benefited not 
only the marines, obviously, but also the United States Special 
Operations Command.
    Sir, a lot of the equipment of all the services has aged, 
and having a newly fielded system would have provided some 
sustainment that would have been good.
    Senator Inhofe. I think that is right. We could be talking 
about other platforms, too, and of course, the other services. 
We go through such a difficult time when we are trying to build 
new platforms. There is always criticism out there. We all 
lived through the C-17 and B-2 development criticisms, and both 
of them have performed well.
    Dr. Mayberry, my concern is about your statement that we 
are the best trained and equipped. I question if we are really 
the best equipped, because there are some things that we have 
that are not the best. For example, there are five countries 
that make a better artillery piece than our Paladin in terms of 
range and rapid fire.
    What I am hoping is that you and the service people on the 
next panel take those lessons learned and do as much as 
possible to make sure that 5-10 years from now, as well as 
today, service members going out to do the job have the very 
best. This goes for strike vehicles in the air, as well as 
artillery and such things as the V-22.
    Thank you very much.
    Senator Akaka. Thank you very much, Senator Inhofe.
    Senator Nelson.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    I would like to thank both of the panels of witnesses for 
being here today. I appreciate your preparation to visit with 
us on the readiness of our Armed Forces. I appreciate very 
much, General Newbold, your comment about lessons learned and 
relearned, because that is clearly the important point that 
needs to be made. For us to be ready, we certainly have to have 
learned lessons from the past to project for the future.
    I think it is also important for us to recognize that for 
our services to be ready, they obviously need to have the 
resources necessary to meet the standards in personnel and 
equipment that are required. In order to continue to fight 
battles that we are faced with today, battles that 6 or 7 
months ago we could not have predicted exactly how they would 
play out, we have to be prepared.
    Based on the testimony that I heard yesterday, we have 
flown over 19,000 domestic sorties since September 11 and over 
20,000 sorties in Afghanistan. I think these are astounding 
statistics, given the fact that the airframes being flown are 
19 years old. Many are way beyond their retirement years, but 
they certainly stood up. I would also like to commend the 
quality of the soldiers, sailors, airmen, and marines who were 
engaged in these activities. I certainly want to stress that it 
appears from all indications we were ready.
    In February, I had the privilege of visiting our troops in 
Afghanistan, Uzbekistan, and Pakistan. Clearly, our troops have 
done a significant amount of work in a short period of time. I 
am pleased to point out that from my experience troop morale 
was high. They believe that what they are engaged in is the 
right action and that they are very strongly supportive and 
appreciate the American people's support and the friends that 
we have developed worldwide in this process.
    Given the significant effort of troop deployment in such a 
short period of time, it seems that we should say we were 
ready. There is no hook in this worm. I am not building up to 
let you down.
    There was a concern raised regarding rotation, certainly 
among those who are there on a temporary basis coming from 
Reserve or from Guard units. While I understand that the 
Central Command has a 179-day rotation period for nearly all 
the troops in the region, the question is, has that policy been 
adequately communicated to our troops there? There seemed to be 
some question as to whether or not there was a policy and while 
they had heard about a policy, it had not been communicated 
directly to them.
    The only question about readiness I think is about the 
ability to rotate troops in order to continue to have the 
freshest troops available for the battles that are ongoing and 
that may be in the future. We recognize that the war is not 
over in Afghanistan, it is certainly not over against al Qaeda, 
and it is not over against terrorism at large.
    Can we do a better job of communicating with our troops 
about readiness and are we able to redeploy fresh troops? Are 
we going to have to rely on troops that are there 12 hours on, 
12 hours off, 7 days a week?
    General Newbold. Yes, sir. It is a good question. The 
soldiers, sailors, airmen, and marines can sustain almost 
anything as long as they know what the policy is and that there 
is predictability. It really is an excellent point. Central 
Command does not have a formal rotation policy that they impose 
on their components. Three of the components have a 179-day 
policy, one of them has a 90-day policy. Some of the forces are 
rotating out--I could get into specifics if you like, sir--
because they are pushed very hard.
    It applies in Afghanistan. It applies elsewhere in the 
Central Command area of operation. It applies to the Military 
Police guarding places around Washington, DC, who work long 
shifts. All of them deserve to know how long they will be doing 
it so they can adjust mentally to a predictable life pattern. 
That has been communicated, sir, and it will be done. They all 
need to know that and they will, sir.
    Senator Ben Nelson. I think you also made the point that if 
we know something we can almost always adjust to it. If there 
is certainty in their minds, that is better than the 
uncertainty of something that just seems to be the indefinite 
game, sort of like the movie ``Groundhog Day.'' There was no 
low morale related to it, but there was a question, and 
questions unanswered can ultimately affect morale. So that was 
why I was concerned.
    I appreciate very much your attention. I have raised it on 
previous occasions, but I think it is important to be able to 
stress to the troops there is a plan and we are going to try to 
meet it.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Akaka. I want to thank Dr. Mayberry and General 
Newbold for your statements. We will talk to you later in a 
closed session today.
    Let us move to our second panel.
    Dr. Mayberry. Thank you very much, Mr. Chairman.
    Senator Akaka. This panel includes operations deputies from 
each of the four services: Lieutenant General McKiernan, the 
Deputy Chief of Staff, G-3/5, for the Army; Lieutenant General 
Emil Bedard, the Deputy Commandant of the Marine Corps for 
Plans, Policies, and Operations; Lieutenant General Wald, the 
Deputy Chief of Staff of the Air Force for Air and Space 
Operations; and Rear Admiral Krol, Assistant Deputy Chief of 
Naval Operations for Plans, Policies, and Operations. I would 
like to welcome them, as well as students from Oklahoma and 
from the island of Molokai, Hawaii, who are in our audience 
today.
    Thank you all for being here today. As the senior 
representatives from each of your services who are tasked with 
delivering trained and ready forces to our regional commanders, 
you all are uniquely suited to give us some insight into 
current and future readiness challenges. We look forward to 
your testimony.
    Let me say that we will include all of your statements in 
the record, but because we are pressed for time please be as 
brief as you can to summarize your remarks.
    General McKiernan.

STATEMENT OF LT. GEN. DAVID D. McKIERNAN, USA, DEPUTY CHIEF OF 
              STAFF, G-3/5 (OPERATIONS AND PLANS)

    General McKiernan. Thank you, sir. Mr. Chairman and Senator 
Inhofe, I am honored to be here today and be able to report to 
you that our Army is trained and ready.
    Let me first thank you for your sentiments on the tragic 
artillery incident yesterday at Fort Drum, New York, where 
several soldiers were injured and two have deceased at this 
point. I would tell you that our Army Safety Center is on the 
ground up there conducting a thorough investigation into the 
cause of that incident, and we will report back to you once we 
find out that information.
    On behalf of our soldiers and civilians, I would also like 
to express our deep appreciation for everything that you have 
done this past year. You have improved pay and benefits, 
enhanced quality of life, and provided the resources to ensure 
a trained and ready force that is second to none.
    As our fighting men and women continue to make incredible 
sacrifices, they look to us to demonstrate the Nation's 
appreciation and commitment to them and their families. It is a 
commitment that you have honored well, and they are grateful.
    There is no doubt that we are an Army at war. As we sit 
here today, over 200,000 soldiers are forward stationed or 
deployed around the world on contingency operations defending 
freedom and American ideals. Even before September 11, the Army 
was very much engaged in doing the Nation's business on a full 
spectrum of missions around the globe. Sometimes it is easy to 
forget that our soldiers have been on the ground keeping the 
peace in the Balkans for 6 years, in Saudi Arabia and Kuwait 
for 11 years, and in the Sinai for 19 years. Our soldiers have 
been in Europe and Korea for over 50 years, ensuring peace and 
stability, while at the same time providing the Nation with a 
rapid deployment capability to potential trouble spots near 
those theaters of operation.
    Since the attacks, the Army's mission profile has expanded 
even further. Over 27,000 Guard and Reserve soldiers have been 
mobilized for Federal service. At home, the Army has continued 
its long tradition of support to homeland security. Almost 
11,000 soldiers are on duty, patrolling our borders, securing 
our critical infrastructure sites, and serving at Ground Zero 
in New York City alongside U.S. Army Corps of Engineers.
    We have now certified 27 weapons of mass destruction civil 
support teams, which have trained over 28,000 civilian first 
responders in 105 cities. Throughout the anthrax crisis, the 
Army has provided critical expertise and deployed chemical and 
biological defense elements to protect key assets. 
Additionally, the Army has responded to dozens of requests for 
support from civilian authorities with unique capabilities and 
thousands of soldiers.
    Abroad, our Army has been at the forefront of the global 
war on terrorism. Today, there are over 17,000 soldiers in the 
U.S. Central Command area of operations. In Afghanistan, Army 
special operators teamed with anti-Taliban conventional forces 
to compel the enemy to mass so that the significant 
capabilities of our air-delivered munitions could be brought to 
bear.
    More recently, in the harsh Shahikot region Operation 
Anaconda has demonstrated the enduring value of land power in a 
tough, close-in fight. These victories were not accidental, nor 
were they easily won. They represent a commitment to high 
standards, hard work, and superior training, honed by real-
world experience in places like Bosnia, Kosovo, Kuwait, our 
combat training centers, and many other mission sets.
    Mr. Chairman, we are winning a conflict that few foresaw or 
predicted a year ago. But it should be recognized that this 
places a certain degree of stress on the force. Our new century 
is marked by uncertainty and it is difficult to predict where 
and when we will be needed next. All we know is that it will 
happen, and our Army will need to maintain full spectrum 
capabilities.
    In the past decade, the number of Army deployments has 
increased by 500 percent. Our soldiers, civilians, and families 
willingly accept this challenge. That is why we are here, to do 
America's heavy lifting so that we as a Nation can continue to 
enjoy the freedoms we all hold so dear.
    Because the Army operates in the domain of human conflict, 
it is no surprise that people are our centerpiece in our 
formations. Every day they represent America to people around 
the world. Whether deployed or training, supporting or 
shooting, Active component or Reserve, they demonstrate the 
best that America has to offer on a daily basis.
    They take on our risks and go into harm's way. Some shed 
their blood, and some that we have recently buried at Arlington 
Cemetery have made the ultimate sacrifice. Through all this, 
their determination and resolve is not only unbowed, but 
strengthened. Allow me to quote Sergeant Michael Ericson of the 
101st Air Assault Division, whose message to the enemy was 
clear and succinct, and I think probably echoes our feelings 
here today: ``Don't sneak into my back yard and bomb me and 
then expect me not to come after you, because we're coming. 
We're coming.''
    I am here today to answer your questions concerning the 
Army's readiness. The fiscal year 2003 budget you are 
considering supports the Army's critical needs in the near-
term. Our priorities remain unchanged. First, we are dedicated 
to winning the current fight; in this we shall not fail. 
Second, we must continue to prepare for the next fight, 
whenever and wherever that occurs. This means maintaining the 
momentum of transformation and making the tough choices between 
current and future readiness. Third, we are committed to being 
effective stewards of the resources provided by you that are 
required to accomplish the first two priorities.
    Thank you very much for having me here today and I look 
forward to your questions.
    [The prepared statement of General McKiernan follows:]

         Prepared Statement by Lt. Gen. David D. McKiernan, USA

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for this opportunity to report to you on the United States Army's 
readiness to provide for our Nation's security today and in the future. 
Our Nation and the Army have a great and common heritage. Throughout 
our Nation's history, the Army has continually demonstrated that it is 
America's decisive ground combat force able to perform full spectrum 
operations anytime, anywhere, under any condition, and as we have 
recently shown in Afghanistan, against any enemy.
    We are a Nation at war. Nowhere has the Army's ability to conduct 
full spectrum operations been more evident than in Operations Enduring 
Freedom and Noble Eagle. Today, as I appear before you to discuss Army 
operations and readiness, soldiers--Active and Reserve component--are 
forward stationed and deployed around the globe, performing 
magnificently as they fight the war on terrorism and defend our 
homeland. In the months since the attacks of September 11, Army Special 
Forces working in conjunction with other special operations forces, our 
joint partners, and forces of the Northern Alliance, ran Taliban and al 
Qaeda forces from power in Afghanistan. Most recently, during Operation 
Anaconda, soldiers from the 101st Air Assault Division and the 10th 
Mountain Division, along with Afghan forces and air support from our 
sister services, closed with and destroyed Taliban and al Qaeda forces 
in close combat.
    At home, our support for Operation Noble Eagle has enhanced the 
safety and security of millions of Americans. From chemical and 
biological detection teams working in Washington, DC, to the Corps of 
Engineer's tremendous efforts at Ground Zero in New York, to the 
thousands of soldiers protecting critical infrastructure and providing 
peace-of-mind to passengers at America's airports, the Army--Active, 
National Guard, Reserve, and civilians--has been, and will continue to 
be, present for duty.
    Although filled with pride at our ability to serve the Nation, the 
Army harbors no illusion about the challenges it faces. To help win the 
global war on terrorism and prepare for future wars and conflicts, the 
Army must effectively use the resources you provide us to transform. 
With the continued support of Congress and the Administration, our 
soldiers will continue to do their part to help America win the current 
war, protect the homeland, support our friends and allies, rapidly 
transform the Army to fight and win future conflicts, and maintain our 
readiness for the unexpected and unpredictable challenges that lie 
ahead.
    The attacks of September 11 demonstrate that the world remains a 
very dangerous and unpredictable place. One thing, however, is clear: 
America and her interests are now and will continue to be under attack 
from a myriad of threats for the foreseeable future. Moreover, our 
soldiers will continue to be involved in smaller-scale contingencies 
around the globe, but will never be far removed from the potential for 
large-scale conventional combat operations.
    Recent operations at home and abroad reaffirm with absolute clarity 
and certainty the enduring value of ground forces. Specifically, the 
value of soldiers, operating in a joint and usually combined 
environment, capable of creating an imposing physical and materiel 
presence, ready to search a cave or destroy an armor column, willing to 
guard an outpost or provide humanitarian assistance, has never been 
more apparent than it is today. To ensure decisive victory across the 
spectrum of conflict, our soldiers must be capable of prompt and 
sustained land operations against any and all enemies in any and all 
environments. We are fighting today, and through the transformation of 
our force we will be prepared to fight on different battlefields 
against new and different enemies in the future.

                           A NEW ENVIRONMENT

    The 2001 Quadrennial Defense Review (QDR) established a new 
strategic framework for the defense of the Nation that struck a balance 
between near-term readiness and the Army's ability to transform to meet 
the requirements of current and future conflicts. The report delineated 
a balanced assessment of our near-term warfighting needs. It moved away 
from the need to fight and win in two major theaters of war nearly 
simultaneously and articulated a new operational concept that gives 
continued priority to homeland defense, promotes deterrence through 
forward presence, and asks that we maintain the ability to conduct both 
smaller-scale contingencies and large scale high-intensity combat 
operations simultaneously. As the Army works with the Department of 
Defense and the other services to further define the emerging 
requirements outlined in the 2001 QDR, we anticipate that some elements 
of current operations will become part of our new posture and emerge as 
additional force structure requirements for which we may need more 
resources. We expect that other elements, such as airport security and 
support to the Border Patrol, Immigration and Naturalization Service, 
and Customs Agency will eventually conclude.
    As we have demonstrated previously in Panama, the Gulf, Haiti, 
Bosnia, Kosovo, and more recently in Afghanistan, soldiers can defeat 
enemy armies, seize and control terrain, and control populations and 
resources with minimal collateral casualties and damage. They can 
operate across the spectrum of military operations, from full-scale 
conventional conflicts to asymmetric conditions, from fighting 
terrorists to setting the conditions for humanitarian assistance. In an 
era of precision weapons, nothing is more precise and discriminating 
than the U.S. Army soldier.
    It is important to note that wherever the Army goes, it usually 
stays. Theater support to regional Commanders in Chief, major combat 
operations, smaller-scale contingencies, and post-hostilities 
activities all take their toll. The U.S. Army has been in Europe for 
almost 58 years, in Korea for 52 years, in the Sinai for 19 years, in 
the Persian Gulf for 12 years, in Bosnia for 6 years, and in Kosovo for 
nearly 3 years. Despite 10 years of downsizing, that saw a 33 percent 
reduction in military personnel including the loss of 37 percent of the 
Active-Duty Force and a 44 percent decrease in civilian personnel, the 
Army has accomplished all missions to the highest standards. Even 
before September 11, 2001, we were doing more with less, and the strain 
on the force was real. Since then, our mission profile has grown. 
Thankfully, our soldiers, imbued with an ethos of service to the 
Nation, continue to give us more in operational readiness than we have 
resourced.
    The Army has plans to alleviate some of this strain as we continue 
to prosecute the war on terrorism at home and abroad. To address the 
disparity between our mission profile and our resources, we will grow 
our endstrength by no more than a modest 1 to 2 percent this year. This 
number, something approaching 4,000 to 5,000, is well within 
congressional authorizations. Moreover, given our strong performance in 
recruiting the last 2 years, it represents an achievable objective to 
relieve some of the strain on our force.

                   SOLDIERS--ON POINT FOR THE NATION

    Around the world, Army soldiers reassure our allies, build trust 
and confidence, restore and promote regional stability, encourage 
democratic reforms, and deter conflict. Operating as part of a joint 
military team, the Army provides our leaders and commanders with a wide 
range of capabilities. Our core competency of deliberate and crisis 
action planning, that begins with the five paragraph field order we 
teach to junior officers and non-commissioned officers and culminates 
with the theater campaign planning process we teach our senior leaders, 
provides the Army, various CINCs, and the Joint Staff with a nearly 
unique ability to match warfighting resources to objectives. Our 
unparalleled theater-opening capability sets the conditions for the 
rest of the joint force to follow and provides theater-level support to 
the commander. In the conflict in Afghanistan, Army expertise in long-
range communications and theater logistics, as well as force protection 
for airfields and other assets, established the proper foundation upon 
which to build our joint forces. Ultimately, the Army, with both 
conventional and unconventional capabilities, closed with and destroyed 
a very determined enemy. It is important to remember that neither 
weather, altitude, nor terrain dissuades those capabilities that the 
Army brings to the fight. As we have seen in today's conflict, we 
cannot win without the human dimension on the battlefield. Be it 
gathering intelligence, challenging an adversary's ability to hide, 
protecting innocent civilians, searching a cave, or battling the enemy, 
it is the inherent flexibility of the soldier on the ground that 
provides commanders the ability to decisively defeat our foes. During 
combat operations, the American soldier remains the ultimate arbiter of 
victory.

                        ON DUTY AROUND THE GLOBE

    Today, the Army--active, ARNG, and USAR--has over 124,000 soldiers 
and 38,000 civilians forward stationed in 110 countries around the 
world. On any given day last year, over 27,500 soldiers were deployed 
to 60 countries for operations and training missions. Currently, as the 
war on terrorism expands, there are more than 58,000 soldiers deployed 
around the globe serving America's interests.

                       OPERATION ENDURING FREEDOM

    The Army fully embraces its role in the global war on terrorism. As 
part of Operation Enduring Freedom, there are over 16,000 soldiers 
deployed to the CENTCOM AOR from Egypt to Pakistan, Kenya to 
Kazakhstan, including nearly 5,000 in Afghanistan. These conventional 
and special operations soldiers from all three components--Active, Army 
National Guard, and the Army Reserve--are conducting a myriad of 
critical tasks. From advising local tribal leaders to designating 
targets, from securing airfields to providing logistics, from calling 
in fire to flying transport helicopters at night under adverse 
conditions to climbing mountains to attack enemy positions and 
providing close air support with Apache helicopters time and time again 
while under heavy fire, our soldiers, fighting alongside members of the 
other services and our allies, have seized the initiative, met every 
challenge head on, and vanquished every foe.
    Similarly, in the Philippines, Army forces have joined with other 
joint forces in advising the Armed Forces of the Philippines (AFP) on 
their efforts to root-out terrorism in their country. In addition to 
logistical support elements, Army Special Operations Forces are working 
alongside special operators from other services in their work with the 
AFP. Due to our unique training program that aligns regional expertise 
with training and warfighting skills, our Special Forces are 
particularly well positioned to support JTF-510 and, in fact, make up 
over a third of that joint force.

                         OPERATION NOBLE EAGLE

    At home, in addition to the nearly 12,000 Reserve component 
personnel that are supporting Operation Enduring Freedom, the Army is 
providing 25,000 soldiers to support Operation Noble Eagle, the war on 
terrorism in the United States. The vast majority of those soldiers are 
also from the Reserve component. A great many of those soldiers are 
guarding critical elements of our Nation's infrastructure--power 
plants, dams, tunnels, bridges, water sources, command and control 
facilities, and even the Capitol building. Perhaps most noticeable and 
familiar are the 6,500 soldiers providing security and assisting local 
officials at 441 airports across the country.
    Not counted in that number are the 4,000 soldiers that provided 
force protection, explosive ordnance expertise, personnel and equipment 
screening, and helicopter support to the Winter Olympics. Soldiers are 
still in Utah providing similar support to the Paraolympic Games. 
Soldiers ensured that this National Security Special Event (NSSE)--like 
the Super Bowl and many others before it--occurred without incident.
    Most recently, the Army has provided over 1,500 soldiers to the 
Border Patrol, Immigration and Naturalization Service, and Customs 
Service to assist them in their duties in 13 border states. Less 
noticeable, but no less important, are the other smaller groups of 
soldiers and civilians, many with specialized expertise, that provided 
linguistics support, chemical and biological forensics analysis, HAZMAT 
training and assistance, biological detection capability, weapons of 
mass destruction civil support team training for 26 teams in 25 States, 
and technical escort services to several key facilities including the 
Capitol complex.

                             ARMY READINESS

    The Army has demonstrated its high state of readiness. This is 
largely due to the sustained support from the Nation, Congress, and the 
administration. We have a non-negotiable contract with you and the 
American people to fight and win our Nation's wars--decisively. As our 
mission profile expands, we will require your strong support to ensure 
our continued readiness and ability to meet the terms of that contract. 
The fiscal year 2003 budget request supports our readiness and provides 
funding to maintain our current facilities at an acceptable level. 
Fiscal year 2003 funding improves on fiscal year 2002 levels in terms 
of maintaining a stable training base to develop quality leaders and 
soldiers. The Army has funded its top priorities. Resources have been 
aligned to ensure our forces are trained, equipped, and ready to fight. 
In addition, funding is provided to enhance unit training and 
deployability, another positive element of overall readiness. Finally, 
while this budget advances the Army's campaign plan to transform the 
force for the future, concerns remain in some areas, including 
recapitalization, depot level maintenance, munitions, Active and 
Reserve component manning, acceleration of transformation, and 
destruction of our chemical stockpiles.

                      IMPACT OF CURRENT OPERATIONS

    Our current operations in Afghanistan and elsewhere have provided 
the Army with several lessons. The first lesson is that our training 
program works and we must continue to fund training and training 
resources, to include the expansion of our range capacity. The Army 
OPTEMPO budget is a top priority. Although currently funded at 
approximately 97 percent, the Army plans to execute a full ground 
OPTEMPO program of 800 M1 Abrams Tank miles at home station and a 
complete Flying Hour Program of an average of 14.5 live flying hours 
per aircrew per month for the Active component, and nine live aircrew 
hours for Reserve components. As the skill of our Apache pilots in 
battle in Afghanistan attests, the quality of our pilot training 
program, not to mention the quality of our airframes, is one of the 
jewels in our crown. We must ensure we continue to train to standard.
    We have scheduled 10 brigade rotations (9 Active component and 1 
Army National Guard) through the National Training Center at Fort 
Irwin, California, and 10 brigade rotations (9 Active component and 1 
Army National Guard) through the Joint Readiness Training Center at 
Fort Polk, Louisiana. The Battle Command Training Program headquartered 
at Fort Leavenworth, Kansas, will conduct two corps warfighter 
exercises and train six division command and staff groups, an increase 
of one divisional staff training exercise in fiscal year 2003. 
Additionally, funding for training enabler support has been increased 
20 percent from fiscal year 2002 levels.
    Tough, demanding training supported by an infrastructure that 
allows us to train, sustain, and deploy is essential to readiness. 
History has shown that the higher the quality of training, the better 
the leaders and warfighters we produce. We must fully modernize 
training ranges, combat training centers, and training aids, devices, 
simulators, and simulations to provide adequate and challenging 
training. In addition to live field training, the Army has funded the 
integration of virtual and constructive training capabilities. Yet, 
despite all the advantages of virtual and constructive training we 
expect to gain, there is no substitute for training in the field. As 
the quality of our forces, our equipment, and our network-centric 
command and control operations continue to advance our forces will 
operate with ever-greater dispersion. Maintaining sufficient maneuver 
areas for training these extended formations will become even more 
critical. Those areas are increasingly being encroached upon, 
intensifying environmental constraints and operational limitations that 
place unnecessary limits on testing and training facilities. The Army 
is one of the best stewards of the environment. To improve on our 
stewardship, we are implementing a sustainable program that integrates 
operational needs, land management, explosives safety, and 
environmental concerns into the lifecycle management of our ranges.
    The second lesson from Operations Enduring Freedom and Noble Eagle 
is that we have outstanding Reserve component forces, but our 
mobilization of those forces is still cumbersome and takes too long 
despite advances since Operation Desert Storm. Our goal is to rapidly 
transition soldiers to Active Duty while ensuring that they have 
sufficient time to prepare at home station for extended absences. 
Adequate Full-Time Manning and Military Occupational Skill (MOS)-
qualified Reserve component soldiers are key to setting the right pre-
mobilization conditions.
    The third lesson, and one we have learned before, is that our 
forces are ready to fight when they arrive, but we must continue to 
work with the Air Force and Navy as well as the Joint Staff and 
TRANSCOM to ensure that they arrive in theater faster. The Army fully 
supports continued purchase of C-17 aircraft and fast sealift to ensure 
the joint force can get us to where the Nation needs us, when it needs 
us.
    The fourth lesson is that the war in Afghanistan reinforces the 
Army's transformation efforts and demonstrates a clear need to 
accelerate both the fielding of the Interim Brigade Combat Teams 
(IBCTs) and the Objective Force. These capabilities are needed on 
today's battlefield and would have had a significant impact on the 
conduct of the battles fought to date. Fielding the lighter and more 
lethal IBCT and Objective Force also reduces the requirement for lift.
    The extent, duration, and variety of current and potential future 
operations, however, have presented us with some challenges. As 
necessary and beneficial as it is to have soldiers on the ground 
creating a presence and furthering the Nation's interests in a variety 
of combat and non-combat operations, there comes a point where the 
force is stretched beyond what seems prudent. The Secretary of Defense 
is examining the Nation's role on the multinational observer force in 
the Sinai. We support his efforts, but will stand our post until 
properly relieved.
    Others have questioned why American ground forces remain in the 
Balkans. Perhaps at some point, it will be prudent to turn that mission 
over completely to our European friends and allies. However, today and 
for the foreseeable future, it is the American flag and the presence of 
American soldiers that in large measure brings stability to the region. 
Moreover, those same forces are performing several critical tasks in 
support of our global war on terrorism. Specifically, they are 
conducting surveillance and collecting intelligence on suspected 
terrorists who are known to be active in the area and when directed are 
supporting the interdiction and arrest of these individuals. To 
withdraw completely and immediately would not only risk a return to 
instability, but also significantly reduce our counter-terrorism 
efforts.
    Finally, the Army does not think short-term. As this century has 
shown, the Army not only wins wars, but it also bears the preponderance 
of the responsibility for post-hostility operations. We fully 
anticipate that beyond the destruction or surrender of our enemies, the 
Army will be present to conduct a series of post-hostilities and non-
combat operations that solidify the hard-fought gains of battle.
    Another area in which the extent, duration, and variety of 
operations may pose a challenge is the service and support of our 
combat forces. The likelihood for multiple, non-linear, distributed, 
and possibly overlapping operations around the globe has the potential 
to further exacerbate existing shortfalls in our combat service support 
forces. With 70 percent of our combat service support coming from a 
Reserve component that is already beginning to feel the strain of 
supporting the war on terrorism, it may be necessary to develop a way 
to bridge the gap. Additional support for Full Time Manning, enhanced 
recruiting and retention, and purchase of necessary equipment and 
repair parts would help to improve readiness in those units.
    The Army is ready, and one element of readiness we have been 
working hard to improve is our reporting system. Our current system is 
based on lagging indicators, and while satisfactory, it does not 
provide senior leaders with the ability to influence readiness in a 
proactive manner. Our new Strategic Readiness System (SRS) will 
leverage information available through existing reporting systems while 
providing a more objective, scalable, and timely measure of the Army 
across all its domains (operating force, institutional force, and 
infrastructure). Initial prototyping was completed last year, and we 
are currently finalizing our measures of merit with field testing and 
initial integration at selected installations scheduled for this year.

                             TRANSFORMATION

    Transformation is about changing the way the Army thinks, trains, 
and fights in order to win the Nation's wars in a dominating and 
decisive manner. It is inextricably linked to the readiness of our 
forces. The emerging character of 21st century warfare clearly 
highlights the need for Army transformation; the strategic environment 
demands that we accelerate it. The goal of transformation is to see 
first, understand first, act first, and finish decisively by leveraging 
technology to gain greater situational awareness of the battlefield 
than our opponents. With superior awareness, soldiers and leaders can 
understand first and devise appropriate strategies for dealing with the 
enemy. Through the advent of information dominance and network-centric 
operations, the Army will act first to seize and retain the initiative, 
attacking the enemy where he is weak while protecting our 
vulnerabilities, and using rapid maneuver and precision fires to defeat 
our adversaries decisively.
    Military institutions are often criticized for looking backward and 
preparing for the last war instead of looking forward and preparing for 
new and emerging dangers. With the Army's transformation, nothing could 
be further from the truth. Our transformation is based on a decade's 
worth of self-study and examination that began in the early 1990s with 
simulation studies at our battle labs that were field-tested in 
Advanced Warfighting Experiments at Fort Hood, Texas, as well as at the 
National Training and the Joint Readiness Training Centers.
    To understand Transformation is to understand that the Army is 
undertaking a holistic and monumental change while simultaneously never 
wavering from its mission to be ready to fight and win the Nation's 
wars. We are changing our doctrine, training, leader development, 
organization, materiel, and soldier systems across the Active 
component, the Army National Guard, and the Army Reserve. 
Transformation will result in a different Army, not just a modernized 
version of the Army that won the last war. Combining the best 
characteristics of each element in our current force, the transformed 
Army will possess the rapid deployment mentality and toughness of our 
light forces, the lethality and speed of our heavy forces, and the 
unmatched precision and combat capabilities of our special operations 
forces. Transformation will field the best, most combat effective, most 
lethal soldier and organization in the world.
    The Army, like all of our joint partners and the Department of 
Defense, is a large enterprise. Change on the magnitude envisioned with 
Army transformation does not happen quickly, nor is it safe to change 
everything at once. This is particularly so when the Army and the 
Nation are fully engaged protecting citizens at home and fighting 
terrorism on multiple fronts abroad. In order to facilitate change, 
while simultaneously remaining ready to defend America's interests, the 
Army designed its transformation plan with three interrelated 
elements--the Objective Force, our main effort this decade; the Interim 
Force, our near-term operational bridge between our existing heavy and 
light forces; and the Legacy Force, our immediate warfighting 
capability to ensure the continued safety of the American people and 
the continued security of American interests.

                          THE OBJECTIVE FORCE

    The Objective Force breaks the mold. Instead of the linear, 
sequential operations of the past designed to overpower an enemy with 
sheer weight and volume, the Objective Force will fight in a 
distributed, non-contiguous, and network-centric manner oriented on 
physically and psychologically disorienting, disarming, and decisively 
defeating any foe in any environment. The speed, stealth, and advanced 
sensor-to-shooter technology planned for the Comanche helicopter 
characterize the capabilities necessary for this new form of combat. 
Reduced platform weight and a smaller logistical footprint will permit 
Objective Force units to deploy more rapidly than today's Legacy Force. 
Able to conduct vertical maneuver and execute anti-access operations, 
these forces will descend upon multiple enemy points of vulnerability 
and through superior situational awareness, identify and attack 
critical enemy capabilities throughout the depth of the battlefield. To 
ensure we have maximized our opportunity for success in fielding the 
Objective Force as quickly as possible, the Army invested 97 percent of 
our fiscal year 2003 science and technology budget toward the design 
and development of the Objective Force and enabling technologies. We 
have recently selected our Future Combat System Lead Systems Integrator 
and with your continued support will begin fielding the Objective Force 
before the end of the decade.

                             INTERIM FORCE

    The Interim Force is the Army's transition force designed to bridge 
the near-term gap between the capabilities of our heavy and light 
forces. It blends the best characteristics of our heavy, light, and 
special operations forces into a medium weight, full spectrum force 
with increased operational and tactical flexibility. Organized into 
Interim Brigade Combat Teams (IBCTs), it leverages today's technology 
with selected Legacy Force capabilities to serve as a link to the 
Objective Force. A combat ready force, the Interim Force will allow 
exploration of new concepts relevant to the Objective Force. The Army 
currently plans to field six of these new, more agile and responsive 
combat teams. The first two IBCTs are organized at Fort Lewis, 
Washington and are undergoing extensive training in all environments, 
including urban and restrictive terrain. The first of these brigades 
will attain its first incremental warfighting capability--an infantry 
company--in August 2002 with its full initial operational capability 
shortly thereafter in May 2003. Follow-on fieldings are planned for 
Alaska, Louisiana, Hawaii, and Pennsylvania. Moreover, the Department 
of Defense has asked us to examine stationing an IBCT in Europe. Very 
soon, the IBCT will be an immensely responsive, highly deployable, and 
increasingly lethal operational reality ready for combat operations in 
support of our joint commanders worldwide.

                              LEGACY FORCE

    The Legacy Force is the guarantor of the Army's immediate 
warfighting readiness. Through selective recapitalization and 
modernization, the Legacy Force enables the Army to meet today's 
challenges, while providing the time and flexibility to complete our 
Transformation--effectively managing risk without sacrificing 
readiness. Through our Prioritized Recapitalization Program, the Army 
has identified and fully funded the refurbishment of 17 systems in 
selected units. These systems include the AH-64 Apache, UH-60 Black 
Hawk, and CH-47 Chinook helicopters that were so important during 
Operation Anaconda; the M1 Abrams tank and M2 Bradley fighting vehicle 
that dominated the deserts of Iraq a decade ago and that combine the 
best of shock and firepower today; and the Patriot Advanced Capability-
3 missile defense system, a significant upgrade from the system that 
saved many a soldier in Operation Desert Storm and that is guarding the 
frontiers of freedom in Korea and Kuwait today.
    Modernization of this force links it to the Interim and Objective 
Forces. The Crusader self-propelled howitzer will solve a current 
shortfall in fire support and provide our soldiers the ability to call 
for the best fire support available anywhere. Additionally, Crusader 
robotics and other advanced technologies will inform the continued 
development of the Objective Force. Although after fiscal year 2003 the 
Army will not buy another heavy tank, the modernization of our M1/A2 
SEP tanks and M2/A3 Bradley fighting vehicles retains our present 
ability to defeat any adversary while training soldiers on the same 
network-centric situational awareness skills necessary in the Interim 
Force. Army Aviation modernization will further enhance our current 
readiness by reducing our helicopter inventory by 25 percent while 
returning savings in training and logistics that will be used to 
recapitalize the remainder of the fleet. To support these and other 
priorities, the Army terminated 18 systems and restructured another 12 
in this budget cycle.

            THE ARMY--PERSUASIVE IN PEACE, INVINCIBLE IN WAR

    The Army is trained and ready and wholly dedicated to preserving 
freedom and defending American interests at home and abroad. As we have 
done many times over the last two centuries, and are doing today in 
Afghanistan, the Philippines, the Balkans, the Middle East, and 
countless other places around the globe, the Army will continue to win 
the Nation's wars and serve its interests. The United States Army--
Active, Army National Guard, and Reserve--is the most respected ground 
combat force in the world. Our current training and readiness programs 
along with the Army's transformation will ensure we remain the world's 
most respected force now and in the future. Today's emerging security 
requirements, particularly since the attacks of September 11 have 
intensified the demands we place on the backs of our young men and 
women. Defending freedom abroad and securing the homeland, while 
preparing for potential near-term contingencies has increased the 
competition for scarce resources and reduced our ability to invest in 
people, systems, platforms, and research and development. Unless 
redressed, risks incurred from this resource shortfall could undermine 
the Army's ability to adequately satisfy evolving national security 
requirements. These same requirements call evermore loudly and urgently 
for an acceleration of the Army's transformation. No one can predict 
what the future holds, but what is certain is that our Nation must have 
the best trained, best led, and best equipped soldiers on the ground, 
capable of deploying rapidly at precisely the right time to the right 
place and with the right support structure to influence conditions and 
achieve victory as part of the joint military team.
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for your continued support of the Army, transformation, and most 
importantly, our soldiers. Over 2 years ago, we joined together and 
began this effort committed to ensuring that the Army remains dominant 
today and prepares for combat in the future. The magnitude of what we 
have accomplished together is staggering. Our actions in Afghanistan 
and elsewhere have demonstrated with absolute clarity the enduring 
value of Army ground forces. Your continued support will ensure those 
forces remain the most valued and most respected in the world. Thank 
you again for this opportunity to report to you on the readiness of 
your Army. I look forward to discussing these issues with you.

    Senator Akaka. Thank you very much for being brief. I just 
want to remind you again that your full statements will be 
placed in the record, and ask you to continue to summarize your 
statements.
    Admiral Krol.

  STATEMENT OF REAR ADM. JOSEPH J. KROL, JR., USN, ASSISTANT 
    DEPUTY CHIEF OF NAVAL OPERATIONS FOR PLANS, POLICY, AND 
             OPERATIONS, CHIEF OF NAVAL OPERATIONS

    Admiral Krol. Mr. Chairman, Senator Inhofe, and Senator 
Nelson, I want to thank you for the opportunity to be with you 
today. It is certainly a privilege to report on the status of 
our great Navy. I thank you for your continuing support of our 
fleet and sailors.
    Because readiness is at the top of our agenda, September 11 
found the Navy well-equipped, superbly trained, and forward 
deployed to conduct prompt and sustained combat operations. The 
day after the attacks on our Nation, 2 carrier battle groups, 
25 ships, 177 aircraft, and 18,000 members of the Navy-Marine 
Corps team were on station in the northern Arabian Sea.
    The Navy's contributions to the global war on terrorism 
have highlighted the value of projecting force deep inland from 
the sovereign and secure operational base provided by naval 
combatants. The Navy's response at home to the attacks on New 
York City and the Pentagon were uniquely indicative of our 
culture of readiness.
    The tempo of deployed surface ships has increased 50 
percent during Operation Enduring Freedom, and flying hours 
have been up over 100 percent at their peak. However, thanks to 
strong Navy leadership and the support of this subcommittee, 
the high operational pace has not significantly degraded 
readiness. Key metrics such as aircraft cannibalization rates, 
material casualty reports, and personnel readiness are stable, 
and number of deployed units reporting the highest rating for 
overall readiness has actually increased slightly.
    However, we have significantly depleted our inventories of 
precision guided munitions and aircraft engines. This 
subcommittee's support will be vital as we address these 
readiness shortfalls.
    Finally, the wear and tear associated with more frequent 
operations may not be fully apparent until deployed units are 
available for thorough inspection after deployments. The Navy 
is assessing its ability to sustain various levels of war 
effort and developing innovative options to provide combat 
power more effectively, efficiently, and responsibly to the 
regional combatant commanders. This includes alternative 
manning and task force organizations as well as initiatives to 
compress the inter-deployment training cycle.
    The Navy is ready to sustain the recent operational tempo, 
which is similar to a routine peacetime force posture, as the 
global war on terrorism continues. Maintaining this pace will, 
however, imply greater costs for operating and maintaining our 
ships and aircraft, require us to carefully manage our 
deployments, and could place our future readiness programs, 
including modernization and transformation, at greater risk.
    Should the operational tempo increase above recent levels, 
we might eventually need to purchase more aircraft, modify the 
way we crew our ships, and expand our military, industrial, and 
maintenance infrastructures. The Navy remains capable of 
surging several carrier battle groups, as it did during the 
first months of Operation Enduring Freedom. However, a level of 
effort significantly above our current commitment cannot be 
sustained and would require a period of reconstitution after 
the surge operations were completed.
    The Navy's response to September 11 is a testament to the 
agility, lethality, and reach of maritime forces, and to the 
dedication and professionalism of our sailors. The Navy can 
sustain the recent pace of operations for several years and is 
developing and implementing ways to cope with higher 
operational tempos should they be required as the war 
continues. The Navy will, with the continued support of this 
subcommittee, meet whatever challenges lie ahead in the defense 
of America.
    On behalf of our sailors and their families who proudly 
serve our Nation, thank you very much for your support.
    [The prepared statement of Admiral Krol follows:]

          Prepared Statement by Rear Adm. Joseph J. Krol, USN

                              INTRODUCTION

    Chairman Akaka, Senator Inhofe, and other distinguished members of 
this subcommittee, thank you for the opportunity to be with you today. 
It is a privilege to report to you on the status of our great Navy. I 
thank you for your continuing support of our fleet and sailors. 
Operation Enduring Freedom has demonstrated that America has the most 
responsive and combat capable Navy in the world. Because we place 
readiness at the top of our agenda, September 11 found the Navy well 
equipped, superbly trained, forward deployed, and ready to conduct 
prompt and sustained combat operations in defense of America. The day 
after the attacks on New York City and the Pentagon, two carrier battle 
groups (CVBGs), 25 ships, 177 aircraft, and 18,000 members of the Navy-
Marine Corps team were on station. The Navy's contributions to the 
global war on terrorism (GWOT) have highlighted the value of projecting 
force deep inland from the sovereign and secure operational base 
provided by aircraft carriers and other naval combatants. This 
autonomous capability is increasingly important in an era of precarious 
access to terrestrial military bases.
    The Navy has been at the forefront in taking the fight to America's 
adversaries. On day one of Operation Enduring Freedom, submarines and 
surface ships crippled enemy air defenses with Tomahawk cruise 
missiles, while carrier strike forces launched long-range attacks 
against al Qaeda terrorists and the Taliban regime. Flying 80 strike 
sorties a day at the peak of Operation Enduring Freedom, carrier-based 
F-14 and F/A-18 aircraft accounted for more than 70 percent of all U.S. 
strike missions. We were able to disrupt terrorist organizations, 
destroy critical enemy infrastructure, and prevent further attacks on 
America and her allies. Operation Enduring Freedom has illustrated that 
we have clearly moved into a new era of effects-based warfare, in which 
military success is best measured by the timeliness and value of 
targets destroyed and not by the mass of ordnance expended.
    While naval strike forces were projecting U.S. power hundreds of 
miles into Afghanistan, other combatants were controlling the seas and 
performing vital operations around the globe. An unprecedented number 
of interceptions and inspections were conducted to interdict the 
maritime avenue of flight for terrorist leaders and restrict the flow 
of terrorist materials. Naval aircraft have conducted the vast majority 
of manned airborne reconnaissance flights in the Afghan theater and 
Navy SEALS have provided approximately half of our SOF capabilities on 
the ground. All of these operations are being well supported by our 
hard-working replenishment ships.
    The Navy's response at home to the attacks on New York City and the 
Pentagon was equally indicative of our culture of readiness. Off 
America's coasts, aircraft carriers, cruisers, and destroyers rapidly 
took station to protect the maritime and air approaches to the United 
States in the wake of September 11, 2001. Within view of ``ground 
zero'' in New York, the hospital ship USNS Comfort and the auxiliary 
USNS Denebola provided food, berthing, and medical care for the heroic 
first responders ashore.
    While protecting America's interests overseas and providing 
additional security at home, the Navy has also implemented more 
stringent Anti-Terrorism/Force Protection measures to safeguard our 
people and infrastructure. More than 5,000 reservists are reinforcing 
the security of our ships, naval bases, and other military 
installations. The Navy's response to the events of September 11 is 
testimony to the dedicated service of our sailors and to the agility, 
lethality, and reach of our naval forces.
    Thanks to our Navy's civilian and military leadership and the 
strong support of the American people and Congress, we have made solid 
progress over the last few years in addressing long-standing readiness 
issues. As a result of our priorities and this subcommittee's support, 
fiscal year 2002 was the best readiness budget in a decade. The fiscal 
year 2003 budget will likewise flow more resources where they are most 
needed: to warfighters in the fleet. However, the ongoing global war on 
terrorism has the potential to stress our fleet considerably and there 
is little elasticity in our force structure to permit growth in the 
naval missions required to take the fight to the enemy while protecting 
the maritime approaches to the United States.
    In my testimony, I intend to describe the impact of recent and on-
going operations on Navy readiness, provide a qualitative assessment of 
the Navy's ability to continue the conflict, and discuss how the Navy 
is planning to manage its resources and risks to maintain a high state 
of readiness as the global war on terrorism continues.

                  IMPACT OF THE GWOT ON NAVY READINESS

    The Navy routinely maintains a forward-deployed expeditionary 
posture. This posture, combined with the fact that we have added nearly 
$5 billion to our key readiness accounts over the past 2 years, has 
minimized the impact of the war on current readiness. Since September 
11, approximately one-third of the fleet has been deployed on any given 
day. This percentage of deployed units is similar to our historic 
peacetime profile, with 40-50 percent of our fleet underway, and 
approximately 30 percent of our forces forward deployed to support the 
requirements of regional combatant commanders in areas such as the 
Persian Gulf, Europe, and the Pacific Rim. In order to meet these 
commitments, we have a rotational force in which ships, air wings, and 
personnel are either on deployment or in the process of preparing 
themselves for the next deployment.
    Although the number of ships underway and deployed has not 
dramatically increased during Operations Enduring Freedom and Noble 
Eagle, the OPTEMPO of deployed front-line units has. For example, 
U.S.S. Theodore Roosevelt recently completed a record-setting 159 
consecutive days at sea and U.S. surface combatants, in general, are 
steaming 50 percent more days per quarter than they would during a 
normal deployment. The increased amount of time at sea translates into 
fewer port calls and maintenance availability periods. The greater 
operational demands have been felt even more acutely by carrier air 
wings that were flying 250 hours per day at the peak of operations, and 
are still flying approximately 190 hours per day compared to an average 
of about 115 hours during a typical peacetime deployment.
    Despite this high operational tempo, we have not yet observed a 
significant degradation in readiness. Since September 11, we have 
actually witnessed a slight increase in the percentage of units 
reporting the highest level (C1) for overall readiness. Most key 
metrics of current readiness have remained stable since the GWOT began. 
The Mission Capable rates of naval strike aircraft remain comparable to 
historic averages, at around 70 percent. The cannibalization rate of 
naval aircraft in fiscal year 2001 was the lowest in 5 years; this 
trend does not appear to be reversed. The rates that our deployed units 
are reporting mission-critical material failures (CASREPs) have also 
not increased appreciably. However, the pools of spare aircraft engines 
and our inventories of precision-guided munitions have been depleted 
significantly. We are taking steps to address these negative readiness 
trends.
    It is too soon, however, to have a complete grasp of the total 
impact that higher OPTEMPO will have on readiness. More frequent 
operation of ships and aircraft entails additional wear and tear. For 
example, the F/A-18 has been flown well in excess of planned rates, and 
more than 300 of these aircraft will require service life extensions 
earlier than planned. The consequences of greater usage may not be 
fully apparent until these units are available for more thorough 
material inspections and assessment. In summary, there is no 
overwhelming evidence that the higher OPTEMPO required by the GWOT has 
significantly degraded material readiness, but we must closely monitor 
our key readiness metrics as the war continues.
    Personnel readiness has improved significantly over the last few 
years and this trend has not been reversed by the war. These gains are 
largely attributable to recent increases in base pay, housing 
allowances, and career sea pay. Last year's retention of first-term 
sailors was the best in more than 30 years and the first months of 
fiscal year 2002 were on a similar pace. Although we have not observed 
an increase in recruiting success since September 11, neither have we 
seen a downturn. However, sailors are spending a greater percentage of 
their time at sea, especially on deployment and this could eventually 
have a negative impact on manpower. We continue to manage personnel 
tempo carefully while meeting war exigencies.

                 SUSTAINING THE GLOBAL WAR ON TERRORISM

    It is quite probable that the global war on terrorism will continue 
for several years at a pace similar to, and perhaps periodically 
greater than, that required to date for Operation Enduring Freedom. 
Based on this probability, we are in the process of assessing our 
ability to continue the war at various levels of effort, as well as 
studying what change would be required to sustain those levels. The 
Navy would be able to sustain the recent pace of operations for the 
next few years with greater funding for operation and maintenance (O&M) 
and a few adjustments to how we normally maintain, train, and operate 
the fleet. O&M requirements will grow commensurately with increased 
steaming days, flying hours, and a higher demand for parts and depot 
maintenance. Mission Capable/Full Mission Capable Rates for aircraft 
will probably decline slightly and fewer aircraft will be available for 
the training of non-deployed carrier wings during the Inter-Deployment 
Training Cycle (IDTC). From a geo-political standpoint, focusing 
available carrier battle groups and amphibious ready groups (ARGs) on 
one or two regions will often mean that other key areas, not directly 
implicated in the GWOT, will have fewer forces available for presence 
and engagement missions.
    Operating slightly above our current level of effort is 
sustainable, even with periodic surge requirements. Sustaining this 
OPTEMPO would require additional increases in O&M funding for labor and 
for higher costs required to reduce the wait time for parts. 
Deployments would likely be extended, in some instances, beyond the 
Navy peacetime goal of 6 months, and turn-around times shortened 
between the deployments of certain combat units. Although additional 
surface combatants would not necessarily be required to sustain this 
operational pace, we might have to increase the inventory of aircraft 
to concurrently meet the demands of forward-deployed units and those of 
air wings in the IDTC. Finally, it is likely that the increased OPTEMPO 
of our ships and aircraft would result in less frequent non-operational 
periods, which would increase the already large and growing amount of 
deferred maintenance and retard key modernization plans to equip our 
ships and aircraft with improved sensors, avionics, information 
systems, and weaponry.
    Operating the Navy at a pace slightly above that required so far in 
the GWOT may also have personnel implications. Special care and 
management will likely be necessary to ensure that civilian workers 
with special skills, a group already in short supply, are recruited, 
trained, and retained in our shipyards and intermediate maintenance 
activities. We are currently analyzing our civilian and military 
manpower needs for the war.
    Expanding the commitment of naval forces significantly beyond our 
current level is possible for short periods of time, but not 
sustainable without changes to our force structure, manpower, and 
infrastructure. As we demonstrated during the first months of Operation 
Enduring Freedom, the Navy can surge its forces to place four aircraft 
carrier battle groups on station. While this peak level of effort would 
again be achievable in the future, it requires a significant period of 
reconstitution and cannot be sustained on a routine basis with our 
current fleet. Sustaining this high OPTEMPO would require more 
resources and, more importantly, might require an expansion of our 
industrial infrastructure.

             MANAGING RESOURCES AND RISK IN A WAR TIME NAVY

    The events of September 11 have proven that we live in a new 
security environment that demands a reassessment of how the United 
States trains, equips, organizes, and operates its military. The Navy 
is conducting that review, and exploring the best methods to manage 
resources to sustain the global war on terrorism while minimizing 
risks.
Manpower
    Manpower remains the Chief of Naval Operation's top priority. 
Although gains have been made in improving recruiting, retention, and 
attrition, these advances are perishable and we must continue to 
provide the best possible quality of service to our sailors and 
civilian workforce. Since the attacks on the Pentagon and New York 
City, we have mobilized more than 10,000 Reservists to ease the burden 
on our active duty personnel. About half of these sailors are helping 
implement more stringent Anti-Terrorism/Force Protection measures. The 
other half brings key expertise to the fleet and major staffs in the 
areas of intelligence, logistics, construction, meteorology, and base 
support. However, paying Reservists to remain on active duty is costly 
and may require additional funding as the war continues. In order to 
minimize this impact, we are currently validating the jobs being filled 
by Reservists with an eye toward demobilizing those who are not 
essential.
    We are also studying several options to provide alternative manning 
to the fleet. These possibilities include rotational crewing that would 
allow ships to spend more of their time in forward areas without 
reducing the quality of service of our sailors. The Navy has a 
successful history of providing rotational crewing to ballistic missile 
submarines. These models should help us develop the right plans to 
provide more ships-days to our regional CINCs.
Compressing the Inter-Deployment Training Cycle (IDTC)
    Meeting a higher demand for deployed naval assets may require a 
compression of the Inter-Deployment Training Cycle. The typical 24-
month deployment cycle consists of the following:

        <bullet> 6 month deployment overseas;
        <bullet> 1 month post-deployment leave and upkeep period;
        <bullet> 6 month intensive maintenance period;
        <bullet> 10 month training period; and
        <bullet> 1 month of leave, upkeep, and stores load-outs prior 
        to deployment.

    The nominal cycle provides 18 months between 6-month deployments 
for a turn-around ratio of 3. Although that number can be reduced, the 
CNO has established a minimum turn-around ratio of 2.0. Two major 
activities comprise the period between deployments: training and 
maintenance.
    Our Navy is the best largely because of our most important 
asymmetric advantage: highly trained sailors. Developing the range of 
skills required to operate safely at sea and conduct combat operations 
entails training at sea and in port. In order to improve quality of 
life, the at-sea training required during the IDTC has already been 
reduced by about one-fourth over the last 5 years. Simulators and other 
applications of information technologies are being speeded to the 
fleet, but can only replicate and replace a portion of the real-world 
drills and exercises that give us an edge in combat. Our recently 
established Fleet Forces Command, located in Norfolk, is working with 
our operational forces to develop ways to decrease the training periods 
required in IDTC as well as to tailor them more closely for missions 
demanded by the GWOT. However, we do not expect to achieve a 
significant compression of the training requirements. We must also 
remember that reductions in the training of our air and ship crews may 
imply a risk to safety and combat effectiveness, especially in 
scenarios more challenging than the GWOT.
    As we consider compressing training between deployments, the need 
to ``train as we fight'' will increase. However, some environmental 
laws and urbanization increasingly impact this warfighting imperative. 
When urban encroachment and environmental concerns restrict our use of 
training ranges, our sailors miss out on valuable training 
opportunities that can improve combat effectiveness and reduce risks on 
the battlefield. In order to guarantee that in the future we'll be 
ready for the first day of combat, we must all recognize the value of 
our training ranges and provide for their continued use, including the 
use of live-fire training. We are analyzing the feasibility of relying 
more upon simulators that should reduce costs and training time, as 
well as decrease wear and tear on ships and aircraft. Although 
simulators and non-live-fire exercises are an important part of 
military training, there simply is no adequate substitute for live-fire 
training.
    Maintenance is the second component of the IDTC. There are two 
major options for reducing the time required to perform maintenance 
between deployments. The first involves deferring maintenance that is 
not absolutely essential to ship operations and combat effectiveness. 
However, we already have deferred maintenance amounts whose growth we 
have recently slowed, but not stopped, with increased funding. Although 
we are developing options to increase the capability to conduct 
forward-deployed repairs, all maintenance availabilities, whether 
conducted stateside or overseas, reduce the number of days that our 
combat platforms can operate and fight at sea.
    Another option is to speed up the pace of maintenance performed 
between deployments. It is, however, an expensive proposition to 
provide the around-the-clock shifts necessary to shorten maintenance 
periods. Additionally, the pool of qualified laborers, especially 
regarding the skills required to maintain nuclear propulsion plants, 
has little over-capacity and is fairly inelastic. The acceleration of 
maintenance is also often constrained by the limited availability of 
suitable shipyards, dry-docks, and other key components of our 
maintenance infrastructure. Finally, our sailors accomplish much of our 
ship and aircraft maintenance and retesting themselves, and increasing 
the pace of repairs could degrade their quality of service and training 
opportunities during the IDTC.
    Much of our ship maintenance revolves around our propulsion plants. 
Reducing or accelerating the maintenance on propulsion systems is often 
simply not prudent due to stringent, time-tested procedures and 
retesting requirements. In all cases, the deferment of maintenance or 
the taking of shortcuts can put readiness at risk at critical moments 
during combat operations.
Changing the Way We Organize and Deploy Our Forces
    We are also studying alternatives on how we provide combat-ready 
ships and naval aircraft to the regional CINCs. Although the carrier 
battle group will remain the preeminent naval task force, we are 
looking at options to provide responsive, sustainable, and long-range 
strike forces composed of fewer and different units than those in our 
CVBGs. One construct is to complement ARGs with cruise missile capable 
surface combatants and submarines, producing ``Expeditionary Strike 
Forces'' tailored and equipped to destroy terrorist elements. These 
forces would provide distributed firepower when and where they are 
required by the regional CINCs.
Replenishing Inventories of Precision-Guided Munitions
    Precision-guided munitions represented a fairly small fraction of 
the air-dropped weapons employed during the Persian Gulf War. Over the 
last decade, they have developed into the weapon of choice. The high 
demand for these weapons during Operation Enduring Freedom has depleted 
our inventories. To address this issue, we have added $973 million to 
procure more PGMs. However, our ability to replenish our inventories 
will depend primarily upon the ability of industry to meet the growing 
demand as well as upon usage rates in the future. Increasing the 
production rate will take time and there is no quick fix to this 
challenge. The Navy is committed to working through these challenges 
and obtaining the full wartime requirement for precision-guided 
munitions.
Managing Long-Term Risks
    As this committee well understands, there always exists a tension 
between funding current readiness today and investing in future 
readiness for tomorrow. This tension is likely to increase as the GWOT 
continues. In fiscal year 2003, the Navy plans to purchase 83 new 
aircraft, build 5 new ships, and reconfigure 2 ballistic submarines as 
SOF-capable SSGNs. This procurement pace is well below what would be 
required later in the FYDP in order to maintain the fleet's present 
strength above, on, and beneath the world's oceans. We will need to be 
careful, and maintain the appropriate balance between the funding of 
current readiness and investing in tomorrow's fleet.
    The modernization of our ships and aircraft is vital to maintaining 
our edge in combat since about 60 percent of the ships steaming today 
will still be in the fleet in 2020. The Navy's modernization plan could 
be placed at risk by two factors as we continue to protect America and 
its allies from terrorism. Similar to recapitalization, we must guard 
against under-funding modernization in preference to funding the GWOT. 
Additionally, and perhaps more importantly, the higher expected OPTEMPO 
of our combat platforms means that there will be fewer opportunities to 
upgrade them with advanced sensors, avionics, offensive and defensive 
weapons systems, and information technology.
    Meeting the imperatives associated with our near-term security 
needs could put the Navy's transformation plans at greater risk. The 
events of September 11 and the lessons learned during Operations 
Enduring Freedom and Noble Eagle demonstrate that we clearly are faced 
with a new security environment that demands fundamental changes in our 
military cultures, doctrine and tactics, and combat systems. As with 
the other key components of future readiness, we must make every effort 
to ensure that we can operate in defense of America's freedoms today 
while concurrently preparing the Navy for an uncertain and extremely 
challenging future.
    Finally, we must ensure that funds remain available for the 
recapitalization of the Navy's infrastructure. Quality infrastructure 
is a vital part of ensuring both current and future readiness. 
Unfortunately, the Navy's shore infrastructure condition is less than 
satisfactory. While the fiscal year 2003 budget makes modest increases 
in sustainment, restoration, and modernization and military 
construction accounts, there remains much to be done. We are studying 
this problem and working on a plan to provide out-year funding to help 
mitigate these significant challenges. While funding the war, we must 
not forget about the infrastructure that sustains our sailors and 
ships.

                               CONCLUSION

    The global war on terrorism has clearly demonstrated that the U.S. 
Navy is the world's best, and that our focus must remain on current 
readiness. The Navy's response since September 11 is a testament to the 
agility, lethality, and reach of maritime forces and to the dedication 
and sacrifice of our sailors. Because the Navy operates as a rotational 
expeditionary force, makes current readiness a top priority, and has 
had the strong support of this subcommittee, we can sustain the current 
pace of operations for the foreseeable future. The Navy can also surge 
forces quickly and maintain that level of effort for a few months. 
However, should the pace of the GWOT accelerate, we would be required 
to modify our deployment cycles and reexamine many of our plans and 
programs in light of the changing security environment. If we increase 
the war effort at sea, we would need to make some hard choices that 
might put the fleet's recapitalization, modernization, and 
transformation programs at greater risk. While not ignoring the future, 
a Navy at war must focus on maintaining current readiness. The Navy 
will, with the continued support of this committee, meet whatever 
challenges lie ahead in defense of America. On behalf of our sailors 
and their families who proudly serve our Nation, thank you for your 
support.

    Senator Akaka. Thank you very much, Admiral.
    Lieutenant General Bedard.

 STATEMENT OF LT. GEN. EMIL R. BEDARD, USMC, DEPUTY COMMANDANT 
   FOR PLANS, POLICIES, AND OPERATIONS, HEADQUARTERS, UNITED 
                      STATES MARINE CORPS

    General Bedard. Mr. Chairman, Senator Inhofe, and Senator 
Nelson, it is my privilege today to report on the state of 
readiness of America's Marine Corps. The theme that runs 
through all of our core competencies is readiness. If I may 
recall some language from the 82nd Congress, ``Your Marine 
Corps is designated and designed to be the most ready when the 
Nation is least ready.''
    With the continuing help of Congress and certainly this 
subcommittee, the United States Marine Corps and our Navy 
partners have always been ready to do just that. We were ready 
on September 10th; we were ready in November when we secured 
Rhino in southern Afghanistan; we were ready when we moved in 
to secure Kandahar in a long-range air and ground maneuver; and 
we were ready to move elements of the Fourth MEB Anti-Terrorism 
Brigade into Kabul, as well as into our Nation's capital. We 
are ready today and we will remain ready tomorrow.
    Readiness is comprised of training, equipment, and people. 
Training must produce combat-ready organizations. Our unique 
Marine air-ground task forces that are prepared to deploy 
quickly into austere environments, sustain themselves 
effectively over time, and as the culmination of this process, 
fight and win.
    Our service in Afghanistan attests to the capabilities of 
our forces better than any words could ever attempt to do. When 
the President called, our Marines provided themselves well, 
showed they were trained, adequately equipped, and up to any 
challenge. Our equipment, though aging, was superbly maintained 
and accomplished the mission. Our doctrine of maneuvering from 
the sea base to objectives well inland has been evolving for a 
decade and showed itself to be extraordinarily effective over 
the depth of the battlefield.
    The last and most important element of readiness in both 
peace and war is our people: marines, sailors, civilians, and 
their families. We must ensure they are properly equipped in 
accordance with our focus of expeditionary maneuver warfare, 
and ensure they will be treated fairly and compassionately by 
this country that they so eloquently serve.
    On behalf of the Commandant, I express my appreciation to 
this committee for your consistent support to the Corps. I also 
express our appreciation through you to the American people for 
their unflagging support. The small business people and 
corporations that have provided an opportunity for our 
Reservists to serve in this time of national crisis provide a 
valuable example that we all serve, both in uniform and out.
    I will close by observing that in combat sustaining is 
critical to winning. The same is true for the continued 
financial and readiness well-being of the Marine Corps. We 
depend on that sustainment provided by this subcommittee and 
Congress as a whole. This is a good time to be a United States 
Marine. My written statement addresses the issues of the Corps 
where your continued support is required to maintain our 
readiness and effectiveness.
    I welcome the opportunity of your questions and I 
appreciate being here today.
    [The prepared statement of General Bedard follows:]

          Prepared Statement by Lt. Gen. Emil R. Bedard, USMC

                              INTRODUCTION

    Chairman Akaka, Senator Inhofe, and distinguished members of the 
subcommittee, it is my privilege to report on the state of readiness of 
America's Marine Corps.
    September 11 was a tragedy unlike any this Nation has faced. Never 
before have our citizens been so maliciously targeted, and with such 
catastrophic effects. We've been attacked before, but never have we 
faced an enemy who operates without a homeland. We've been attacked by 
pirates and terrorists before, but never by ones who intentionally 
target civilians with weapons of mass effects.
    The world is, now more than ever, uncertain and dangerous. Now, 
more than ever, the Marine Corps seeks to be a certain force in an 
uncertain world. For generations, the Marine Corps has trained and 
prepared to be ready to defeat America's enemies on short notice. When 
the trumpet sounded on September 11, the Nation's force in readiness 
answered the call.
    There are times when our devotion to readiness puts the U.S. Marine 
Corps at a disadvantage in the continuing transformation and 
modernization dialogue inside the Beltway. Being ready at a moment's 
notice requires focus, dedication, and flexibility. Being ready across 
the full range of conflict requires organizational scalability. Our 
enemies, as we have seen, are unpredictable and deadly. Providing a 
full range of options to the combatant commander has tremendous utility 
in today's environment. What we are, and will always be with your help, 
is ``ready.'' Prior to September 11, it may have been difficult for 
America to understand the value of forward deployed ready forces. I 
know that the distinguished members of this subcommittee understand the 
value of ready forces today, and have always understood; we've seen 
that through the strong support you've always provided. I believe that 
everyone outside this committee, and outside this city now understands.

                 READINESS--WHY THE MARINE CORPS EXISTS

    Let me describe for you the state of Marine Corps readiness as I 
see it from my position.
    Our first priority is, and will continue to be, readiness. Our 
sequence of priorities is ``mission first, marines always.'' Our 
service in Afghanistan attests to the state of that readiness better 
than my words could ever attempt to do. When the President called, our 
marines proved themselves to be well-trained, adequately equipped, and 
up to any challenge. Our equipment, though aging, was superbly 
maintained and accomplished the job. Our doctrine of maneuvering from a 
seabase to objectives well inland has been evolving for a decade, and 
has shown itself to be extraordinarily effective on the modern 
battlefield.

                    VALUE OF FORWARD DEPLOYED FORCES

    We have once again shown the value of forward deployed forces. In 
this era of renewed focus on defense of the American homeland, it is 
perhaps important to reemphasize that defense of that homeland begins 
not on our shores, but on the far shore. Our forward deployed role is 
comparable to a fire warden in a national forest. It is far easier to 
have a fire warden already on scene, see the lightning-caused brush 
fire, and put it out while still small and manageable than it is to 
mobilize national assets once the initial flames become an inferno.
    At times, we will be forced to act in ways that don't impact the 
sovereignty of those in the vicinity of our intended action. Forward 
deploying those ready forces at sea frees us from dependence on access 
to bases in theater or on the permission of a host government. The 
flexibility of a true seabase (as contrasted to units simply embarked 
on shipping) offers immense advantages. A U.S. Navy warship in 
international waters is sovereign U.S. territory. We need ask no one's 
permission or acquiescence in the use of facilities to position and 
employ U.S. forces. When combined with the force protection advantages 
inherent in being underway at sea, forward deployed forces operating 
from a seabase in international waters provides an invaluable option 
for the Joint Force Commander.
 operations in afghanistan--employing operational maneuver from the sea
    In operations in Afghanistan, the Navy-Marine Corps team, and as 
full members of the joint force, conducted the longest amphibious 
assault in the history of warfare. This proved our concepts of 
operational maneuver from the sea and ship-to-objective maneuver and 
was quite unlike the historic amphibious assaults at Tarawa or Inchon. 
We operated from a seabase, reducing our footprint ashore and thereby 
minimizing our force protection requirements and allowing us to operate 
with minimal basing in theater. We supported Special Operations Forces, 
we established bases, we seized and secured facilities. When called 
upon, we did our part to engage and defeat America's enemies.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The Marine Corps, like everyone else, was surprised by the 
September 11 attacks, but we were not surprised by the nature of the 
threat. Over the past decade we have defined a world more chaotic and a 
future strategic environment of increasing uncertainty. We saw the 
premium that would be placed on speed, precision, and lethality; speed 
not only in movement, but also in the ability to respond--to be truly 
expeditionary. We published a new operational concept in January 1996, 
Operational Maneuver from the Sea, and the tactical implementation of 
that concept, Ship to Objective Maneuver later in the same year. In 
November 2001, we published Expeditionary Maneuver Warfare, a capstone 
concept that melded our expeditionary culture, warfighting ethos, and 
organizational concepts within the context of seabasing and our support 
to the Joint Warfighter. Instead of the traditional amphibious assault 
which essentially required seizing a forward operating base on the 
beach and then building up supplies and reorganizing from landing teams 
to combat formations, decisive operations across the entire spectrum of 
military operations from humanitarian assistance to amphibious assaults 
can now be launched directly from the seabase. The seabase will 
transform the way we project power and influence. The integrated 
seabase provides a sanctuary from which fires, command and control, and 
sustainment can flow when and where required without the threats 
presented by land-based forward operating bases.

                      NEW SYSTEMS FOR NEW CONCEPTS

    The new systems we have pursued in measured fashion since the 1980s 
are the keys to executing these concepts in the future. Several of the 
key systems and platforms, production of which has been delayed by the 
procurement holiday, are very close to coming on line and they will 
revolutionize how both the Marine Corps and the Joint Force Commander 
do business.
    In Afghanistan, using our new operational concepts executed with 
aging equipment, marines conducted an operational maneuver from the 
seabase, at distances previously thought to be unattainable. We were 
able to sustain the force primarily from the seabase, freeing us from 
the requirements of force protection in a large rear area. With your 
help, as new systems come on line, we will be free of the need for 
intermediate staging bases that are now required because of the short 
legs of our aging helicopter fleet. In effect, we will have created the 
``maritime'' staging base. With the V-22 Osprey, the Short Takeoff and 
Vertical Landing variant Joint Strike Fighter (STOVL JSF), Advanced 
Amphibious Assault Vehicle (AAAV), and the Expeditionary Fire Support 
System (EFSS), we would have been able to move directly from the 
seabase to Khandahar airport and have a full range of expeditionary 
fires to organically conduct the full range of military operations. 
This will be a revolutionary leap in capability for the Joint Force 
Commander, combining the freedom and sustainment of coming from the sea 
with the long ranges of tilt-rotor and STOVL aviation. Combine our 
traditionally flexible organization, the Marine Air Ground Task Force 
(MAGTF), with these new systems and platforms and you will see a fully 
transformed Marine Corps. This transformation didn't start as a result 
of the QDR, but rather two decades ago, and these systems and platforms 
will soon be ready for fielding through transformational business 
practices in support of our changing concepts, organizations, and 
doctrine.

                SUSTAINING THE CURRENT OPERATIONAL TEMPO

    Because we consistently deploy forces forward to various theaters, 
the Marine Corps has not had to radically change how we operate in 
order to support the global war on terrorism. The cost of employing 
these ready forces that you fund is minimal when compared to other 
options for achieving like capability. We have slightly adjusted 
deployment departure and return dates in order to maintain the current 
Marine Expeditionary Unit (Special Operations Capable) [MEU (SOC)] 
presence in the Afghanistan area of operations, but we have not had to 
deploy units out of their normal sequence or without critical training 
time. There have not been significant PERSTEMPO increases for our 
marines. Of the almost 5,600 marines participating in Operation 
Enduring Freedom, fully 90 percent were already forward deployed or 
scheduled to deploy.
    The Marine Corps can sustain this level of operations indefinitely. 
The real issue for us, as I will address shortly, is the amount of wear 
and tear we are putting on our aging equipment, and ultimately, the 
potential for reduced time between deployments that could impact 
training.
    Our operational commanders are working on contingency plans to 
increase, if necessary, the number of forward deployed units, and to 
support larger contingencies. When needed, our Reserve establishment 
can, as we have already done, assist the Active Marine Corps component 
in supporting ongoing operations. We have seamlessly integrated both 
Marine Expeditionary Force Augmentation Command Elements, two infantry 
battalions, two heavy helicopter squadrons, two aerial refueler 
detachments, and critical skill individuals.

                            HOW YOU CAN HELP

    Having said how well prepared we are, your natural question is 
where, if anywhere, do we need your help? In a phrase, ``modernization 
and transformation,'' and in terms of platforms, amphibious shipping 
and aircraft.
    The Marine Expeditionary Brigade (MEB) is the Nation's premier, 
medium weight, combat credible, sustainable, forcible entry capability. 
Today's amphibious MEB possesses capabilities that no other combat 
force in the world (either on-call today or envisioned for the future) 
has. The ability to prevail in an anti-access environment with a 
forcible entry, then conduct high tempo, full spectrum operations in 
support of U.S. national policy is unique to the MEB.

                          AMPHIBIOUS SHIPPING

    Our amphibious lift requirement has been consistently validated at 
3.0 MEB assault echelons that, in terms of today's ships, equates to 
approximately 45 amphibious ships. We understand the fiscal realities 
we operate within, and have thus adapted to a fiscally constrained 
amphibious lift capability of 2.5 MEB assault echelon equivalents. 
While we cannot achieve 2.5 MEB AE equivalents with current Active Duty 
shipping, use of reserve shipping in the Amphibious Lift Enhancement 
Plan (ALEP) gives the 2.5 MEB AE within 180 days of ALEP activation. 
Unfortunately, as the events of September 11 have shown, we don't 
anticipate the luxury of having a 180-day response time.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    We will be able to achieve our 2.5 MEB lift requirement with an 
all-active force upon delivery of the 12th LPD-17 amphibious ship. 
Ultimately, we see the amphibious fleet consisting of 12 LHDs/LHAs or 
their replacements, 12 LSDs, and 12 LPD-17s in the 2015 time frame. 
While currently short of the 3.0 MEB AE goal, this is a force that will 
provide us, at some risk, the necessary capability to project power in 
an anti-access environment in the near- and mid-term.
    Delivery of the 12 LPD-17 San Antonio-class ships is currently 
scheduled to be completed in 2015. We are concerned about potential 
further slippage in the LPD-17 program. Such slippage could cause us to 
fall well below the 2.5 MEB lift level and leave us without the lift 
required to meet the Nation's needs. We are also concerned with 
replacing the LHA-1 Tarawa-class ships. They will begin to reach the 
end of their 35-year service life in 2011, and considering the time to 
design and build a replacement ship, we need to begin the process now. 
The overall age of the amphibious fleet is also a concern. The average 
fleet age of an amphibious ship is 25 percent older than the average of 
all other Navy ships.

                                  AMPHIBIOUS SHIPPING AVERAGE AGE/SERVICE LIFE
----------------------------------------------------------------------------------------------------------------
                                                            Service life                        Latest scheduled
                Type                   Number in class    (Including SLEP)   Oldest/Youngest    decommissioning
----------------------------------------------------------------------------------------------------------------
LPD.................................                 11                 40            37/32.6               2012
LSD 36..............................                  3                 35            33/29.9               2005
LSD 41/49...........................                 12                 40           17.1/3.9               2038
LHA.................................                  5                 35          25.7/21.9               2015
LHD.................................                  7                 40           12.8/0.6               2041
----------------------------------------------------------------------------------------------------------------

                  MARITIME PREPOSITIONING FORCE (MPF)

    Another equal but unique partner in seabasing that will help us 
project power and influence, and counter an adversary's anti-access 
strategy and the persistent shortage of strategic sea and airlift is 
the Marine Corps Maritime Prepositioning Force (MPF). Today, this 
force, loads leased commercial shipping with a MEB's worth of ground 
equipment and 30 days of supplies and prepositions the shipping in 
strategically located ports around the world. The forces flow into 
theater through a mix of strategic airlift and sealift. The forces 
``marry up'' with the prepositioned equipment and provide the CINC with 
a sustainable, combat capable force. By minimizing the requirement to 
use strategic airlift to flow marine units to theater, utilizing MPS 
saves thousands of sorties of strategic lift. The CINC is thus able to 
employ those sorties elsewhere to speed the deployment of other vital 
members of the joint force.
    Unfortunately, the leases on our ships expire in fiscal years 2009, 
2010, and 2011. We need National Defense Sealift Resources to replace 
this most flexible and cost effective asset. We have developed the 
concept of MPF Future and with your help we will replace the existing 
program. Meeting MPF Future requirements will allow at-sea arrival and 
assembly of forces, selective offload of equipment and supplies, and 
relieve us of the need for ports and airfields, revolutionizing joint 
force deployment and employment. We request your support in continuing 
the MPF Future program and truly transforming the seabase and the 
capabilities for joint force power projection.

                 V-22 OSPREY--OUR TOP AVIATION PRIORITY

    The V-22 remains the Marine Corps' number one aviation priority. 
With it, marine forces operating from the seabase will be able to take 
the best of long-range maneuver and strategic surprise, and marry it 
with the best of the sustainable forcible entry capability.
    We are certainly aware of the challenges associated with the V-22, 
but are pleased that the Under Secretary of Defense for Acquisition, 
Technology, and Logistics has announced that a new comprehensive flight 
test program for the Osprey will commence this spring. This flight test 
effort will be ``event driven,'' as opposed to being ``time driven.'' 
Both the Secretary of the Navy and the Under Secretary of Defense for 
Acquisition, Technology, and Logistics will periodically review flight 
test results to assess the progress of this program. Of this we are 
certain: the V-22 will revolutionize expeditionary aviation and 
represents a mature technology ready for today's environment.

                 STOVL JSF--A NEW WAY OF DOING BUSINESS

    In late October 2001, the contract was awarded for the Joint Strike 
Fighter, signaling a new era in fielding naval aviation. The advantages 
of a stealthy strike-fighter capable of taking off from an 
expeditionary base on land or sea, flying in supersonic cruise, 
accomplishing its mission with advanced sensors and weapons, and 
returning to its expeditionary site are truly revolutionary. This 
aircraft will transform the very foundations of tactical airpower. The 
Short Takeoff and Vertical Landing Joint Strike Fighter (STOVL) variant 
provides operational access to over three to five times the number of 
airfields currently available worldwide capable of supporting our 
legacy aircraft. The STOVL JSF can operate from both conventional 
carriers and amphibious assault ship decks. This effectively doubles 
the number of shipborne platforms available for operations. As these 
highly capable aircraft shift from seabased platforms to expeditionary 
airfields, they can effectively decrease response time for missions by 
75 percent and increase time on station by 50 percent.

                    MODERNIZATION AND TRANSFORMATION

    The Marine Corps has always prided itself on taking care of the 
equipment and property with which we are entrusted. We think we've been 
good stewards of both. We are now at the point with some of our 
equipment and some of our property where it must be replaced.
    Most of the equipment and weapons systems in our command elements, 
ground combat forces, and combat service support units have reached or 
exceeded their programmed service lives. The procurement holiday of the 
past decade was based on the assumption of a strategic pause coincident 
with the end of the Cold War in which we could skip a generation of 
procurement and recapitalize with modern, transformational equipment. 
The global war on terrorism has marked the end of any strategic pause 
and has caused us to operate our equipment at an even higher rate than 
anticipated, as the overall tempo of operations increases.
    The cost of maintaining old equipment is often much higher than 
maintaining a similar piece of more modern equipment. Spares are harder 
to find and manufacturers are less willing to produce components based 
on old technology. The result is much higher costs both in dollars and 
man-hours.
    The majority of our key aviation equipment is older than the 
marines who use it. Our KC-130s are 19 years past their scheduled 
retirement. President Kennedy was in office when our first KC-130F 
rolled off of the assembly line. Our CH-46Es and CH-53Ds are over 30 
years old.
    This is expensive equipment to maintain. For example, on our CH-46 
aircraft, replacement airframe parts do not exist. Every airworthy 
airframe is still in service; there are no retired airframes to use for 
parts. Airframe parts have to be hand-made by a master artisan. Once 
crafted, because the Naval Aviation Depot has never previously 
fabricated the part, it must go through a test procedure. We have the 
same problem with our UH-1N and AH-1 aircraft. One small panel from the 
UH-1 tail costs as much as $5,000 to fabricate and stubwings for AH-1s 
cost $4,700 apiece for temporary repairs.
    The man-hour requirements are even more striking. While our 
maintenance numbers have held fairly constant, it has been on the backs 
of our young marines. The marines who keep our CH-46s flying have had 
to spend as many as 37 maintenance man-hours per flight hour to keep 
them mission ready. Hours spent maintaining aging aircraft are hours 
that are not spent in training or valuable off-duty time. The quality 
of life implications are significant.
    The fiscal year 2003 budget allows the Marine Corps to begin to 
make more robust levels of investment in ground and aviation 
modernization and transformational programs that we have outlined as 
vital to future readiness. However, until this new equipment is 
fielded, we will continue to ensure the readiness of our legacy 
systems. We will continue to take maximum advantage of Service Life 
Extension Programs (SLEPs) that enable us to improve the reliability 
and availability of our legacy systems, as we will be forced to 
continue to invest increasing levels of resources--manpower and 
dollars--in the maintenance of our aging equipment. We ask for your 
support of the increases in our fiscal year 2003 budget request for 
spares, corrosion control and depot maintenance.

                        FISCAL YEAR 2003 BUDGET

    The fiscal year 2003 budget request will, with your help, allow us 
to increase levels of investment in modernization of command and 
control, aviation, and ground equipment such as:
                          command and control
    Exploiting the capabilities offered by long-range aircraft, long 
range fires, operating from a seabase and with full connectivity to our 
Joint and coalition partners poses enormous command and control 
challenges.

        <bullet> The Unit Operations Center (UOC) is comprised of 
        Combat Centers and Combat Operation Centers and will provide a 
        centralized facility to host command and control functionality 
        for the Command Element, the Ground Combat Element, the Air 
        Combat Element, and the Combat Service Support Element. The COC 
        is scalable and supports command echelons for battalion and 
        above.
        <bullet> The Common Aviation Command and Control System (CAC2S) 
        will provide a capability that allows operators to integrate 
        marine aviation into joint and combined air/ground operations 
        in support of Expeditionary Maneuver Warfare, Ship-to-Objective 
        Maneuver, and other operations. It will specifically provide a 
        common suite of tactical facilities, equipment, and interfaces 
        for a system that will replace the legacy command and control 
        equipment currently associated with the Tactical Air Command 
        Center, the Tactical Air Operations Center, Air Traffic 
        Control, Direct Air Support Center, Direct Air Support Center 
        (Airborne), and the Low Altitude Air Defense Battalion.

                      INCREASED TACTICAL MOBILITY

        <bullet> V-22 Program

          The MV-22 Osprey tilt-rotor is a revolutionary, advanced 
        technology vertical/short takeoff and landing, multi-purpose 
        tactical aircraft being procured to replace the current fleet 
        of Vietnam era CH-46E and CH-53D aircraft. The MV-22's design 
        incorporates the advanced, but mature, technologies of 
        composite materials, fly-by-wire flight controls, digital 
        cockpits, airfoil design, and manufacturing. The Osprey is 
        capable of carrying 24 combat-equipped marines or a 10,000 
        pound external load. It has strategic self-deployability with a 
        2,100 mile range with a single aerial refueling. Procurement of 
        the MV-22 remains the Marine Corps' number one aviation 
        acquisition priority.

        <bullet> Advanced Amphibious Assault Vehicle (AAAV)

          The AAAV remains the Marine Corps' number one ground 
        acquisition priority. The AAAV will allow marines to eliminate 
        the battlefield mobility gap and, for the first time in the 
        history of naval warfare, maneuver ashore in a single, seamless 
        stroke giving both the ships and landing forces sufficient sea 
        space for maneuver, surprise, and protection.

                                 FIRES

    With the increased range and speed of the AAAV and the V-22, the 
breadth and depth of the battlefield are increased immensely. We must 
have weapons systems with greater range, lethality, and tactical 
mobility. The LW 155 is one key piece of this new family of fire 
support systems and in conjunction with increased range of the High 
Mobility Artillery Rocket System (HIMARS), we will have full spectrum, 
all weather fires across the depth of the expanding battlefield. 
HIMARS, a very lightweight and mobile system, has the capability of 
delivering very high volumes of rocket artillery in support of the 
ground scheme of maneuver. The family of improved mortars, including a 
new 120mm mortar for the infantry battalion, greatly extends the reach 
and punch of the infantry. Naval Surface Fire Support (NSFS) systems 
such as the Extended Range Guided Munition (ERGM), the 5''/62 gun, the 
Advanced Gun System, and the Naval Fires Control System will provide 
essential fire support during the early phases of the expeditionary 
operation and long-range all-weather fire support during operations 
ashore. Naval Surface Fire Support can spell the difference between 
success and failure in the early phases of expeditionary operations. 
Filling the gap between organic and aviation delivered fires, NSFS is 
vital to all-weather, day and night, precision application of naval 
fires. With enhanced Naval Surface Fire Support and with the 
implementation of the Expeditionary Fire Support System now in initial 
research and development, we will have a truly expeditionary range of 
all weather, day, and night fires. The Ground Weapon Locating Radar is 
necessary to protect our forces from our adversaries' counter-battery 
fires. Again, using Afghanistan as an illustration, mobile operations 
in mountainous terrain place a premium on indirect fires. We, more than 
any of the other services, place great emphasis on the power of close 
air support. Because of our familiarity with close air support, we also 
understand what it can't do. Surface based, indirect fires, whether 
from the land or the sea, are irreplaceable when forces are joined in 
close combat, particularly in the early phases of a seabased operation. 
Nothing else is as responsive to the commander's needs, or as reliable. 
They are not weather or facility dependent. As such, they are a key 
component in continuing to extend the reach and lethality of our ground 
forces. These new ground-based systems, and the seabased fires under 
development by the Navy in combination with STOVL JSF and the upgraded 
Cobra and Huey helicopter provide the Marine Corps a complete family of 
integrated sea, air, and land based fires.

        <bullet> HIMARS

          High on our priority list is to marry precision maneuver with 
        precision fires. We require ground-based fire support which is 
        lethal, mobile, and with long range. HIMARS, the High Mobility 
        Artillery Rocket System, fills this need. The HIMARS will 
        provide ground-based, responsive, General Support, and General 
        Support Reinforcing indirect fires that accurately engage 
        targets at long range, with high volumes of lethal fire, under 
        all weather conditions and throughout all phases of combat 
        operations ashore. It will fire both precision and area 
        munitions and has a maximum range of 60 kilometers.

        <bullet> LW 155

          The Lightweight 155mm towed howitzer is needed to replace the 
        M-198 howitzer that is at the end of its service life. It is a 
        joint USMC/U.S. Army system that will meet or exceed all the 
        requirements of the current M-198 system while reducing the 
        weight from 16,000 to 9,000 pounds. The maximum range using 
        unassisted projectiles is 15 miles and 18 miles using assisted 
        projectiles.

        <bullet> Naval Surface Fire Support

          Expeditionary Maneuver Warfare places unprecedented 
        requirements for long-range, accurate, timely fires in support 
        of the maneuver force. Systems such as the Extended Range 
        Guided Munition (ERGM) will ensure the continuous availability 
        of surface based fires firing during an expeditionary 
        operation. ERGM is a guided projectile fired from cruiser and 
        destroyer guns out to a maximum range of 63 miles. Development 
        of land attack missile technologies will provide a supersonic 
        surface-to-surface missile that will have a range far in excess 
        of naval guns. Combined, they will provide a highly responsive, 
        accurate, all-weather means of attacking critical targets and 
        providing support to deployed marines beyond the range of naval 
        guns.

        <bullet> Fixed Wing Aircraft

          The STOVL JSF will be a single engine, stealthy, supersonic 
        strike-fighter aircraft capable of short takeoffs and vertical 
        landings. It will combine the basing flexibility of the AV-8 
        with the multi-role capabilities, speed, and maneuverability of 
        the F/A-18 to fulfill both the air-to-ground and air-to-air 
        requirements of the Marine Corps.
          KC-130J will bring increased capability and mission 
        flexibility to the planning table with its satellite 
        communications system, survivability enhancements, night 
        systems, enhanced rapid ground refueling, and improved aircraft 
        systems. The KC-130J has 21 percent increased speed and 35 
        percent increased range over current versions of the KC-130. 
        The KC-130J will replace our aging fleet of KC-130Fs, Rs, and 
        Ts.

                    EQUIPPING THE INDIVIDUAL MARINE

    We believe the deadliest weapon on the battlefield is a well-
trained, well-led, and motivated U.S. marine equipped with the finest 
service rifle available. We are seeking to upgrade our service rifle to 
better ensure ``every marine a rifleman'' remains more than an 
institutional belief. Despite my testimony on expensive programs and 
futuristic systems, we remain committed to ``equipping the marine'' not 
manning the equipment, especially in a weapon system, as fundamental as 
the service rifle.

                                TRAINING

    We can have the best, most modern equipment in the world, but 
without highly trained marines to operate and maintain it, we'll have a 
parking lot full of expensive gear. The key to the Marine Corps' 
success is no secret; it's our marines. They are fit, smart, well-
trained, and motivated. They are devoted to their training, their 
country, and their Corps. For over 200 years, they have achieved 
victory over our foes.
    Ensuring these marines' skills are honed to a razor's edge is an 
enduring mission of the Marine Corps. We train hard and efficiently, 
trying to achieve as much combat training as possible at home station 
in order to be efficient with our time and money. Time spent in transit 
to distant training areas is lost training time. A lost training minute 
is never regained. With our forward deployed posture, there is no time, 
nor are there training areas, to retrain and refresh marines prior to 
committing them to either contingency or combat. They leave their home 
stations ready, and we seek to ensure they maintain that readiness 
during their forward deployments through an aggressive exercise 
schedule. These exercises, conducted while forward deployed, hone 
coalition building skills and enhance interoperability with allies and 
coalition partners.

             TRAINING--ENSURING SUCCESS ON THE BATTLEFIELD

    There are few things regarding battle of which I'm certain, but I 
know that combat is chaotic and confusing. I'm also confident that the 
weapons systems and equipment you provide are the best and most lethal 
in the history of warfare. It is essential that we conduct rigorous, 
realistic training to ensure the safety of our marines and ensure we 
impose our will on our enemies. This rigorous training demands we place 
our marines, as closely as possible, under the same stresses, chaos, 
and confusion we envision they will face in combat.
     Rigorous, realistic training can be accomplished in a variety of 
ways, but the best method we've found simulates the way we fight and 
combines live-fire and maneuver. We accomplish this most effectively 
for our service combat training at the MAGTF Training Center at 
Twentynine Palms, California. We must retain the areas where we train, 
particularly those where we train in combined arms in conjunction with 
our Navy teammates. If we can't retain the areas we currently use, we 
must replace them with like or better facilities.
    Realistic, challenging joint exercises are equally important to 
ensure marine forces are fully capable of integrated joint operations. 
As a combined arms force of both ground and air forces, and with our 
close relationship to the U.S. Navy, the Marine Corps fully appreciates 
the synergy inherent in the joint fight and is an active participant in 
these challenging exercise programs. Providing well-trained, service 
unique capabilities is the greatest contribution to joint warfighting 
capabilities and is our Nation's truly asymmetric advantage.
    One of the most important things we can provide our forward 
deployed Navy-Marine Corps teams is confidence in their ability to 
employ all weapons systems at their disposal. Confidence that the 
forward air controller is going to coordinate an effective and safe 
mission, that the ground forces will suppress enemy air defenses and 
direct the trajectories of their projectiles in directions which don't 
hazard the aircraft and that the strike aircraft, will hit the target. 
We can learn the elements of this training in parts, and in multiple 
sites, but that works on the skills and techniques in piecemeal 
fashion, and does not necessarily engender the critical level of 
integration essential for combat readiness. It is absolutely critical 
that the Navy and Marine Corps maintain areas where they can combine 
naval gunfire, artillery, air, and ground maneuver forces 
simultaneously.

    ENCROACHMENT--THE DOMINANT READINESS PROBLEM IN THE 21ST CENTURY

    We note with appreciation the subcommittee's interest in the 
degrading effects of encroachment on combat readiness. Marine Corps 
Base Camp Pendleton is cataloging the combined effects of multiple and 
overlapping regulations and restrictions and how they impact our use of 
our training areas. The United States Marine Corps is proud of our 
record as good stewards of the environment.
    We are prepared to work through the Secretary of the Navy to 
exploit all available measures to ensure our continued access to our 
training areas. We do have concern about two areas. The first is the 
ever-increasing number of regulations based upon the Endangered Species 
Act, the Safe Drinking Water Act, and the Clean Air Act. Subsequent 
designation of Marine Corps training areas as ``critical habitat'' 
poses a great potential for loss of accessible training areas and could 
potentially reduce readiness and increase the cost, in lost time and 
money, for training. The second area of concern is urbanization, 
further limiting the four dimensions essential for training: ground 
areas, air and sea space, and access to the electro-magnetic spectrum. 
Encroachment issues are emerging as one of the dominant readiness 
problems in the 21st century.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
             TAKING CARE OF OUR MARINES AND THEIR FAMILIES

    The greatest single contributor to Marine Corps readiness is the 
motivation and desire of our young marines to be the very best in the 
world. We have 212,000 marines today, 172,600 in the Active Forces and 
39,400 in the Reserve. With your help, we have made significant 
progress in taking care of these young men and women and their 
families. Increases in military pay and benefits, especially basic 
allowance for housing increases, improvements in health care, and 
improvements in on-base housing are key enhancements you have made 
reality. While we recruit marines, we retain families. The young men 
and women we don't retain return to society as solid American citizens. 
They will uphold their responsibilities, and their families are as much 
their responsibilities as their military duties. Medical care for sick 
children, good schools, a chance to save for a child's college 
education are as vital to ensuring our marines' readiness as ensuring 
there is adequate ammunition. A focused marine elicits the best from 
his training, and knowing that his family is well taken care of allows 
a marine to focus.

                    THE MARINE CORPS--A TOTAL FORCE

    It is important to note that the Marine Corps operates as a total 
force, including elements of both Active and Reserve components and 
depends on total force readiness. Our Reserve component is organized on 
exactly the same lines as our Active Force; we have not transferred a 
horizontal capability from the Active to the Reserve Forces. Our 
posture as forward deployed, forces in readiness does not allow us to 
have combat support or combat service support functions primarily in 
the Reserve structure. Accordingly, we strive to ensure our Reserve 
Forces are as well-trained and ready as our Active force. We integrate 
the Marine Corps Reserve Forces into ongoing exercises and training. 
Two Combined Arms Exercises per year are conducted entirely by Reserve 
Forces today. In support of the global war on terrorism, we have 
activated both Marine Expeditionary Force Augmentation Command 
Elements, two infantry battalions, two heavy helicopter squadrons, two 
aerial refueler transport detachments, as well as other staff 
augmentation individuals and units. I would personally like to express 
my gratitude and appreciation for the business owners, companies and 
government offices at all levels who have made it possible for our 
Reserve marines to train and to mobilize in support of our efforts 
against terrorism.

                                 SAFETY

    I personally believe deeply in the concept of the Marine Corps 
family. Just as any parent is concerned with his family's safety, our 
Commandant and every marine leader are focused on safety. As our 13th 
Commandant General John Lejeune stated, ``In the Marine Corps, the role 
of senior to subordinate is not one of master to servant, but rather 
one of teacher to student, father to son.'' I believe that deeply. It 
therefore pains me every time one of our marines is hurt or killed. It 
is especially painful when that injury or death was the result of a 
preventable accident.
    One of our greatest challenges in this area of safety is the basic 
composition of the Marine Corps. Two of three marines are under the age 
of 25, roughly 6 to 8 years younger than the average age of the members 
of the other services. We are a young force, and this is part of the 
culture of the Corps. Our unique force structure has fully 68 percent 
of our marines on the first enlistment at any one time. While 2001 was 
a banner year for safety for the Marine Corps, I cannot say we have 
done as well recently. I am personally focused on this issue, as are 
all marine leaders. We have not found a common thread or pattern in our 
ongoing analyses. Please rest assured that the Marine Corps as an 
institution, and I personally, will not rest until we reduce the level 
of preventable accidents to zero.

                               CONCLUSION

    Marines were the first conventional ground combat forces in 
Afghanistan. We accomplished that feat with superbly trained marines 
and impeccably maintained equipment. While well maintained, that gear 
is old and aging fast due to the higher usage rates caused by the 
ongoing war. We were able to defeat our enemies in Afghanistan because 
we were ready when called. This remains our focus, and our number one 
mission. We need your help in keeping up our old gear, modernizing 
where we can, and taking care of our marines and their families.
    What you saw in Afghanistan is just the beginning of what America 
and the world will see from a fully modernized and transformed Marine 
Corps. Marines moved 600 miles inland with 30-year-old helicopters and 
35-year-old cargo aircraft C-130s. Our marines are ready, our doctrine 
works, and with the new hardware ready to come on line, you're going to 
get a Marine Corps that's leaner, more lethal, and even more ready, 
just like you've expected for 226 years. Only then, it will come with a 
1,000 mile reach. We know that we're really just beginning the hard 
work of the global war on terrorism; the tough targets are in our 
windshield, not our rearview mirror. We need your help to be ready for 
the tough fights ahead. We think we've proved worthy of your continued 
support and ask that you continue to support your Marine Corps as you 
always have. Thank you for giving me the opportunity to address 
readiness--an issue critical to marines and our Nation.

    Senator Akaka. Thank you very much, General.
    General Wald.

 STATEMENT OF LT. GEN. CHARLES F. WALD, USAF, DEPUTY CHIEF OF 
        STAFF FOR AIR AND SPACE OPERATIONS, HEADQUARTERS

    General Wald. Mr. Chairman, Senator Inhofe, Senator Nelson: 
Thank you. In the interest of time, I will defer my prepared 
comments, but I would like to make just a couple personal 
observations. First of all, I would like to thank you and the 
members of the subcommittee for the continued support we have 
in our readiness in the United States Air Force. As the 
commander in Afghanistan for the air war for the first 2 
months, I was a recipient of tremendous readiness of our forces 
and can tell you that we were ready on September 25 to start 
the operation in Afghanistan, which I think is probably 
unprecedented in the history of our military.
    I attribute that to the great support you have given us and 
to the great joint effort that our services have made in both 
this effort and our training in the past.
    I would like to tell you on behalf of the men and women of 
the United States Air Force that we thank you very much for 
your continued support and, now that I am a force provider, I 
look forward to working with the subcommittee in the future to 
sustain our readiness as it is today.
    Thank you.
    [The prepared statement of General Wald follows:]

          Prepared Statement by Lt. Gen. Charles F. Wald, USAF

    Mr. Chairman, members of the subcommittee, thank you for this 
opportunity to provide you with the status of Air Force readiness. As 
the Air Force's Deputy Chief of Staff, Air and Space Operations, I want 
to thank you for your continued focus on the readiness challenges 
facing the men and women in our great Air Force today. We have the most 
respected air and space force in the world, and we are transforming our 
service into the new century while maintaining global readiness and 
warfighting capabilities to support America's National Security 
Strategy.

                                OVERALL

    From the Korean Peninsula to Kabul, across every continent and over 
all bodies of water, Air Force civilian, Active Duty, Guard, and 
Reserve Forces continue to execute their global missions. We had a busy 
year. The Air Force flew over 1,000 sorties over the former Yugoslavia, 
enforcing no-fly zones. In Southwest Asia, a continuous steady-force 
presence of more than 8,000 airmen supported Operations Northern Watch 
and Southern Watch, flying 70 percent of all coalition sorties. The Air 
Force continued support in the ongoing war on drugs over the Caribbean 
and South America, contributing to the seizure of over 75,000 kilos of 
narcotics. Natural disasters in India, Central America, South America, 
and the United States saw Air Force personnel and equipment 
transporting relief supplies, providing medical support and assisting 
in engineering projects.
    The Total Air Force Team was one of the very first to respond to 
the attacks of September 11, and that response continues unabated. Both 
Operations Noble Eagle and Enduring Freedom have seen airmen along with 
our sister services successfully providing humanitarian, combat, and 
support operations.
    Operational demands on the Air Force before September 11 were 
significant. Although we reached significant milestones in terms of 
reducing the effects of high tempo operations, the advent of war 
impacted many of those gains.
    Our situation is more complicated since our aircraft fleet is older 
and more expensive to maintain. Recapitalization of our airframes and 
weapons systems is a partial solution. The Air Force is hoping to 
upgrade our infrastructure and physical plant, which includes 
sustainment, restoration, modernization, transportation, support 
equipment, and communications systems. With the help of Congress, we 
have made considerable progress in addressing pay, benefits, and 
quality of life issues--improved investments for our people.
    We are hopeful that our readiness rates bottomed out in February 
2001 at 65 percent. Fortunately, we've improved to 71 percent this 
year. While this is a marked increase, there's more to do. Whether it's 
well-stocked bins, improved depot maintenance, or available state-of-
the-art equipment, improvements are needed. The Air Force is pursuing 
improvements across all core competencies, for our equipment, 
organizations, and personnel. A readied force is the key to meeting the 
threats and challenges of the future.

                       AIR AND SPACE SUPERIORITY

    The Air Force is investing in a range of systems encompassed in the 
entire Find-Fix-Track-Target-Engage-Assess (F2T2EA) kill chain. Our 
legacy air-to-air platforms continue to be key to this process. We 
continue to pursue modernization of F-15 and F-16 radars, engines, and 
enhanced combat capability to ensure near-term fleet maintenance and 
air superiority in the air-to-air combat environment. We have made 
advances with the Joint Helmet Mounted Sight and the AIM-9X and AIM-120 
next-generation air-to-air missiles. Our greatest advantage with 
current systems is our robust training and exercise program and access 
to 41 combat ranges, essential to our airmen for effective training, 
equipment development, and experience building.
    Several electronic warfare programs support self-defense against 
enemy air defense systems. For example, the Comet Pod infrared (IR) 
countermeasures system will provide pre-emptive protection for the A-10 
against IR surface-to-air missiles (SAMs), enhancing survivability in 
the A-10's low-altitude close air support role. The Air Force is also 
addressing multiple Combat Mission Needs Statements and accelerating 
ramp-up for production of an IR flare, responding to today's air war 
threat in Afghanistan, and providing protection to special operations 
aircraft in combat zones. The Air Force is putting much emphasis on 
countermeasures to protect fighters and bombers from advanced SAM 
threats while increasing the viability and lethality of current 
platforms to conduct operations in the modern radio frequency (RF) 
threat arena. We have numerous, much-needed enhancements on the horizon 
for the critical Combat Search and Rescue (CSAR) mission.
    The Air Force is the designated Executive Agent for Space and has 
begun integrating systems acquisition with operations. To aid in this, 
the Air Force realigned the Space and Missile Systems Center from Air 
Force Materiel Command to Air Force Space Command. The Air Force 
accomplished the first National Security Space Program Assessment and 
will use it to draft our first National Security Space Plan later this 
year.
    The Spacelift Range System modernization program is replacing aging 
and non-supportable equipment, improving reliability and efficiency, 
and reducing the cost of operations at the eastern and western launch 
ranges. Coupled with the Evolved Expendable Launch Vehicle (EELV) 
program, the Air Force will meet the future launch demands of national 
security, civil, and commercial payloads.

                        INFORMATION SUPERIORITY

    Success in achieving information superiority requires an effects-
based approach, superior battlespace awareness, well-integrated 
planning and execution, and properly trained and equipped information 
operations (IO) organization. These ensure our information systems are 
free from attack while retaining the freedom to attack an adversary's 
systems. In coordination with joint forces, the Air Force engages in 
the daily conduct of IO functions across the spectrum of military 
operations, providing security to our Air Force commanders, joint 
forces CINCs, and multinational forces.
    Our operational and tactical command and control (C2) airborne 
platforms and ground assets are in great demand and are in various 
upgrade stages. Our Air and space Operations Centers (AOC), with their 
decentralized component Control Reporting Centers (CRC) and Theater 
Battle Management Core Systems (TBMCS), create a comprehensive 
awareness of the battlespace so that the Joint Forces Air and Space 
Component Commander (JFACC) can task and execute the most complex air 
and space operations across the entire spectrum of conflict. During 
Operations Noble Eagle (ONE) and Enduring Freedom (OEF), TBMCS was 
rapidly deployed to support both CENTCOM and NORAD operations centers. 
TBMCS will evolve into an open-ended architecture capable of 
interfacing with a variety of joint and coalition databases, displays, 
and links.
    Throughout 2001, the Air Force aggressively addressed the need to 
standardize C2 of air and space forces. Our focus is to refine the AOC 
into a standardized weapon system with properly trained operators, 
improving its ability to meet worldwide requirements. Supporting ONE 
and OEF validated our strategic vision for C2 systems. We will continue 
to develop the AOC, keeping it on course to revolutionize the 
operational level of warfare.
    The Airborne Warning and Control System (AWACS) remains our premier 
air battle management and wide-area surveillance platform. Several 
upgrade programs are necessary to address aging aircraft issues, 
obsolete technologies, and the proliferation of advanced adversary 
systems. This year, one third of the AWACS fleet completed an improved 
radar system upgrade, which will reach full operational capability in 
fiscal year 2005. The next upgrade will replace 1970-vintage processors 
and a satellite communications access program will improve connectivity 
with regional and national C2 centers.
    Our limited numbers of airborne intelligence, surveillance, and 
reconnaissance (ISR) systems are in high demand. The RC-135 Rivet 
Joint, U-2, Distributed Common Ground System (DCGS), and Predator and 
Global Hawk unmanned aerial vehicles (UAVs) have proven indispensable 
during OEF and the expanding war on terrorism by providing real-time 
target data, threat warning, and battle damage assessment. The Joint 
Surveillance Target Attack Radar System (JSTARS) will see significant 
upgrades to its computer systems by 2005, while recapitalization and 
modernization efforts promise to keep the RC-135 Rivet Joint and U-2 
viable well into the 21st century.
    We are committed to the production and fielding of Global Hawk as 
the next-generation high altitude airborne ISR platform. In the spring 
of 2001, Global Hawk successfully completed a deployment to Australia, 
supporting maritime reconnaissance and achieving the first trans-
Pacific crossing. Global Hawk was also deployed in support of OEF and 
with advanced sensor development underway, will be able to better 
support the time-critical targeting mission. Demands for the older 
Predator UAV remain high. In fiscal year 2002, the Air Force will 
double Predator aircraft production, accelerating to two aircraft per 
month, adding 40 additional aircraft to the current inventory. The Air 
Force will also stand up a third Predator squadron and begin 
weaponizing the fleet.
    The Multi-Platform Radar Technology Insertion Program (MP-RTIP) 
will allow larger and enhanced air-to-ground surveillance capabilities 
on a variety of platforms, to include Global Hawk, and potentially a 
NATO-manned platform variant.
    Achieving information superiority depends considerably on the 
availability of a robust worldwide communications capability. 
Tremendous efforts are underway to modernize Military Satellite 
Communications (MILSATCOM) systems to keep up with demands. The scope 
and speed of joint operations, including OEF, simply would not be 
possible without MILSATCOM systems such as the Defense Satellite 
Communications System (DSCS) and the Military Strategic and Tactical 
Relay System (MILSTAR). The Air Force awarded a System Development and 
Demonstration contract in November 2001 to design the Advanced 
Extremely High Frequency (AEHF) satellite system, an eventual 
replacement for the MILSTAR constellation beginning in 2006.
    The Air Force is combining efforts with the other services to form 
the joint Global Information Grid (GIG), allowing warfighters, 
policymakers, and support personnel access to information on demand. 
During OEF operations, deployable communications packages were 
successfully connected to the GIG to support combat operations.

                             GLOBAL ATTACK

    The Air Force creates desired effects within hours of tasking, 
anywhere on the globe, including locations deep within an adversary's 
territory. Our B-1, B-2, and B-52 bombers provide the global rapid 
response, precision and standoff strike capability, 24/7 battlespace 
persistence, and a time-critical targeting capability. These platforms 
now carry the highly accurate 2000-pound Joint Direct Attack Munition 
(JDAM) and are being fitted to carry new standoff precision guided 
weapons. Future integration will see inclusion of smaller precision 
weapons. Until the F-22, Joint Strike Fighter (JSF), and Unmanned 
Combat Aerial Vehicle (UCAV) become an operational part of the 
inventory, the Air Force continues to rely on its legacy fighters (F-
15, F-16, F-117, and A-10) to provide the air-to-air and air-to-ground 
capability.
    Consistent with recent DOD Nuclear Posture Review (NPR) direction, 
the Air Force is providing for long-term sustainment of 
Intercontinental Ballistic Missile (ICBM) capabilities. Minuteman III 
(MMIII) ICBMs will be deployed through 2020 and supported by on-going 
life-extension programs, while Peacekeeper (PK) ICBMs will be retired 
beginning this year. As the PK system is deactivated, the Air Force 
intends to transfer some warheads currently on PK to the MMIII, thereby 
avoiding a costly life-extension program on certain MMIII warheads.

                          PRECISION ENGAGEMENT

    The Air Force made significant progress in developing and fielding 
a new generation of weapons that can attack and destroy pinpoint, 
hardened, and relocatable targets at night and in most weather 
conditions while greatly reducing the risk to operators. By rapidly 
adapting new technology employed under actual combat conditions in 
Operations Allied Force and Enduring Freedom, we now have an array of 
precision weapons that can be employed from nearly all our combat 
aircraft. These programs include the Joint Standoff Weapon (JSOW), 
Joint Direct Attack Munition (JDAM), and Wind Corrected Munitions 
Dispenser (WCMD).
    From the Balkans to Kabul, combatant commanders required precision 
capability, not large-scale conventional operations. However, this 
demand reduced our large Cold War reserve munitions stockpiles. OEF 
requirements have depleted preferred precision munitions stockpiles. 
The President's budget for fiscal year 2002 together with supplemental 
requests provided over $1 billion to increase the industrial capacity 
to produce precision weapons and to procure additional weapons. The 
fiscal year 2003 program/budget review also added funding to ensure 
that this increased production would be sustained. It is unlikely that 
we will be forced to source assets from other theaters, which would 
increase the risk to potential operations elsewhere. The Air Force is 
working to increase precision-guided munitions (PGM) capabilities over 
the next several years.
    Precision strike, however, is more than simply very accurate 
munitions. It is also the ability to generate precise effects other 
than destruction. The Air Force is investing in various non-lethal 
weapons, offensive information warfare capabilities, and directed 
energy weapons to enable our military to affect targets without having 
to destroy them.

                         RAPID GLOBAL MOBILITY

    Airlift and tanker aircraft give the United States the ability to 
swiftly reach out and influence events around the world. OEF and ONE 
have again shown the utility of rapid global mobility. We witnessed the 
potential need to provide critical tactical lift capability for 
immediate response at home. Air Mobility Command is undergoing 
comprehensive review of the air mobility force structure as part of an 
on-going effort to assess airlift requirements.
    The procurement of additional C-17s will ensure the Air Force's 
ability to support its 54.5 million-ton miles per day airlift 
requirement. The Air Force needs at least 180 C-17s and will award a 
follow-on multiyear procurement contract to reach that number. Beddown 
plans will be conducted by Active, Reserve, and Guard forces.
    The average age of our KC-135 tankers is now over 41 years and 
operations and support costs are escalating due to a variety of 
factors. Pacer CRAG (compass, radar, and global positioning system) is 
a major overhaul project underway for all Air Force KC-135s, meeting 
the congressionally mandated requirement to install GPS in all Defense 
Department aircraft. The ongoing war on terrorism is further stretching 
the tanker fleet, motivating consideration of accelerating replacement 
options. The Air Force is focused on acquiring the world's newest and 
most capable tanker while increasing availability, fuel load, and 
reliability all with far lower cost.
    Modernization of the C-5 and C-130 fleets is a top priority. 
Avionics modernization, re-engining programs, and multiyear testing 
will bring the fleet up to an improved standard while determining the 
need for additional C-17s or alternatives. New C-130Js will replace EC-
130Es, the most worn-out C-130E combat delivery aircraft, Commando Solo 
platforms, and several WC-130H aircraft throughout the Active Duty, 
Guard, and Reserve units.
    Additional upgrades and improvements to counter-measure defenses, 
CV-22, and VIP Special Air Mission/Operational Support Airlift are also 
planned.

                          AGILE COMBAT SUPPORT

    Much of the deployment strain in support of Operation Enduring 
Freedom has fallen on our expeditionary combat support forces. Some 
high-demand support areas have exceeded their on-call capabilities in 
current AEF rotation cycles as a result of our surge mode activities, 
which are likely to continue for some time. Some Expeditionary Combat 
Support career fields, particularly Security Forces, Combat 
Communications, and Fire Fighters, are highly stressed. Consequently, 
we are continuing to make gains in right-sizing deployment teams so 
that they are postured efficiently and effectively for expeditionary 
needs.
    The fielding of the Integrated Deployment System at all wings has 
improved the readiness of the wing deployment process. The CSAF's 
Logistics Review (CLR) and ongoing logistics transformation are 
reengineering our logistics processes to achieve an agile, effective, 
and well-integrated logistics chain responsive to AEF requirements. 
Other initiatives within the nuclear-biological-chemical and medical 
units are producing meaningful results.

                                 PEOPLE

    People are the most critical component of readiness and our most 
vital resource. As they perform Air Force missions around the world, 
the demands we place on them require highly motivated, highly skilled, 
professional airmen. Continued positive momentum in areas of 
compensation, benefits, recruiting and retention ensure the investment 
in our people.
    The Air Force has enhanced responsive force packaging and provided 
a more stable and predictable deployment and home station scheduling 
environment through implementation of the Expeditionary Air and Space 
Force (EAF). Air National Guard and Air Force Reserve participation has 
steadily increased since Desert Storm, which has created challenges for 
Guardsmen and Reservists balancing civilian careers with increased 
military requirements. Trends show demand for air power will only 
increase; EAF holds promise by giving airmen predictability and 
stability.
    The increased operations tempo resulting from OEF and ONE are also 
reducing necessary training opportunities for the force and are raising 
long-term readiness challenges. Many of our low density/high demand 
assets have limited flying training capacity. For example, operational 
demands have diminished RC-135 Rivet Joint, CSAR, and E-3 AWACS 
airframe, simulator, and instructor availability. The increased number 
of fighters and mobility assets now on alert and unavailable for 
continuation/readiness training could have a serious impact on long-
term readiness.
    Retention will continue to be a priority and a challenge. Stop loss 
and the increased tempo of ONE and OEF may have a negative effect on 
retention--offsets are already being explored. Aggressive campaigns are 
being worked to ``re-recruit'' the force, addressing especially Battle 
Managers and other critical skills. While cockpits are now fully 
manned, rated pilot staff manning has fallen to 51 percent. The USAF 
pilot shortage is expected to continue for at least the next eight 
years until the effects of the 10-year Active Duty service commitment 
for undergraduate flying training are fully realized. ``Re-recruiting'' 
efforts should also help alleviate the shortage sooner.
    The Air Force Reserve exceeded command retention goals for their 
enlisted airmen during fiscal year 2001. Seventy-eight percent of the 
enlisted skills are now receiving re-enlistment bonuses. The 
authorization to pay officer and enlisted critical skills retention 
bonuses should help retain individuals in high demand by the civilian 
sector. The Air National Guard's number one priority is to increase the 
traditional pilot force, which has held steady at 90 percent. Through 
various incentive pay programs, the Guard and Reserve continue to 
pursue substantial enhancements to increase retention in the aviation 
community as well as attracting and retaining individuals to aviation.
    Today, less than 10 percent of Air Force civilians are in their 
first 5 years of service. In the next 5 years, more than 40 percent 
will be eligible for optional or early retirement. In addition, 
downsizing over the past decade skewed the mix of civilian workforce 
skills, compounding the loss of corporate memory and lack of breadth 
and depth of experience. It's critical to maintain the right mix of 
civilian skills to meet tomorrow's challenges. Several initiatives are 
underway to do just that.

                                SUMMARY

    Air Force capabilities provide America with a unique set of 
strengths--asymmetric advantages. However, today's technological 
advantage is no guarantee of future success. Maintaining the current 
leadership position requires addressing aging infrastructure, 
modernizing outdated weapon systems and harnessing technology to 
achieve our vision.
    In closing, today more than 725,000 highly skilled, professional, 
Air Force men and women are proudly supporting freedom's cause. We 
appreciate all this committee has done in helping to address these 
critical issues and look forward to working with you in the future.

    Senator Akaka. Thank you very much for your statement.
    General Wald, your fiscal year 2003 unfunded priority list 
includes $163 million for critical maintenance repairs for the 
B-1B, the B-2, and the F-15. Your justification states that if 
funding is not provided some aircraft will be grounded and 
suggests that there may be serious safety concerns as well. 
What higher priority does the Air Force have than ensuring the 
safety of its pilots and maintaining the ability of its 
aircraft to fly? Why was this funding not included in the 
budget? If additional funding is not provided, what will the 
Air Force do about these problems?
    General Wald. As you stated, there is no higher priority 
than the safety of our people in combat. But in the incidents 
that you stated, the B-1, the B-2, and the F-15, all three of 
those problem areas have arisen since September 11. The B-1 has 
been flying in heavy combat since October 7. There has been a 
structural problem material-wise with the pivot bolt in the 
wing that has been identified since last year's budget.
    On the B-2 in October, an area of cracking has once again 
been identified behind the engine exhaust as something that 
needs to be replaced. We are working on a fix for that as we 
speak.
    On the F-15 flight control problem, the stabilator 
delamination once again has exacerbated itself in recent months 
and, due to the OPTEMPO of that aircraft for homeland defense, 
it is critical for us to maintain the mission-capable rate on 
that particular aircraft as well.
    So we will put money into those three systems based on our 
operational tempo and the need for those three systems in the 
near-term. But ironically, most of those problems have been 
identified just recently.
    Senator Akaka. Thank you.
    General McKiernan, you mentioned the Army's new Strategic 
Readiness System (SRS), which is intended the improve the 
Army's ability to proactively address readiness concerns. Can 
you provide additional details about the system and how 
specifically it will achieve those ends?
    General McKiernan. Yes, sir. We are very excited about 
Strategic Readiness System, because it addresses a challenge 
that the Army has had in assessing readiness of our units. We 
have historically looked backwards at previous time frames to 
assess readiness and only for that specific unit. With SRS, 
which will be a network system, commanders at all levels will 
be able to go into existing databases to look at readiness 
metrics, not only in that unit, but in effect take it from the 
foxhole back to industrial base or recruiting base.
    It allows commanders to look much more holistically at 
current readiness and predictive readiness of those units.
    Senator Akaka. General McKiernan, your testimony discusses 
the shift in the most recent Quadrennial Defense Review away 
from the requirement to fight and win two nearly simultaneous 
major theater wars to the new requirement to conduct small 
scale contingency and high intensity operations simultaneously. 
I would like each of you to describe what impact this shift has 
had, if any, on your service's requirements, and in particular, 
on what you tell your forces to be ready for and how you assess 
readiness against the new strategy.
    General McKiernan.
    General McKiernan. Yes, sir. In the strategic guidance 
provided to us by OSD, it does go away from the old paradigm of 
two near-simultaneous major theaters of war to a much more 
flexible strategy that talks in terms of swiftly defeating an 
enemy, as well as several smaller-scale contingencies.
     First of all, what that means to the Army as we look at 
the adequacy of our structure is that, we, like everybody, have 
to go to a capabilities-based approach, so that forces are 
globally capable of responding to the strategy; and second, as 
we look at the adequacy of our structure, in some cases we find 
we have to either move some capabilities in terms of structure 
elsewhere. It certainly does not decrease our need for forces.
    Senator Akaka. Admiral Krol.
    Admiral Krol. Yes, sir. In general, the major forces that 
we have are capable of supporting the new strategy. The biggest 
difference that the Navy has is that we are a rotational force, 
and as long as we maintain our 12 carrier battle groups with 
the associated support ships and the 12 amphibious ready 
groups, our rotational force can support the new strategy.
    Senator Akaka. General Bedard.
    General Bedard. Sir, from a standpoint of the Marine Corps, 
we believe that our forces have to be capable of fighting 
across the spectrum of conflict. So from a standpoint of change 
to the new strategy and how that affects our forces, we do not 
believe it does.
    The other comment that I would like to make goes back to 
the earlier testimony on readiness: the forces that the Marine 
Corps employed in Afghanistan left the United States before 
September 11, and were certified and trained to carry out 23 
different missions. They were trained and certified to do these 
missions in any place that we might commit them to around the 
world.
    We feel our expeditionary forces have to be capable of 
worldwide deployment and that is the way we train.
    Senator Akaka. Thank you.
    General Wald.
    General Wald. I agree with General Bedard. The Air Force 
maintains a high state of readiness for all of our forces, 
whether they are Active Duty, Guard, or Reserve. I think the 
new strategy and what we have witnessed since September 11 has 
proven out the fact that our forces will be called upon, 
sometimes unannounced, rapidly around the world.
    As we go through this high OPTEMPO based on the September 
11 change in the world situation, the issue we will have to 
watch closely will be how do we continue to train our forces 
for the various missions we will do around the world, not just 
the ones they are committed to now? I think we can fulfil the 
strategy with our readiness levels that we demand for our 
forces. We will have to look closely at how we continue to 
train those forces under the current OPTEMPO.
    Senator Akaka. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. There are so many 
things to talk about, and I know we are not going to be able to 
get to all of them, but I do not want to overlook this one. 
While we are all talking about the war that is going on that is 
so visible to the public, there is another war that has been 
going on for 3 years. I refer to that as the battle of Vieques.
    Admiral Krol and General Bedard, you are very familiar with 
this. First of all, I have spent a lot of time recently going 
to the U.S.S. JFK and the battle group that was deployed from 
the east coast. I was interested in the type of revised 
training they had since they were not able to do live-fire. 
They were able to initially do some training on Vieques, but 
not the integrated training that they wanted to.
    I talked to Commander Rothingham and Colonel LeFebure on 
the U.S.S. Wasp. In fact, they were kind enough to meet with us 
late at night and to go over some of the problems that they 
might have in training. I asked the question, if live-fire is a 
10 in terms of quality of training, what is inert? The response 
was fairly consistent that it is a five.
    We have a commitment to do the very best job of training 
our troops when they deploy. General Bedard, most of your time 
has been on the west coast, except, of course, when you were at 
Camp LeJeune when I was down there. But in terms of this 
training, I would like to have you tell us in each of your 
perspectives what you think about the quality of training that 
we have now as opposed to what we would have if we had the 
live-fire training that we should be having on that range that 
we own. Admiral Krol.
    Admiral Krol. Yes, sir. First, I agree with you completely 
about live-fire training, and I agree with what you were told 
from the ARG-MEU perspective, that live-fire training is, 
without a doubt, a 10 on a scale of 10. We have been prohibited 
from doing live-fire since we had the tragic accident in 1999. 
We continue with that prohibition on live-fire.
    In the recent months, discussion of live-fire has again 
come up. Of course, the CNO and the Commandant have been 
committed to returning to live-fire training. The real issue 
that we have been wrestling with post-September 11 is the 
accelerated deployment of the U.S.S. John F. Kennedy and the 
upcoming U.S.S. George Washington battle groups. These have 
really curtailed our ability to fully utilize Vieques because 
of the steaming time and the need to get those battle groups 
and their associated ARG-MEU on their way.
    The other aspect that makes things difficult is the 
bureaucratic requirements, if you will, that it would take to 
reinstitute live-fire training.
    Senator Inhofe. Admiral, I did not want to get into that, 
because I am fully aware of all of that. I am just talking 
about the quality of training. That is the question.
    Admiral Krol. There is no question that for the air wing 
and naval surface gunfire support, and I will let General 
Bedard answer for the Marines, that the live-fire training is a 
10 out of 10.
    Senator Inhofe. Unified?
    Admiral Krol. Unified, yes, sir.
    Senator Inhofe. That is what your air guys tell me. I was 
on the carriers and they said, ``We can have the best-trained 
men and women in all these different areas, but if they do not 
scrimmage together it is not going to be the team that we need 
to be able to deploy.''
    Admiral Krol. Integrated Joint Taskforce Exercises (JTFX) 
training in Vieques is the best training we can offer.
    Senator Inhofe. Thank you very much.
    General Bedard. Senator, as we discussed, I ran our live-
fire maneuver training site at Twentynine Palms, California. I 
will just unequivocally say that nothing replaces live-fire. 
Our ability as a combined arms team to be able to train and 
integrate all of the fires that are capable of being produced 
by our naval expeditionary forces and to be able to integrate 
them with maneuver is something that is tied inextricably to 
the readiness of the force. It is something that needs to be 
done before our forces deploy anywhere from the continental 
United States, because we cannot assume they are going to have 
an opportunity to train somewhere else. They could be committed 
from the day they leave here.
    Senator Inhofe. I appreciate that, because I have gone to 
other places, such as Cappo del Lata in southern Sardinia and 
Cape Rath in northern Scotland. They are watching what is going 
on. I want to bring the Air Force and the Army in on this, 
because encroachment is a huge problem right now. We have 
talked about this, and certainly you are all aware of that.
    If we allow a bunch of law-breaking terrorists to close 
down a range that we own, that is going to have a domino effect 
on all ranges, domestic and foreign. I would ask both of you 
for your thoughts about your current situation with ranges and 
the deterioration from encroachment of all kinds and how you 
see this in the future.
    General McKiernan. I will begin by echoing everything that 
has been said about live-fire training. There is probably not a 
skill in my mind that is more important than a soldier being 
able to expertly fire his weapon individually and up through 
all the collective levels.
    In the Army, we feel that we have been good stewards of the 
environment. We are concerned about encroachment.
    Senator Inhofe. See, and that is the problem. You have been 
too good stewards. In Camp LeJeune, you do such a good job 
protecting the red cockaded woodpecker that there are more and 
we have more areas that are off limits now. Is that not 
correct?
    General McKiernan. Yes, sir, that is true.
    Senator Inhofe. Maybe you should not do such a good job.
    General McKiernan. Sir, in my most recent experience as a 
division commander at Fort Hood, Texas, we have a bird down 
there, the Vireo, not a particularly attractive bird, but it 
takes up about 33 percent of the maneuver and live-fire space 
at Fort Hood. This space cannot be used. We are not in favor of 
that, and we will really follow the OSD lead in working with 
Congress on encroachment issues. We are fully supportive of 
some of the initiatives that are being worked.
    General Wald. I agree with my colleagues. We have 41 ranges 
that we use in the United States Air Force today, and we are 
working closely with government agencies to ensure that those 
ranges remain open. They will be even more critical in the 
future in areas that we had not really thought of before.
    The frequency spectrum area becomes critical as well in the 
future because of high technology weapons. Some of the 
unintended consequences of a shrinking frequency spectrum 
become issues for the Air Force as well. But I could not agree 
more that without our people trained up in live-fire before 
they go to combat we are going to be not ready to go.
    As we start going back to September 11, we are expected to 
be ready within hours. The United States Air Force has most of 
its force ready to deploy within 72 hours of a crisis. The 
maintenance of a high state of readiness on a day to day basis 
is critical to us and those ranges are critical to us.
    Senator Inhofe. Thank you, General.
    Since we are going to be going into a closed session, let 
me just ask a question of each of you to be answered for the 
record at a later time. But it is very critical right now that 
each of you address this in one way or another. With the 
exception of you, General Bedard, the new budget does not 
really enhance the force structure. I was concerned just after 
the Balkans that the OPTEMPO of the Guard and Reserve meant we 
might be losing critical military occupational specialties 
(MOSs). Now, of course, they are great people and they are 
willing to serve, but there is going to become a time when the 
employers and these people are not going to be able to handle 
the OPTEMPO that the Reserve component is handling right now.
    There was a statement in the from an unidentified senior 
Air Force official who said that the Air Force needs an 
additional 30,000 people. It was broken down between 22,000 
Active, 6,000 Guard, and 2,000 Reservists to meet the future 
requirements. I would like to have each of you respond for the 
record. In the Air Force's case, you might just see whether or 
not you agree with those figures, because this is something we 
are going to have to be dealing with.
    I know we are doing the best we can, but the budget is 
inadequate in two major areas: endstrength and MILCON. If you 
could address that for the record for me, I would appreciate it 
very much.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    General McKiernan. The current operational environment places 
additional demands on the Army that were previously unrealized. Post-
September 11 events have only increased demands placed on the force and 
the Army will likely require an endstrength increase to fully meet 
these demands.
    The Total Army Analysis (TAA) process will determine the size and 
composition of the Army within a constrained budget. The current 
effort, TAA 09, is not complete, but will account for the additional 
emerging requirements in the area of homeland security and the GWOT.
    To address the immediate need, the National Defense Authorization 
Act for Fiscal Year 2002 permits the Department of Defense to allow the 
services to exceed their endstrength by 2 percent in any fiscal year in 
which there is a war or national emergency. Taking full allowance of 
this provision would allow the Army to increase its Active component 
endstrength to 489,600.
    The Army can realistically increase recruiting by an additional 
4,000 soldiers per year in fiscal years 2003 and 2004 and address the 
most immediate needs of the GWOT and homeland security, provide relief 
for Reserve component soldiers, and allow more time to analyze enduring 
requirements.
    The global war on terrorism has validated many of our past 
investments, which are now paying dividends in terms of a trained and 
ready force. But it has also identified some shortfalls where 
additional resources will be needed to sustain a long-term effort and 
guarantee the safety and security of future generations. From that 
perspective, the Army's immediate military construction (MILCON) 
requirements to support current and future operations total about $735 
million. These projects span a range of areas from force protection to 
enhanced training facilities.
    We continue to review and validate force protection MILCON 
requirements, but the current list of qualifying projects totals about 
$110 million. Those projects are comprised of perimeter security, 
access control points, and facilities upgrades to meet specific force 
protection standards for blast mitigation and standoff distance. The 
projects reside in all three MILCON appropriations, with about $45.4 
million in military construction, Army (MCA), $51.6 million in military 
construction, Army Reserve (MCAR), and $13 million military 
construction, National Guard (MCNG).
    Current force protection requirements also include about $113 
million worth of unfunded projects that the Army had intended to fund 
with the fiscal year 2002 Defense Emergency Response Fund (DERF). These 
projects are predominantly cantonment area perimeter fencing which 
complement the upgrade and construction of new access control point 
facilities.
    The global war on terrorism has also intensified the importance of 
other projects that are necessary to insure the readiness of 
operational forces and permit rapid and efficient projection of those 
forces into the fight. Range operations and training enablers such as 
urban assault courses, close quarters combat facilities, and infantry 
squad battle courses are extremely important to the readiness of our 
forces. Current requirements for these training enablers total about 
$114 million.
    Projects necessary for force projection, such as deployment 
facilities, currently total about $88 million. In addition, other 
specific projects that are needed are projects to comply with 
environmental mitigation requirements at Kwajalein Atoll. These 
projects total about $14 million.
    Finally, in order to be able to react swiftly and decisively in all 
future operations, several projects totaling about $276.4 million are 
required to support Interim Brigade Combat Team (IBCT) fielding. These 
requirements continue to be revised in light of emerging operations and 
training issues and the refinement of the various scopes of work, but 
are accurate as of the date of this hearing.
    Admiral Krol. The Navy is deeply committed to providing adequate 
funding to (1) sustain our facilities in a current state of acceptable 
readiness and (2) replace and modernize those facilities, which have 
outlived their useful life and function. This year's budget request 
focuses on providing funding for sustaining facilities in a C1/C2 
condition readiness. Although the fiscal year 2003 MILCON budget 
request is lower than last year's budget, it is the second largest 
MILCON budget request in 6 years. The Navy is developing its future 
year's MILCON program such that the Navy can achieve the DOD goal of a 
67-year recapitalization rate by fiscal year 2007.

    Senator Akaka. Thank you. I thank you very much for rapidly 
moving on this. Let me ask this question and then we will move 
into the next part of our discussions.
    I have appreciated the concerns you have expressed about 
encroachment. As you have noted, a number of factors contribute 
to the problem, including noise, air space, frequency, 
environmental, cultural artifacts, birds, and other 
constraints. What steps are your services and the Department 
taking to identify a comprehensive solution to the issue of 
encroachment that attempts to address all of these concerns?
    How will all of these elements be reflected in the 
legislative proposal that you will be submitting later this 
year?
    General McKiernan.
    General McKiernan. Sir, first of all, we are working with 
OSD, who has the particular group that is approaching the 
issues of encroachment. We support all the initiatives that 
they will bring forward to Congress to ease some of those 
restrictions on our training, not only our live-fire training, 
but also our maneuver training. I am sure that it will come 
shortly.
    In the meantime, in my opinion, we have to maintain our 
effective stewardship of our resources or we will run the risk 
of not being able to train in several of these locations at 
all. But this is really a team effort with all the services and 
OSD.
    Senator Akaka. Admiral.
    Admiral Krol. Mr. Chairman, the General Counsel of the Navy 
is spearheading an effort to identify areas of concern and 
encroachment and put together a legislative package in 
conjunction with OSD. That is the long-term effort. The short-
term effort is that the Navy has a large number of people that 
are working on a daily basis with organizations like the 
National Oceanic and Atmospheric Administration (NOAA), the 
National Marine Fisheries Service, and others. It is a constant 
give and take, and we are trying to show those organizations 
our good stewardship and interests in this area.
    But I think it is going to take legislative relief to 
establish some boundaries.
    Senator Akaka. General Bedard.
    General Bedard. Sir, we have a task group together at this 
time that is doing a number of things. First and foremost, we 
are trying to come up with a very valid assessment of what 
encroachment is doing to our training across the Marine Corps 
at our various installations. Of course, we are working with 
OSD to bring our facts to the table.
    Also, we have developed an outreach program at each of our 
facilities and installations showing what we are doing to, in 
fact, enforce those regulations that are placed upon us and are 
trying to be as forthcoming as we can as to the impact of these 
regulations on our forces.
    Senator Akaka. General Wald.
    General Wald. We, too, are working with local communities 
to ensure that they understand the mission and our effect on 
the environment. Along with OSD, we have a task force to work 
on ensuring that the range encroachment issue does not affect 
our training.
    We have been working with the Department of the Interior, 
as well as the Federal Communications Commission, to ensure 
that spectrum encroachment, which is more subtle, is well 
understood. We appreciate the subcommittee's support as we go 
forward with legislation through our General Counsel this year 
to ensure that spectrum is not encroached upon in our training.
    Senator Akaka. Thank you all for your testimony. Your 
insights today have helped to give us a better understanding of 
the challenges we face in ensuring the readiness of our 
military forces now and in the future.
    While the world focuses on Afghanistan, we have a 
responsibility to take both a broader and deeper view, broader 
in the sense that we must be mindful of the full range of our 
current commitments and deeper in the sense that we must 
balance what we do now against what we want to be able to do 
over the long-term.
    The tragedy on September 11 shifted our national priorities 
and added missions to responsibilities which were already 
demanding for our service men and women. The situation forces 
difficult choices, and we all must grapple with the tradeoffs 
and make responsible decisions to ensure that our forces have 
what they need to do what their country asks them to do today, 
tomorrow, and beyond. We appreciate your sharing your expertise 
with us.
    We are now going to move into closed session, which will 
begin in SR-222 in about 3 or 4 minutes.
    Thank you very much.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                       PLAN TO TRANSFORM TRAINING

    1. Senator Akaka. Dr. Mayberry, your written statement says that 
the DOD has ``recently completed a strategic plan for transforming our 
training that will serve to guide the Department in ensuring our forces 
remain the best trained and most capable in the world.'' I am 
interested in what this strategy entails, how it might differ from 
current training methods, and whether any additional resources are 
required to support this strategy. What is the new strategy, what is 
required to make it work, what training problems is it intended to 
address, and how will it improve our training?
    Dr. Mayberry. What is the new strategy? The Training Transformation 
(T2) Strategic Plan identifies the high-level goals and broad steps 
needed to transform DOD training to meet the needs of the 21st century 
military. The Department's vision for T2 is to provide dynamic, 
capabilities-based training for the Department of Defense in support of 
national security requirements across the full spectrum of service, 
joint, interagency, intergovernmental, and multinational operations. 
The strategic goals are to:

        <bullet> Provide comprehensive and systematic ``joint'' 
        training focused on the operational requirements of the 
        combatant commanders (CINCs) and linked to readiness 
        assessment.
        <bullet> Develop a robust, networked, live, virtual, and 
        constructive training and mission rehearsal environment that 
        enables the Department of Defense to build unparalleled 
        military capabilities that are knowledge-superior, adaptable, 
        and lethal, and predicated upon service, interoperability, and 
        CINC training requirements.
        <bullet> Revise acquisition and other supporting processes to 
        identify interfaces between training systems and acquisition, 
        logistics, personnel, military education, and command and 
        control processes, and ensure that these processes and systems 
        are integrated.

    The training concepts outlined in the Training Transformation 
Strategic Plan are significantly different from those used to conduct 
training today. The approach emphasizes the mission requirements of the 
combatant commanders--the CINC is the customer. The intent is to be 
more output-focused in terms of the training needed to support the 
CINCs' requirements, missions, and capabilities, while preserving the 
ability of services to train on their core competencies. The focus of 
training transformation is to better enable joint operations in the 
future, where ``joint'' has a broader context than the traditional 
military definition of the term.
    What is required to make it work? Significant change often requires 
top down leadership and incentives to reward innovation and proactive 
realignment of resources. The Under Secretary of Defense for Personnel 
and Readiness [USD(P&R)] will organize and chair a T2 Implementation 
forum that will: (1) identify and track the progress of the specific 
tasks, responsibilities, resources, and timelines needed to carry out 
the near-, mid-, and long-term actions listed in the T2 Strategic Plan; 
and (2) establish a T2 Investment Strategy and oversee an Incentive 
Fund that encourages joint innovation, initiative, and substantive 
change. Specific costs of implementing T2 will be defined in greater 
depth in the next 12 months and incorporated into the defense budget.
    What training problems will it address? Joint training must be able 
to support a broad range of roles and responsibilities in military, 
multinational, interagency, and intergovernmental contexts, and the 
Department of Defense must provide such training to be truly flexible 
and operationally effective. Training readiness will be assessed and 
reported, not only in the traditional joint context, but also in view 
of this broader range of ``joint'' operations. Today, the Department 
does not formally plan, assess, and report joint and interoperability 
(service-to-service) training on a broad scale. Joint training and 
education will be recast as components of lifelong learning and made 
available to the Total Force--Active, Reserve, and DOD civilian. The 
Department will expand efforts to develop officers well versed in joint 
operational art. The interfaces between training systems and the 
acquisition process will be strengthened, so that training is not 
considered an afterthought or a bill payer. A forcing function will be 
established to cause explicit consideration of training throughout the 
acquisition cycle.
    How will it improve our training? The Strategic Plan establishes 
the Department's vision, strategic goals, and major steps needed to 
launch and implement the overarching training transformation. The 
lessons from combat teach us that if we are to be joint in wartime, we 
must be joint in our preparation for war. To do so effectively, we must 
transform the way we educate and train the men and women of the Armed 
Forces to ensure they have the knowledge and skills needed for 21st 
century military operations. Transforming training will require a 
higher-level focus--one that is driven by the CINC's operational needs. 
It will also require a different type of education and training 
environment--one that is highly adaptable, globally distributed, and 
synchronized with C\4\ISR [Command, Control, Communications, and 
Computers (C\4\), Intelligence, Surveillance, and Reconnaissance 
(ISR)]. The goal of transforming training won't happen over night, but 
we can do some things in the near-term that will amount to a quantum 
leap in warfighting capability. Additional benefits of investing in 
training transformation will also be far reaching, since training 
provides the foundation for attaining the Department's broader 
transformation objectives.

                 CAPABILITIES-BASED READINESS REPORTING

    2. Senator Akaka. Dr. Mayberry, on page 5 of your statement you 
recommend a ``capabilities-based'' readiness reporting system. How, 
specifically, will this differ from the current system? For example, 
would units report their capabilities to perform both their most 
stressful wartime missions for major theater wars as well as their 
ability to do peacekeeping and other missions? How would that differ 
from the current readiness reporting system where the training element 
is measured against specific wartime tasks? Please give specific 
examples of how capabilities would be both identified and then 
measured.
    Dr. Mayberry. The new Defense Readiness Reporting System (DRRS) is 
based on all DOD components reporting their readiness to meet mission 
essential tasks (METs) or like indicators. This construct requires all 
units to report readiness for their assigned missions, from the 
combatant commander down to the supporting Defense components. Once 
implemented, this approach will allow the Department to review specific 
force readiness to execute a given mission. These missions range from 
high intensity warfighting to peacekeeping operations. For example, a 
unit may be training on 6-to-12 mission essential tasks to support its 
assigned missions. Under DRRS, units are required to report their 
training readiness for each of these essential tasks. A unit could 
report they are not trained in METs supporting a high intensity war 
fight, but are fully trained in those essential tasks required for 
peacekeeping. That information will be visible to the combatant 
commander, who may be depending on that specific unit to execute 
elements of his war plan. The combatant commander could then adjust his 
war plans or call for a substitute unit that is fully trained and 
ready. As such, the DRRS can use this information to identify specific 
risks in executing assigned missions. This differs from the current 
system in a number of ways. Perhaps most significantly, the new DRRS 
covers all DOD components, meaning that readiness to meet mission 
assignments is reported not only by the Military Departments, but also 
by the combatant commanders and the defense agencies. Furthermore, DRRS 
enables a clean trace of METs to missions, and a near real time 
capability for readiness assessment. For the DRRS, ``capabilities'' are 
defined by collections of units and METs.

                         READINESS INITIATIVES

    3. Senator Akaka Dr. Mayberry, your testimony notes the creation of 
a new working group to help clarify the relationship between funding 
and unit readiness. You state that it just finished its first quarterly 
review of OPTEMPO funding. What were the results of that review?
    Dr. Mayberry. The results of the first quarter review of OPTEMPO 
execution did not show any major OPTEMPO execution or unit training 
issues.

    4. Senator Akaka. Dr. Mayberry, what milestones have been set for 
future actions by the new working group?
    Dr. Mayberry. We are in the process of redefining the group 
memebership to include more senior representation (General Officer/
SES). With the new membership, we expect to facilitate the task of 
standardizing the OPTEMPO program and vetting potential new training 
metrics.

                         READINESS EVALUATIONS

    5. Senator Akaka. General Newbold, you testified that you are 
providing your views on the readiness of our Armed Forces to meet the 
national military strategy. Yet the current strategy was issued in 
1997--although it is, as you noted, under revision. Are you, in fact, 
evaluating readiness against a 1997 military strategy, or against some 
other yardstick, or both?
    General Newbold We began last fall to adjust our readiness 
assessment processes to the Secretary of Defense's direction on 
national military strategy as it was unfolding, even though we did not 
have an approved new strategy. The most current readiness assessment 
cycle assessed the readiness of our Armed Forces to meet the strategy 
outlined in the Secretary of Defense's final draft Contingency Planning 
Guidance and the Chairman's draft Joint Strategic Capabilities Plan. As 
the strategy is further refined, I fully expect that our readiness 
assessment process will make appropriate adjustments.

                         SPARE PARTS SHORTAGES

    6. Senator Akaka. General McKiernan, General Bedard, General Wald, 
and Admiral Krol, please provide the latest information you have about 
shortages in critical spare parts, including engines and engine 
components, batteries, etc., as well as your assessment of how the 
funding in the fiscal year 2002 supplemental (if approved as requested) 
and the fiscal year 2003 budget request will address any shortfalls.
    General McKiernan. Critical spare parts shortages continue to 
threaten the readiness of soldiers and equipment. Spare and repair 
parts issues are beginning to show up in the Unit Status Reports. Of 
greater concern is the long lead-time associated with repairing and 
acquiring new spare parts. We began this year with a $1.3 billion spare 
parts shortfall, which we are working with Department of Defense (DOD) 
to fund. We have obtained a $300 million Obligation Authority since 
then and expect an additional $200 million in April 2002. However, we 
currently have a $215 million unfunded requirement (UFR) for the top 
100 aviation spares and $100 million UFR for the top 54 non-aviation 
spares. In addition, we have a $450 million UFR for other readiness 
requirements, $300 million for critical long lead-time parts for the 
fiscal year 2003, and $200 million for future readiness requirements. 
The $300 million provided to date has financed the fiscal year 2003 
recapitalization efforts, and the additional $200 million will be spent 
on aviation parts. We have a resourcing plan for the remaining $800 
million, which will cover the UFR for the non-aviation critical spares 
and other readiness spares, to include funding to increase and 
accelerate production for a critical battery shortage.
    We do not use the term ``readiness'' lightly. A recent Logistics 
Management Institute (LMI) study commissioned by the Army indicates a 
decline in readiness of our aviation fleet and significant increases in 
non-mission capable rates. Demand is growing beyond the anticipated 
rate of sales. There has been a $350 million growth in backorders from 
1997 to present. At the same time, Army Working Capitol Fund buying 
power is eroding. We are working internally and with Office of the 
Secretary of Defense to resolve our shortfall in a number of different 
ways in fiscal year 2002. Whatever part of our fiscal year 2002 
readiness spares requirement is left unsatisfied will carry over to 
fiscal year 2003. The Office of the Secretary of Defense (OSD) has 
plussed up the fiscal year 2003 budget by $100 million through a 
Program Budget Decision; however, it does not go far enough to address 
the significant spares funding shortfall or build essential inventory.
    General Bedard. For fixed wing assets, radar and targeting systems 
have provided the greatest challenge for sustainment of spare parts. 
For our rotary wing assets, transmissions, rotor heads, and hub 
assemblies have been the most challenging to sustain. All of these 
components are critical readiness degraders. Their availability 
requires a combination of a consistent funding stream along with a 
responsive system to meet fleet demands.
    With regard to aircraft engines, parts shortages continue to affect 
various engine programs. In addition, an insufficient inventory of 
engines has affected some of our communities, in particular our F/A-
18As, F/A-18Ds, EA-6Bs, AV-8Bs, and CH-46Es. We are focusing on 
improving our methods of forecasting demands to ensure timely receipt 
of spare parts. Continued investments in engineering, logistics, and 
spare components/modules in fiscal year 2002 and fiscal year 2003, with 
out-year continuances, should yield significant paybacks in improved 
engine availability in fiscal year 2005 through fiscal year 2008, with 
reduction in required repair dollars in fiscal year 2008 beyond.
    Marine Aviation funds the replenishment of spare parts from Flight 
Hour Program (FHP) account. In both fiscal year 2002 and fiscal year 
2003, the FHP was funded to the stated CNO goal of 89 percent. Our APN-
6 account, which provides funding for new allowances and increases in 
spare parts, is funded at 98.5 percent in the fiscal year 2003 
President's budget. We expect this level of APN-6 funding to provide 
more robust support for our deployable units. CONUS units have suffered 
from recent spare shortfalls, as we direct spare allowances to forward 
deployed units. 
    The combination of additional fiscal year 2002 funding and 
requested fiscal year 2003 President's budget funding will enable 
Marine Aviation to improve the spare deficiencies and lead to improved 
readiness rates.
    Regarding our inventory of ground equipment, the Marine Corps does 
not currently have a shortfall with regard to funding of depot level 
repairables at the wholesale inventory level. Additionally, the retail 
inventory level should not experience significant shortfalls based on 
their current inventory level and financial resources due to the 
recently completed Integrated Logistics Capability Centralized 
Management of Secondary Repairables initiative, which established 
required retail stock levels. The Marine Corps has experienced 
difficulty in obtaining certain repairables, primarily in the 
communications and electronics commodity, due to diminishing 
manufacturing and/or repair sources. Additional funding may be required 
to alleviate shortages in critical repair parts until new replacements 
are in stock and fully integrated into the supply pipeline. If 
additional funding is needed, it will be identified through our 
resource requirement processes.
    General Wald. Improved spares funding is making a positive 
operational impact in the Air Force. The Air Force requested an 
additional $222 million in the fiscal year 2002 supplemental to 
reimburse the Air Reserve Forces for incremental flying hours flown to 
support the war on terrorism. Flying hour spares requirements received 
substantial funding for fiscal year 2003, to include $450 million to 
address both consumables and depot level repairable spares issues 
associated with supporting aging aircraft. In addition, the fiscal year 
2003 budget includes additional dollars for 11 spare engines for the C-
17, and 4 spare fighter engines, 2 each for the F-15 and F-16. This 
funding will allow the Air Force to see continued improvements in 
readiness indicators.
    Admiral Krol. The most pressing need for Navy spares falls into two 
categories: spares to support equipment installed on Navy ships and 
spares to support Navy aircraft. Projected spares requirements 
following September 11 were approximately $435 million. $150 million 
was received in DERF funds, leaving a balance of $285 million which 
remains unfunded. Requirements reflected in the $34 million 
supplemental request are considered ``must funds.'' These must funds, 
if received, will be used primarily for incremental requirements driven 
by the war on terrorism. Whatever remains as an unfunded after the 
supplemental is received, the Navy will need to assess the criticality 
of each requirement against other competing requirements and may need 
to reprogram funds accordingly.
    Spares are placed aboard ship to support installed equipment. This 
is done so that repairs may be initiated and completed immediately. 
Without these spares, requisitions must be sent off-ship. Every time a 
requisition is sent off-ship and/or off site, the warfighter 
experiences some degree of customer wait time. This waiting means that 
the weapon system in question is either down or degraded to some 
extent. Simply put, readiness is degraded when waiting for a part. 
Supporting the range and depth of shipboard allowances improves 
readiness, surge capability, and sustainability.
    Supplemental funding would also be used to purchase aviation spare 
parts. This includes spares for such aircraft as the E-2C Hawkeye and 
F/A-18 Hornet. Both aircraft are flying longer hours and experiencing 
higher demand for spares. Ensuring we provide the warfighter sufficient 
spares to sustain deployed forces, as well as non-deployed, is 
paramount to Navy's readiness and surge capabilities.
    Without sufficient funding, readiness degradation will first occur 
among non-deployed forces since protecting our deployed units is our 
first priority. Consequently, protecting deployed readiness when 
insufficient funds are available has historically resulted in fewer 
parts to support the inter-deployment training cycle for future 
scheduled deployments.

                     COMPREHENSIVE LESSONS LEARNED

    7. Senator Akaka. General McKiernan, General Bedard, General Wald, 
and Admiral Krol, our military operations in the post-Cold War world 
have proven to be diverse and challenging in many ways. What lessons 
have you begun to derive from our ongoing operations in the global war 
against terrorism, and perhaps more importantly, how do these relate to 
the lessons that we have learned from other major operations in the 
last 10 years?
    General McKiernan. Our review of the war on terrorism--and the 
diverse set of real challenges faced over the past decade--underscores 
our analysis that complex and compelling threats to our national 
security remain on the strategic horizon. These threats take a variety 
of forms and possess a diverse array of dangerous capabilities. Threats 
range from irresponsible state actors armed with potent conventional 
forces and Weapons of Mass Destruction (WMD) to more amorphous but no 
less threatening non-state entities pursuing their objectives outside 
the boundaries that long govern state behavior. The most recent 
undertaking indicates that the Nation will likely confront a multitude 
of stacked challenges occurring in rapid succession in discrete, often 
isolated, theaters. Each successive event will compound the complexity 
of the strategic choices facing civilian and military decision makers.
    Our lessons from operating in this environment over the past decade 
brings five valuable strategic lessons to the forefront: (1) The world 
looks to the United States for leadership in a crisis even to the point 
of hazarding inaction without our participation; (2) Only the U.S. 
possesses the requisite capabilities to undertake sustained, large-
scale military operations worldwide to affect decisive resolutions; (3) 
U.S. interests will increasingly be threatened by complex state and 
non-state challenges leveraging asymmetry, ungoverned sanctuary and 
finally, unconventional methods, capabilities, and command structures; 
(4) Securing interests, influence, continued prosperity, and the safety 
of the American population requires dominant, robust, and responsive 
full-spectrum forces; and (5) The U.S. gains significant advantages by 
working closely with allies and friends to build strong relationships 
and common approaches to complex problems.
    Our recent past and current circumstances confirm the conclusions 
arrived at in the most recent joint vision. Today, ``fighting and 
winning the Nation's wars'' implies far more than a large-scale joint 
combat operations against capable conventional military opponents. 
While this remains the most compelling and challenging joint 
requirement, it only represents a single point on a broader spectrum of 
conflict. In an increasingly complex security environment, populated by 
a diverse range of opponents, ``fighting and winning'' more accurately 
implies dominating the full-spectrum of threats and challenges-from 
peace to war. Full-Spectrum Dominance seeks to prevail decisively over 
every possible opponent, mastering every step an adversary might 
attempt in escalation. Doing so requires the capability to operate 
under a variety of challenging conditions and in a number of complex 
competitive arenas. A full-spectrum dominant force must be as capable 
of replacing an irresponsible and aggressive regime, as it is 
comprehensively destroying a complex non-state entity or assisting in 
the decisive reduction of ungoverned sanctuary. Not only must the joint 
force be capable of swiftly defeating the initial efforts of 
irresponsible actors but further, it must retain the capability to 
undertake sustained, combat operations to decisively defeat full-
spectrum opponents and establish and maintain the security conditions 
necessary for enduring crisis resolution.
    Recent experience--with its increasingly apparent demand for full-
spectrum forces--confirms the imperative to transform. Transformation, 
however, must be undertaken not with a view of prevailing against those 
opponents we would prefer to confront but rather, to defeat those 
adversaries we will certainly be required to confront to secure the 
Nation's interests into the future. The Army is 3 years into a 
transformation focused on optimizing land forces for decisive action 
across the range of military operations. This transformation is driven 
by the demands of a complex environment and is enabled by leveraging 
innovation, leadership, the power of each individual, and advanced 
technology to create a deployable, versatile, lethal, survivable, 
agile, and supportable land force--dominant across the full-spectrum. 
Army transformation is underpinned by cultural changes as well-changes 
in the way we fight, in the way we are organized, and in the way we 
conduct our business practices--in short, changes that will 
institutionalize Army transformation as a continuous process.
    Our most recent experiences in Afghanistan, Pakistan, Yemen, the 
Balkans, the Philippines, and our own homeland prove unequivocally that 
the nature of war remains unchanged--fundamentally, a contest of human 
will, waged in pursuit of power and control over territory, 
populations, resoures, and ideas. Further, it is clear that today's war 
on terrorism is not an aberration but rather a clear indication of the 
persistent conflict that will increasingly encroach on the security of 
the United States and its interests. The Nation and its Armed Forces 
are discovering that while it is imperative that we remain prepared to 
defeat those threats applying decidedly conventional approaches to 
warfare, our responsibilities further demand that we optimize to 
confront threats across a broader spectrum. The Army understands that 
our first priority is winning large-scale combat operations against 
capable state opponents. However, the war against terrorism has proven 
unambiguously that paramilitaries, factions, sects, and tribes vice 
traditional armies are just as likely to threaten American interests in 
strategically significant ways. Therefore, the Nation demands a joint 
force comprised of versatile units capable of sustained operations to 
affect their decisive defeat as well. While there is an allure to 
leveraging platforms over people, a decade of experience has shown that 
the vast majority of antagonists leverage people as their comparative 
advantage. Therefore, only robust full-spectrum forces, properly 
trained and equipped, are likely to master the wide variety of 
challenges the Nation is likely to face.
    General Bedard. Lesson 1: Our plans for transformation are on 
track, based on the feedback we have gathered from Marines throughout 
the Marine Air-Ground Task Force (MAGTF). We were previously asked if 
our transformation plans had been altered by what we had learned to 
date in the global war on terrorism, and our response there applies 
aptly to this question as well. Operation Enduring Freedom (OEF) has 
solidified our view that Marine forces are uniquely suited for the type 
of enemy encountered during Operation Enduring Freedom. Our 
expeditionary warfare capability gave the Nation the ability to 
immediately meet the enemy, operate from his terrain, and defeat him. 
Marines relied heavily on our expeditionary ethos, maneuver warfare 
philosophy, and naval heritage, resulting in an ability to operate 
miles from the battlefield, deep inland, without the reliance on static 
land bases. Sea-basing Marines and their assets gave commanders a 
secure platform from which to operate and a reliable source of support. 
Our planned transformation, identified a decade ago and adjusted from 
operational experiences since then, improves dramatically the 
capabilities showed during OEF.
    Lesson 2: Marine forces are a genuine joint force enabler, 
providing the joint force commander a wide variety of service-unique 
assets for immediate tasking. During OEF, the Marine Corps arrived in 
theater quickly with a capable force, fully prepared for integration 
into the joint environment. Marine units provided helicopter support 
for U.S. Army units and Special Operations Forces (SOF), and Marine 
fixed-wing aviation operated jointly with carrier-based Navy aircraft. 
Marine Expeditionary Units (MEUs), containing elements from all 
warfighting areas--command and control, aviation, ground combat, and 
combat service support--provided combat forces for operations, 
logistical support for other service forces on the ground, and command 
and control functions for a joint task force. The Commandant of the 
Marine Corps (CMC) has thoroughly addressed this issue in a recent 
article entitled ``Strength in Diversity,'' published in the April 2002 
issue of the Armed Forces Journal, saying that the services must 
continue to provide unique and complimentary capabilities to preserve 
the Nation's warfighting advantage. As pointed out by the CMC, CINCs 
will continue to look to employ Marine forces when the joint force is 
faced with an objective area with limited infrastructure, lack of fixed 
ports and bases, and austere conditions.
    Lesson 3: Joint commanders need a rapidly deployable and dedicated 
anti-terrorism force. In response to this requirement, the Marine Corps 
established the Fourth Marine Expeditionary Brigade (Anti-Terrorism) 
[4th MEB (AT)], a powerful combined-arms team prepared for worldwide 
anti-terrorism operations. The 4th MEB (AT) provides dedicated 
personnel with the requisite expertise to deter, detect, defend, and 
conduct initial incident response to combat the threat of worldwide 
terrorism. The 4th MEB (AT) merged the existing capabilities of the 
Marine Security Guard Battalion, Marine Corps Security Forces 
Battalion, and Chemical Biological Incident Response Force, and added 
an organic air component, combat service support element, and an 
infantry battalion, as well as a command element with dedicated 
planners, coordinators, and liaison officers. The 4th MEB (AT) is 
capable of conducting missions worldwide and is intimately woven into 
the ongoing homeland defense effort.
    Lesson 4: USMC support of Special Forces was limited due to 
insufficient training with one another prior to OEF. The Aviation 
Combat Element (ACE) of the MEUs had not trained with SOF units prior 
to arriving in theater. The ``workarounds'' to this situation included 
the units briefing their capabilities and limitations to each other and 
the use of individuals functioning as liaison officers. To fully 
develop the relationship between the ACE and SOF units, deploying MEUs 
may introduce SOF integration training as part of the MEU (SOC) pre-
deployment training package (PTP).
    Lesson 5: Precision Guided Weapons/Munitions were the weapons of 
choice for Operation Enduring Freedom, specifically the novel use of 
JDAM as a close air support (CAS) weapon. Although generally effective, 
the use of Joint Direct Attack Munition (JDAM) had a number of 
limitations that will require immediate attention. There were several 
fatal friendly fire incidents, most involving JDAM CAS. Many Tactical 
Air Control Parties (TACP) did not expect to use JDAM for CAS, let 
alone CAS at ranges considered ``danger close,'' and TACPs were not 
thoroughly familiar with the procedures used by other services to 
report friendly locations, enemy locations, and direct the final 
approach of bomb-laden aircraft. Additionally, Marine TACPs have 
reported a requirement for an improved, lighter-weight device for 
designating targets for precision-guided munitions. The Marine Corps 
will continue to work with the other services on a joint tactics, 
techniques, and procedures manual that addresses the lessons learned 
from OEF. Finally, the Marine Corps will continue to work to improve 
live opportunities for close air support with all services and 
aircraft, using combat munitions, tactics, and procedures.
    General Wald. We have learned that unprecedented persistence and 
speed of execution can deny sanctuary to terrorists. In this particular 
environment and against this enemy, we also acknowledge the challenge 
will be more difficult against a more modern and sophisticated air 
defense and in jungle or urban terrain. But, our success addresses one 
of the six key Quadrennial Defense Review Transformation initiatives: 
``Deny enemies sanctuary by providing persistent surveillance, 
tracking, and rapid engagement.''
    This persistence of air and space power in Afghanistan is 
unprecedented. Since the earliest aerial engagements, airmen have 
always sought to attain air superiority as the enabler for the freedom 
to maneuver and the freedom from attack from above. In the Afghanistan 
area of operations, coalition air forces quickly achieved air 
superiority--literally within the first few hours. Once the coalition 
destroyed enemy fighter aircraft and ground-based radars and related 
air defense threats, the Combined/Joint Force Air Component Commander 
(C/JFACC) began to exploit the advantage. He optimized ingress and 
egress routes for fighters and bombers, allowed aerial refueling 
aircraft and other high-value aircraft to orbit much closer to the 
action than otherwise, and extracted leverage from technological 
advances that expedite the sensor-to-shooter ``kill chain.'' The 
results are unprecedented persistence over the battlespace and speed of 
execution as reflected in the nearly constant presence of overhead 
platforms capable of sensing enemy actions and reacting within minutes 
to produce an intended effect. There are intelligence, surveillance, 
and reconnaissance platforms overhead, some manned and others unmanned, 
as well as fighters or bombers loaded with precision-guided weapons and 
fully capable of loitering or maneuvering-literally with impunity. This 
unprecedented persistence enables the C/JFACC to make targeting or 
attack decisions, or when necessary, to make recommendations to 
appropriate authorities, within minutes. As stages of the familiar OODA 
loop (observe--orient--decide--act) are compressed to permit faster, 
more agile decision-making, the C/JFACC is a direct beneficiary. Just 
as importantly, various other attributes contribute to success under 
persistent air superiority.
    Air and space superiority remains the key enabler for persistent 
ISR and precision strike capabilities. Key to a sanctuary denial 
strategy was our ability to loiter high-value assets, like AWACS, Rivet 
Joints, Joint Stars, U-2s, and UAVs, as well as tankers, bombers, and 
fighters persistently over the battlespace. We were also able to 
infiltrate, support, and exfiltrate entirely by air. Our special 
operations forces behind enemy lines conducted strategic 
reconnaissance, direct attack, and unconventional warfare missions 
directly supporting the larger ISR and precision strike efforts. Air 
and space superiority enabled not only that strategy, but also those 
missions.
    Near seamless integration of targeting-quality information sharply 
reduces the ``kill chain.'' Our investment strategies for ISR, 
communications, ground- and air-based sensors, coupled with efforts to 
organize, train, and equip the combined air operations center (CAOC) as 
a ``weapon system'' have resulted in unprecedented speed of execution. 
Our ability to find, fix, track, target, engage, and assess (F2T2EA) 
emerging targets is vastly improved . . . enhanced even more by special 
operations forces. We expect further improvement by relying more on 
machine-to-machine horizontal integration of sensors and shooters.
    A combination of ``eyes on the ground'' and all-weather weapons at 
their command enables rapid and precise surveillance, tracking, and 
target engagement. Air Force combat controllers working with Army 
special forces and other personnel proved to be an important enabler. 
Enhanced bombing effectiveness, demonstrated resolve, compliance with 
rules of engagement (ROE), immediate battle damage assessment (BDA), 
and airspace control were some of the key benefits ultimately resulting 
in a regime change. Versatile all-weather global positioning system 
(GPS) satellite-guided 2,000-pound class JDAMs greatly reduced weather 
and underground sanctuaries. Moreover, we had ``airmen'' on the ground 
empowered to execute and command other ``airmen'' in support of 
counterland missions to achieve specific effects.
    A versatile, flexible, and expeditionary force can rapidly deploy, 
seize the initiative, defeat a regime, disrupt key terrorist activity, 
and deny sanctuary. By relying upon the Air Force's expeditionary 
aerospace force (EAF) concept, and by pursuing effective recruiting and 
retention initiatives, the expeditionary forces are postured for 
success. 
    In comparison to other major operations of the last 10 years, such 
as Operation Allied Force, we fought these operations with a different 
U.S. Air Force--in terms of strength, equipment, force deployment, and 
other factors. We underscored the success of these operations with 
modernization and extraordinary acquisitions in new weapon systems. The 
Global Hawk, extended tether to U-2s, Predator's streaming video feeds 
to AC-130s and elsewhere, ability to exploit Blue Force Tracker and 
other capabilities made a substantial difference in our ability to 
prosecute this exceptional operation. Cross-cueing between several 
intelligence, surveillance, and reconnaissance sensors and weapon 
system platforms has widened perspectives and enhanced operational 
decision-making. The C-17 has again confirmed its exceptional 
contribution to air mobility by relying upon its capabilities of reach, 
airlift capacity, and flexibility. Delivered by long-range bombers and 
tactical fighter aircraft, the joint direct attack munition, guided by 
global positioning satellites, provided uncanny accuracy and enough 
precision to deny sanctuary to the Taliban and al Qaeda--despite caves, 
weather, dirt cover, or difficult locations in urban centers. Over the 
last decade, the favorable trend continues; we have developed greater 
and greater capability to deny the enemy sanctuary--regardless of his 
location or cover and in any kind of weather.
    We have stood up Task Force Enduring Look to gather data and 
information and to learn lessons that will apply in future operations. 
But, our Air Force Chief of Staff often quotes the U.S. Navy Chief of 
Naval Operations, who said, ``This war is like this war. It ain't like 
the last one, and it ain't like the next one. It is like this one.''
    Admiral Krol. While we continue to study and analyze the lessons 
from OEF, early analysis indicates that this is a war where the Navy 
was crucial to every facet of operations, all in this land-locked 
country, far from the sea.

Lessons learned from Operation Enduring Freedom have highlighted that 
this was:

        <bullet> A strike war where carrier-based airpower was the lead 
        player in tactical strike.
        <bullet> A SOF war where Naval Special Warfare (NSW) forces at 
        times constituted the majority of U.S. Armed Forces in country;
        <bullet> A coalition war where the Navy led the maritime 
        coalition of 11 nations, and the Naval Special Warfare Group 
        led coalition SOF in Afghanistan as Task Force K-Bar.
        <bullet> An expeditionary war where the Navy's immediately 
        deployable and employable nature was a major factor in the 
        ground war in this land-locked country. For example, for a 
        period of time there were more sailors in Afghanistan, a land-
        locked country hundreds of miles from the sea, than there were 
        soldiers, airmen, or marines. Besides Naval Special Warfare, 
        other Navy forces contributed significantly to operations 
        ashore:

                <bullet> Carrier-based HH-60s were deployed ashore to 
                provide Combat Search and Rescue capabilities to joint 
                forces;
                <bullet> The Navy's rapidly deployable and full-mission 
                capable Explosive Ordnance Disposal were the EOD force 
                of choice;
                <bullet> The Navy provided the first significant 
                medical capability in Bagram and Kandahar;
                <bullet> Navy Construction Battalions (SEABEEs) built 
                up the runway at Bagram and repaired the runway at 
                Kandahar to facilitate the ingress of forces from the 
                other services, and built the detainee facility at 
                Kandahar;
                <bullet> Mobile Communications Teams supported Naval 
                units around the country; and
                <bullet> For a significant period in the war, the Navy 
                provided tactical weather services for all in-country 
                forces.

        <bullet> Hence, like the ``Sand Pebbles'' days of old, this war 
        marked the return of the ``Expeditionary Sailor.''

The Navy was also a critical player in several turning points of the 
war, including:

        <bullet> Navy TACAIR supporting Dostam's taking of Mazar e 
        Sharif and motivates other warlords to move out.
        <bullet> The Navy/Marine Corps team (Task Force 58) inserting 
        into Camp Rhino, breaking the Kandahar stronghold stalemate.

In the first 6 months, the Navy contribution has been enormous. As of 
early April 2002:

        <bullet> More than half the active carrier force (6 of 11) has 
        deployed and been engaged in combat operations (Enterprise, 
        Vinson, Kitty Hawk, Theodore Roosevelt, Stennis, and Kennedy);
        <bullet> 4 of 12 Amphibious Ready Groups have been engaged 
        (Peleliu, Bataan, Bonhomme Richard, and Wasp);
        <bullet> 60,000 sailors and marines have deployed to CENTCOM 
        cumulatively (with about 31,000 present today);
        <bullet> 13,000 Navy and Marine reservists have been mobilized;
        <bullet> The Navy has flown 7,000 strike sorties (and has flown 
        11,000 total sorties);
        <bullet> The Navy dropped 5,000 PGMs, 600 unguided munitions, 
        and shot 88 Tomahawks;
        <bullet> The Navy conducted more than 6,900 Maritime 
        Interdiction Operations and Leadership Interdiction Operations 
        ``queries''; and
        <bullet> The senior U.S. military official on the ground in 
        Afghanistan for almost a month was a Navy admiral.

But the war also brought its share of challenges:

        <bullet> Although the percentage of naval forces underway and 
        deployed have remained near historic averages, with 40-50 
        percent underway and about 30-35 percent deployed, the 
        operating tempo (OPTEMPO) of deployed units is up sharply, with 
        steaming days up about 50 percent (from 54 days/quarter to over 
        80), and flying hours of deployed units peaking at about 250 
        hours/day, and averaging about 115 hours/day; and
        <bullet> The strike effort has stressed our precision-guided 
        munitions (PGM) inventories and aircraft engine pools.
Comparing Lessons Learned From Operation Enduring Freedom and Operation 
        Allied Force
    The Navy comparison of OEF lessons learned with Operation Allied 
Force (OAF) lessons learned indicates that the Navy has effectively 
implemented most of the lessons from the earlier conflict.

Areas where the Navy has improved significantly since OAF:

        <bullet> Navy forces leveraged TACAIR responsiveness inside the 
        Air Tasking Order planning cycle;
        <bullet> The Navy contributed significantly to airborne 
        surveillance and reconnaissance in Afghanistan; and
        <bullet> The Navy developed several TACAIR doctrine 
        modifications to allow us to use carrier-based air in ways 
        never before envisioned, including through-the-weather weapons 
        delivery, Navy fighters passing target coordinates to Air Force 
        bombers, and coordinated remote lasing tactics.

    However, there are still some lessons from Operation Allied Force 
that have not yet been adequately addressed. Some will require years of 
effort to fix, while others can be improved upon in the near-term:

        <bullet> The United States still does not possess enough UAVs, 
        and the Navy does not possess organic UAVs. Even if the number 
        of UAVs is increased, the U.S. military does not have 
        sufficient bandwidth to take advantage of the number of UAVs we 
        would need to replace even a modest number of manned aircraft;
        <bullet> We need to improve interoperability with allies for 
        networking, particularly aboard ship;
        <bullet> There is still a shortage of GPS munitions;
        <bullet> There is still a shortage of linguists, targeteers, 
        and analysts;
        <bullet> There continues to be a competition between conflict 
        and war-time reserve munitions; and
        <bullet> The single significant limiting factor to conducting 
        operations in both wars was a lack of timely intelligence of 
        sufficient granularity to identify and seize key leaders or 
        make informed operational decisions. This kind of action 
        requires people on the ground--national systems do little to 
        provide the kind of information needed to apprehend bright 
        people who don't want to be caught.

    As I said earlier, the Navy continues to analyze lessons learned 
from OEF. Although this work is expected to continue for some time, 
some early themes are emerging:

        <bullet> We need to improve ISR to both theater decision-makers 
        and trigger-puller;
        <bullet> We need to establish Maritime Interdiction Operations 
        as a core competency, to better prepare crews for conducting 
        these vital operations;
        <bullet> We need to continue to improve the integration of 
        joint Special Operations Forces with Navy conventional forces;
        <bullet> We need to continue to improve coalition 
        interoperability;
        <bullet> We need to adjust training somewhat for emerging 
        missions;
        <bullet> We need to improve the expeditionary sailor's 
        deployability, uniforms, and equipment;
        <bullet> We need to continue to work with the Joint Staff and 
        the Office of the Secretary of Defense to improve joint command 
        and control capability;
        <bullet> We need to improve the sustainability of Naval forces; 
        and
        <bullet> We may need to make organizational alignments to 
        better support the warrior forward.

                       STRATEGIC READINESS SYSTEM

    8. Senator Akaka. General McKiernan, please provide additional 
details on how the Strategic Readiness System (SRS) differs from 
current readiness assessment metrics, what costs are associated with 
implementing the new system, and how, specifically, it will improve 
visibility into readiness.
    General McKiernan. The current readiness reporting system provides 
an incomplete picture of readiness because it covers only the combat 
units at a snapshot in time. Our current system is based on the ability 
of our operational or combat units to perform their wartime missions; 
it provides a lagging measure of the status of resources and 
performance; and the information is limited to specific resource and 
training indicators of these units. The SRS will revolutionize the way 
we view readiness across the entire Army, both operational and 
institutional, by operating on two levels. The first level identifies 
the strategic objectives and key processes in a unit. It is based on a 
``balanced scorecard,'' a tool that requires each Army unit at the 
division/separate brigade level and higher to enumerate its strategic 
objectives and performance measures and align them with the Army 
scorecard. Each unit will then monitor its readiness against the Army 
scorecard. The second level of SRS is data collection. After units from 
across the Army identify what is important, software collects the data 
that indicates the level of an organization's readiness toward 
achieving the Army's strategic goals. The cost for this year is set at 
$6.756 million to develop and implement SRS across the Army. Within 
industry, the sound business practice of a ``balanced scorecard'' has 
strategically focused the organization and data collection on what is 
important, in near real-time, in a leading or predictive manner that 
allows leaders to make policy and resource decisions before an issue 
becomes a crisis.

    9. Senator Akaka. General Wald, the Joint Staff reports that the 
DOD will reduce combat air patrols (CAPs) over the United States from 
post-September 11 levels. Can you please discuss how these reductions 
will be implemented? Also, the fiscal year 2003 budget request included 
$1.2 billion to continue to fly CAPs at the higher levels. What will 
the fiscal year 2003 costs be now that CAPs are to be reduced?
    General Wald. In April 2002, Commander, NORAD, in conjunction with 
the Joint Staff and approved by the Secretary of Defense, established a 
tiered response system for aerospace defense of the United States. Each 
tier in the system specifies the number of intercept, tanker, and 
airborne early warning aircraft. Additionally, each tier identifies the 
response time of alert aircraft, number of locations, and timing to 
achieve a higher level of response. As the assessed threat decreases, 
the corresponding tier employed by NORAD changes accordingly and the 
number of tasked bases, aircraft, and personnel decreases. From post-
September 11, 2001, until April 2002, NORAD had a single level of 
response. The current NORAD response posture and the specific number of 
bases, aircraft, and personnel tasked are classified. Based on the 
approved concept of operations supporting a reduced level of combat air 
patrols over the United States, the Air Force has revised its $1.2 
billion fiscal year 2003 budget request for CAP to $522 million.

    10. Senator Akaka. General Wald, your testimony notes the major 
role the Air Force has played in Operation Noble Eagle by flying CAP 
missions. What has been the impact of flying those missions on the Air 
Force's normal rotational deployment plans for Expeditionary Air 
Forces? What have been the effects on the ability of the pilots to 
conduct combat training, on the aircraft themselves, and on the Reserve 
components?
    General Wald. The leading indicators of overall readiness are 
showing signs of decline. As of June 1, 2002, overall Air Force 
readiness declined 5 percentage points since September 1, 2001. 
However, major combat unit readiness decreased 1 percentage point over 
this same period. Regarding how this effects the Air Expeditionary 
Force (AEF) rotation, the combination of multiple crisis operations and 
our ongoing steady state commitments has placed extraordinary stress on 
the Expeditionary Air Force and our resources. In some stressed 
functional areas, requirements exceed available AEF cycle forces. The 
Air Force is committed to finding solutions to relieve the stress on 
these career fields. However, at this time, not all of the Air Force 
personnel in these stressed career fields can rotate to fill all 
current requirements
    Although the number of Operation Noble Eagle (ONE) taskings is 
decreasing, the long-term impacts are now beginning to manifest 
themselves in the total force, primarily affecting our Air Reserve 
component. These units continue to bear the majority of the burden for 
CAP taskings and are experiencing decreased training opportunities for 
major weapon systems involved. Our Air National Guard commanders are 
prorating training requirements in order to maintain combat mission 
ready status for aircrews. These units are placing priority on 
maintaining currency and employing a back-to-basics approach to 
preserve mission ready status. For the aircraft, additional spare parts 
funding had a positive impact; however, the increased OPTEMPO is 
working against readiness. The OPTEMPO increased support requirements 
resulting in significant utilization rate increases on high-demand 
Mission Design Series. Likewise, it has strained and overtasked a 
workforce that was short in S-level manning (and over-manned three 
levels) across critical maintenance Air Force Specialty Codes (AFSCs). 
Nevertheless, our maintainers accomplished their mission. Additionally, 
CAP taskings are also affecting retention rates within the Reserves. 
The longer the Reserve Forces remain activated, the lower the retention 
rate. A lower retention rate will require more training to reconstitute 
the unit. The Air Force is aggressively examining ways to use the AEF 
construct, DOD directed training transformation, and the accompanying 
budgeting process to mitigate the effect of high OPTEMPO on readiness. 
Sufficient and sustained congressional support would facilitate the 
essential readiness and other improvements the Air Force needs to 
continue to train quality combat pilots, and remain the world's 
preeminent air and space force.

                           BALANCING MISSIONS

    11. Senator Akaka. General McKiernan, General Bedard, General Wald, 
and Admiral Krol, one of the main objectives of this hearing was to 
learn more about how you are managing the task of performing the new 
missions of the war on terrorism on top of all your existing missions. 
We have discussed the resulting short-term strains you encounter today. 
As we look out over the longer term, I see three possible ways forward: 
cutting back on other missions or activities; increasing our 
capabilities; or some mix of the two. What are your thoughts about the 
direction in which we should head?
    General McKiernan. It is probably a mix of the two. Successful 
prosecution of the war on terrorism requires the capabilities the Army 
contributes to the joint force. Executing the national security and 
military strategies over the previous decade of the 1990s required a 
greater number and type of deployments for the Army. The emerging 
defense strategy seeks to focus our efforts and resources on those 
activities that best support our national interests, especially as they 
contribute to the war on terrorism. Threats today range from 
potentially dangerous state actors armed with potent conventional 
forces and Weapons of Mass Destruction (WMD), to non-state entities 
pursuing their objectives outside the boundaries that govern state 
behavior. In the Balkans, the mission has scaled back in size to more 
manageable and predictable rotations with some decrease in operations 
tempo (OPTEMPO), and we anticipate this trend may continue. The 
Multinational Force and Observer mission in the Sinai has been at 
steady state for quite some time and not all of the force requirements 
for this mission are rotational. Deployments to Central Asia in support 
of Operation Enduring Freedom have begun to stabilize, as have security 
missions in the homeland. As the war continues, if and when we are 
called upon to execute other missions, we will ensure the Army is 
capable of meeting those requirements. The Army is closely managing its 
deployments and rotations to support the combatant commanders. As we 
proceed over time in this campaign to defeat terrorism on a global 
scale, the Army will incorporate the lessons learned into our processes 
in building and sustaining the total force. Likewise, we are already 
taking actions to increase our special operating force capabilities, 
intelligence assets, and conventional force capabilities required for 
securing the homeland, and will continue to do so. The Army's ability 
to increase capabilities to dominate across the spectrum of operations 
over the long-term will be accomplished through a comprehensive Army 
transformation.
    General Bedard. Currently, we have over 32,000 marines forward 
based, stationed, or deployed throughout the world. Each one of these 
marines is employed in direct support of either the combatant 
commander's immediate requirements (to include the war on terrorism) or 
his regional engagement program that contributes to the maintenance of 
long-term security within the Area of Responsibility. The Marine Corps 
is not reducing our current commitments, and with our forward deployed 
Marine Expeditionary Units, we are fully supporting the war on 
terrorism.
    The Marine Corps has and will continue to pursue programs which we 
feel will allow us to increase our capability to maintain a robust 
forward presence, operate in a joint or multinational environment, and 
act as a force multiplier for the combatant commanders. It is important 
that we maintain our forward engagement strategy with our Marine 
Expeditionary Units and our forward deployed marines. Coupled with 
future innovations, this will allow the Marine Corps to perform our 
current missions as well as new missions which will surface in the war 
on terrorism.
    General Wald. Prior to the attacks of September 11, the USAF 
maintained a number of worldwide steady-state responsibilities, 
including enforcing the no-fly zones over Iraq, patrolling the skies 
over the Balkans, supporting counterdrug efforts, and conducting 
humanitarian operations worldwide. After the attacks, the war on 
terrorism has added a new series of demands, including stateside combat 
air patrol, combat operations and related support, and 
counterterrorism-related missions worldwide. This high OPTEMPO is being 
inflicted on a force structure that was not built to handle this level 
of worldwide tasking, which may adversely affect recent gains made in 
readiness, and will certainly have an impact on both hardware and 
people. Unprecedented demands are being placed on our aircraft and 
people, necessitating the use of stop loss and increased reliance on 
the Reserve component. In order to handle a new ``steady-state'' demand 
level, the Air Force will either have to cut back on the number and 
types of missions that we do worldwide, or increase our force structure 
to accommodate the new demand. A determination will have to be made 
with respect to the new steady state or long-term demand on the USAF, 
and then we will have to examine the force structure in the context of 
the Defense Planning Guidance (DPG), Air Force transformation roadmap 
and modernization plans, and national security strategy.
    Admiral Krol. We need to seek a mix of increased capabilities, 
while closely examining our current missions and activities for 
possible efficiencies. Recognizing that resources are limited and we 
can't afford everything, we must continue to seek new technology to 
improve our capabilities while making some hard choices on missions and 
activities we no longer can support at current levels.
    First and foremost is the Navy and Marine Corps team's unique 
position as a forward deployed force. We were already forward deployed 
when the war on terrorism commenced and as a result had forces in 
theater ready to respond immediately. We initially refocused those 
assets on the CINC's tasking, while at the same time readying 
additional assets for deployment. Our intention is to remain a forward 
deployed force in the future.
    Our current global war on terrorism planning effort in support of 
CINC requirements includes numerous scenarios and contingencies, 
including how to sustain the war effort. This has resulted in a mix of 
prioritizing military efforts around the globe due to finite resources 
and analyzing how to improve our capability to support potential future 
additional tasking. Some CINC plans, if executed, would require a 
cutback on current missions to divert additional resources.

    12. Senator Akaka. General McKiernan, General Bedard, General Wald, 
and Admiral Krol, General McKiernan's testimony suggests that we might 
cut back our support for the multinational observer force in the Sinai, 
or in the Balkans. Are there other activities that we might reduce? 
Conversely, what additional capabilities might be required?
    General McKiernan. As mentioned, the Army's requirements in the 
Balkans continue to be reduced. These reductions are a result of 
periodic mission requirement reviews in which we and our allies and 
partners have determined that the current situation requires less force 
to successfully execute the military missions. As the war on terrorism 
progresses, the Army in concert with other services, allies, and 
partners will continue to assess the situation within our operating 
areas to determine the feasibility for reducing force requirements 
without risking our ability to successfully execute our assigned 
missions. These assessments may reveal that reductions are not feasible 
and increases are required. It is difficult to identify these 
adjustments without a clear understanding of new missions. But, the 
Army's ability to tailor for diverse missions across force capabilities 
and to employ a mix of Active and Reserve component forces remains an 
inherent strength of this service.
    General Bedard. In my statement, I commented on the value of 
forward deployed forces. The expeditionary nature of forward deployed 
marine forces provides combatant commanders with a focused, versatile, 
and responsive capability during crisis situations. While certain 
situations may require marine forces to conduct sustained land 
operations, these operations are traditionally conducted by our 
Nation's war-winning Army. Since marines have had limited, short 
duration involvement in multinational and United Nations missions, it 
would be more appropriate for others to comment on the types of 
activities that could be reduced.
    With respect to additional capabilities, we created our 4th Marine 
Expeditionary Brigade (Anti-Terrorism) to address the requirement for a 
rapidly deployable and employable anti-terrorism capability both within 
the United States and overseas. By combining our State Department-
focused Marine Security Guard Battalion, our Marine Security Force 
Battalion, which is under the operational control of the Chief of Naval 
Operations, the Chemical and Biological Incident Response Force, and by 
converting an infantry battalion to an anti-terrorism battalion, the 
Marine Corps is realizing a synergy of capabilities that provides a 
bonafide anti-terrorism capability to our Nation. So pressing was this 
need, in fact, that the Marine Corps asked for an endstrength addition 
of 2,400 marines for fiscal year 2003. This was one capability where we 
identified that additional support was required to meet an emerging 
requirement.
    General Wald. The United States must beware of open-ended 
deployments that continue to stress the force when combined with 
emerging contingencies. The presence of the observer force is an 
example of a deployment that has lasted for more than two decades and 
may have outlived its usefulness. U.S. deployments in both Kosovo and 
Bosnia may also be examined to see if their size and nature is 
appropriate. Consideration should also be given to the stake held in 
certain regions by our allies: NATO support has been critical to the 
stabilization missions in the Former Yugoslavia, and given the 
increased global demands on U.S. forces it might be reasonable to ask 
allies to shoulder more of the burden for peacekeeping-like duties. It 
is also important to exercise caution with respect to ``activities'' 
suitable for cutting--it would be dangerous to cut training and 
exercise activity.
    Admiral Krol. Neither the multinational observer forces in the 
Sinai nor the Balkans are heavy draws upon naval forces. Other 
requirements for naval forces have to be evaluated in a global context. 
By design, the Navy is a forward deployed force and as such is prepared 
and on scene to respond when required by CINCs worldwide. The aggregate 
of global requirements has to be continually prioritized and evaluated 
against finite resources. During this continuous process the tasking 
with the least priority is at risk to not be supported. Decisions are 
routinely vetted with the Joint Staff. Additional ships and aircraft 
would relieve stress and provide additional capabilities to support 
CINC requirements.

                       FLYING HOURS REQUIREMENTS

    13. Senator Akaka. General Wald, a March 4 article in the Air Force 
Times describes Air Combat Command standards for how many training 
sorties pilots of various skill levels must fly annually to retain 
their mission capable (MC) status--for example, that junior pilots must 
fly 120 training sorties each year to be MC. Does your budget request 
fully support all of the training sorties that your current mix of 
pilots, both experienced and inexperienced, need to fly in order to 
meet the Air Force's MC goals in fiscal year 2003?
    General Wald. The Air Force fiscal year 2003 flying hour submission 
for combat coded training hours includes the appropriate hours per crew 
per month required to train line pilots to the level that will meet Air 
Force combat mission ready goals and fully support the warfighting 
CINCs.

                        AIRCRAFT CANNIBALIZATION

    14. Senator Akaka. General Wald, Admiral Blair recently testified 
before this committee about the continuing challenges facing aircraft, 
in particular in Pacific Command. He specifically cited shortages in 
repair parts and stated that 80 percent of Pacific Air Forces' aircraft 
did not meet standards for cannibalization rates in 2001. Do you share 
Admiral Blair's concerns? Does the fiscal year 2003 budget take steps 
that will improve this situation, or is something more required to 
increase our air readiness?
    General Wald. Analysis reveals Pacific Air Force (PACAF) aircraft 
indeed have cannibalization rates higher than the Air Force average. 
However, in all but one weapons system (F-15E) there were reductions in 
the fiscal year 2002 cannibalization rate for Pacific Air Force 
aircraft. The improvements in PACAF cannibalization rates follow a 
similar trend in Air Force aggregate cannibalization and supply rates. 
The Air Force aggregate cannibalization rate reached its zenith in 1997 
at 12.7 cannibalizations per 100 sorties and has consistently improved 
to 10.1 cannibalizations per 100 sorties in 2002--a 20 percent 
reduction in cannibalizations. Likewise, the Air Force supply metric, 
Total Not Mission Capable for Supply (TNMCS), has improved from a 14.3 
percent high in 2000 to 11.8 percent in 2002. It is important to 
emphasize that there are other factors in addition to spares 
availability that influence cannibalization rates. Ultimately, 
cannibalization actions are just the symptoms of much larger concerns 
such as aging aircraft, spares shortages, system reliability 
shortfalls, and retaining experienced mechanics. Consequently, the Air 
Force has implemented a multi-faceted strategy of increased spares 
funding, policy, and organizational initiatives, which continue to 
reduce cannibalizations:

        <bullet> Beginning in fiscal year 2000, depot reparable spare 
        parts funding at 100 percent of the known requirement;
        <bullet> Increased Direct Support Objective (DSO) authorization 
        levels in Readiness Spares Packages (RSP) to a surge of 83 
        percent for deployed fighter units;
        <bullet> Implemented the Air Expeditionary Force (AEF), 
        providing stability and planning to units preparing to deploy; 
        and
        <bullet> Created theater Regional Supply Squadrons to track 
        assets further reducing cannibalization actions.

    All indications are that the Pacific Air Forces will continue to 
follow the positive Air Force aggregate trend in cannibalization and 
supply rates, further extending their positive fiscal year 
cannibalization trend.

                              ENCROACHMENT

    15. Senator Akaka. Dr. Mayberry, you noted in your testimony on 
March 14, 2002, before the House Armed Services' Military Readiness 
Subcommittee that finding work-arounds to encroachment challenges 
drains dollars from operations and maintenance accounts, further 
degrading readiness. Please provide the Department's best estimate of 
how much money has been directed in those accounts (by service and 
agency) to pay for training work-arounds. Please further delineate 
these expenses by the causes of encroachment for which they were 
compensating, e.g., environmental, noise, airspace, spectrum, etc.
    Dr. Mayberry. As I have testified in other hearings on the subject 
of encroachment, work-arounds associated with encroachment are a 
serious issue for the Department, but the costs involved are not well 
understood. The services have been able to identify costs incurred to 
modify training in certain specific instances. For example, 
restrictions on the use of Vieques for training Naval Gunfire Spot 
Teams create a need to send 3-man teams to Norway to accomplish this 
same training, costing over $36,000 per team trip. On a larger scale, 
prior to 1991, II MEF stationed at Camp Lejeune, North Carolina, spent 
approximately $1.2 million annually to transport tank and Light Armored 
Reconnaissance units to Fort Pickett, Virginia and Fort Knox, Kentucky 
for live training unavailable at Camp Lejeune. However, the costs for 
such examples are not readily obtained, and DOD does not presently have 
a good tracking and reporting system for aggregating encroachment 
problems and impacts and isolating their costs. As you observe, work-
around costs are typically covered within an installation's or 
service's overall operations and maintenance accounts, making them very 
difficult to track or delineate. DOD understands the importance of 
better work-around cost estimation, and we plan to address this 
deficiency as part of our ongoing range sustainment initiative.

    16. Senator Akaka. General Bedard, General Wald, and Admiral Krol, 
there has been a long-standing concern that readiness levels do not 
have a very direct relationship to budget requests. The Army has the 
most straightforward justification, with a training strategy tied to 
tank miles driven and flying hours per crew per month. What are other 
services doing to improve visibility into the relationship between 
readiness and funding? 
    General Bedard. Field commanders cost out their training 
requirements, submit these costs to Headquarters, Marine Corps for 
submission via the Program Objective Memorandum (POM)  process. 
Training programs are executed according to approved operating budgets. 
While specific non-monetary training metrics have yet to be developed, 
we extensively scrutinize all USMC requirements based on cost benefit 
using a committee-based process of subject matter experts from 
throughout the USMC. The Marine Corps is exploring different means of 
connecting funding and readiness. We are looking into development of 
various types of metrics that can be used in both the readiness 
reporting process and in the budgeting process.
    General Wald. The Air Force's readiness levels do, in fact, have a 
direct relationship to our budget requests. Our readiness picture is 
much more complex than focusing on one or two service metrics to 
reverse downward readiness trends of the 1990s. Some examples of 
metric-type indicators used to measure our readiness are aircraft 
mission capability rates, recruiting, and retention rates of our 
military and civilian workforce, and a facility investment metric for 
our infrastructure. These and other metrics provide the Air Force 
senior leadership tools that influence the decision process during 
programming and budgeting cycles. For instance, we budget for spares, 
supplies, and fuel to support a requirements-based flying hour program 
for aircrew training, which ultimately translates to readiness. 
Likewise, the investment in spare parts during the past 3-4 years has 
paid off through higher aircraft mission capability rates. Our budgets 
also factor quality of training into readiness requirements. As an 
example, aircrews derive the greatest training benefit from sorties/
events that encompass the right mix of day/night, variable terrain, 
electronic warfare, etc. We continuously evaluate and adjust our 
resources to meet Air Force readiness requirements.
    Admiral Krol. The Navy Flying Hour Program is also directly linked 
to readiness levels. The flying hour requirements are derived from the 
training requirement in hours per crew per month over the course of the 
Inter-Deployment Training Cycle (IDTC). This training matrix is used to 
evaluate the training rating that is reported in the Status of 
Resources and Training System (SORTS). Training, along with equipment, 
supply, and manpower, are the elements that drive our overall SORTS 
rating. Over the course of the past few years, Navy and Congress have 
placed more money in this O&MN account, and between fiscal year 2000 
and fiscal year 2001, our average overall SORTS rating improved by 
approximately 8 percent across the IDTC. The ships and submarine 
operations account requirement is under review to establish a similar 
linkage between the training and operational steaming requirement and 
the subsequent SORTS ratings achieved by those units.

               IMPACT OF CURRENT OPERATIONS ON EQUIPMENT

    17. Senator Akaka. General McKiernan, General Bedard, General Wald, 
and Admiral Krol, one of the longer-term impacts of Operation Enduring 
Freedom and Operation Noble Eagle is increased wear and tear on 
equipment. In your opinion, do your fiscal year 2003 budget requests 
take these effects, including equipment reaching the end of its service 
life earlier than anticipated and higher than usual maintenance needs, 
into account in ways that will not harm the readiness of our forces?
    General McKiernan. The Department of Defense has budgeted Defense 
Emergency Response Funding (DERF) as supplemental funding for fiscal 
year 2003 in support of the global war on terrorism. The Army is 
pursuing this source of additional funding for the war's incremental 
costs beyond our 2003 budget. DERF funds are designed to cover 
incremental repair and maintenance costs, and costs for replacement of 
crash or battle damaged equipment resulting from increased operating 
tempo. As the war continues, we will continue to identify incremental 
repair and maintenance costs as well as additional equipment costs to 
the Office of the Secretary of Defense for DERF reimbursement. Should 
DERF reimbursement not be available in the fiscal year 2003 defense 
appropriation, we will request supplemental funding to ensure the 
continued readiness of our forces.
    General Bedard Fiscal year 2003 budget requests do not currently 
account for all the increased wear and tear of equipment reaching the 
end of its service life earlier than anticipated and/or due to higher 
than usual maintenance needs resulting from OEF/NE. Additional funding 
may be required and, if needed, will be identified via our resource 
requirement processes to ensure maintainability of older equipment 
until new replacements are online and fully integrated into the supply 
pipeline. The foremost problem impacting Marine Corps aging ground 
equipment in theater has been the harsh environment. Sand, dust, and 
wind along with the cold weather conditions have caused scheduled 
preventive maintenance to be expedited. Rolling stock, such as the 
HMMWVs, have suffered more mechanical failures than expected. Fuel 
system problems have also been experienced. However, due to experience 
and service interoperability, Marine Corps maintenance personnel at 
Forward Operating Base Rhino were able to overcome equipment failures 
and even assisted the Navy with their mechanical problems. 
Survivability of equipment in harsh environments continues to be a 
major area of concern when conducting operations. Additional analysis 
is required on equipment as it returns, since operations are ongoing.
    General Wald.  Yes, flying hour spares requirements received 
substantial funding for fiscal year 2003, including approximately $380 
million to address spare parts issues associated with aging aircraft 
support. In the event that required maintenance is not funded we will 
be forced to resort to extraordinary measures to be borne by the 
maintainers in order to keep the system in operation. Cannibalization 
rates will increase. Delayed entrance into Program Depot Maintenance 
(PDM) has the added negative effect of driving significant inspections 
and maintenance in the field. The Special Inspections designed to keep 
aircraft airworthy beyond their scheduled PDM input dates serve only to 
provide temporary relief from a grounding condition. These inspections 
increase in complexity and become significantly more labor-intensive, 
ultimately resulting in the weapon system being grounded. When the 
aircraft do come into PDM the cost will be higher and the flow time 
longer. Operating systems beyond their planned service interval have 
the added risk and potential to increase the failure rates which may 
result in Emergency Action Time Compliance Technical Order Inspections/
repairs. Ultimately we will keep the equipment operating, but it will 
come at the expense of the men and women who must accomplish this 
additional work with fewer resources. This in turn will also have a 
negative impact on our ability to retain skilled technicians.
    Admiral Krol. The Navy's fiscal year 2003 budget does not take into 
account the wear and tear on equipment (i.e., reconstitution costs) 
that has occurred because of Operation Enduring Freedom (OEF) and 
Operation Noble Eagle (ONE) contingency operations. The fiscal year 
2002 executable equipment reconstitution costs for aircraft, ships, 
deployed expeditionary medical facilities, and mobile construction 
battalions deployed in support of ONE and OEF are included in the 
Department's fiscal year 2002 Supplemental request. The OSD-submitted 
fiscal year 2003 DERF Budget includes $10 billion in additional funding 
for ONE/OEF operations without specific definition of costs to be 
covered. The intention is for this funding to be executed as a transfer 
fund based on actual service execution costs. The level of operations 
in fiscal year 2003 has not yet been conveyed to the services, so 
projecting reconstitution costs using forecasting methods is 
inappropriate. However, the Department intends to seek reconstitution 
cost reimbursement from this $10 billion transfer fund as these costs 
are incurred or expected.

                     COST OF CONTINGENCY OPERATIONS

    18. Senator Akaka. General McKiernan, General Bedard, General Wald, 
and Admiral Krol, please provide the amount in the fiscal year 2003 
budget request for contingency operations (e.g., Bosnia, Kosovo, 
Northern Watch, etc)
    General McKiernan. The Army budgeted $574 million for Bosnia, $919 
million for Kosovo, and $279 million for Desert Spring in the fiscal 
year 2003 budget request.
    General Bedard.

                                            [In millions of dolloars]
----------------------------------------------------------------------------------------------------------------
                                                                                          Military
                 Operation                             Location               Total      Personnel       O&M
----------------------------------------------------------------------------------------------------------------
Joint Forge...............................  Bosnia.......................         $1.6          $.4         $1.2
Joint Guardian............................  Kosovo.......................          4.7          3.4         11.3
Northern Watch............................  SW Asia......................          0.5          0.2          0.3
Southern Watch............................  SW Asia......................          0.8          0.2          0.6
----------------------------------------------------------------------------------------------------------------

    General Wald. The fiscal year 2003 budget requests the following 
amounts to execute Air Force contingency operations:

                        [In thousands of dollars]
------------------------------------------------------------------------
                               Military Personnel            O&M
------------------------------------------------------------------------
Bosnia......................              $ 32,999              $120,537
Kosovo......................                 1,782                53,491
Northern Watch..............                26,700               122,474
Southern Watch..............                95,042               582,734
                             -------------------------------------------
  Total.....................               156,523               879,236
------------------------------------------------------------------------

    Admiral Krol. The funding in the Navy's budget request for 
contingency operations in fiscal year 2003 is as follows:

Bosnia
    Joint Forge--$12.3 million
    Deliberate Forge--$20.6 million

Kosovo
    Joint Guardian--$13.3 million

Southwest Asia
    Northern Watch--$21.9 million
    Southern Watch--$248.3 million

                            ARMY AMMUNITION

    19. Senator Akaka. General McKiernan, a recent study by the 
Association of the United States Army stated that the Army has 
projected an $820 million shortfall in funding for training ammunition 
over the next 5 years. Is this report accurate? If not, what is the 
current shortfall, if any, in training munitions? If so, what are the 
readiness implications of this shortfall, and what actions does the 
Army expect to take to correct it?
    General McKiernan. The Association of the United States Army study 
was accurate at the time the information was gathered for publication. 
The Army has placed additional funds into the training account and the 
fiscal year 2003 Defense Emergency Response request contains $27 
million for the Army. Additionally, sufficient funds have been 
programmed through fiscal year 2007 to eliminate the projected 
shortfall over the next 5 years. In the light of recent events, new 
training strategies are being developed and staffed. These new training 
strategies are producing new requirements that will be addressed in the 
fiscal year 2004 budget. The Army continues to place the highest 
priority on training ammunition and will make the maximum effort to 
fully resource these requirements. However, current world events may 
unexpectedly deplete stocks and training funding requirements can 
increase.

                        105MM AMMUNITION FOR MGS

    20. Senator Akaka. General McKiernan, does the Army currently have 
sufficient stocks, or have resources planned to acquire sufficient 
stocks, of 105mm tank ammunition in order to supply the Interim Brigade 
Combat Teams' Mobile Gun System when it comes on line in 2004? If not, 
what actions are planned to make up for any shortfalls?
    General McKiernan. The U.S. Army currently has sufficient stocks in 
four of seven required Mobile Gun System (MGS) ammunition cartridges. 
We are in the process of procuring three cartridge types by 2004 to 
meet MGS requirements. First, we are re-procuring high explosive and 
companion training cartridges (M393A3 and M467A1) to meet the MGS's Key 
Performance Parameter. The new service cartridge will replace the aging 
M393A2 High Explosive Plastic cartridge. Second, we will develop and 
procure the M1040 Canister cartridge to meet the Mobile Gun System's 
anti-personnel requirement. The U.S. Army has sufficient stocks of M900 
Armor-Piercing, Fin-Stabilized, Discarding Sabot anti-tank cartridges, 
and m456a2 high explosive anti-tank cartridges to meet mobile gun 
System self-defense requirements, along with appropriate training 
ammunition (M724A 1 and M490A 1).

                           AIRLIFT SHORTFALLS

    21. Senator Akaka. General Newbold, in his testimony earlier this 
month, Admiral Blair stated that Pacific Command forces ``are beginning 
to face regular shortages of airlift and aerial tankage,'' and that 
these shortages are both increasing costs as they contract for civilian 
airlift and complicating training efforts. Are other commands 
experiencing similar shortfalls?
    General Newbold. PACOM, like the other commands, is experiencing 
reduced levels of organic air-refueling and airlift support for those 
requirements not directly supporting the GWOT. The JCS priority system 
is used to adjudicate who gets organic support when requirements exceed 
capacity. (GWOT air-refueling and airlift requirements are currently 
validated at JCS priority one.) In an attempt to support worldwide air-
refueling requirements, air mobility command (AMC) has nearly tripled 
daily tanker aircraft/aircrew taskings. Commercial passenger and cargo 
aircraft are used to supplement the organic fleet when loads are 
compatible. For this reason, the use of commercial aircraft more than 
doubled during the first quarter of current year 2002.

    22. Senator Akaka. General Newbold, can you provide the additional 
costs that our regional commands are incurring because of airlift 
shortages?
    General Newbold The significant commitment of military aircraft in 
support of the ongoing contingency means that they are not available to 
fly all support, exercise, and training missions. When military 
aircraft are not available, support flights and exercise missions are 
being flown using commercial aircraft. The channel customer is not 
affected by the change in aircraft type. The support flights customer 
pays for the person or cargo being moved, regardless of the type of 
airlift provided. The exercise customer, however, pays for airlift by 
flying hours used to support the mission. The only instance that a 
customer would incur increased cost due to commercial augmentation 
(contract for civilian airlift) would be if there was a need to 
contract for more capacity than is required to move the customer's 
requirement. In today's environment, this is sometimes the case as 
additional force protection personnel and equipment are added to the 
planned event. Also, in the case of training, there are training 
missions that cannot be supported and training can be lost.

    23. Senator Akaka. General Newbold, are there mechanisms available 
either to improve airlift management and/or mitigate training impacts 
that we could take right now to reduce the negative short-term effects 
of current operations?
    General Newbold. The very dynamic nature of the war on terrorism 
has placed unanticipated demands on mobility assets. However, AMC has a 
very specific set of procedures by which organic airlift shortfalls are 
identified. This triggers a request to purchase commercial airlift 
augmentation to support warfighting CINCs whose lower priority missions 
would otherwise be nonsupported. Users can/should be advised that 
commercial aircraft will likely be used, and they should plan 
accordingly to minimize impact to their operations. If commercial 
aircraft are filled to capacity, the charges incurred (which are based 
on weight, not aircraft type) would be the same as when organic lift is 
provided. This would eliminate additional expense during this long-term 
shortage of organic lift capacity. If military or commercial air is not 
available, training options available to the user in the short-term 
include reducing the scope of the exercise, using virtual, computer-
based training, where feasible, or conducting training at locations 
that minimize the need for airlift support. While these are not the 
preferred solutions, they do allow the user to conduct needed training.

                    INTER-DEPLOYMENT TRAINING CYCLE

    24. Senator Akaka. Admiral Krol, if the Navy decides to extend its 
deployments beyond the 6 months that is typical, what impact will this 
have on the maintenance and training that takes place in between 
deployments?
    Admiral Krol. Maintenance impact: In both short-term and long-term, 
the effect of extended deployments on maintenance will be felt mostly 
on the ship's hull, mechanical, and electrical systems that have a 
historically defined limit of operating hours before requiring an 
overhaul or repair. Many of these systems, like gas turbine and diesel 
engines, high and low pressure air compressors, and pumps of all types 
already display high downtime, and high operating cost trends. These 
systems operate almost continuously when the ship is deployed, 
resulting in predictable wear and tear and eventual failure in 
operation. In the long-term, the maintenance capabilities of the ships 
crew must be upgraded. Navy Afloat Maintenance Training System and the 
Battle Force Intermediate Maintenance Activity (NAMTS/BFIMA) programs 
support this.
    Training impact: The CNO has established two baselines for 
deployment of naval forces. First, prior to deploying again, each unit 
should spend twice the time in a non-deployed status as time deployed. 
This is known as Turnaround Ratio (TAR). Two-to-one is the minimum 
established goal. With adequate TAR, the proper mix of maintenance and 
individual, unit and coordinated training can be achieved. Second, the 
CNO has established the policy that sailors should be in their 
homeports 50 percent of the time over any 3-year period. Adequate TAR 
and underway training supports this personnel tempo goal. Shortened TAR 
can be accommodated over the short-term if required to support 
increased presence; however, maintenance and training will not be at 
the same ideal tempo and will suffer over the long-term. Increased 
deployment length may have no impact on TAR. However, with a given 
(constant) presence or TAR, increasing the deployment length will 
increase the IDTC length, which would be additional IDTC time for 
training and maintenance.

    25. Senator Akaka. Admiral Krol, how much ``flex'' currently exists 
that will allow for additional compression of these already tight 
timelines?
    Admiral Krol. Flexibility remains in the Inter-Deployment Training 
Cycle (IDTC) as timelines become compressed, but it comes at a cost. 
Compressing the IDTC requires reductions in maintenance, and negatively 
impacts training and crew quality of life. Maintenance scheduling is 
frequently the driver in IDTC scheduling. Changing or compressing long-
lead time maintenance periods increases cost and adversely impacts 
other planned maintenance.
    Compressing schedules also results in reductions in the amount of 
time allotted to training as well as the quality of that training for 
the sailors involved. Shorter training periods force more qualification 
and certification events to occur at an increased pace to insure units 
are ready to deploy.
    The true cost of compressing schedules and reducing maintenance and 
training periods is the negative effect on quality of life and the 
long-term negative effects on ship and aircraft readiness as a result 
of not conducting required maintenance. The Navy is also forced to 
compromise or postpone modernization that is conducted during 
maintenance periods and provides the basis for transformation for the 
force of the 21st century.

    26. Senator Akaka. Admiral Krol, do you have any concerns, in 
either the short- or the longer-term, about the impact of such 
compression on the fleet, both from an equipment and a personnel 
perspective?
    Admiral Krol. Equipment impact: By extending deployments and 
compressing the IDTC, the scheduling of required maintenance becomes 
more compressed. To get the same (or higher) number of manhours 
accomplished in a shorter amount of time, either the maintenance 
infrastructure must grow or the existing infrastructure must work 
longer hours. Either option will add to maintenance costs. Additional 
wear and tear on the ships distributed systems due to lengthened 
operating time will also drive the maintenance requirement up while the 
ship is in port. There are other periodic requirements such as 
preventive maintenance, calibration, inspections, and assessments that 
will either be deferred or waived due to ships operations. Finally, 
ships' modernization must be more strictly controlled, as there is 
minimal time to install and train on new equipment and systems. 
Incomplete upgrades and equipment alterations will be even more 
intolerable with less time to groom between deployments.
    Personnel impact: In the short-term, gains in retention, attrition, 
and recruiting have improved overall fleet sea duty manning from 89.5 
percent some 2 years ago to 97 percent at present. This makes it 
feasible to satisfactorily man our ships and squadrons for deployment 
with only minor personnel actions necessary to replace unplanned losses 
or satisfy other critical skill shortfalls.
    For the long-term, continued commitment to fund quality of life and 
compensation initiatives is essential to offset the negative impact 
higher OPTEMPO/ITEMPO will have upon retention, attrition, and 
recruiting. It is also important that efforts to establish firm 
employment schedules as early as possible. This enables the Navy 
personnel system to conduct advanced planning for timely replacements; 
it also supports the personal planning of our sailors.

               REGIONALIZATION OF INSTALLATION MANAGEMENT

    27. Senator Akaka. General McKiernan, General Abrams testified 
before the House Armed Services Committee on March 8, 2002, that 
regionalization of installation management will pose challenges for 
U.S. Army Training and Doctrine Command (TRADOC) mission commanders. He 
stated that the loss of flexibility to move funds from base operations 
to more urgent training needs increases the importance of fully funding 
training requirements, beginning in fiscal year 2003. Are TRADOC's 
training needs fully funded in the fiscal year 2003 budget request? 
What is your assessment of the impact of this regionalization on 
training and readiness, not just in TRADOC but for all of the Army's 
warfighting units?
    General McKiernan. TRADOCs current training needs are adequately 
funded in the fiscal year 2003 budget request, with acceptable risk. We 
support base operations regionalization, now termed Transformation of 
Installations Management (TIM), as a means to improve standard base 
operations services across all Army installations, and thus improve 
quality of life for soldiers and their families. Although we have 
concerns, it is difficult to fully assess training and readiness 
impacts before implementation. The Army is committed to ensuring that 
certain mission activities, i.e., training enablers, force protection, 
and airfield operations, are fully supported under the TIM 
organization. These include our range and training land operations and 
modernization programs, and our battle simulation centers, which 
directly support training and operational tempo. My office is currently 
developing an Organization and Operations Plan for those programs for 
which I am the functional proponent, which will lay out how these 
programs will be executed. We will work closely with the Assistant 
Chief of Staff for Installation Management to ensure that mission 
commanders are directly involved in the prioritization, implementation, 
and control of these functions at all levels.

        IMPACT OF CURRENT OPERATIONS ON PILOT EXPERIENCE LEVELS

    28. Senator Akaka. General Wald, General Johnston testified before 
the House Armed Services Committee on March 8, 2002, that Operation 
Noble Eagle will have the same long-term effect on pilot experience 
that operations in Southwest Asia have had. Specifically, he stated 
that ``flying time'' instead of ``range time'' has reduced the amount 
of time available for realistic training and that, as a result, pilot 
experience has been degrading over the 1990s. Is the Air Force 
examining or planning any efforts to try to remediate these effects and 
if so, what are the likely costs of any alternatives that are being 
considered?
    General Wald. The Air Force is aggressively examining ways to use 
the Air Expeditionary Force (AEF) construct, DOD-directed training 
transformation, and the accompanying budgeting process to mitigate the 
effect of high OPTEMPO on readiness. In the fiscal year 2003 budget and 
beyond, a balanced and integrated approach that focuses on four 
fundamentals--transformation, readiness, retention, and re-
capitalization--is key to the Air Force maintaining a quality aircrew 
force whose size and readiness enable it to accomplish the mission 
today and tomorrow. An increased training bill in the form of training 
backlogs coupled with the need to maintain an aging fleet of aircraft 
is inevitable but is difficult to quantify until OPTEMPO reduces and 
total training shortfalls are reported. Sufficient and sustained 
congressional support would facilitate the essential readiness and 
other improvements the Air Force needs to continue to train quality 
combat pilots, and remain the world's preeminent air and space force.

                      INCREASED MAINTENANCE COSTS

    29. Senator Akaka. General Wald, your written testimony states that 
your aging aircraft fleet is becoming more expensive to maintain. 
Please provide any data you may have to illuminate trends in cost 
increases, by airframe and model.
    General Wald. The Air Force Total Ownership Cost (AFlOC) database 
with its integral On-Line Analysis Processing (OLAP) tool illustrates 
trends in USAF aircraft maintenance from fiscal year 1996-2001. The 
OLAP tool captures the gamut of aircraft maintenance cost elements, 
i.e., maintenance personnel (organizational, intermediate, and 
ordnance); consumable supplies; depot level repairables; intermediate 
maintenance; depot maintenance; contractor logistics support; and other 
maintenance. The following weapon systems are principal cost drivers:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

                IMPACT OF CURRENT OPERATIONS ON TRAINING

    30. Senator Akaka. General Wald, your testimony describes decreased 
training opportunities as a result of current operations, especially 
for crews of low density/high demand aircraft. What solutions is the 
Air Force exploring for this problem, which you note could have a 
``serious impact on long-term readiness?''
    General Wald. Currently, decreased training opportunities for 
highly-utilized major weapon systems have resulted in a shift toward a 
back-to-basics approach to ensure aircrews continue to receive the most 
essential training. The Air Force has also ``fenced'' aircraft into the 
training role to make them more available and rotated crews to maintain 
proficiency. In the future, when training is impacted by limited 
aircraft availability, distributed mission training simulator 
technology promises to be a means to enhance readiness by simulating 
large force employment via multiple simulator data-links.

               IMPACT OF CURRENT OPERATIONS ON RETENTION

    31. Senator Akaka. General Wald, you state in your testimony that 
the implementation of stop loss policies and higher tempo associated 
with Operations Noble Eagle and Enduring Freedom may negatively affect 
retention, and that ``offsets are . . . being explored.'' What are 
those offsets, and what factors are being used to evaluate options?
    General Wald. We are still in the exploration stage as we look at 
ways to reshape our force based on the new steady state requirements of 
OEF/ONE. This will maximize the effective use of our limited military 
resources and should free up military endstrength to crosstrain into 
our stressed career fields (e.g. Security Forces, OSI, etc.) to 
increase their manning and capability, thereby positively affecting 
retention.

                          ARMY OPTEMPO FUNDING

    32. Senator Akaka. General McKiernan, the Army's training strategy 
for fiscal year 2003 is based on 901 live, virtual, and combat training 
center tank miles, and 14.5 flying hours per crew per month for 
aircraft. Yet the fiscal year 2003 budget request does not fully 
support this strategy. At the same time, the Chief of Staff of the Army 
has directed units to fully execute the strategy, irrespective of 
funding shortfalls. Where does the Army plan to obtain additional 
resources to fully execute the training strategy? What do you think the 
impact will be if additional training funds are not made available in 
2003 and training is reduced?
    General McKiernan. Yes, the Chief of Staff, Army has directed 
commanders to execute the full training strategy. The funding reduction 
was a disappointment. The Army's fiscal year 2003 requirement, as 
submitted, included 754 ``live'' miles, 46 ``virtual'' miles (800 mile 
total), and 103 ``National Training Center'' miles for a total tank 
mile requirement of 903. The funding reduction was based upon 
historical execution. The Army believes it was not given sufficient 
credit for instituting effective management controls in fiscal year 
2001 that restricted migration from OPTEMPO or for executing the 
highest level of tank miles since Operation Desert Storm. These same 
controls are in effect for fiscal year 2002 and will be continued into 
fiscal year 2003.
    Since our training strategy and guidance to the field has not 
changed, the challenge is to identify sources of funding that will 
enable us to execute that strategy. We are currently working with 
departmental leadership to restore critical training funding. Should 
the funding not be restored, we will closely scrutinize year of 
execution obligation rates for our Major Commands and make program 
adjustments as required. Training is critical for Army readiness. We 
are committed to providing the resources required to meet our strategy 
and the associated level of readiness.

                           HIGH SPEED VESSEL

    33. Senator Akaka. General McKiernan, the Army has solicited a 
second high-speed catamaran, reportedly to support Operation Enduring 
Freedom. Marine Corps forces on Okinawa are currently leasing a similar 
vessel but have decided to use it only for training purposes, because 
it lacks force protection. Is it the Army's intent to use this vessel 
in current operations? If so, what steps will be taken to protect it, 
the troops, and equipment that might be embarked? What are the expected 
costs of this protection, and how confident are you that the security 
will be adequate?
    General McKiernan. The Army published an intent to solicit a second 
high-speed catamaran. However, this requirement is currently under 
review by Central Command (CENTCOM). The high-speed catamaran, also 
known as the High Speed Vessel (HSV) HSV-X1, ``Joint Venture,'' is 
under a joint Army and Navy lease and will deploy to the CENTCOM area 
of operations to provide a high-speed shallow draft vessel capability 
in support of Operation Enduring Freedom.
    To ensure the protection of the vessel, troops, and equipment, the 
HSV-X1 will have individual and crew served weapons on-board. The 
weapons package reflects the normal weapons found on the U.S. Army's 
Logistics Support Vessels, which are currently deployed in the CENTCOM 
area of operations. The crew will also train on force protection battle 
drills while in theater, maintain a 24-hour vessel watch and maintain 
communications with the port facility. The port facility is fenced, and 
has entry control points and host nation speed boats with small arms 
weapons. Navy vessels under Naval Central Command will provide 
additional levels of area force protection support to the HSV-X1 within 
the area of operations. The costs associated with these force 
protection measures do not exceed the normal daily operating costs of 
the vessel because of the requisitioning offset of the individual and 
crew-served weapons laterally transferred from units currently 
inactivating. The Army is confident that these force protection 
measures are adequate to protect the HSV-X1.

                            JOINT READINESS

    34. Senator Akaka. General Newbold, Dr. Mayberry testified that one 
of the clear lessons from Afghanistan ``is that we must fight joint.'' 
How well does our current readiness system capture units' readiness for 
joint operations? Are there any efforts ongoing or under consideration 
to improve visibility into joint capabilities?
    General Newbold. Our current system does not capture a specific 
unit's readiness for joint operations, it captures combatant commands 
and service readiness to support and conduct the joint fight across 
eight functional areas (personnel, intelligence, surveillance, and 
reconnaissance (ISR), special operations, mobility, logistics, and 
sustainment, infrastructure, C\4\ and joint planning, and training). 
The Chairman's readiness system is built upon two pillars. The first is 
assessing the traditional readiness indicators: personnel, equipment 
availability, supply, and training. The second is assessing the 
combatant commander's ability to integrate and synchronize joint forces 
to accomplish assigned mission. Inherent in that second pillar are 
readiness indicators that shed light on our ability to execute joint 
operations across the eight functional areas. The Chairman's system 
takes these two pillars and massages them together into an overall 
understanding of the Armed Forces' ability to execute the National 
Military Strategy.
    In the future, we are moving to a readiness assessment system that 
will capture specific unit readiness for the joint fight through the 
use of METs. The units will report their readiness to perform its 
mission essential task. Those tasks correspond directly to combatant 
commanders Joint Mission Essential Tasks (JMETs), the tasks that the 
combatant commander must accomplish to be successful in the joint 
fight. These tasks are identified as the result of understanding the 
specific mission a unit is assigned and articulated using the common 
language of the Universal Joint Task List, which is a comprehensive 
listing of joint tasks units may have to perform. Once that system is 
in place, I believe we will be in an even greater position to 
understand the impact of unit level readiness on the readiness of our 
Armed Forces to conduct joint operations.

                      INTERIM BRIGADE COMBAT TEAMS

    35. Senator Akaka. General McKiernan, your prepared statement says 
the Army is looking at basing an Interim Brigade Combat Team (IBCT) in 
Europe. If the IBCT is a central part of the Army's transformation and, 
as you say on page 11 of your statement, ``would have had a significant 
impact on the conduct of the battles fought to date'' in Afghanistan, 
why is the Army merely planning to ``examine'' forward stationing an 
IBCT in Europe? Why isn't forward stationing an IBCT in both the 
European and Pacific theaters a high priority? Wouldn't that get your 
forces to the fight sooner, while requiring less strategic lift?
    General McKiernan. In July 2001, the Army announced the location of 
the six IBCTs. This was based upon operational and strategic 
considerations. These locations balance a need to forward deploy and 
tightly manage a new and dynamic transformation process, provide an 
upgrade to the capabilities of XVIII Airborne Corps, and make the 
appropriate investment in a Reserve component brigade to guarantee the 
successful transformation of the Army Reserve component to the 
Objective Force.
    The Army feels that its current stationing plan, which has a 
Pacific focus but emphasizes global deployability, exploits the 
advantages of forward deployment for the Pacific theater of operations 
while maintaining the Army's flexibility to meet other requirements in 
other critical and non-critical regions.
    Defense planners tasked the Army to plan to station an IBCT in 
Europe by the end of 2007. The Army leadership has presented a plan to 
Office of the Secretary of Defense and is awaiting guidance.

                               AC/RC MIX

    36. Senator Akaka. General McKiernan, you testified that current 
demands for combat service support (CSS) units are straining the 
Reserve Component. Is the Army evaluating whether some CSS units ought 
to be moved into the active component, and/or whether there are some 
capabilities in the active force that might be moved to the Reserves?
    General McKiernan. Yes. Today's evolving National Military Strategy 
(NMS), the QDR, and other defense plans call for a somewhat different 
force capability than that of the 1990s, which was designed to fight 
and win two major theater wars (MTWs) nearly simultaneously. Under the 
previous strategy the Reserve component (RC) was assigned an increased 
priority for Combat Support (CS) and Combat Service Support (CSS) 
missions.
    The shift in the defense strategy dictates a detailed evaluation of 
the force mix. The Army uses Total Army Analysis, an analytical process 
that guides our force development within the constraints provided in 
the military strategy and budget, to determine new force structure 
requirements. We are completing our latest analysis that includes a 
look at Army force structure requirements based on the new strategic 
guidance. For the most part, the Army has the right composition of 
forces to execute the assigned missions. However, there are a number of 
CS and CSS capabilities that may need to be increased in the Active 
component (AC) to carry out the defense strategy and emerging missions. 
The Army is assisting the Department of Defense to identify a range of 
innovative force capability options to address new challenges and 
opportunities as part of a QDR and other defense plans DPG-directed 
review of the AC/RC mix.

                          PERSONNEL READINESS

    37. Senator Akaka. Admiral Krol, your written statement asserts 
that personnel readiness has improved due to pay raises, increased 
housing allowances, and higher levels of career sea pay. What evidence 
exists to demonstrate the contributions of each of these factors to 
higher personnel readiness levels?
    Admiral Krol. Tables 1 and 2 show how Navy has, since fiscal year 
1999, made impressive gains in both increasing enlisted retention 
(i.e., sailors deciding to remain in the Navy at the end of an 
enlistment) and lowering enlisted attrition (i.e., more sailors are 
successfully completing enlistments), especially among sailors with 
less than 10 years of service.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    While there may be many factors that go into an individual sailor's 
career decision, years of statistical studies have shown conclusively 
that increases in pay have a significant effect on retention. The 
results of improved retention are clearly shown in Table 3--battle 
groups are deploying better manned than ever before, and, in turn, the 
Navy is better able to prosecute the global war on terrorism.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    It is too early to do a complete statistical analysis of the 
retention/attrition impact of the 2002 boosts in pay and compensation 
(i.e., most have only been in effect since January 1, and improvements 
in Career Sea Pay went into effect only within the last 6 months). 
However, we do know that these most recent improvements put substantial 
dollars into sailors' pockets. For example, a Boatswains Mate Third 
Class (E-4) serving in a deployable Norfolk-based ship and drawing 
Basic Allowance for Housing (BAH) will make approximately $11,000 more 
in 2002 than in 2001. The increase takes into consideration hikes in 
basic pay, authorized BAH for qualified E-4 single shipboard sailors, 
and the October 2001 increases in Career Sea Pay. These initiatives 
have been met with overwhelming positive feedback from fleet sailors 
and are making a tangible financial difference for sailors and their 
families. As Gas Turbine Systems Technician (Electrical) First Class 
(E-6) Heink Reisenbichler, a 15-year sailor, put it in a recent media 
interview, ``Our most valuable assets are our people . . . the pay 
itself will motivate people to stay, and especially reduce the 
financial stress for the younger sailor.''
    We are winning the battle for people, but important challenges 
remain. Officer retention in most line communities is below required 
levels and recruiting shortfalls exist in officer specialty areas and 
critical enlisted ratings. This is the first time in history that the 
services have faced a prolonged conflict with an all-volunteer force. 
We must ensure our most valuable resource, Navy men and women, are 
provided with the tools and leadership to succeed, including a 
continued commitment to enhancements in compensation.

                       LENGTH OF WAR ON TERRORISM

    38. Senator Akaka. Admiral Krol, you state that it is ``quite 
probable that the global war on terrorism will continue for several 
years at a pace similar to, and perhaps periodically greater than, that 
required to date for Operation Enduring Freedom.'' On what basis have 
you reached this conclusion? Have you received any guidance about the 
length or level of commitment you should plan for from either your 
civilian or military leadership?
    Admiral Krol. The senior leadership in both the Defense Department 
and White House has publicly stated the global war on terrorism may go 
on for many years. Given the nature of our enemy and the very 
unconventional nature of his tactics, the duration and intensity of the 
global war on terrorism cannot be predicted with certainty. As with 
conflicts in the past, various options are being carefully analyzed for 
the continued prosecution of the global war on terrorism. Different 
options entail different levels of commitment in material, time, and 
manpower.

                       PRIMARY READINESS CONCERNS

    39. Senator Akaka. Dr. Mayberry and General Newbold, what do you 
believe is the most important future readiness challenge that is not 
sufficiently appreciated, either within the DOD or by Congress?
    Dr. Mayberry. One of our most important readiness challenges for 
the future is to preserve and protect our training ranges and major 
training centers. These assets are essential for assuring realistic 
combat training for our military forces. We need to have the means to 
protect these assets from the many forms of encroachment, and modernize 
them to support tomorrow's warfighting needs.
    General Newbold. While there are a number of programs, weapon 
systems and transformational concepts that are vital to the Department 
remaining the predominant military force on Earth, their value will be 
greatly diminished if we do not have the right blend of talent, in the 
right quantities and the right experience levels, to perform our future 
missions.
    Congress and the DOD are both aware of the importance of service 
members, but the importance of the preserving the intangibles of 
military service (camaraderie, cohesion, espirit, etc.) is often given 
insufficient credit. Compensation will never match the demands and 
risks we ask of our military members, so service must be unique and 
transcendent. This comment is not intended to diminish the importance 
of compensation. Compensation is an indication of the appreciation of 
the country to the servicemember's sacrifice and is vitally important 
both for this reason and so that our families basic needs can be met. 
We ask a lot of our soldiers, sailors, airmen, and marines--arduous 
training, sitting long hours on alert, long family separations, often 
in dangerous environments that add to the overall stress to the family. 
The vast majority of our force takes enormous pride in serving their 
country, but they also have to meet their personal obligations. If long 
separations are too frequent, if the pay differential with the 
civilians community becomes too large, if benefits are sensed to be 
eroding, we run the risk of not being able to retain--or recruit--the 
highly intelligent, skilled personnel necessary to operate those new 
weapon systems, concepts, and programs. We've made tremendous progress 
in quality-of-life initiatives recently, but we must be ever mindful of 
the needs--intangible and real--of our soldiers, sailors, airmen, and 
marines.

                            OSD ORGANIZATION

    40. Senator Akaka. Dr. Mayberry, your office is responsible for 
oversight and policy for force readiness. As we have discussed already, 
readiness is a complex equation, with many contributing elements. Key 
among them, however, is logistics support, which falls under a 
different under secretary. Do you feel that the current organization 
and division of responsibilities within the Office of the Secretary of 
Defense adequately support your efforts to coordinate and direct all 
aspects of readiness? If not, what changes have you considered and/or 
proposed?
    Dr. Mayberry. There are always challenges in ensuring adequate 
logistics support for our forces. In fact, this area presented enough 
challenges to warrant the establishment of a Deputy Under Secretary of 
Defense for Logistics and Materiel Readiness [DUSD(L&MR)]. I have met 
regularly with the DUSD(L&MR), and our staffs work closely to ensure 
the most important materiel readiness issues are addressed. I have no 
concerns with the current organization.

                            FORCE PROTECTION

    41. Senator Akaka. General McKiernan, General Bedard, General Wald, 
and Admiral Krol, could you please quantify the additional force 
protection requirements after September 11? What options, if any, are 
you considering to alleviate the burden that meeting this requirement 
might pose?
    General McKiernan. Since September 11, the Army has mobilized 
15,668 Reserve component (RC) soldiers and detailed a further 12,478 
Active component (AC) soldiers to perform installation security duty 
requirements that are mandated by the Department of Defense (DOD) Force 
Protection Condition (FPCON) System. The majority of these soldiers are 
utilized to perform installation access control, security patrols, and 
the guarding of mission essential vulnerable areas.
    The Army is pursuing several initiatives to alleviate this burden 
upon our AC/RC soldiers. We are reducing the number of access control 
points necessary to provide the best force protection possible while 
minimizing the number of personnel required to perform installation 
access control. The Army is exploring existing and forthcoming security 
technology that would enhance our security capabilities and further 
reduce manpower required to support FPCONs. Additionally, the Army has 
recommended to Congress the modification of existing law to permit 
commanders to contract for security guards to perform the force 
protection duties currently being done by AC/RC soldiers.
    General Bedard. While force protection (FP) is not the mission of 
the Marine Corps, it is mission-essential. Our highest priority remains 
unchanged: the protection of our marines, those serving with us, their 
families, and our civilian marines. Our most advanced aircraft, ship, 
or weapons system is of no value without highly-motivated and well-
trained people. People and leadership remain the real foundations of 
the Corps' capabilities. Since September 11, force protection 
requirements (both new and previously identified) have been addressed 
in the enhancement of our organizational structure and anti-terrorism 
capabilities.
    A leading example of this enhancement is the creation of the 4th 
Marine Expeditionary Brigade (Anti-Terrorism). The 4th MEB (AT) 
combines our Marine Security Guard Battalion, Marine Security Force 
Battalion (MCSF BN), and the Chemical Biological Incident Response 
Force (CBIRF) with a specialized anti-terrorism infantry battalion, as 
well as a command element complete with dedicated planners, 
coordinators, and liaison officers for anti-terrorism operations. The 
4th MEB (AT) has had an immediate impact, deploying marines within 60 
days to our re-opened embassy in Kabul, supporting flight line security 
in Incirlik, Turkey, as well as supporting anthrax identification at 
the Capitol.
    The fiscal year 2003 budget reflects an endstrength increase of 
approximately 2,400 marines in support of the 4th MEB(AT). This 
increase will enable the Marine Corps to maintain the operational and 
unit integrity of our 24 active infantry battalions, and regimental 
command elements. Additionally, an endstrength increase would provide 
structure and resources to form the 3rd Fleet Anti-terrorism Security 
Team (FAST) Company, thereby increasing our FAST capability from 13 to 
20 platoons. This valuable asset is operationally controlled by the 
Chief of Naval Operations and strengthens the Navy-Marine Corps Team.
    Electronic Security Systems (ESS) are the technology centerpiece of 
the Marine Corps AT/FP program. ESS core funding supports physical 
security efforts to trade technology for manpower. Installation and 
operating forces commanders have identified requirements for increased 
ESS support for AT/FP, which includes increased surveillance capability 
(closed-circut TV) and digital capture technology for access control 
points; portable sensor technologies; access control capability; and 
biometrics integration.
    Our centrally managed Physical Security Upgrade program relieves 
commanders of having to choose between physical security projects that 
support AT/FP efforts and quality of life minor construction and repair 
projects at the installation level. This program provides funding for 
blast mitigation; emergency power generation; security force facilities 
improvement; security lighting; ordnance facilities improvement; 
emergency operation center upgrades; and installation perimeter 
fencing. In addition to the above core requirements, we received 
supplemental funding via PBD 810 and the Defense Emergency Response 
Fund (DERF) to support Mass Notification/Personnel Alerting Systems, 
communication interoperability with State and local emergency response 
agencies, and emergency preparedness for installation first responders.
    In summary, our anti-terrorism/force protection program is based on 
our ability to leverage our scarce manpower resources with enhanced 
technology and training.
    General Wald. Based upon the increased terrorist threat, we 
immediately implemented a higher FPCON at all our CONUS Active, 
Reserve, and Guard bases. We mobilized Air Force Reserve and Air 
National Guard security forces and implemented stop loss to help 
sustain manning levels. It appears we will be in this situation for the 
long haul as intelligence and law enforcement reports indicate the 
terrorist threat to our operations and people are significant and 
enduring. We continuously evaluate our FPCONs and employ random 
antiterrorism measures to deter and counter the threat. We are 
exploring various ways to improve our force protection capabilities and 
reduce the manpower shortfalls and associated burden on our people. 
These methods include improved technology, training, tactics, 
techniques, and procedures.
    Admiral Krol. September 11 obligated the Navy to undertake force 
protection measures in the United States proper that had previously 
been institutionalized overseas--including robust, post-U.S.S. Cole 
waterside security measures. Given roughly two-thirds of the Navy's 
operating bases are in the U.S., this increase in posture and readiness 
precipitated a proportional increase in necessary security resources, 
particularly manpower.
    Prior to September 11, the Navy was the first service to develop, 
over the course of 4 years, a rigorous, objective staffing process to 
quantify manpower requirements for security forces. With this manpower 
metric, the Navy determined that about 4,500 additional personnel are 
required to support FPCON BRAVO staffing. Until adequate Active Duty 
security manpower becomes available, this additional security staffing 
requirement is being filled by mobilized Reservists, and Active Duty 
personnel whose normal functions do not include force protection. Given 
that FPCON BRAVO is a likely long-term domestic condition, neither 
Reservists nor these temporary augments are viable over time.
    The Navy is considering a number of options to alleviate these 
post-September 11 burdens. We are examining several options for meeting 
the increased personnel requirements: increasing our Active Duty 
numbers devoted to force protection, using a mix of Active Duty and 
civilian personnel, using contract security personnel (though this 
would require a change in public law), or a combination. We are also 
actively examining where technology could be used to reduce the number 
of security positions by creating secure enclaves around piers and 
airfields inside our bases. Solutions, tailored to each unique 
individual facility, are under review.

                      IMPACT ON RESERVE COMPONENTS

    42. Senator Akaka. General McKiernan, General Bedard, General Wald, 
and Admiral Krol, what impact has the call-up of the Reserve components 
for Operations Enduring Freedom and Noble Eagle to perform missions 
such as CAPs, airport security, and force protection at installations 
had on the ability of those Reserve components to conduct their normal 
training? Does your service plan to conduct its normal Reserve 
component training this summer? To date, has the current call-up had 
any impact on Reserve component recruiting or retention?
    General McKiernan. The call-up of the Reserve components to conduct 
airport security and force protection missions in support of Operations 
Enduring Freedom and Noble Eagle has not impacted on their ability to 
conduct scheduled training. Reserve component units that have not 
deployed will conduct their normal annual training as scheduled.
    Today, over 54 percent of the Army resides in the Reserve 
component, a significant portion of which has been mobilized to fight 
against terrorism. Over the course of the global war on terrorism, the 
Army has mobilized over 30,000 soldiers to either support individual 
states in a Title 32 or state Active Duty role or to provide Title 10 
support to the Federal Government. The challenge now facing the Army is 
to sustain this mobilization over time, as the majority of requirements 
will continue with only a portion of those being feasible to transition 
to civilian or contract support.
    In addition to doubling the number of soldiers deployed since 
fiscal year 2001, the Army has been particularly stressed in specific 
high-demand/low-density Military Occupational Specialties (MOSs) such 
as military police, military intelligence, special operations forces, 
and chemical personnel as well as specific unit capabilities that 
primarily reside in the Reserve component. Currently, almost 80 percent 
of the Army's military police force deployed around the world in places 
like Afghanistan and Guantanamo Bay, Cuba and in numerous locations 
throughout the United States is coming from the Army National Guard 
(43.4 percent) and the Army Reserve (36.2 percent). Similarly, the Army 
has mobilized 62 percent of its Reserve component military intelligence 
capability and has sought out linguists and soldiers with human 
intelligence (HUMINT) expertise. At the unit level, the Army has 
mobilized a significant logistics capability, over 70 percent of which 
resides in the Reserve component, as well as half of its existing 
Biological Detection System (BIDS) units.
    To deal with the stress on high-demand/low-density personnel and 
the shortage of specific unit capabilities, the Army enacted selective 
stop loss to hold certain soldiers with selected skill sets on Active 
Duty. The Army was also forced to mobilize large number of Reserve 
component units and individuals. While the Office of the Chief of Army 
Reserve reports that these actions have not had a negative impact on 
recruiting or retention, it is important to note that stop loss and 
mobilization may mask underlying issues in these areas. Moreover, it 
may simply be too early to tell.
    While the Army is fighting the current war on terrorism, it is also 
developing plans to mitigate the shortage of specific personnel and 
unit capabilities in the future. The Army is reexamining its Active and 
Reserve component mix of forces, conducting a review of its overall 
force structure through the Total Army Analysis process, and revisiting 
its endstrength requirements.
    The global war on terrorism, in potential scope and duration, is 
unlike any previous American war with the possible exception of the 
Cold War. During the Cold War, however, the Army had the majority of 
its capability in the Active component. Today, that is not the case. 
Given the ongoing and open-ended requirements of the war on terrorism 
and the limited size of the Active component, the Army will continually 
rely on the Reserve component and may have to revise its strategy for 
recruiting and retention in order to maintain the critical capability 
to fight and win this Nation's current and future wars.
    General Bedard There have been no impacts on units and individuals 
not activated. Activated units have been provided with greatly enhanced 
training opportunities. For example, one of the first unit activations 
sent two platoons from B Company, 1st Battalion, 23rd Marines to Naval 
Base Guantanamo Bay, Cuba to assume the installation security mission. 
To prepare for the mission the unit received extensive training in 
anti-terrorism and force protection from Marine Corps Security Forces 
Battalion. During their 4-month rotation in Cuba, they were also able 
to conduct extensive additional training, including live-fire, not 
normally available to Reserve units due to their limited training 
availability. The remaining two platoons in the company were activated 
in mid-February to provide relief for the same mission. They, too, are 
getting all of the additional training which will benefit not only the 
unit readiness, but the individual marines as well.
    Since their call to Active Duty, 2nd Battalion, 25th Marines and 
Headquarters Company, 25th Marine Regiment have been serving as part of 
2nd Marine Division and participating in all the normal training 
opportunities offered at Camp Lejeune. One recent training opportunity 
gave the Reserve Marines a chance to test and utilize new field 
equipment. The 25th Marine regiment is one of only three regiments in 
the Marine Corps (along with 6th and 8th Marines) to receive and train 
with the new Combat Operations Center Command and Control equipment. 
The opportunity to test new field equipment rarely comes to the reserve 
units.
    Marine Heavy Helicopter Squadron 772 was activated to support 2nd 
Marine Aircraft Wing and is currently at MCAS New River. This CH-53 
squadron will reinforce Marine Medium Helicopter Squadron 263 as part 
of the air combat element for the 24th Marine Expeditionary Unit, which 
deploys this summer. The squadron is undergoing extensive training to 
be designated ``special operations capable,'' a first for a Reserve 
squadron. Across the board, Marine Reserve units activated for the 
global war on terrorism are performing their designated missions and 
gaining superior training, which will enhance the versatility, 
flexibility, and adaptability of the reserves to react, reinforce, and 
augment the Active Forces.
    The Individual Mobilization Augmentees (IMAs) activated thus far 
are working in the pre-designated billets that they normally drill. 
Those IMAs not activated are expected to continue to participate in 
training with their operational sponsors. The Individual Ready Reserve 
(IRR) members who have been activated are either working in their 
Military Occupational Specialties (MOSs), thus maintaining their 
proficiency, or, for those who volunteered to fill a billet outside of 
their MOS, gaining new skills. Those working installation security have 
benefited from additional training in anti-terrorism and force 
protection. 
    There have been no significant modifications to the MarForRes 
Training Exercise and Employment Plan, so all previously scheduled 
events will take place. Units not activated will continue to execute 
their training plans as previously scheduled, and units that remain 
activated will not be required to conduct annual training.
    Marine Corps Reserve recruiting and retention behavior thus far in 
fiscal year 2002 is not significantly different than we experienced in 
fiscal year 2001. The complex nature of the current conflict, coupled 
with the resulting unknowns concerning its extent and duration make it 
impossible to predict the long-term impacts on recruiting and 
retention. Long-term impact on recruiting will be tied to the role of 
the particular service involved, public perception, and overall 
progress in achieving the objectives of the conflict. Long-term impact 
on retention will be tied to two critical factors. First, the job 
satisfaction experienced by Reserve members who are mobilized will 
determine the extent of continued interest in maintaining Reserve 
affiliation once these members have met their call up responsibilities. 
The second critical retention factor will be determined by the impact 
of their post-Active Duty transition and assimilation back to their 
local communities. Those members who experience difficulty in family or 
personal life, reemployment and civilian careers, and related economic 
impacts could have a significantly decreased interest in continued 
participation in a Reserve capacity. It is important for leaders and 
policy makers at all levels to watch these areas closely and to 
evaluate any adverse impact experienced by our Reserve members, both 
during Active service and after they have resumed their pre-
mobilization careers and family life. Because we have not demobilized a 
significant number of marines initially called to Active Duty in 
support of the current mobilization, the overall impact on retention 
for recalled members is undetermined at this point.
    General Wald. AFRC personnel proudly serve in continuing 
deployments in support of our present war on terrorism, and other 
contingency and humanitarian operations. This higher OPTEMPO has 
resulted in less training time in some areas. For example, personnel 
who deploy in support of taskings outside of their units are getting 
valuable operational experience; however, in some cases, they are not 
taking care of some of the recurring training requirements which would 
have been accomplished had they performed home station duty. The full 
scope homeland security associated requirements and mission are still 
evolving and related additional training requirements will be addressed 
concurrently. Air Force Reserve members will be expected to complete 
their statutory annual tour requirements for the fiscal year. However, 
given the current number of mobilized Reservists it's expected that the 
number of personnel available to actually perform annual tours will be 
diminished. In accordance with current policy, Inactive Duty Training 
(IDT) requirements are fulfilled and members are considered 
``constructively present'' while on Active Duty. The member's commander 
or program manager should determine when IDT/Annual Training (AT) is 
required and may waive training requirements when appropriate.
    Admiral Krol. There has been minimal impact on the training regimen 
to date. Naval Coastal Warfare units are currently serving in both 
CONUS and OCONUS force protection roles, a mission that is closely 
aligned with their war time mission and serves to sharpen unit 
surveillance and water-borne surface ship interception skills. 
Likewise, aviation units are serving in a capacity that ultimately 
improves skills and readiness. Currently plans are being developed to 
address force sustainment, both Reserve and Active capability, to deal 
with long-term force protection needs.
    Additionally, current plans are to continue normal training and to 
meet exercise commitments. All non-mobilized Selected Reservists will 
be eligible to perform annual training.
    Since September 11, the Navy's retention rate has risen 
substantially, resulting in fewer qualified veterans leaving Active 
Duty and therefore available for Reserve affiliation. Of those 
personnel who have made the decision to leave Active service during the 
war, their awareness of Reserve mobilization has impacted their 
decision for Reserve affiliation. The result is that affiliation of 
Navy veterans appears to have decreased to some extent. Retention 
appears to have increased due to stop loss, and the inability of a 
mobilized Reservist to separate. We expect attrition to increase and 
retention to decrease as a result of demobilization. In an attempt to 
fill the gap, Naval Reserve recruiting has significantly increased the 
accessions of non-prior service personnel.
                                 ______
                                 
             Questions submitted by Senator James M. Inhofe

                        TRAINING RANGES--VIEQUES

    43. Senator Inhofe. General Bedard, you note in your written 
testimony on page 22 that ``it is absolutely critical that the Navy and 
Marine Corps maintain areas where they can combine naval gunfire, 
artillery, air, and ground maneuver simultaneously.'' Is Vieques one of 
these areas to which you are referring?
    General Bedard. It is essential for naval forces to have access to 
a live-fire training environment that allows for simultaneous live-fire 
integration of all naval fires, including Marine direct and indirect 
fires (small arms, machine guns, mortars, and artillery), Naval Surface 
Fire Support, and aviation delivered fires. Vieques represents the only 
training location on the east coast that possesses the ability to 
accommodate the full range of naval fires. The loss of Vieques live-
fire training will degrade the ability to adequately train and prepare 
Marine Air Ground Task Forces on the east coast for combat.

    44. Senator Inhofe. General Bedard, the Army and the Air Force 
indicate that they have unfunded requirements in support of their 
training ranges for fiscal year 2003. The Navy does not identify an 
unfunded requirement for training ranges. Is the Marine Corps fully 
resourced to support training ranges, including Vieques, in fiscal year 
2003?
    General Bedard. Our fiscal year 2003 budget allows us to meet our 
basic requirements in support of training ranges, although a number of 
deficiencies exist which we are trying to address. While our ranges are 
generally in adequate condition, we have been unable to modernize them 
to provide for advanced fire and maneuver. We must compete our training 
range enhancements in the POM process against the same funding lines 
that procure our warfighting systems and equipment and, most 
frequently, this process leaves training range modernization behind. In 
particular, the operation and maintenance (O&M) funding provided for 
range maintenance is subject to prioritization with other projects in 
the same category and frequently falls short when competing with family 
housing maintenance and other base support functions.
    Our most significant limitations and shortfalls are targetry and 
infrastructure to contribute to more advanced training. Realistic 
targets that provide feedback to the shooter, instrumentation that 
tracks positions over time, and threat emitters that stimulate aircrews 
to take appropriate action while flying training missions are examples 
of upgrades that would facilitate more advanced training. Once again, 
these programs have to compete against other critical deficiencies and 
therefore may not receive the necessary funding, or may take much 
longer than desired to field.
    Finally, we cannot comment on the level of fiscal support for 
Vieques, since operations and maintenance funding for these ranges is 
provided by the U.S. Navy, not the Marine Corps.

    45. Senator Inhofe. General McKiernan, General Bedard, General 
Wald, and Admiral Krol, in addition to the well-publicized issues 
surrounding U.S. Navy/Marine Corps use of the Vieques training range, 
the services face growing restrictions on the use of other military 
ranges throughout the United States. It is expected that the problem 
will be magnified by the introduction of faster and more lethal weapon 
systems that require larger air, surface, and subsurface training and 
operating areas. The protection of endangered species on military lands 
has been particularly challenging for the military departments. The DOD 
property supports, on a per capita basis, about four times the number 
of endangered species as the Departments of Agriculture and Interior 
lands. The DOD has about 26 million acres of land and about 300 
endangered species. Most of the acreage is in training areas. Adding to 
the challenge is the success of military environmental stewardship. 
Like most things, when you ask the military to do something, it's going 
to get done and it's going to get done right. In the case of the 
environmental stewardship program, the success of the program has 
resulted in increased encroachment--a Catch-22. Please give examples of 
specific training ranges where encroachment is particularly 
problematic. How much of the training ranges are not usable because of 
environmental or other types of encroachment?
    General McKiernan. In the vast majority of cases, encroachment at 
our training ranges is the sum of incremental restrictions to the way 
the Army would train under unconstrained conditions. There are very few 
incidents of range areas that are entirely unusable due to these 
constraints. Rather, a given area may be subject to a number of 
restrictions on things like the location, duration, and timing of 
training events or the weapons and equipment that can be used in 
training. The cumulative effects of these incremental constraints are 
sometimes subtle but unquestionably result in sub-optimal training 
conditions.
    Examples of installations experiencing encroachment issues include: 

    Fort Hood, TX: The U.S. Fish and Wildlife Service's (FWS) 
biological opinion, issued under the ESA for both the Golden Cheeked 
Warbler and the Black Capped Vireo, restricts training on over 66,000 
acres (38 percent) of training land. These restrictions include no 
digging, no tree or brush cutting, and no ``habitat destruction'' 
throughout the year on the entire core and non-core area. During March 
through August, vehicle and dismounted maneuver training is restricted 
to established trails, and halts are limited to two hours in designated 
endangered species ``core areas.'' (55,000 acres of the 74,000 acres 
are designated ``core areas.'') Artillery firing, smoke generation, and 
chemical (riot control) grenades are prohibited within 100 meters of 
the boundaries of the designated ``core areas.'' Use of camouflage 
netting and bivouac are prohibited across the entire ``core area'' 
during these months. Unit commanders are forced to develop and 
implement work-arounds that result in sub-optimal training conditions. 
An example of such a work-around is the use of tape or ribbons to 
delineate fighting positions in lieu of digging entrenched fighting 
positions. These restrictions primarily affect Fort Hood's eastern 
training/maneuver corridor and concentrate training impacts on the 
western corridor. Concentration of training impacts, coupled with 
cattle grazing, is causing severe erosion and rapid training land 
degradation on the installation.
    Fort Richardson, Alaska: In a lawsuit against the Army at Fort 
Richardson, Alaska, plaintiffs allege that munitions used for their 
intended purpose (fired in training) are solid waste under the Resource 
Conservation and Recovery Act and are subject to corrective action 
(clean-up), a pollutant discharge under the Clean Water Act requiring a 
permit, and a discharge of hazardous substances under the Comprehensive 
Environmental Response, Compensation, and Liability Act (Superfund) 
requiring reporting and remediation. Plaintiffs have filed a motion for 
a preliminary injunction in their complaint seeking to halt live-fire 
training pending resolution of the case. At a minimum, results of this 
litigation will impact Forts Greeley and Wainwright in Alaska because 
they have similar physical conditions and conduct similar military 
range operations. A negative ruling in this case may result in the 
broad application of these statutes to all the military services' live-
fire training.
    Hawaii (including Makua Military Reservation and Pohakuloa Training 
Area): Training at Makua Military Reservation was halted for nearly 3 
years during negotiations associated with the National Environmental 
Policy Act and endangered species issues. Under terms of a settlement 
agreement, the Army must complete an Environmental Impact Statement 
(EIS) by October 2004. The EIS must address the potential impacts of 
military training at Makua and related environmental studies. Because 
the lawsuit settlement allows less than the required 18 Combined Arms 
Live Fire Exercises (CALFEXs) per year, the 25th Infantry Division 
(Light) [ID(L)] must complete the additional requirements for Company 
CALFEXs during deployments to Continental United States (CONUS) 
training facilities. Also, it is likely that other DOD components 
(i.e., U.S. Marine Corps, Army Reserve, and National Guard) will not 
have access to Makua for live-fire training during the next 3 years, 
since the restrictions of the lawsuit settlement does not allow the 
25th ID (L) to meet its own training requirements without out-of-state 
deployments. Terms of the biological assessment and biological opinion 
for threatened and endangered plants and animals at Makua impose 
restrictions on the uses of training aids, the uses of areas, and the 
intensity of uses. The Army constructed a Multi-Purpose Range Complex 
at Pohakolua Training Area (for nearly $25 million). The Army has never 
fully utilized the range due to very restrictive, and expensive, 
environmental mitigation measures that resulted from consultation with 
U.S. Fish and Wildlife. The U.S. Fish and Wildlife Service is under 
court order to designate critical habitat for 245 plant species in 
Hawaii. These designations are in various stages of completion. Current 
data indicates that 5 critical habitat designations for animals, and 58 
upcoming designations for plants have the potential to negatively 
impact Army training lands and ranges in Hawaii. These adverse impacts 
may include training restrictions, administrative burden, and access 
limitations to certain areas. At Makua Military Reservation, under 
terms of a settlement agreement, the Army must complete an EIS by 
October 2004, or military training may suspended until the EIS is 
complete.
    General Bedard. There are a number of proposals under consideration 
to better identify, quantify, and report the impacts of encroachment at 
both the OSD and Marine Corps level. At the service level, there is a 
USMC proposal to create a range database that would link Individual 
Training Standards (ITSs) and collective training standards to specific 
ranges/range complexes. This metric would enable the USMC to articulate 
the impact of the loss or degradation of a specific range. This metric 
would by extension help identify range shortfalls and provide the 
foundation for a range management roadmap. Ultimately, the range 
management database will lend itself to a much-improved ability to 
articulate encroachment impacts in terms of readiness standards and 
costs.
    The following list is a sample of specific training ranges where 
encroachment is particularly problematic from each coast and Hawaii. 
This list does not include all of our military installations. It is, 
however, representative of the encroachment problems we face and the 
causative factors resulting in training limitations.
    Southern California--Marine Corps Air Station (MCAS) Miramar--
Endangered Species Act (ESA): Miramar supports nine listed species. 
United States Fish and Wildlife Service (USFWS) proposed designating 
critical habitat for three species covering 65 percent of the base, 
including the containment area. USFWS decided not to designate any 
habitat on the station as the Station's Integrated Natural Resources 
Management Plan (INRMP) provided suitable species management, obviating 
the need for habitat designation. The decision to not designate 
critical habitat on Miramar was challenged by the Natural Resources 
Defense Council (NRDC) and the California Home Builders Association 
(CAHBA). In response to the CAHBA case, USFWS decided to withdraw the 
rule until a new economic analysis could be prepared. It is anticipated 
USFWS will designate habitat such that the concerns of CAHBA are 
accommodated. Finally, it is anticipated that NRDC will refile their 
complaint and seek to overturn the decision that excludes military 
installations from critical habitat designation.
    Air Quality: Miramar is located within the South Coast Air Quality 
District, which is a severe non-attainment area. Meeting air quality 
standards during basing of the MV-22 Osprey, the Marine Corps' number 
one aviation acquisition priority, will be challenging.
    Airspace: The San Diego area airspace is facing encroachment from 
Tijuana, Mexico's Rodriguez airport, affecting operations at all San 
Diego area air stations. In addition, San Diego-area military 
installations face continuing pressure to provide space for a civilian 
international airport to replace Lindbergh Field.
    Marine Corps Base (MCB) Camp Pendleton--ESA: Camp Pendleton 
supports 18 listed species. USFWS proposed designating critical habitat 
for six species covering 57 percent of the base, including all 17 miles 
of beach and a portion of the impact area. USFWS decided to not 
designate much of the base as the harm to readiness would be greater 
than the benefit to the species. Areas designated for critical habitat 
include the area leased to the State of California for use as a state 
park. The decision to not designate critical habitat on Camp Pendleton 
is being challenged in court by NRDC and CAHBA. In response to the 
CAHBA case, USFWS decided to withdraw the rule until a new economic 
analysis could be prepared. It is anticipated USFWS will designate 
habitat such that the concerns of CAHBA are accommodated. Finally, it 
is anticipated that NRDC will refile their complaint and seek to 
overturn the decision that excludes military installations from 
critical habitat designation.
    The State of California is proposing the creation of Marine 
Protected Areas, including one off the coast of Camp Pendleton. The 
Marine Corps objects to this designation as it would restrict the 
ability to conduct amphibious operations.
    Urban Development: Interstate Highway 5 and a parallel railroad 
track serve as barriers for tactical movement from the beach to inland 
fire and maneuver areas. While several underpasses exist, only one 
underpass can accommodate all tactical vehicles used by the Marine 
Corps, thereby limiting manuever throughput. A State park and nuclear 
power plant on the base remove about half of the beach area for 
training. Development up to the fence line is resulting in increased 
local populace noise complaints due to live-fire exercises conducted 
aboard the base. The base has been identified, over the objection of 
the Marine Corps, by the San Diego area governments as a potential site 
for a new international airport. Over the objection of the Marine 
Corps, the USFWS, United States Environmental Protection Agency 
(USEPA), and LA District Army Corps of Engineers (ACOE) are requiring 
the Federal Highway Administration to consider alternative highway 
route alignments through Camp Pendleton.
    Airspace Restrictions: San Onofre nuclear power plant has airspace 
restrictions.
    Air Quality: Camp Pendleton is located within the South Coast Air 
Quality District, which is a severe non-attainment area. Meeting air 
quality standards during basing of the Advanced Amphibious Assault 
Vehicle (AAAV), the Marine Corps' number one ground acquisition 
priority, will be challenging.
    Marine Corps Recruit Depot (MCRD) San Diego--Base Urban 
Encroachment: MCRD San Diego continues to experience significant urban 
development around its facilities with increasing competition for use 
of MCRD property by local airport authorities.
    Arizona--Yuma Training Range Complex (YTRC), Arizona--Chocolate 
Mountains Aerial Gunnery Range--ESA: USFWS designated about 175,000 
acres north of the ridgeline as critical habitat for the Desert 
Tortoise.
    Noise: Target arrays are prohibited from about 200,000 acres south 
of the ridgeline due to noise concerns of Niland, CA, residents. Noise 
and ESA concerns will make creation of new target arrays difficult; 
this adversely affects training for units such as the Naval Special 
Warfare Task Units (SEALs), who require new target arrays.
    Mineral Resources: Oil, mineral, and gas development options on 
Bureau of Land Management (BLM) withdrawn land, if exercised, would 
affect ability of this installation to support military training.
    Western portion of the Barry M. Goldwater Range (BMGR)--ESA: BMGR 
currently provides habitat for two species protected under the 
Endangered Species Act. Specifically, the Sonoran Pronghorn antelope 
which as been designated as endangered and the flat-tailed horned 
lizard which has been proposed to be designated a threatened species. 
The presence of these protected species places significant restrictions 
on approximately 320,000 acres (46 percent) of the BMGR West. 
Similarly, the Sonoran Pronghorn occupies 445,000 acres (42 percent) of 
the BMGR East, which is under U.S. Air Force control but is also used 
by fleet Marine units and Marine Aviation Weapons and Tactics Squadron 
One (MAWTS-1). Although civilian recreational use and the two protected 
species have not prevented required training mission accomplishment, 
they limit use of certain portions of the range. For example, when 
Pronghorn antelope are present in a target area, fighters laden with 
ordnance and fuel must either loiter until the antelope leave or cancel 
the sortie without completing their assigned mission.
    North Carolina--MCAS Cherry Point--Environmental and property issue 
with State of North Carolina over water targets: Concerns include 
unexploded ordnance (UXO), noise, and water quality.
    Frequency spectrum encroachment: The band used for Tactical Air 
Combat Training System (TACTS) range may be lost to commercial 
interests.
    MCB Camp Lejeune--Urbanization: The area around the base is 
experiencing explosive growth due to the nearby beach economy. Planning 
for development of a 2,500-acre parcel adjacent to the base's tank 
range, explosive ordnance disposal range, and rifle range as a golf 
course community supporting 4,500 units of housing is underway. The 
potential for noise complaints is staggering.
    Hawaiian Islands--MCB Hawaii--ESA and Cultural Resources/Makua 
lawsuit: Prior to October 2001, the Army and Marine Corps were enjoined 
from conducting live-fire training exercises in Makua Valley on Oahu. 
The Army has regained limited access to the range for training. 
However, sufficient access to accommodate Marine Corps training was not 
forthcoming.
    Explosive Safety Arcs: Previously compatible land use has been 
converted to commercial development, impeding ability to maintain 
explosive safety arcs.
    General Wald. The Air Force has about 79 endangered species on its 
ranges and installations. Currently, the range most seriously affected 
by restrictions due to endangered species is the Barry M. Goldwater 
Range (BMGR) in Arizona. The BMGR, the adjacent Wildlife Refuge, and 
National Monument are the last remaining habitat for the Sonoran 
Pronghorn antelope. The Air Force routinely redirects or cancels 30 
percent of our live-drop missions every year to avoid the antelope. 
Currently, at the other ranges, there are no major restrictions on 
testing or training. However, we have seen large increases in 
population around several bases that are associated with our largest 
ranges, such as Nellis AFB, Nevada, and Luke AFB, Arizona. It is this 
developing trend that has led the DOD to seek clarification on specific 
legislative and regulatory requirements. Our goal is to maintain our 
capability to test equipment, train military forces, and simultaneously 
protect the environment to the greatest extent possible.
    Admiral Krol. Nowhere is the impact of encroachment more apparent 
than in Southern California and especially with respect to Marine Corps 
bases in that locale. In February 2000, the U.S. Fish and Wildlife 
Service (USFWS) proposed designation of over one-half of the 12,000 
acres that comprise the Marine Corps Air Station, Miramar as critical 
habitat for several species. The designation included runways and other 
aviation related structures. At the same time, USFWS also proposed 
critical habitat designation on about 65 percent of Marine Corps Base, 
Camp Pendleton, an installation of 126,000 acres. At Miramar, the 
Marines were able to convince USFWS that the Integrated Natural 
Resources Management Plan provided sufficient species protections, and 
at Camp Pendleton, USFWS determined that the harm to military readiness 
was greater than the value of critical habitat designation, resulting 
in a scaled back designation. Parties unhappy with these results, 
however, are challenging USFWS's decisions in court. If the challenges 
are successful, critical habitat designation at Miramar will prevent 
the construction and use of ground support facilities, such as a rifle 
range, military family housing, and utility support facilities. The 
Marine Corps will also have to consult with USFWS for the use of 
existing runways and other aviation support facilities. At Camp 
Pendleton, a loss would require the Marine Corps to consult on training 
on 57 percent of the base. The Corps is already modifying training on 
the 10 percent of the base currently designated as critical habitat. 
For example, Marine Expeditionary Unit (MEU) amphibious landing 
exercises are seasonally restricted to only one beach at Camp 
Pendleton. In March 13, 2000, the MEU was restricted to 500 yards out 
of 17 miles of beach because of endangered species and other 
encroachment restrictions. In consequence, instead of accomplishing a 
realistic nighttime amphibious landing, units coming ashore on Landing 
Craft Air Cushion (LCACs) vehicles were off-loaded at the LCAC facility 
before moving inland to continue the exercise. They did not go through 
the full kinds of training required to prepare to take a hostile beach. 
This was a very serious degradation of training.
    About 175,000 acres of the northeastern portion of the Chocolate 
Mountains Aerial Gunnery Range has been designated as critical habitat 
for the desert tortoise. About 300,000 acres of the southwestern 
portion of the range has been designated as a no-drop area due to noise 
concerns. Accordingly, establishment of new target arrays is extremely 
difficult. The Navy SEALs would like to establish a new range, but will 
likely not be able to due to endangered species and noise concerns.
    The Navy was not as successful in avoiding the designation of 
critical habitat on the Naval Amphibious Base (NAB), Coronado, CA. The 
USFWS designated critical habitat for the Pacific population of the 
Western Snowy Plover in December 1999 on portions of the base. NAB 
Coronado has been home to Navy frogmen and SEALs since their inception 
in World War II. All of the basic skills from diving to hydrographic 
reconnaissance have been taught on the beaches and in the bays 
surrounding the base. For decades, SEALs, marines, beachmasters, and 
Amphibious Construction Battalions conducted amphibious landings on 
Coronado's beaches. Ironically, the Navy's successful conservation 
efforts at NAB Coronado have resulted in additional limits on training. 
In the early 1980s, the Navy began moving Eastern Snowy Plover and 
Least Tern nests across the highway to a more protected area in order 
to avoid any damage from tracked vehicles and foot patrols. As the bird 
populations grew in this conservation area, however, the birds extended 
their habitat back to the ocean beaches, forcing the Navy to cease most 
over-the-beach amphibious landings. Since 1996, the Navy has spent 
approximately $675,000 per year on conservation and management programs 
for the birds, increasing nesting by almost 300 percent. Navy's 
successful stewardship program, however, has resulted in the loss of 
training area, and NAB Coronado has lost substantial areas of its 
training beaches to encroachment. The response has been to 
substantially alter training activities or to conduct them elsewhere, 
which disrupts training cycles, reduces access to training areas, and 
increases costs and the already considerable time sailors must spend 
away from their families before leaving for 6-month deployments. The 
Navy has been working currently with the USFWS to alleviate the 
situation but, again, these procedural modifications are open to 
litigation from environmental groups.
    The Navy has run into similar problems on the Vieques Range in 
Puerto Rico. On Vieques, Navy implemented a turtle protection program 
that required daily patrols for endangered sea turtle nests. Under the 
program, where possible, eggs in nests that could be at risk were 
removed to a hatchery. Over 20,000 turtle eggs were saved through this 
program, with a successful hatching rate of 80 percent (far higher than 
turtles in the wild). Notwithstanding the Navy's contribution to sea 
turtle conservation, the incidental take statement in USFWS's 
biological opinion on Navy training at Vieques allowed the Navy to take 
only one turtle in the course of training. This low number of 
authorized take forced the Navy to expend more effort and funding on 
turtle surveys. On average, the Navy spends several days and $100,000 
per battle group training exercise cycle to conduct turtle surveys. 
Additionally, the low number of authorized incidental takes has forced 
the Navy to expend more time on planning training exercises that 
utilizing the beaches. In some instances, exercises have been moved to 
other parts of the beach where there are fewer turtles. At other times, 
exercises have been severely curtailed. For example, amphibious warfare 
training exercises have been moved, scaled back, or dropped only 
because of their potential to take more than one turtle.
    At Marine Corps Air Station, Miramar, California, plaintiffs filed 
suit in 1997 challenging the adequacy of Clean Air Act documentation 
supporting the Base Realignment and Closure realignment of helicopters 
and fixed-wing aircraft from Marine Corps Air Station, El Toro and 
Marine Corps Air Station, Tustin to the former Naval Air Station, 
Miramar. The Miramar realignment involved replacing 22 squadrons of 
Navy fixed-wing aircraft with 9 squadrons of Marine Corps fixed-wing 
aircraft and 8 squadrons of Marine Corps rotary-wing aircraft, totaling 
approximately 256 aircraft. The case continues to proceed under a 
settlement agreement, which includes a Marine Corps commitment to 
complete a new air quality analysis. Over 20 construction projects, 
valued at approximately $400 million, have been completed at Miramar, 
and both Marine Corps jets and helicopters are now operating there. 
Military operations and training continue to be at risk, however, 
unless conformity can be demonstrated and survive judicial scrutiny.

    46. Senator Inhofe. General Wald, recently Senator Bill Nelson of 
Florida has been speaking on the use of Eglin Test Range as a viable 
alternate to live-fire training at Vieques. What impact would moving 
the naval training to Eglin have on the ability of the Air Force to 
train? What impact would this have on the readiness of Air Force 
Special Operations Command forces?
    General Wald. The Navy is working on a strategy to delineate their 
requirements for fleet training in the future. Their Training Resource 
Strategy would validate current and future Navy requirements. For the 
east coast, the Navy is focusing on the use of existing DOD test and 
training infrastructure on the coast and in the Gulf of Mexico, 
including the Eglin range in Florida, the largest range in the east. 
The Air Force has six major commands operating in that area, including 
the Air National Guard, Air Force Reserve Command, Air Combat Command, 
Air Force Material Command and Air Force Special Operations Command, 
and Air Education and Training Command. We are committed to ensuring 
that all our units in the region continue to get the training they need 
to maintain the highest level of readiness possible.
    The subject of east coast training has been a frequent source of 
discussion between the Air Force and Navy. With many key Air Force and 
Navy missions on the east coast and the Gulf of Mexico, we are taking 
these discussions very seriously. Our goal is to establish a framework 
for a cooperative and integrated approach to joint training issues and 
effective range utilization.

    47. Senator Inhofe. General Wald, if the Navy ends live-fire 
training at Vieques, has the Air Force considered what might be the 
implications for Air Force training ranges? What might they be?
    General Wald. The Air Force operates two ranges in the southeast 
that can accommodate live weapons training--Shelby Range, Mississippi, 
and the Eglin Range, Florida, the largest range in the east. Other non-
live-fire ranges operated by the Air Force in the east include: Dare 
County Range, North Carolina; Poinsett Range, South Carolina; Townsend 
Range, Georgia; Grand Bay Range, Georgia; and Avon Park Range, Florida.
    The Air Force is actively working with the Navy to develop a 
framework for a cooperative and integrated approach to range use. This 
framework will address equities involved in an effort to best 
accommodate the needs of all users and the local communities. We have 
opened a dialogue with the U.S. Navy and we are reviewing the training 
needs and facilities of both our services. As this review process 
matures, we will better understand how their needs can best be 
integrated with ours. We are committed to ensuring that our units 
continue to get the training they need to maintain the highest level of 
readiness possible.

    48. Senator Inhofe. General McKiernan, if the Navy ends live-fire 
training at Vieques, has the Army considered what might be the 
implications for Army training ranges? What might they be?
    General McKiernan. It is very difficult to predict the implications 
to Army ranges associated with the cessation of live-fire training at 
Vieques. The combination of conditions at Vieques makes for a complex 
social and political environment. The Navy faces issues of perceived 
public safety hazards, Clean Water Act compliance, Noise Control Act 
compliance, and very visible political activism. There are a number of 
Army installations with similar concerns stemming from potential for 
environmental enforcement and encroachment. Our concern is that if the 
Navy can not justify the use of the only range available for the 
Atlantic Fleet to conduct vital pre-deployment combined arms training, 
it will be difficult for any military service to justify the use of any 
live-fire range. This situation illustrates the power associated with 
the use of environmental laws and social activism to stop vital 
military training anywhere.

    49. Senator Inhofe. Admiral Krol, the Army and the Air Force 
indicate that they have unfunded requirements in support of their 
training ranges for fiscal year 2003. The Navy does not identify an 
unfunded requirement for training ranges. Is the Navy fully resourced 
to support training ranges, including Vieques, in fiscal year 2003?
    Admiral Krol. Fleet training, and training ranges in particular, 
can benefit from additional funding. In fiscal year 2002, $30 million 
above original programming has been provided to Commander in Chief, 
U.S. Atlantic Fleet to support increased range usage and increased 
flexibility in IDTC needed for ``surge'' CVBG deployments and the 
reduced turn-around ratio associated with Operation Enduring Freedom. 
This provides ``mission based'' pre-deployment training including 
future weapon systems employment by incorporating the best available 
technologies into Battle Force Team Training, to support current and 
anticipated missions. An additional $16 million has been requested in 
the DOD fiscal year 2002 Supplemental Request for that purpose. A 
similar effort to identify where our training infrastructure requires 
upgrade will also be done in the Pacific Fleet area of responsibility. 
Where it is appropriate, we will reprioritize our training funding to 
continue this effort in fiscal year 2003.
    Also, considerable effort is in progress to better define our fleet 
training and training range requirements Navy-wide. We are being 
careful to focus on providing the fleet with the capability, capacity, 
and flexibility to support fleet training requirements, not only for 
peacetime sustained operations, but in surge or wartime environments. 
The initial results of this work will be reflected in our fiscal year 
2004 budget inputs and will continue to mature in future years.
    Within the competing resource requirements, the fiscal year 2003 
budget provides adequate funding to support training range operations 
and meet deploying force training requirements.

    50. Senator Inhofe. Admiral Krol, in a meeting prior to the 
hearing, we discussed the problems of environmental compliance for the 
Navy to begin live-fire training at Vieques. According to Navy 
documents, the environmental issues facing the Navy are procedural, 
and, given a dedicated level of effort and proper management by the 
Navy, these issues could be resolved. Last fall, the Chief of Naval 
Operations (CNO) and the Commandant wrote a letter to the Secretary of 
the Navy requesting the use of Vieques to conduct live-fire training 
for the John F. Kennedy battle group. Was the Navy staff prepared to 
dedicate the personnel and resources necessary in the fall of 2001 to 
satisfy the environmental compliance procedural issues for the John F. 
Kennedy battle group live-fire Vieques operations requested by the CNO 
and the Commandant?
    Admiral Krol. In the fall of 2001, the Navy had defined the 
environmentally related steps needed to resume training with explosive 
ordnance while complying with pertinent environmental laws and 
regulations, and was prepared to pursue them when tasked to do so  
higher authority. A decision has not yet been made to resume explosive 
ordnance training.

    51. Senator Inhofe. Admiral Krol, according to press reports, the 
Commander in Chief of the U.S. Atlantic Fleet has initiated a Training 
Resources Strategy (TRS) to ``spread battle group training across many 
installations.'' What is the purpose of the TRS? On what date will the 
TRS be implemented?
    Admiral Krol. The purpose of the TRS is to provide the fleet a 
comprehensive and coherent program to link tactical training resources 
to readiness requirements. The program will provide multi-site training 
and multi-dimensional flexibility throughout the Navy's overseas 
deployment training process (IDTC). The TRS, as envisioned, will 
leverage existing DOD resources and will enhance training capabilities 
when and where there is greatest potential to improve combat readiness. 
Additionally, the Training Resources Strategy will permit naval and 
joint future technology enhancements to adjust the balance of live, 
virtual, and constructive (LVC) components of training as improvements 
in technology and simulation are fielded. The program is being 
implemented incrementally and is currently underway. As an example, the 
TRS plans delivery of the first Virtual At-Sea Training Deployable 
Pototype (VAST/DP) system in October 2003. With this technology, Navy 
surface ships will eventually be able to conduct NSFS qualification at 
sea, independent of a fixed land range. The TRS also proposes more 
extensive cross-service coordination of training conducted at various 
DOD range facilities, as is currently being negotiated between the Navy 
and the Air Force for ranges in Florida. Throughout the Atlantic Fleet 
area of operations, multi-site, multi-dimensional, and technology-
enhanced training will add tactical depth and flexibility, provide 
surge capacity and share the benefits of capital investment to conduct 
concurrent CVBG/ARG-MEU operations and enhance training capabilities. 
The TRS is an evolutionary process that will provide direction to 
improve the Navy's readiness resourcing policy.

    52. Senator Inhofe. Admiral Krol, what level of funding is required 
to support the Training Resources Strategy in fiscal years 2002 and 
2003? Please itemize by fiscal year and purpose.
    Admiral Krol. The TRS will require approximately $45.452 million in 
fiscal year 2002 and $109.988 million in fiscal year 2003.
Anticipated expenditures include the following:

Facility construction and upgrades: $23.237 million
    NAP Key West hangars and maintenance building, inspection, and 
maintenance of Tactical Aircrew Combat Training System (TACTS) Towers, 
maintenance dredge to ship channel at Key West and Pensacola, upgrades 
to mine warfare capability at AUTEC, upgrades to Navy Dare County 
Range, Cherry Point Range, and upgrades to FACFACS Va Capes to provide 
an Exercise Control Group Cell.

Feasibility studies for range enhancements: $920,000
    Naval Underwater Warfare Center (NUWC) studies at TACTS tower 
ranges and AUTEC for expanded fleet operations, mobile missilex 
capability study.

Environmental studies and NEPA documentation: $6.3 million
    NEPA and site studies at Key West, Open Ocean (At-Sea 
Documentation, Virtual at Sea Training Deployable Prototype (VASTDP) 
and Avon Park Live Fire.

Large Area Tracking Range (LATR): $1.5 million
    Upgrades the frequency tracking from 141MHZ to 433MHZ to comply 
with the remainder of the fleet's LA TR sites.

Forward Area Combined Degaussing Acoustic Range (FACDAR) Range: $5.3 
million
    Provides a magnetic/acoustic sensing instrumented range to measure 
all ships for Mine Warfare vulnerabilities.

Berry Island Mine Cable: $1.8 million
    Provides for the manufacture of an 8-mile cable to connect the 
instrumented tactical training mine field located at Berry Island, 
Bahamas to Little Stirrup Key, Bahamas to establish a permanent 
telemetry site for recording usage at the mine field.

FACFACS Va Capes/Jacksonville ADSi Installation: $1.8 million
    ADSI provides LINK-16 surface picture from participating surface 
units operating in the east coast warning areas. Provides real time 
location of surface units which will enhance safety of range operations 
involving ordnance, aircraft, and ships and provide exercise control 
groups greater capability to conduct exercise injects with opposition 
forces.

C/D Antenna for G1 Aircraft: $350,000
    Antenna will provide capability to relay control data for aerial 
drones in support mobile missile exercises for fleet training.

Exercise Support: $1.315 million
    Provides fleet support with use of the boat Gosport which is used 
in large integrated exercises to launch BQM-74 drones, provide GPS 
suppression, act as an enemy vessel laying mines or provide a platform 
for navy and SEAL teams to practice hostile boarding of vessels. Also 
supports providing hulls for large sinking exercises (SINKEX).
Present estimates for fiscal year 2003 TRS requirements include:
Key West upgrades: $59 million
    Construction and additional existing building repair, 
infrastructure upgrades to fuel, electrical and water lines, and 
maintenance dredge of Key West.

AUTEC Range upgrades: $5.894 million
    Berry Island minefield cable installation and permanent Ship Self 
Radiated Noise Measurement (SSRNM) facility installation.

Environmental: $6.5 million
    NEPA compliance at Eglin AFB, NAS Pensacola, Avon Park Live Fire 
(only if contract cannot be awarded in fiscal year 2002), and Vieques 
clean-up.

Exercise Support: $17.449 million
    Funds for the use of Eglin AFB, SSRNM portable until fixed site can 
be installed, mobile boat support (Gosport), mobile threats, and mobile 
at-sea missilex support.

Instrumentation upgrades at Cherry Point: $530,000
    Provides support for coastal and ground threats and Beaufort TACTS 
tower support.

Civilian personnel support for TRS: $381,000
    Provides for civil service and contractor support at CINCLANTFLT 
and Eglin AFB for the TRS.

Mid Atlantic Electronic Warfare Range (MAEWR) and Cherry Point threat 
upgrades: $13.17 million
    Provides electronic threat emitters, mobile EW threat emitters, 
shipboard EW threat emitters, and communications/data links.

Other OPN upgrades: $6.839 million
    Provides funding for the installation of hyqrophones at Beaufort 
TACTS towers for Naval Surface Gunfire Support (NSFS) systems, and 
fixed and mobile land target acquisition.

    53. Senator Inhofe. Admiral Krol, does the Training Resources 
Strategy consider the use of the Atlantic Fleet Weapons Training 
Facility (Vieques range) in Puerto Rico for Navy training in fiscal 
year 2002?
    Admiral Krol. Yes.

    54. Senator Inhofe. Admiral Krol, does the Training Resources 
Strategy consider the use of the Atlantic Fleet Weapons Training 
Facility (Vieques range) in Puerto Rico for Navy training in the first 
and second quarters of fiscal year 2003?
    Admiral Krol. Yes.

    55. Senator Inhofe. Dr. Mayberry, on page three of your written 
statement you describe the importance of having a training range 
infrastructure that ``supports realistic, combined arms, force-on-force 
training for our military,'' and that this is important because 
``tomorrow's conflicts are likely to be short-notice, `come as you are' 
events, and we will need to fight joint and fight interoperable on a 
moment's notice.'' I couldn't agree with you more. In fact, I would 
suggest--and I know the CNO, the Commandant, and other warfighters 
agree--that Vieques fully supports joint operations under the most 
realistic conditions--the criteria that the Senior Readiness Oversight 
Council (SROC) has found deficient in other military ranges. What were 
the findings of the SROC with respect to Vieques? If the SROC did not 
evaluate Vieques, why not?
    Dr. Mayberry. The Department is committed to preserving the 
readiness and accessibility of the air, land, and sea test and training 
ranges that provide our forces with realistic, combined arms, force-on-
force training opportunities needed to execute our defense strategy. 
The SROC has addressed Vieques repeatedly in recent years. In September 
1999, the SROC evaluated the importance of Vieques to the training 
readiness of the Atlantic Fleet. In December 1999, the SROC highlighted 
the impact of continued non-availability of Vieques on deploying 
carrier battle groups and Marine amphibious ready groups. The SROC 
reviewed and approved the Navy's implementation of temporary 
workarounds to meet minimum Atlantic Fleet training requirements--
without access to Vieques. In May 2000, the Navy briefed the SROC on 
its experiences training the U.S.S. Eisenhower and U.S.S. George 
Washington carrier battle groups using alternate ranges. While the use 
of alternate sites achieved minimum training requirements for the Navy, 
limitations and training artificialities tremendously devalued training 
realism. Loss of the Vieques live-fire training area was addressed in 
several SROCs addressing encroachment of our test and training ranges. 
In June 2000, the SROC reviewed service readiness issues resulting from 
the encroachment of test and training ranges, and set direction for the 
development of a comprehensive, multi-faceted strategy for addressing 
these issues. The SROC approved a comprehensive strategy in November 
2000 and assigned appropriate responsibilities for its implementation. 
In January 2002, the SROC reviewed some administrative, legislative, 
and regulatory actions which would help preserve the sustainability of 
our test and training ranges.

    56. Senator Inhofe. Dr. Mayberry, if the Navy ends live-fire 
training at Vieques, have you considered what might be the implications 
for training ranges operated by the Navy and the other military 
services? What might they be?
    Dr. Mayberry. The important training opportunities that Vieques has 
provided our forces must be provided somewhere. Given Vieques' existing 
limitations and anticipated closing, the Navy and Marines have begun to 
conduct more of their training at other existing facilities. While we 
have not conducted live-fire training at Vieques for some time now, we 
continue to deploy ready battle groups and amphibious ready groups. The 
Navy and Marines are emphasizing the use of a variety of training 
ranges and operating areas in order to reduce reliance on a potential 
single point of failure during the Inter-deployment Training Cycle. 
This flexible approach should ensure access to necessary training, 
providing force readiness into the future.
    The impact at other range/operating area (OP AREA) complexes has 
been a small increase in the amount of live-fire activity they are 
being asked to support. The services and DOD will continue to evaluate 
how such changes in operations might impact the ranges and their 
surrounding communities, and will adapt accordingly. The Department's 
Sustainable Ranges Initiative is intended to ensure that, from here on 
out, we maintain needed access to important training and testing ranges 
and operating areas while sustaining the human and natural environment 
there.

                        AIR FORCE WEAPONS SCHOOL

    57. Senator Inhofe. General Wald, Major General L.D. Johnston, 
Commander of the U.S. Air Force Air Warfare Center at Nellis Air Force 
Base, testified before the House Armed Services Committee on the 
proficiency of students attending the Air Force Weapons School. He 
stated that the ``caliber of students . . . has decreased somewhat, as 
measured by student failure rates.'' General Johnston continued, ``This 
indicates a slow degradation of high quality combat training and 
experience levels over the years. Since 1991, our high deployment rates 
have reduced the amount of time aircrews have spent in realistic 
training, i.e., preparing for combat. Although per person `flying time' 
is approximately the same, a significant portion of that time has been 
spent conducting `no-fly' operations in Southwest Asia. There is an 
important distinction between flying time and range time. Operation 
Noble Eagle will have the same long-term effect.'' What are your 
thoughts on your colleague's comments? What is the relevancy of his 
comments when you are determining which units to deploy in support of 
commander in chief requirements?
    General Wald. Due to the type of flying required of aircrews in 
Southwest Asia and ONE, our crews are indeed flying at a comparatively 
slightly higher rate but with less mission-related training for a given 
sortie. In addition, less training has resulted in a shift toward a 
back-to-basics approach between deployments to ensure aviators continue 
to receive the most essential training to meet Commander in Chief 
(CINC) requirements. This has the effect of producing an aviator with 
the hours one might expect of a weapons school candidate, but not 
necessarily the experience level the school has seen in the past. When 
participating in the very demanding weapons school program these 
aviators may experience some difficulties and require additional 
training to meet standards, particularly if they attend the weapons 
school shortly after a long deployment. Nevertheless, our weapons 
instructor courses continue to produce enough graduates to meet the 
demands of the Combat Air Force (CAF) requirements. General Johnston's 
comments are relevant in determining not so much which units will 
deploy, but how the Air Force approaches the training of units to 
support CINC requirements in the face of reduced training 
opportunities. The Air Force carefully tracks pilot flying time and 
combat unit readiness and with very few exceptions our combat units are 
maintaining required readiness levels. In addition, the Air 
Expeditionary Force (AEF) construct provides the units approaching a 
deployment the opportunity to gain proficiency in the basic skills 
needed to perform the core-flying mission in support of the CINC. These 
efforts, and the provision of enablers such as flying hours and 
airspace availability, will remain critical to the Air Force's ability 
to deploy and employ weapons with unparalleled accuracy.

              IMPLEMENTING THE QUADRENNIAL DEFENSE REVIEW

    58. Senator Inhofe. General Wald, the QDR outlined several 
decisions by the Department that impact the services. Specifically, the 
QDR stated that, for the Air Force, requirements are to increase 
contingency basing in the Pacific and Indian oceans, as well as in the 
Arabian Gulf. The Air Force will also ensure sufficient en route 
infrastructure for refueling and logistics to support operations in the 
Arabian Gulf and Western Pacific areas. What is the progress within 
your department to implement these decisions?
    General Wald. The Air Force conducted regional contingency basing 
studies, and presented the results to the Deputy Secretary of Defense 
in March 2002. These results proposed basing options to project force 
into and sustain logistics through the Pacific and Persian Gulf 
regions.
    The recommended advanced basing concept supports a range of 
operations from small humanitarian relief operations (HUMRO) through 
sustained projection of combat forces to support the Secretary of 
Defense's four defense policy goals of: assuring allies and friends; 
dissuading future military competition; deterring threats and coercion 
against U.S. interests by developing and maintaining capability to 
swiftly defeat attacks; and if deterrence fails, decisively defeating 
any adversary. The concept also supports OSDs Theater Security 
Cooperation plans.
    We are currently conducting more detailed analysis to determine the 
costs, in general terms, of implementing some of the options. Planning 
for refueling and logistics infrastructure is critical to successful 
execution of contingencies in any region, and our studies include those 
considerations.
    After we identify the costs of implementing the options under 
consideration we'll be in a better position to recommend specific 
basing arrangements, recognizing that significant additional or 
alternative basing would require significant expenditures.

    59. Senator Inhofe. General Wald, what has been the impact of the 
war on terrorism on implementing these decisions?
    General Wald. The impact of the war on terrorism has been to 
highlight the need to engage countries well in advance of contingency 
operations, ensuring expeditious deployment and operations. As an 
expeditionary force, the war on terrorism has not hampered the Air 
Force's short notice, rapid commitment capability. We continue to move 
forward in implementing QDR and defense policy goals. We remain 
committed and capable of protecting and advancing U.S. national 
interests and, if deterrence fails, swiftly and decisively defeating 
threats to those interests.

    60. Senator Inhofe. General Wald, is the Air Force adequately 
resourced in the Future Years Defense Program to implement these 
decisions?
    General Wald. Because the Air Force is in the process of building 
the fiscal year 2004 to 2009 Future Years Defense Program (FYDP), it is 
difficult to answer whether or not the Air Force is adequately 
resourced over the FYDP to increase its contingency basing in the 
Pacific, Indian Ocean, and Arabian Gulf. The Air Force is currently 
conducting a cost analysis of the various options for basing in those 
regions.
    After clarifying costs for selected contingency basing options, the 
Air Force will be able to better determine whether resources will meet 
requirements in this important area. Once specific basing and 
infrastructure requirements have been identified and validated by the 
appropriate commander in chief commands, the Air Force will fully 
assess resources to implement changes to our posture. While it is 
almost certain that a new basing posture would require significant 
resources, these new requirements will compete for funding later this 
year as part of the normal budget development process.
    Tide the on-going war against terrorism has impacted resources and 
Air Force contingency basing. The nature of the war on terrorism has 
put a new, even higher premium on the value of expeditionary forces 
that are readily employable and expeditionary basing that is readily 
available. This has been a resource challenge in terms of normal budget 
cycles, but one that with Congress' help we have been meeting 
adequately.

    61. Senator Inhofe. General McKiernan, the QDR outlined several 
decisions by the Department that impact the services. Specifically, the 
QDR stated that the Army will accelerate the introduction of the 
forward-stationed Interim Brigade Combat Teams (IBCTs) to strengthen 
deterrence and improve U.S. strategic responsiveness on a global basis. 
What is the progress within your department to implement this decision? 
What has been the impact of the war on terrorism on implementing this 
decision? Is the Army adequately resource in the Future Years Defense 
Program to implement this decision?
    General McKiernan. Defense plans for fiscal years 2003-2008 tasked 
the Army to conduct a study and develop a plan to station an IBCT in 
Europe by the end of 2007. On February 20, the Army Chief of Staff 
briefed the Deputy Secretary of Defense on the study's findings and 
provided OSD USD-P with a report on March 1, 2002. The Army fully 
funded the fielding of six IBCTs, and is currently waiting for the 
publication of the fiscal years 2004-2009 defense plans to determine if 
programming an IBCT in Europe is required. Currently, the Army has not 
funded an IBCT in Europe. With respect to the war on terrorism, the 
Army initiated several studies analyzing lessons learned from Operation 
Enduring Freedom and impacts from the global war on terrorism. It is 
too early to say what impact these lessons will have on the fielding of 
the IBCTs, but the Army will closely examine the results of these 
studies and determine what impacts, if any, there are.

    62. Senator Inhofe. Admiral Krol, the QDR outlined several 
decisions by the Department that impact the services. Specifically, the 
QDR stated that the Navy will increase aircraft carrier battlegroup 
presence in the Western Pacific and will explore options for 
homeporting an additional three to four surface combatants and guided 
cruise missile submarines in that area. What is the progress within 
your department to implement these decisions?
    Admiral Krol. Carrier Battlegroup presence: Prior to September 11, 
the Navy began building the long-range carrier schedule to meet the 
additional requirement in the Western Pacific. The global war on 
terrorism required Navy to modify the carrier battlegroup deployment 
schedule to meet the emerging operational requirements. We continue to 
develop long-range schedules that will meet the operational 
requirements.
    Homeporting three to four surface combatants in the Western 
Pacific: The Navy staff conducted an extensive study as directed by the 
fiscal year 2003-2007 Defense Planning Guidance (DPG) on homeporting 
three to four TBMD-capable surface combatants in the Western Pacific. 
The study concluded that the only feasible locations would be Japan and 
Guam. With respect to Japan, there is no excess available to increase 
the overall presence. Guam is capable of homeporting the additional 
ships. However, the cost of $750 million required to facilitate the 
additional ships may not be cost effective for the additional presence 
gained. The Navy is though in the process of home porting three attack 
submarines in Guam. The first two ships will arrive later this fall 
with the third SSN to arrive in calendar year 2003.
    Homeporting Guided Missile Submarines (SSGN) in the Western 
Pacific: The Navy also conducted a DPG-directed study on the 
homeporting of the SSGNs once they reach Initial Operating Capability 
(IOC). START I limits SSGN homeport alternatives to Bangor, Kings Bay, 
and Guam. Final homeport decision will be made prior to SSGN IOC in 
fiscal year 2007.

    63. Senator Inhofe. Admiral Krol, what has been the impact of the 
war on terrorism on implementing these decisions?
    Admiral Krol. As stated above, the decision to increase the overall 
presence in the Western Pacific has been impacted by the war on 
terrorism. The ability to homeport additional surface combatants and 
SSGN in the Western Pacific will not be directly impacted by the war. 
The decision to execute those decisions will be impacted by the other 
issues addressed above.

    64. Senator Inhofe. Admiral Krol, is the Navy adequately resourced 
in the Future Years Defense Program to implement these decisions?
    Admiral Krol. Carrier Battlegroup presence: Assuming that the 
global war on terrorism will not permanently change the carrier 
battlegroup deployment schedule, the Navy is adequately resourced in 
the FYDP to implement this decision. The Navy will be able to complete 
the development of the long-range carrier schedule begun prior to 
September 11.
    Homeporting three to four surface combatants in the Western 
Pacific: This study concluded that there were only two feasible 
locations to homeport three to four TBMD combatants--Japan and Guam. 
With respect to Japan, there is no excess availability to increase 
overall presence. Guam is capable of homeporting the additional ships, 
but there is a $750 million cost required to facilitate the additional 
ships. No decision has been made. There are no funds in the FYDP to 
implement this initiative.
    Homeporting Guided Missile Submarines (SSGN): This study is still 
ongoing. A decision will be made prior to SSGN IOC in fiscal year 2007. 
There are no funds in the FYDP to implement this initiative.

    65. Senator Inhofe. Admiral Krol, will implementing the direction 
from the Department require a modification/change to the Global Naval 
Forces Presence Policy?
    Admiral Krol. Inherent strengths of naval forces are that they are 
maneuverable, flexible, sustainable, and combat credible with little or 
no outside support. The Current GNFPP policy that identifies peacetime 
presence requirements and the apportionment of the force to meet those 
requirements has been adjusted, and GNFPP schedules will continue to be 
modified to meet the emerging operational requirements and to meet 
future operational requirements.

                           TRAINING RESOURCES

    66. Senator Inhofe. The Army has budgeted training for 10 rotations 
at the National Training Center (NTC) in fiscal year 2003. However, the 
commanding officer of the NTC has testified that the unavailability of 
strategic lift this year has had a significant impact on the quality of 
training being conducted at the NTC. He said, ``Two training rotations 
have not deployed their AH-64 attack helicopter units due to non-
availability of C17/C5 airlift.'' Given the pace of current operations, 
will the Army be able to accommodate shortfalls in training resources, 
such as strategic lift, in order to conduct all of the planned 
rotations in fiscal year 2003 to the required standard?
    General McKiernan. The Army is closely monitoring the ability to 
conduct fiscal year 2003 Combat Training Center (CTC) rotations. 
Currently, the CTC program is funded at 84 percent of validated 
requirements but at 100 percent of requirements considered critical. 
This is sufficient to conduct rotations to standard, but will require 
deferment of some program support and CTC sustainment projects.
    Real world operations will continue to impact the availability of 
strategic lift, especially airlift. This has an impact on the ability 
to move rotary wing aviation assets, such as the AH-64, from some 
Continental United States locations (such as Fort Stewart, Fort Bragg, 
and Fort Campbell) to the NTC. Regardless of strategic lift 
availability, the training for the ground maneuver brigades will 
continue to standard, but with potential diminished fidelity for air-
ground coordination and Army Airspace Command and Control (A2C2).

                   TRAINING AT FARALLON DE MEDINILLA

    67. Senator Inhofe. Admiral Krol, the Center for Biological 
Diversity (CBD), an environmental group based in New Mexico, filed suit 
in Federal district court in the District of Columbia on December 21, 
2000, against the Secretaries of Defense and Navy alleging that use of 
Farallon de Medinilla (FDM) by the Navy, Marine Corps, and Air Force as 
a live-fire training range violates the Migratory Bird Treaty Act 
(MBTA). The CBD asserted that the Navy never obtained a permit under 
the MBTA for the unintended killing or harming of migratory birds on 
FDM (the original permit request was denied by the Fish and Wildlife 
Service). The CBD also asserts that, pending issuance of a valid 
permit, the Navy should be enjoined from conducting future training 
exercises at FDM. Recently, the court concluded that the Navy had 
violated the MBTA and requested further briefs on whether an injunction 
is the appropriate remedy. FDM is the only air-to-ground target range 
under the control of the United States in the Western Pacific. 
According to the CINC of the U.S. Seventh Fleet, readiness would 
deteriorate to unacceptable levels within 6 months without a 
replacement for FDM. If the Department of Defense is ordered to stop 
training at FDM, how will this impact readiness? Do you agree with the 
assessment of the Seventh Fleet CINC? Is there a need for legislative 
relief?
    Admiral Krol. Both the Navy and the Air Force use Farallon de 
Medinilla (FDM), a small (about one-third square mile), uninhabited 
island in the Commonwealth of the Northern Mariana Islands (CNMI), as a 
bombing range. The island, leased from CNMI, is the only U.S.-
controlled live-fire range in the Western Pacific and is currently in 
daily use as various units train for the war against terror. Because 
the island was inhabited by an endangered bird species, the Navy took 
extensive steps to protect that species by clearing another island of 
predators so the species could establish itself there. At the same 
time, the Navy carefully delineated the safest locations for targets 
and prohibited incendiary and carpet bombing by the Air Force on FDM, 
which principally protected migratory birds that use the island. The 
training at FDM has been further modified by reducing aircraft 
altitudes and dispersing birds with a low altitude flight before each 
sortie. To monitor the effects of military use of FDM, the CINC of the 
Pacific Fleet staff sends a biologist to the island monthly. 
Notwithstanding these costly measures, which reduce the effectiveness 
of training, the Navy has been sued by the Center For Biological 
Diversity, which demands that the Navy cease use of the island because 
the Navy does not have a permit under the Migratory Bird Treaty Act 
(MBTA) for any takes of migratory birds. The Navy sought such a permit 
from the USFWS, but was denied, because permits are not available for 
incidental (unintended) takes. Loss of use of this island would have a 
severe impact on training for Naval forces stationed in the Western 
Pacific and on Air Force long-range bomber training.

    [Whereupon, at 11:34 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
